<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                  DEPARTMENTS OF LABOR, HEALTH AND HUMAN
                SERVICES, EDUCATION, AND RELATED AGENCIES
                         APPROPRIATIONS FOR 2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                         ____________________

    SUBCOMMITTEE ON LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND 
                            RELATED AGENCIES

                 ROSA L. DeLAURO, Connecticut, Chairwoman
                 

  LUCILLE ROYBAL-ALLARD, California          TOM COLE, Oklahoma
  BARBARA LEE, California                    ANDY HARRIS, Maryland
  MARK POCAN, Wisconsin                      JAIME HERRERA BEUTLER, Washington
  KATHERINE M. CLARK, Massachusetts          JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida                      TOM GRAVES, Georgia
  CHERI BUSTOS, Illinois
  BONNIE WATSON COLEMAN, New Jersey
  
  
  

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

      Robin Juliano, Stephen Steigleder, Jared Bass, Jennifer Cama,
      Jaclyn Kilroy, Laurie Mignone, Philip Tizzani, and Brad Allen
                            Subcommittee Staff

                             ____________

                                  PART 5

                                                                   Page
  Department of Health and Human 
Services..........................................................   1                                                                             
  Department of Education Budget Request 
for
Fiscal Year 2020.................................................. 101
                                                                    
  National Institutes of Health Budget 
Request for Fiscal Year 2020...................................... 233
                                                                    
  Department of Labor Budget Request for
Fiscal Year 2020.................................................. 333
                                                                    

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                

                             ____________

          Printed for the use of the Committee on Appropriations





                                 Part 5

                                  DHHS

                                  DEBR

                                 NIHBR

                                  DLBR
                                  
                                  
                                  

      DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION,

              AND RELATED AGENCIES APPROPRIATIONS FOR 2020
              
              
              
              
              
              




                  DEPARTMENTS OF LABOR, HEALTH AND HUMAN
                SERVICES, EDUCATION, AND RELATED AGENCIES
                         APPROPRIATIONS FOR 2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                              ____________

    SUBCOMMITTEE ON LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND 
                            RELATED AGENCIES

                 ROSA L. DeLAURO, Connecticut, Chairwoman

  LUCILLE ROYBAL-ALLARD, California           TOM COLE, Oklahoma
  BARBARA LEE, California                     ANDY HARRIS, Maryland
  MARK POCAN, Wisconsin                       JAIME HERRERA BEUTLER, Washington
  KATHERINE M. CLARK, Massachusetts           JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida                       TOM GRAVES, Georgia
  CHERI BUSTOS, Illinois
  BONNIE WATSON COLEMAN, New Jersey 
  
  
  
  

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

      Robin Juliano, Stephen Steigleder, Jared Bass, Jennifer Cama,
      Jaclyn Kilroy, Laurie Mignone, Philip Tizzani, and Brad Allen
                            Subcommittee Staff

                                  _____
                                  
                                  PART 5

                                                                   Page
  Department of Health and Human 
Services........................................................... 1
                                                                      
  Department of Education Budget Request 
for
Fiscal Year 2020................................................... 101
                                                                   
  National Institutes of Health Budget 
Request for Fiscal Year 2020....................................... 233
                                                                   
  Department of Labor Budget Request for
Fiscal Year 2020................................................... 333

                                                                   

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                

                          __________

          Printed for the use of the Committee on Appropriations
          

                    U.S. GOVERNMENT PUBLISHING OFFICE

  37-623                    WASHINGTON : 2019

                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio                       KAY GRANGER, Texas
  PETER J. VISCLOSKY, Indiana              HAROLD ROGERS, Kentucky
  JOSE E. SERRANO, New York                ROBERT B. ADERHOLT, Alabama
  ROSA L. DeLAURO, Connecticut             MICHAEL K. SIMPSON, Idaho
  DAVID E. PRICE, North Carolina           JOHN R. CARTER, Texas
  LUCILLE ROYBAL-ALLARD, California        KEN CALVERT, California
  SANFORD D. BISHOP, Jr., Georgia          TOM COLE, Oklahoma
  BARBARA LEE, California                  MARIO DIAZ-BALART, Florida
  BETTY McCOLLUM, Minnesota                TOM GRAVES, Georgia
  TIM RYAN, Ohio                           STEVE WOMACK, Arkansas
  C. A. DUTCH RUPPERSBERGER, Maryland      JEFF FORTENBERRY, Nebraska
  DEBBIE WASSERMAN SCHULTZ, Florida        CHUCK FLEISCHMANN, Tennessee
  HENRY CUELLAR, Texas                     JAIME HERRERA BEUTLER, Washington
  CHELLIE PINGREE, Maine                   DAVID P. JOYCE, Ohio
  MIKE QUIGLEY, Illinois                   ANDY HARRIS, Maryland
  DEREK KILMER, Washington                 MARTHA ROBY, Alabama
  MATT CARTWRIGHT, Pennsylvania            MARK E. AMODEI, Nevada
  GRACE MENG, New York                     CHRIS STEWART, Utah
  MARK POCAN, Wisconsin                    STEVEN M. PALAZZO, Mississippi
  KATHERINE M. CLARK, Massachusetts        DAN NEWHOUSE, Washington
  PETE AGUILAR, California                 JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida                    JOHN H. RUTHERFORD, Florida
  CHERI BUSTOS, Illinois                   WILL HURD, Texas
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii       
  
  
  
  
  
  
                 Shalanda Young, Clerk and Staff Director

                                   (ii)

 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2020

                              ----------                              


                                         Wednesday, March 13, 2019.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                WITNESS

HON. ALEX AZAR, SECRETARY, UNITED STATES DEPARTMENT OF HEALTH AND HUMAN 
    SERVICES
    Ms. DeLauro [presiding]. Good afternoon, Secretary Azar, 
and welcome. Welcome to the subcommittee. This is our first 
budget hearing of the year. However, I think you probably do 
know that it is our fourth hearing on programs related to the 
Department of Health and Human Services.
    First, what we did at the first hearing is we examined the 
Administration's intentional policy choices, in my view, to 
undermine the Affordable Care Act. These were policies that 
have raised prices for Americans already struggling with 
skyrocketing healthcare costs. We examined the policies 
specifically with regard to affordability, the increasing 
number of uninsured, and the quality of benefits that are 
available to people. And honestly, the President's budget makes 
clear that the Administration has not abandoned its attacks on 
the Affordable Care Act or protections for those with 
preexisting conditions, and providing them with what I view as 
junk insurance plans.
    We also held an oversight hearing on the Unaccompanied 
Children Program, a manufactured crisis of policy. Over the 
past 2 years, this Administration has separated thousands of 
children from their parents, and we continue to hear reports of 
family separation still occurring despite a judge's order to 
stop it. We are learning that it may have started earlier than 
previously known, in July of 2017. The Administration may have 
separated thousands more children before Congress and the 
public learned of this immoral policy.
    And as I have said repeatedly, I believe separating 
children from their parents is government-sponsored child 
abuse, and HHS is complicit. The memorandum of agreement 
between HHS and the epartment of Homeland Security since last 
April has turned HHS into a de facto extension of ICE. As a 
result, children are languishing in custody, inflicting mental 
and physical trauma, all at considerable costs to the taxpayer. 
We know based on legal precedent that separation as a 
deterrence policy is illegal.
    HHS needs to return the Unaccompanied Children Program to 
its core mission of taking care of vulnerable children and 
placing them with sponsors rather than being an immigration 
enforcement agency. We have to understand how this happened, 
why it happened. Who is responsible? Is it happening now? What 
has been the impact on children? What are its long-term 
consequences, including mental health and trauma? How do we 
stop this? How do we fix it? What are the resources that are 
necessary? I am more than willing to provide resources. What I 
cannot do is to condone policies that put children at grave 
risk at considerable cost to taxpayers, especially when there 
hasn't been any real accountability. We cannot throw good money 
after bad.
    I want everyone to know that we plan to hold additional 
hearings on the Unaccompanied Children Program, and we expect 
HHS to send the senior officials who were in charge at the time 
of the family separation policy. That includes the former 
acting assistant secretary for administration for children and 
families, and the former director of the Office of Refugee 
Resettlement. We need to question those individuals who 
directly implemented these policies, senior officials that have 
twisted and perverted the mission of the Department of Health 
and Human Services.
    Finally, last week we held a hearing on gun violence 
prevention research. Gun violence is a public health emergency. 
In 2017 alone, guns killed nearly 40,000 Americans. That same 
year, opioid overdoses killed 47,000 Americans. We have 
dedicated immense public dollars, especially in this 
subcommittee, to addressing and examining one but not the 
other.
    And suicides by firearms accounted for nearly 24,000 deaths 
in 2017 and is an epidemic in our veteran community. They are 
twice as likely to die by suicide as a general population, and 
two-thirds of those veterans who died used a gun. Last week 
President Trump announced an executive order, a Road Map to 
Empower Veterans and End a National Tragedy of Suicide. It 
establishes a task force that includes the VA, Defense, HHS, 
and Homeland Security. CDC, the Centers for Disease Control and 
Prevention, must be involved because it is our foremost public 
health agency.
    Let me also touch on the barrage of attacks on Title 10, 
the program which ensures that people have access to 
reproductive healthcare. I want to note my strong opposition to 
the Administration's proposed changes to Title 10. That 
includes the Trump Administration's domestic gag rule. It would 
ban any healthcare provider from receiving Title 10 funding if 
they even talk about abortion or abortion-related services with 
their patients.
    Mr. Secretary, yesterday, as I understand it, you made a 
comment at the House Energy and Commerce Committee that I would 
like to address. You said, ``Title 10 subsidizes abortions.'' 
That is inaccurate. It flies in the face of decades of Federal 
law with regard to the Hyde Amendment, and it is simply not 
true. So I want to correct the record. We will continue to 
oppose these attacks on Title 10 funding.
    Now, let me turn to the 2020 President's budget for the 
DHHS. I am encouraged by the Administration's HIV initiative 
and the request for additional HIV funding in the Health 
Resources and Services Administration and the Centers for 
Disease Control and Prevention. At the same time, I strongly 
opposed the President's proposed cuts to the National 
Institutes of Health HIV research portfolio, and the CDC Global 
AIDS Program and to PEPFAR, which I will note was a priority 
of, Secretary Azar, your former boss, President George W. Bush. 
And along with deep cuts to Medicaid and the proposed repeal of 
the Affordable Care Act, these reductions will be 
counterproductive to the goal of reducing HIV infections.
    So despite a few areas that appear to be bright spots, 
including your efforts with regards to pediatric cancer, I 
think we need to take a hard look at the budget because of its 
deep cuts. Many of these budget proposals are retreads of bad 
ideas that Congress has already rejected on a bipartisan basis. 
The Administration is not shy about spending, of course, 
including its $1.5 trillion tax law that was rigged for 
corporations and for the richest Americans. No, the 
Administration opposes spending when it aids the vulnerable, 
when it promotes the common good, or when it makes opportunity 
real for people.
    Your budget proposes to cut HHS agencies under the purview 
of this subcommittee by $12,700,000 billion. It is a 14 percent 
cut. It cuts NIH research by $5,000,000,000, as I mentioned. It 
cuts the Centers for Disease Control and Prevention by 
$750,000,000. That includes cuts to lead poisoning prevention, 
food safety, laboratory capacity, and dozens of others. It cuts 
$1,000,000,000 from HRSA, including hundreds of millions from 
programs to train low-income and minority populations for 
careers in the health profession, like nursing, and eliminates 
the Low-Income Home Energy Assistance Program. LIHEAP helps 
low-income households, predominantly elderly households, in 
cold northern States to heat their homes in the winter months, 
and low-income elderly households in the hot southern States to 
cool their homes in the scorching summer months.
    Let me also touch base on the cuts on the mandatory side as 
well because, again, it is important that we are looking at 
this in totality. The President's budget cuts mission-directed 
reassignment by $845,000,000,000. It cuts the Supplemental 
Nutrition Assistance Program, the SNAP Program, by more than 
$20,000,000,000 per year. It cuts Temporary Assistance for 
Needy Families, TANAF, by more than $2,000,000,000 per year. It 
eliminates the Social Services Block Grant, cutting 
$1,700,000,000 per year. And it advances another Republican 
repeal and replace plan, known as Graham-Cassidy-Johnson, that 
would undermine strong existing protections for Americans with 
preexisting conditions. And there is a cut of 
$1,000,000,000,000 of Medicaid coverage for Americans with 
disabilities or who are struggling to overcome an opioid 
addiction.
    But areas you identify as priorities are those which the 
committee has previously funded, including $50,000,000 to 
address the national crisis of maternal mortality, a 
``priority'' of yours that you have level funded. We passed 
this increase in 2019. It appears the Administration's 
priorities are not areas that you support. They are the areas 
that you spare.
    It is the obligation of this subcommittee to ensure that 
the middle class, working families, and low-income families are 
not harmed by reckless cuts. We will reject these cuts to 
health programs, medical research, public health, home heating 
assistance, and so many others. Instead, we are going to invest 
in health, education, and protections for the middle class.
    Mr. Secretary, I look forward to finding out whether you 
support these reckless cuts, and I truly hope not. Thank you, 
and I look forward to the discussion. And now I would like to 
yield to the ranking member of this subcommittee, my colleague 
and my friend, Congressman Cole.
    Mr. Cole. Thank you very much, Madam Chair. Good morning, 
Mr. Secretary, or good afternoon I should say. You can tell 
this testimony is a little bit out of date I guess. I look 
forward to hearing from you today. As I was looking over the 
budget documents released this week, I was struck by one fact 
that I want to point out to those who may be watching us. Your 
Agency is responsible for over $1,000,000,000,000 of budget 
outlays each year. That is almost a quarter of the entire 
Federal budget and larger than the Department of Defense. It is 
an incredible range, reach, and responsibility that we have and 
the President has placed in your control. Yet discretionary 
spending, which this subcommittee controls and oversees, makes 
up only about 8 percent of those total outlays.
    The cuts proposed in your budget this year are deep, and I 
believe several, in my view, are shortsighted. You simply 
cannot balance our national budget by chipping away at 8 
percent of total spending. We have to look, in my view, for 
broader entitlement reform to achieve those larger goals. While 
small compared to your total outlays, the discretionary 
component of your budget that we are going to talk about today 
plays an important role in our country and literally touches 
the lives of every American.
    For example, the research conducted at the National 
Institutes of Health has unlocked the human genome and holds 
the promise for cures for cancer and treatments for diseases 
that were thought to be untreatable just a few decades ago. As 
my chair knows, we have worked together in a bipartisan manner 
and with the other body over the last 4 years to make steady, 
solid growth in the NIH budget. And that process has not been a 
one-time infusion that might spend a lot of money, but not be 
sustainable, but a responsible, steady investment that will 
attract bright young researchers and assure them that Congress 
is serious about continuing our investments in biomedical 
research. I believe this process of steady, sustained 
inflation-plus increases is necessary to build the biomedical 
infrastructure we will need going forward, and which I think, 
frankly, may help us with some of those entitlement problems 
down the road.
    A cut of $5,000,000,000, as the budget proposes, would 
reverse this trend and send the wrong signals to young 
scientists. I know the budget numbers were not of your own 
making, and I know you have worked hard to advocate for your 
Agency with OMB. You are the President's appointee, and it is 
certainly your job to defend the President's budget, and I want 
you to know I certainly recognize and accept that. However, the 
final result is something that I hope this Congress will not 
adopt in those particular areas, and I believe we won't.
    I also think that the CDC cut of $1,300,000,000 is 
literally a risky mistake. You know, we spend, and the 
President I think rightfully proposed a very substantial amount 
of money for Defense. I consider this every bit as much as 
Defense budget as anything as DOD. I mean, as I have said on 
many, many occasions, we are much more likely to die in 
pandemics than in terrorist attacks. So this is really the 
front line of defense, I think, for the American people. And in 
an era of Ebola and Zika and goodness knows what else, I think 
this is not a place that we want to be reducing spending.
    I do want to commend you for your investment in programs 
that protect our Nation against bioterror and certain pandemic 
events. The Strategic National Stockpile, BARDA, Project 
Bioshield, the Infectious Disease Rapid Reserve Fund, are all 
either level funded or increased, and I think this is a wise 
decision on your part. Our country needs to be ready to respond 
to any event to protect our people.
    And there are many other parts of your budget I am also 
pleased with. I particularly am pleased with the reforms you 
have made in the individual insurance market. I particularly 
favor the efforts you have made to lower the costs of 
prescription drugs. I think they are already having an impact. 
I think the statistics suggest that. I very much, like the 
chair, favor your initiative to end the HIV epidemic in 
America, and I am particularly pleased, even though it is not 
this subcommittee's jurisdiction, some of the moves that you 
have made in one of the more troubled agencies that you 
supervise, the Indian Health Service, and the additional funds 
there, I think, you know, are gratefully received, and, 
frankly, I think the new leadership there that you have put 
into place will do a good job as well.
    In addition to your numerous responsibilities, you also 
have to respond to the humanitarian crisis on the southern 
border. You are responsible for the care of thousands of 
unaccompanied children who continue to stream across our 
southern border. I look forward to hearing from you today about 
how your Agency resources have been strained by your 
responsibility to care for every child that comes to you from 
the Department of Homeland Security, an important thing that 
can't be emphasized too much. I think you were given the 
challenge of dealing with these children. You are not 
responsible for their apprehension or the decisions that were 
initially made in that regard.
    I want to thank you for the commitment you have made to 
helping ensure each child is kept safe, healthy, and is placed 
with a sponsor in a stable home as quickly as possible while 
they await immigration proceedings in our country.
    Finally, I want to personally thank you for the efforts you 
have undertaken in your Agency to protect the life of innocent 
children. I support your efforts to align the Title 10 Family 
Planning Program with current law, and ensure a separation 
between family planning services and abortion. I support your 
efforts to allow for the free exercise of conscience in health 
insurance coverage. I support your efforts to enforce existing 
law with respect to taxpayer funding of services, such as 
abortion, that many Americans feel are morally objectionable.
    Again, I look very much forward to your testimony, and I 
want to again thank you. I have had the good fortune in this 
job to work with really some excellent people in your capacity. 
I really believe you are the best, and I think that the 
President made a very wise decision when he chose you have more 
than sustained and demonstrated that it was a good decision and 
sustained his confidence in you. So I look forward to working 
with you going forward.
    With that, Madam Chair, I yield back my time.
    Ms. DeLauro. I thank the gentleman and recognize the chair 
of the Appropriations Committee, my colleague, the gentlelady 
from New York, Congressman Nita Lowey.
    The Chairwoman. Thank you, Chairwoman DeLauro. Honorable 
Alex Azar, I welcome you, and I thank Chairwoman DeLauro and 
Ranking Member Cole for holding this hearing, and I look 
forward to having a serious discussion about many of these 
issues which are so serious and where we may have difference of 
opinion, different opinions.
    Secretary Azar, you come before us with a budget that is 
both incomplete and is an attack on public health. I am 
concerned that your budget would lead to a weakened public 
health system that cannot come close to meeting the needs of 
the public. For example, a year after an estimated 80,000 
Americans died from the flu, your budget would cut funding for 
CDC's immunization activities by $78,000,000. On one hand, 
President Trump pretends he believes in deficits and proposes 
cutting $2,000,000,000,000 from Medicare and Medicaid, yet your 
budget would slash funding for CDC's Center for Chronic Disease 
Prevention by a whopping $237,000,000, even though investing in 
the prevention of chronic health illness is one of the best 
long-term fiscal decisions we can make.
    It would also cut the NIH by 13 percent. I really find it 
hard to believe because as you heard from former Chairman Cole, 
this has been a bipartisan effort as far as back as I can 
remember. And I even remember when a Republican member of this 
committee doubled the money at the NIH. So to cut the NIH by 13 
percent, reducing our ability to develop cures for debilitating 
diseases, and harming the ability of our first-rate scientists 
to compete against foreign research initiatives, and it would 
leave people most in need quite literally out in the cold by 
eliminating LIHEAP's heating assistance programs.
    There are so many cuts, too many cuts to name, but I am 
just going to mention a few more that are particularly 
egregious. The proposed elimination of pre-school development 
grants, particularly at a time when millions of families are in 
need of quality, affordable early education, and proposed 
reductions in the health training workforce. Both would come at 
a cost to hardworking families who need good jobs and 
affordable childcare to make ends meet. I really can't 
understand that at all. I am such a supporter of these 
programs, and my three children, my eight grandchildren 
benefitted from those. So I can't possibly understand how you 
would want to eliminate preschool development grants.
    And the proposed elimination of the Teen Pregnancy 
Prevention Program is quite perplexing. By the way, I don't 
know if you know the history, but I was a chair, co-chair of 
the Teen Pregnancy Task Force. It was bipartisan. It is an 
issue we are focused on, Democrats and Republicans. So I don't 
know why you want to eliminate it. I would be interested in 
knowing.
    If a budget is a reflection of our values, it is very clear 
that President Trump's values--building a wall that he said 
Mexico would pay for--more than investing in our public health 
and workforce, this is all very puzzling. So I hope your 
testimony will address these deep concerns about this proposed 
budget. Thank you for appearing here today.
    Ms. DeLauro. Thank you, Mr. Secretary. Welcome once again, 
and we appreciate your being here. Your full written testimony 
will be entered into the record, and you are now recognized for 
5 minutes.
    Secretary Azar. Chairwomen Lowey and DeLauro, and Ranking 
Member Cole, thank you very much for inviting me to discuss the 
President's budget for Fiscal Year 2020. It is an honor to have 
spent the year since I last appeared before this committee 
leading the Department of Health and Human Services.
    The men and women of HHS have delivered remarkable results 
since then, including record new and generic drug approvals, 
new affordable health insurance options, and signs that the 
trend in drug overdose deaths is beginning to flatten and 
decline. The budget proposes $87,100,000,000 in Fiscal Year 
2020 discretionary spending for HHS, while moving toward our 
vision for a healthcare system that puts American patients 
first. It is important note that HHS had the largest 
discretionary budget of any non-defense department in 2018, 
which means that staying within the caps set by Congress has 
required difficult choices that I am sure many will find quite 
hard to countenance.
    Today I want to highlight how the President's budget 
supports a number of important goals for HHS. First, the budget 
proposes reforms to help deliver Americans truly patient-
centered, affordable healthcare. The budget would empower 
States to create personalized healthcare options that put you 
as the American patient in control and ensure you are treated 
like a human being, not a number. Flexibilities in the budget 
would make this possible while promoting fiscal responsibility 
and maintaining protections for people with preexisting 
conditions.
    Second, the budget strengthens Medicare to help secure our 
promise to America's seniors. The budget extends the solvency 
of the Medicare Trust Fund for 8 years while the program's 
budget will still grow at a 6.9 percent annual rate in three 
major ways. The budget lowers costs for seniors and tackles 
special interests that are currently taking advantage of the 
Medicare Program. First, we are proposing changes to discourage 
hospitals from acquiring smaller practices just to charge 
Medicare more. Second, we address overpayments to post-acute 
providers. Third, we will take on drug companies that are 
profiting off of seniors and Medicare. Through a historic 
modernization of Medicare Part D, we will lower seniors' out-
of-pocket costs and create incentives for lower list prices. I 
want to note that I believe there are many areas of common 
ground on drug pricing where we can work together to pass 
bipartisan legislation to help the American people.
    We also protect seniors by transferring funding for 
graduate medical education and uncompensated care from Medicare 
to the General Treasury Fund so all taxpayers, not just our 
seniors, share these costs. Finally, the budget fully supports 
HHS' 5-point strategy for the opioid epidemic: better access to 
prevention, treatment, and recovery services; better targeting 
the availability of overdose-reversing drugs; better data on 
the epidemic; better research on pain and addiction; and better 
pain management practices. The budget builds on appropriations 
made by this committee and provides $4,800,000,000 towards 
these efforts, including the $1,000,000,000 State Opioid 
Response Program, which we focused on access to medication-
assisted treatment, behavioral support, and recovery services.
    The budget also invests in other public health priorities, 
including fighting infectious disease at home and abroad. It 
proposes $291,000,000 in funding for the first year of 
President Trump's plan to use the effective treatment and 
prevention tools we have today to end the HIV epidemic in 
America by 2030.
    I also want to highlight a public health announcement from 
HHS. Today, with my full support, FDA is advancing new policies 
designed to dramatically limit the ability of kids to access 
flavored tobacco products, and e-cigarettes in particular. FDA 
is proposing to end the current compliance policy as it applies 
to certain flavored e-cigarettes or electronic nicotine 
delivery system products, meaning these products would face FDA 
enforcement if sold without authorization.
    FDA proposes to prioritize enforcement based on criteria 
aimed at reducing the access and appeal of these products to 
kids, such as sale of these products in circumstances without 
heightened age verification or where they are targeted to 
minors. HHS supports a comprehensive balanced policy to close 
the on ramp for kids to become addicted to nicotine through e-
cigarettes, while allowing for the promise of an off ramp for 
adult smokers.
    I want to conclude by saying that this year's budget will 
advance American healthcare and help deliver on the promises we 
have made to the American people, and I look forward to working 
with this committee on our shared priorities. And I look 
forward to your questions today. So thank you, Chairwoman.
    Ms. DeLauro. Thank you, Mr. Secretary. I am going to try to 
get a whole bunch of questions in, and so some of them may be 
absolutely yes or no, and please understand that because there 
is a time commitment here, and we have a full complement of 
folks here today.
    This is with regard to unaccompanied children. Mr. 
Secretary, when did you personally learn that DHS was 
implementing separation? I need a quick answer.
    Secretary Azar. Well, there is not a quick answer, so we 
have to do it in writing, or I can give it to you.
    Ms. DeLauro. Okay.
    Secretary Azar. So I learned when others did in April when 
the attorney general announced that he was going to pursue zero 
tolerance. And then when the attorney general announced on May 
7th that he was implementing zero tolerance and the 100 percent 
referral policy around that time, I would have been aware of 
those. But in all candor, I did not connect the dots at that 
point to the full implications and operational challenges that 
were----
    Ms. DeLauro. I understand----
    Secretary Azar [continuing]. In terms of children for our 
program.
    Ms. DeLauro. Mr. Secretary, when did you learn that 
Commander Johnson, why it was warning Scott Lloyd, Steve 
Wagner, and Maggie Wynn as early as March 2017 that capacity 
issues would become a problem if DHS moved forward with family 
separation?
    Secretary Azar. I would have learned of those about when 
you did. I don't exactly when, but essentially when they would 
have come out in the course of testimony, I believe.
    Ms. DeLauro. Okay. Yes or no, if ORR would have prepared 
for the influx, would it have spared thousands of children from 
what you referred to yesterday as ``significant child welfare 
issues?''
    Secretary Azar. We were on the receiving end. We didn't 
decide the policy to implement zero tolerance, so.
    Ms. DeLauro. I understand that. I understand that. But 
apparently you were all warned as early March 2017 that there 
was a capacity issue, and that that, in fact, was ignored. Yes 
or no, do these officials--Scott Lloyd, Steve Wagner, Maggie 
Wynn--still work in senior positions at HHS?
    Secretary Azar. They work in positions at HHS, but none of 
them are directly in the ORR Program anymore.
    Ms. DeLauro. But they are in senior positions at HHS.
    Secretary Azar. They are still in different roles. They are 
in various roles because ORR is now run by someone else who 
reports directly to our new commissioner who reports the dep 
sec and me.
    Ms. DeLauro. I understand that, but they are still in 
senior positions at HHS. DHS was separating children long 
before they announced it as a formal policy. If senior 
officials at HHS didn't push back on Homeland Security, despite 
warnings from ORR career officials, then they were complicit in 
what was an illegal, immoral family separation. It is your job 
to hold these people accountable, and it is my job, it is our 
job, to hold you accountable.
    OIG says that the family separation is still happening. A 
January reports says that it has been happening since 2017. 
Since Judge Sabraw has ordered the class to include families 
separated as early as July 1st, 2017, I expect you to make this 
task a priority.
    Budget requests. You have asked for $1,300,000,000, the 
same amount you asked for in Fiscal Year 2019. Last week you 
notified this committee of intentions to move up to 
$385,000,000 of funds from other parts of the budget, in 
essence, robbing Peter to pay Paul. And if you think the 
proposal to increase the transfer authority to 20 percent next 
year is happening, let me be crystal clear, Mr. Secretary. Not 
on my watch. Not on my watch. I was opposed to going from 10 to 
15. Is $1,300,000,000 for the UAC Program a realistic proposal 
for Fiscal Year 2020?
    Secretary Azar. $1,300,000,000 is not the exclusive 
proposal. It is $1,300,000,000 plus 20 percent transfer 
authority up to $361,000,000, and a Mandatory Contingency Fund 
of $2,000,000,000 for 3 years, which we would estimate at 
$738,000,000,000 for this year, so.
    Ms. DeLauro. Mandatory Contingency Funds are outside of the 
scope of this committee's jurisdiction, and no indication that 
you have worked with the appropriate committees to pursue that 
appropriation. And 20 percent, as I said, is maybe a wish, but 
it isn't going to happen.
    UAC improvements that can be made. Let me finish up by 
covering issues I believe are preventing HHS from restoring the 
Unaccompanied Children Program to its core mission, and, again, 
yes or no. Have you completely rescinded the MOA to restore 
trust in unification process so that HHS is no longer 
jeopardizing sponsors who want to come forward to claim 
children? Yes or no?
    Secretary Azar. We continue to take fingerprints of parent 
sponsors as part of the MOA.
    Ms. DeLauro. And other information, is it transferred?
    Secretary Azar. That information is transferred to ICE, and 
we get information back on their criminal background checks and 
other background checks----
    Ms. DeLauro. Is the MOA still in place?
    Secretary Azar. It is still in place.
    Ms. DeLauro. Okay.
    Secretary Azar. But that is the only portion that remains 
effectuated. I have actually stopped the effectuation of other 
provisions, as you know, last December.
    Ms. DeLauro. I understand on the fingerprinting. Are you 
pushing back when DHS refers separated children to HHS without 
providing cause for separation, yes or no?
    Secretary Azar. So we actually are asking for enhanced 
information from DHS so we know the basis for the separation.
    Ms. DeLauro. Is that just a check-off box or is there----
    Secretary Azar. No, no, no, no. No, not at all. So 
separations happen, always have happened for child welfare, but 
I would like better information from DHS.
    Ms. DeLauro. Okay.
    Secretary Azar. And I think there is a common agreement why 
was a child separated? Was it child welfare? Was it a felony 
conviction----
    Ms. DeLauro. We are all for child welfare, but we know that 
that hasn't always been the guiding principles in the past. 
Have you removed new politically-motivated barriers to 
reunification, like job requirements for sponsors, so that 
children can be released to sponsors in time frames compliant 
with Flores?
    Secretary Azar. I am not aware of job requirements for 
sponsors. I am not aware of that as part of the----
    Ms. DeLauro. You might want to take a look at that.
    Secretary Azar. The case managers do a full child welfare 
check on deciding sponsors. It is always a balance. I am sure 
you don't want us sending kids out to unsafe environments 
either.
    Ms. DeLauro. No, no, no. Mr. Secretary, none of us on this 
subcommittee want children to be put in harm's way.
    Secretary Azar. That is right. Of course not. I think we 
all agree.
    Ms. DeLauro. Children have been put in harm's way because 
of the policies by the Agency. Are all workers at Homestead 
receiving appropriate background checks?
    Secretary Azar. All workers at Homestead----
    Ms. DeLauro. At Homestead, background checks. There are no 
waivers involved.
    Secretary Azar. There shouldn't be any waivers. Homestead, 
of course, as the temporary influx is not State licensed, but 
will go through the ORR background check.
    Ms. DeLauro. I understand that. We are fingerprinting 
parents. We are fingerprinting others. But let's make sure that 
we are fingerprinting those people who are taking care of our 
kids.
    Secretary Azar. They all should have been fingerprinted and 
run----
    Ms. DeLauro. Final comment. Influx shelter beds are 3 times 
as expensive as permanent beds. Yes or no, are you increasing 
permanent bed capacity so that you can move away from 
unlicensed and expensive influx shelters?
    Secretary Azar. We are, and I would appreciate you actually 
supporting and helping that effort. It would be a nice----
    Ms. DeLauro. I would happy to do that.
    Secretary Azar. Thank you.
    Ms. DeLauro. Thank you, and I beg the indulgence of the 
committee.
    Mr. Cole. Thank you, Madam Chair. Just on that point just 
real quickly, you may not know this because obviously you 
weren't there at the outset, what kind of capacity did you 
inherit from the last Administration since this isn't a new 
problem that we are dealing with?
    Secretary Azar. Mr. Cole, I don't remember what the actual 
capacity numbers would have been at the beginning of this 
Administration. I would be glad to be informed if you happen to 
know them. We currently have 11,688 children in our census, and 
I believe about 460 or so open beds available. So we are quite 
tight right now as we are.
    Mr. Cole. Yeah. I would appreciate it. I don't know off the 
top of my head, so if you could get back to us some time 
because I would like to know where we started from in this 
process.
    [The information follows:]

      UAC Capacity Numbers at the Beginning of the Administration

    The attached spreadsheet shows summary UAC data by month from 
October of 2014 through May of 2019.
    Column C shows average bed space capacity from the beginning of the 
Administration. In January of 2017 there were 13,037 beds, however, by 
February 2017 the number of beds dropped 11,036. These bed figures 
include both permanent beds and influx beds (in months where there were 
influx beds).
    As you can see, bed capacity has not increased steadily during the 
Administration. Bed capacity is driven by the number of UAC needing 
care.
    Column F shows the average number of UAC in care. In January 2017, 
there were on average 9,554 UAC in care. This trend continued until May 
2017 when the average number of UAC in care began to increase.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Cole. I would like to move now to a very different 
topic, and obviously Congress has worked really hard with the 
Administration and passed a number of pieces of legislation on 
the opioid crisis that we have in this country. We have also, 
as you kindly pointed out, in a bipartisan way put considerable 
funds at the disposal of the Department. Give us sort of an 
update in your view of where we are at in this crisis because 
your remarks were even more encouraging than I would have 
hoped. We may have seen a peak and making significant progress 
here.
    Secretary Azar. Thank you for asking for about that. I 
don't want to be overly rosy. We did not get into the opioid 
crisis overnight, and we will not get out of it overnight 
either. But I am pleased to report that on basically every 
leading indicator on the opioid crisis, we are headed in the 
right direction.
    We have the prescribing of legal opioids is down 
approximately 20 percent since January 2017 in terms of 
prescribing. I believe the MME, the morphine equivalent levels, 
are down about 26 or 27 percent. Naloxone prescribing is up 
over 200 percent. MAT capacity has radically increased. And as 
I mentioned, we have seen an actual flattening of the curve of 
drug overdose deaths, very far from anything like victory. This 
will be a long, long, long campaign, but everything is trending 
in the right direction here.
    Mr. Cole. Well, I appreciate you recognizing that, but I 
want to thank you through the President who, frankly, is the 
one that declared a national emergency in this particular area, 
and I am proud Congress has acted on that working on with you. 
Also, your budget proposes to reduce new HIV diagnoses by 90 
percent over the next 10 years. What investments specifically 
are you proposing to end the HIV epidemic?
    Secretary Azar. We have asked in this budget for 
$291,000,000, but of course that comes on top of the 
$3,400,000,000 that we already spent on HIV/AIDS in the United 
States. It is really a historic moment. I think we are at a 
point now where all of the strands are coming together. It is a 
positive, perfect storm where we have the tools to diagnosis. 
We have the tools to put on treatment those who have HIV. And 
if we put you on treatment and if you remain on compliant on 
treatment and reduce your viral burden, you cannot transmit. 
And if you are at risk, if you are engaged in risky behaviors 
with individuals who might be infected, if we can get you on 
this drug PrEP, you won't get the disease.
    And so if we can just follow through on all of those, and 
that is where our targeted investments are is especially 
focused in the 48 counties where 50 percent of new infections 
are happening, seven rural areas, the District of Columbia, and 
San Juan. So if that new money is really focused there and on 
those interventions through proven methods that we have, we 
will get this done.
    Mr. Cole. Well, I appreciate that effort. And I would also 
like to talk a little bit about the Administration's initiative 
in pediatric cancer, how you see that unfolding. While I would 
like more at the NIH, I do want to really encourage and 
appreciate this particular effort.
    Secretary Azar. Yeah. So we have a historic investment of 
$50,000,000 that is part of a 10-year program of $50,000,000 
per year on pediatric cancer issues. You know, as part of this 
initiative, one of the challenges is that unfortunately, 
pediatric cancer is often neglected more compared to adult 
cancer. And so what we are trying to do first is build the data 
sets. We want to make sure we are collecting all data around 
pediatric cancer because with the modern genomic approaches to 
cancer, treatment, and therapies, we need that data. So very 
robust systems, comprehensive prospective data collection 
protocol for pediatric cancer cases.
    We are establishing a pilot of a consortium of institutions 
to accelerate development of capabilities and analyze clinical 
information required to build registries. So that would be gene 
tissue registries as well as information. So just some of the 
examples of a real renewed focus here on pediatric oncology.
    Mr. Cole. Finally, I don't have a lot, and it is not 
directly under this subcommittee's jurisdiction. But as you 
know, I have a great interest in the Indian Health Service, and 
it has been a very troubled service. And I would like you to 
take the last part of your testimony to tell us what you are 
planning to do there.
    Secretary Azar. Well, we continue the investment, as you 
mentioned in your opening, on the Indian Health Service. It is 
a direct service delivery that we are providing to our Alaska 
Natives and American Indians. And so we invest $5,900,000,000 
in discretionary funding for IHS. That is actually an increase 
of $391,000,000 above the CR or $140,000,000 above enacted, 
increasing patient services, supporting ending the HIV epidemic 
in Indian Country, and investing in quality care. We have 
created a Quality Office under the IHS director. We are very 
focused on how can we ensure a quality, safe environment of 
constant quality system improvement there.
    Mr. Cole. Well, I am out of time, but I just want to go on 
record and thank you very much for that. I know you had a tough 
budget year, and I was very pleased when I turned to that line 
and saw the increase instead of what I feared I would see. So 
thank you very much.
    I yield back, Madam Chair.
    Ms. DeLauro. Congresswoman Lowey.
    The Chairwoman. Thank you, Secretary Azar, for appearing 
here today. I appreciate your comments on e-cigarettes. I think 
we have let this go on much too long. And I want to know will 
you commit to only support nominees for FDA commissioner who 
would take an aggressive stance on combatting e-cigarette use 
by children?
    Secretary Azar. Absolutely. That is my agenda, so I am 
certainly not going to support putting someone in as FDA 
commissioner who doesn't share my agenda on tackling this e-
cigarette epidemic.
    The Chairwoman. Thank you. The domestic gag rule is an 
attack on the 4,000,000 Americans who rely on Title 10 family 
planning funding for birth control and reproductive health 
services, which direct aim on those who rely on Planned 
Parenthood. I strongly believe that this policy is an 
unconstitutional violation of the freedom of speech of 
physicians, and would vastly undermine the doctor-patient 
relationship, jeopardize public health, and continue the 
Administration's assault on women's health.
    Major medical groups have raised the alarm on the danger of 
the domestic gag rule and have opposed this terrible policy. In 
fact, the American Medical Association is suing to stop this 
proposal. That is how dangerous they believe it to be. Given 
the dangers the domestic gag rule poses to the doctor-patient 
relationship and women's health, the Administration must have a 
review process before embarking on such an extreme proposal.
    Mr. Secretary, which public health groups and experts did 
your Department meet with in consultation of this proposal 
before the announcement?
    Secretary Azar. I don't know which groups were met with. We 
followed a notice of proposed rulemaking and public rulemaking 
process. Our intent here is to implement the statutory 
prohibition on funding programs where abortion is a method 
family planning. I did want to clarify. This is not the Reagan 
Administration gag rule with which you would be familiar. We do 
not prohibit non-directive counseling, including regarding 
abortion or the provision of information regarding providers, 
those whom may provide abortion. Simply you may not actually 
directly refer them or provide directive counseling for 
abortion.
    We are trying to effectuate the intent of the statute here 
to not support the actual provision of family planning programs 
where abortion is a method of family planning. But we are 
trying otherwise to have that kind of information flow.
    The Chairwoman. Well, it looks we have to have a longer 
discussion on this issue because I want to be very clear. There 
was no such consultation with the public health community 
because it seems the Administration didn't care about what the 
experts had to say or what impact this would have on women's 
health. This was a political decision, correct?
    Secretary Azar. This was a decision to implement Congress' 
statutory prohibition on funding programs where abortion is a 
method of family planning. The previous administrations had 
actually had a requirement of referral for abortion. I find 
that rather ironic given that the statute says you shouldn't be 
funding programs where abortion is a method of family planning, 
and you are supposed to be non-directive. Actually that's the 
requirements in the statute. I think this is a legal 
conclusion, a legal approach to what Congress has set up in the 
structure of the system.
    The Chairwoman, I think we need to have a further 
discussion because the Hyde Amendment is the law of the land, 
and it seems to me this directive, this requirement is a direct 
affront to Mr. Hyde. I know Mr. Hyde. I worked with Mr. Hyde. 
And this was not consistent with the Hyde Amendment. We can 
have further discussion on that.
    Throughout my time in Congress, Federal funding for the NIH 
has been among my top priorities. The NIH is the world's 
premiere research institution. Its researchers are developing 
cures and treatments for some of the world's most debilitating 
diseases. Now, although it has been discussed by my colleagues, 
how many grants would have to be cut for the NIH to operate 
based on a 13 percent cut?
    Secretary Azar. I don't know the exact number of grants 
that it would be. It would depend on the size of the grants to 
get there. I do want to note I share your concern about cuts to 
NIH. We are trying to operate within a cap's framework here. We 
have tried to provide a pathway forward. This is the largest 
discretionary part of our budget on meeting discretionary caps. 
I appreciate if you have got a different view about ways to get 
there, and we are happy to work with the committee on 
alternatives.
    This is an approach. It is the way we submitted something, 
from our perspective, what we were called upon to do to support 
compliance with discretionary caps.
    The Chairwoman. I have an idea: $8,600,000,000 for the 
border wall? How about that?
    Secretary Azar. That would be something for you--you are in 
Congress, I am not--for you to consider. I have got a 12 
percent change we had to make. We tried to make these. We made 
these changes here. We believe that there are certainly 
efficiencies in NIH's budget that can be gotten. We have spent 
a lot of money, increased a lot of money there year over year, 
and we believe we can get efficiencies out of. I share concern, 
though. We are making tough choices. It is a tough, tough 
budget.
    The Chairwoman. Oh, excuse me, sir, but I have listened 
very carefully. I understand your sincerity. But you are going 
to cut the NIH and put $8,600,000,000 in the border wall? I 
have nothing else to say. This is absurd, and I hope [off 
audio]. My friend, Mr. Cole was there. I was here when it was a 
Republican initiative to double the money at the NIH. So I will 
just leave it at that. My time is up. Thank you.
    Ms. DeLauro. Thank you. Congressman Herrera-Beutler.
    Ms. Herrera-Beutler. Thank you, Madam Chair. Thank you, Mr. 
Secretary, for being here. I have a couple quick questions on 
kidney care, but I wanted to first say I applaud the 
Administration's efforts with regard to drug pricing. This is 
one of the biggest issues my constituents talk to me about, and 
I think that your moves here, while shaking some on the 
proverbial right, it needs to be done. And I think this has 
some real potential. I would love to help with this.
    The increases and the focus on GME is also very critical 
for our Nation, making sure that we have providers out there on 
the front lines. And then I noticed a piece in the Wall Street 
Journal with regard to the Trump Administration is sounding out 
the medical industry on requiring hospitals, doctors, and other 
healthcare providers to publicly disclose the secretly-
negotiated prices they charge insurance companies for services, 
a move that would expose for the first time the actual cost of 
care. What a novel concept.
    We have been running around this bush, Republicans and 
Democrats, forever, and unless we know the actual cost of care, 
we cannot drive that down. Again, I think this is something 
that will probably rock votes on both sides. It needs to be 
done, and I am very excited about it, and I would love to be of 
assistance in this area. So I thank you for your leadership on 
that.
    I also want to applaud you for your recent remarks on 
transforming kidney care. Now, I don't know if you. I am a lead 
sponsor on the Living Donor Protection Act with Congressman 
Nadler, and kidney care has been a consistent priority for me 
here in Congress. And the issue of immunosuppressant drug 
coverage after transplant is an issue that I have been focusing 
on for several years. I have been looking at these policies to 
extend Medicare coverage for those drugs to patients post-
transplant because what happens is despite the best intentions 
of the ACA, folks get their transplant, they can't get 
something covered, and then oftentimes we see people who lose 
their transplants, get back on dialysis because Medicare will 
cover it. And the costs and quality of life issues are 
ridiculous. It is a lose-lose.
    So I was wondering if the Office of the Actuary has taken a 
look at the budgetary effects of extending immunosuppressive 
coverage because it is more expensive to dialyze and then 
transplant someone a second time. And if not, may I ask that 
you take a look and maybe provide that analysis?
    Secretary Azar. So as I mentioned in my recent remarks, we 
are very focused on ways we can incentivize towards 
transplantation and working with you on the living donor 
issues, et cetera, that you focused on. Extending coverage of 
immunosuppressant drugs could help patients avert dialysis in 
the future, supporting transplantation, which of course is a 
better health outcome at a lower cost.
    So while the savings would be specific to the design of any 
actual policy, our preliminary Office of the Actuary analysis 
indicates that the savings generated by averting dialysis would 
be greater than the cost required to extend coverage for 
immunosuppressant drugs. And we are happy to follow up with you 
and other interested members on this issue.
    Ms. Herrera-Beutler. Great. Wonderful. Similar area. Next 
question is organ procurement organizations. By some estimates, 
every year nearly 2,000 kidneys are discarded that have could 
have been suitable for transplant. And what can HHS do to 
ensure that these organs are not chucked overboard, while over 
100,000 men, women, and children are waiting for life-saving 
transplantation.
    Secretary Azar. Absolutely. Too many organs are being 
sacrificed now that are based on policies dating from an era 
when our understanding of infectious disease and treatments for 
infectious disease were radically different. And I have called 
for in my remarks, and then we are working on updating those 
standards because many more kidneys now could be usable, 
especially compared to dialysis and death.
    Ms. Herrera-Beutler. Yes, absolutely.
    Secretary Azar. And we need to advance that and change the 
approaches to that, and we are working on that.
    Ms. Herrera-Beutler. Awesome. One more piece on this. I 
recently joined with Representative Cartwright on other members 
in sending you a letter on the National Living Donor Assistance 
Center to cover lost wages and other expenses incurred by 
living donors. And we certainly appreciate the ongoing demo at 
HRSA on this, but beyond the demo, how has HHS committed to 
expanding this center?
    Secretary Azar. So we are looking at ways in which we can 
further support living donors in terms of lost wages, and I 
mentioned that I my remarks. So that is part of the agenda that 
I expect in the next several months that we try to roll out.
    Ms. Herrera-Beutler. Great.
    Secretary Azar. Either with our own work or recommending to 
Congress actions you can take.
    Ms. Herrera-Beutler. Yeah, I appreciate that, and I 
appreciate your approach. You mentioned the e-cigarette piece 
and some of the drug pricing stuff. I appreciate your 
willingness to rock the boat because we really want to get to 
the bottom of health costs and get more people covered and 
increase their quality of life, so I thank you. And with that, 
I yield back.
    Ms. DeLauro. Congressman Pocan.
    Mr. Pocan. Thank you, Madam Chairman, and thank you, Mr. 
Secretary, for being here. First off, congratulations on the e-
cigarette thing. I have heard that through the various 
committees over the years and glad to see some activity on 
that.
    I would like to try to hit three areas if I can. One, I 
noticed you didn't bring up in your remarks family separation. 
You know, this is big issue for many of us, especially those of 
us who have gone down to the border. I have been to the Super 
Walmart detention center down in Texas where there are 1,500, 
you know, boys packaged in or kids packaged in--it is boys in 
that facility--packaged in to a, what, 6 by 10 area for each 
person is allocated. They get outside two hours a day. When I 
was there, they told me they couldn't hire 90 needed medical 
health professionals at the facility.
    Just so you know, a super max prison cell is 8 by 12, so 
they allotted spaces even less than what we give to supposedly 
some of the worst inmates in the country. So, yeah, this is a 
big concern to many of us as we look at this issue, and yet the 
inspector general's report talked about the policy of the 
separation and that there is not an integration that tracks 
separated families. We couldn't figure out which children met 
the definition of ``separated.'' What substantial, because I 
didn't see it, in the budget is there to deal with this issue?
    Secretary Azar. So, of course, we don't have an ongoing 
program other than just the normal family separations that 
would happen because of child welfare done by DHS. We have a 
very small number currently. I think approximately 200-plus 
children who came across the border were detained and DHS sent 
us a child from either a parent or a putative parent. Usually 
that is because the parent ended up not being a parent, so DHS 
separated and sent to us as an unaccompanied child, or it is a 
TBBPRA violation, like a felony conviction, for something like 
violence towards children.
    Mr. Pocan. The question is what you are doing to address 
the bigger----
    Secretary Azar. Well, because we don't have a bigger issue 
right now----
    Mr. Pocan. Before----
    Secretary Azar [continuing]. In terms of separation. We 
receive a relatively small number, which are according to 
standards that are fairly consistent with the long-time history 
of the program. I am trying to increase information flows. That 
is the biggest issue. I demanded back in June, we put a box on 
the intake form of if there is any indication of separating so 
that we have an easy way to track that that has happened. We 
have asked for more information from DHS, as I mentioned to the 
chairwoman earlier, on any rationale or reason why there was a 
separation just because that can be useful to us.
    We don't decide or get to veto a separation, but it helps 
us decide whether there is a reunification or a sponsorship 
issue on information we just may not know about or uncover 
through our child welfare checks on those same individuals.
    Mr. Pocan. What is the average time on the separations 
right now?
    Secretary Azar. Average time on separations? The average 
time that all children are with us is 71 days before we place 
them with sponsors. So, again, it is about 200 kids, 200-plus 
kids that would count as separated, but they are separated, I 
think, for reasons you would want them separated for. They are 
with individuals who are violent, have bad felonies, are not 
parents. So I think we are talking about the past and the 
present a little bit differently here.
    Mr. Pocan. Okay. Well, anything that separates a child for 
71 days from their parents is a problem. I mean, when I was 
down there----
    Secretary Azar. Even if the parent is a child abuser or a 
violent felon?
    Mr. Pocan. You know, some of the B.S. that is coming from 
the Administration on this. I have been down to the facilities. 
You know what? If you want, I will go down with you and let's 
visit some of the facilities together.
    Secretary Azar. I visit our facilities----
    Mr. Pocan. I know. I would love to go with you because I 
would like to ask more specific questions, because that day we 
couldn't get all of our questions answered. I went down with 
Senator Merkley and some other folks. But, you know, the intake 
facility is not your department. You know the cages? That is 
the same material as the dog running around in my backyard. It 
is the exact same material and construction. You all say they 
are not cages. That is part of this policy, right, from the 
very intake. You are 5 years old, you are separated from your 
parents. That is this Administration's policy. I know it is not 
your Department's policy. It is this Administration's policy. 
So if you want to invite me, I will go with you, and we can 
have some questions on this. But I don't find anything 
acceptable anywhere close to the conditions that we have been 
doing on this.
    Let me ask you about prescription drug prices real quickly. 
I don't think I am going to get to all three areas. We are 
allowed to negotiate for prescription drug prices through 
Medicaid, through veterans, and many of us think we should do 
it for Medicare. Would you be supportive of that?
    Secretary Azar. So right now we do negotiate----
    Mr. Pocan. That question is kind of a yes or a no, sir.
    Secretary Azar. It is not a yes or no.
    Mr. Pocan. Okay. So we----
    Secretary Azar. Nor is it a yes or no answer. It is you get 
a more sophisticated approach in thinking about how we do----
    Mr. Pocan. I said do you support that. So actually the 
question was a yes or no answer. Your answer may not be a yes 
or no answer. Do you support being allowed to negotiate for 
drug prices----
    Secretary Azar. We do negotiate using PBMs.
    Mr. Pocan [continuing]. For Medicare like we do with 
Medicaid and veterans?
    Secretary Azar. We use PBMs to negotiate. If we were to 
have the Federal government negotiate, you would have to be 
willing to have a single national formulary excluding senior 
access to drugs. You may have Humira. You may not have Enbrel. 
That is the only way we get the power.
    Mr. Pocan. Should I take that as a no?
    Secretary Azar. That is something I would like to keep 
talking with you about it, but you need to consider all the 
ramifications----
    Mr. Pocan. Okay.
    Secretary Azar [continuing]. About the beneficiary access 
and choice issues associated with that.
    Mr. Pocan. All right.
    Secretary Azar. But I am open to anything that solves the 
drug pricing problem.
    Mr. Pocan. So apparently you aren't here to answer 
questions. I will just add I think a cut to NIH at the level 
you have is serious. It is going to impact thousands of grants, 
and it is going to have a negative effect, so I just want to 
throw that out there. Thank you.
    Ms. DeLauro. Congressman Graves.
    Mr. Graves. Thank you, Mr. Chair. Mr. Secretary, thanks for 
being with us today, and I appreciate your indulgence with all 
the questions. I have to admit, Madam Chair, on the onset here, 
I sort of find it comical that there is a faux outrage about 
the spending cuts. That outrage comes from the very people who 
voted to impose these spending cuts on this Agency here, this 
Department. And yet when the Secretary abides by the law, which 
I assume you are because that is the law, all of a sudden you 
are the target of such bad policymaking. But you are not the 
policy branch, are you, or do you just follow the law as a 
legislative body?
    Secretary Azar. Well, we certainly work with OMB, and OMB 
on behalf of the President felt the need to submit a budget 
that complied with the discretionary caps that this Congress 
passed under President Obama and are in force unless and until 
Congress and the Administration agree to relieve those caps.
    Mr. Graves. And I think that is what you should be doing. I 
do. I think if had had another agency head here before us in 
the previous Administration and with us in the majority who did 
not agree with the spending levels as proposed by Congress, we 
would have and had spent above them, I would hope we would have 
outrage that an Administration was not abiding by the laws.
    So what makes this somewhat amusing is that I read in the 
papers that even the new majority has no budget. They don't 
plan on passing a budget out of committee. I know we have a 
member on this subcommittee here who is a part of the Budget 
Committee on our side, and yet they direct their outrage at you 
for their inability to pass a budget out of a committee, to 
give you further discretion to do what I know you would want to 
do, invest in these critical areas. In the meantime, you must 
abide by the law. So I appreciate your willingness to make 
courageous, tough decisions in the absence of others being able 
to do the same.
    So moving on to the CDC, thank you for your investment 
there. I am sure you would want to do more, but you have not 
near as much to work with. It is a 12 percent reduction in 
overall spending that you get to work with, so you have had to 
make some strategic decisions. I know Mr. Cole brought up the 
CDC as well earlier, and he has had an opportunity to visit the 
facility as I have, and I would encourage all members to do 
that. It is an amazing investment for our country. But can you 
just share with us a little bit about your vision for the CDC 
and how you expect that they will do more with less, and some 
of their priority and mission focuses in the near horizon?
    Secretary Azar. Sure. Thank you. Thank you very much. So 
what we have tried to do with the CDC budget, again in a 
difficult budget environment and according to the constraints 
that you mentioned, is prioritize flexibility for States. We 
really partner with States and State public health departments. 
So often the CDC budget is sliced and diced by category, by 
disease type, by initiative, by priority, and actually try 
through a grant program to reform it in a way to give States 
the abilities to actually target monies in the highest-burden 
areas and the greatest emerging infectious disease throughout. 
So that has been one of the core approaches that we have taken.
    We have tried to really double down on the Ending HIV 
Initiative at CDC. So we would add $140,000,000 new there at 
CDC on the Ending HIV Initiative, and that includes testing and 
linking persons to treatment, augmenting public health staff in 
local jurisdictions, and supporting surveillance, and that 
would be on top of the approximately $789,000,000 CDC already 
has for HIV/AIDS prevention and research.
    Mr. Graves. I know the Administration and presently 
yourself have a very laudable goal the eradication HIV/AIDS. If 
you could forecast when that might occur or your hope for that. 
Is there a way to just sort of date that and say you know, our 
goal is in year 2 or 3.
    Secretary Azar. Yes. So we have laid a stake in the ground 
that within the next 5 years we would reduce new infections by 
75 percent and by 90 percent within the next 10 years. I hope 
and believe we can do it even faster than that with the right 
tools. What is nice is we have the tools, and we actually have 
a focused target because of where the new infections are 
happening, that we really can stop this in its tracks with just 
quality execution and a bit of funding from Congress.
    Mr. Graves. Well, thank you, Mr. Secretary. Let me just 
close by saying I do appreciate your hard work, your 
Department's hard work, OMB's hard work and courageous 
decisions on ways to do more with less in the absence of 
Congress making any changes. But I will again point out that it 
was Congress just 8 years ago who said if you let us raise the 
debt limit, if you let us spend more, we promise to keep 
spending under control. But year after year after year that 
limit and cap has been raised time and time again. A false 
promise 8 years ago, and yet we hear the outrage today that you 
are actually complying with it. So thank you, Mr. Secretary.
    Ms. DeLauro. Congresswoman Lee.
    Ms. Lee. Thank you very much. Thank you, Mr. Secretary. 
Good afternoon. A couple of questions I would like to ask, and 
I will ask you all in one swoop. First of all, with regard to 
HIV and AIDS, you know many of us have worked on this for many, 
many years, both domestic and international, and we have been 
trying actually to make sure that our AIDS proposals and 
strategies are global, not bifurcated. And it is my 
understanding now that this budget proposes a 22 percent cut in 
funding to PEPFAR and a reduction of the Global Fund while 
increasing the domestic strategies and programs by about 
$291,000,000. So it is really robbing Peter to pay Paul.
    So one point I want to raise with regard to your budget as 
it relates to Medicaid expansion, I don't know if you recognize 
this, but the largest source of coverage for people with HIV, 
over 40 percent, is through Medicaid. And the budget includes 
1,500,000,000,000 in Medicaid cuts over 10 years. So once 
again, I don't know how we are going to address age HIV and 
AIDS when you are going to cut 40 percent of the people who 
rely on Medicaid.
    Secondly, with regard to the elimination of the racial and 
ethnic approaches to community health, the REACH Program, it is 
the only program really that is funded to address racial health 
disparities. Once again I think you proposed this last year. 
Why would you eliminate this, and generally, what is your 
commitment to ending racial disparities in chronic healthcare, 
because this is a program that has worked. It addresses people 
of color, minority communities. Yet once again you guys are 
trying to zero it out.
    Finally, just on the separation of children, I just have to 
ask you, as a result of this policy, did you look at the mental 
health consequences of separating children from their parents? 
As secretary of health, and I wanted to ask you this question 
over and over and over again if you knew the data on the 
generational trauma associated with the Middle Passage in 
slavery and the current effects right now of separating 
children from their parents on African-Americans. And for the 
life of me, if you understood and this Administration 
understood the history of what this does to children and 
families over the years, you never would have done this. And I 
wonder if any healthcare professional, yourself, looked into 
this before you decided to make that decision.
    Secretary Azar. So several areas there. With regard to 
PEPFAR and the Global Fund for AIDS, I would have to obviously 
refer you to the State Department on their budget and the 
prioritization there. I do believe part of the focus on PEPFAR 
has been, of course, it has been a historic and wonderful 
program achieving just incredible results for humanity. But I 
think part of the focus there has been now are there countries 
where they have achieved a level of infrastructure, stability, 
and basically have learned to walk and run on their own, and we 
can reprioritize elsewhere and focus on new areas and burdened 
areas. But I would have to defer to the Secretary of State or 
Ambassador Birx on that.
    On the Medicaid expansion and HIV care within Medicaid, you 
know, we have in our budget a proposal to actually reform and 
restructure healthcare to the States, giving them grants to the 
States, a 1,200,000,000,000 program that would replace the 
Medicaid expansion and the Affordable Care Act in the States, 
giving them actual flexibility to target individuals that most 
need it. One of the real challenges with the Affordable Care 
Act expansion has been a bias in favor of able-bodied adults in 
terms of even just the match rate over the traditional 
populations of the pregnant, blind disabled, aged, children 
populations. And we think this actually can allow a greater 
focus there, and I would hope that would be a real focus in 
HIV/AIDS.
    Ms. Lee. You do know Medicaid is the largest source of 
coverage for people.
    Secretary Azar. Well, Medicaid and then also access to the 
Ryan White Program and community health centers are, of course, 
vital for individuals with HIV/AIDS, absolutely there. Right.
    And then in terms of in terms of ORR Program and 
Unaccompanied Alien Children Program, I did want to, if I 
could, just for the chairwoman to clarify something that I am 
just informed of by staff. I just was not well informed on 
this. I think you had asked about Homestead and background 
check waivers. I do believe that ORR directors Bob Kerrey under 
the Obama Administration and Scott Wood did grant waivers for 
the Florida Child Abuse and Neglect Check, the State-based 
checking system. In 2016 and 2018 those checks were waived 
because the fingerprint background checks would show relevant 
information. All staff at Homestead have undergone FBI 
biometric fingerprinting and FBI background checking. But I 
just wanted to clarify that the State child Abuse Check System 
there was waived in 2016 and 2018. I apologize. I didn't have 
that front of mind when I answered you earlier.
    Ms. DeLauro. Mr. Secretary, I will answer you directly.
    Secretary Azar. I just wanted to clarify. I just didn't 
want to----
    Ms. DeLauro. The fact of the matter is there is massive 
fingerprinting of people who are going to be sponsors, and we 
have waived those things and mental health services.
    Secretary Azar. And I apologize, Congresswoman.
    Ms. Lee. Madam Chair, could I ask him to respond to my 
question in terms of did you all look at the generational DNA 
changes and other changes of trauma from slavery to now, 
separating children from their parents.
    Secretary Azar. Yeah. So we did not create the policy of 
zero tolerance and 100 percent referral. That was done at other 
departments. We are the recipient of the kids.
    Ms. Lee. But you are the Secretary of Health. Did you all 
raise red flags?
    Secretary Azar. I can't raise flags on what I do not know 
about until it is----
    Ms. Lee. You need someone to study the trauma associated 
with children being separated from their parents.
    Secretary Azar. Let me very clear. There is no dispute 
between us that children being away from their parents is a bad 
thing, that it imposes mental health issues. There is no 
dispute at all between us on that point. I was clear about that 
in June if you look at even public statements that it is a bad 
thing, and that is why we encourage people do not come across 
the border illegally at non-border crossings because you will 
be arrested.
    Ms. Lee. Mr. Chairman, that is not the issue. The issue is 
the kind of services and what are you going to do for these 
children who are going to see the trauma and feel the trauma 
through generations now, such as African-Americans still do 
from 400 years of slavery.
    Ms. DeLauro. Congressman Harris.
    Mr. Harris. Thanks very much, and thanks very much, Mr. 
Secretary, for being here. And first of all, you know, placing 
these children with criminal parents is actually bad for the 
children, and I applaud actually seeking to see if these are 
criminals because actually the data shows that if you that if 
you are raised by a criminal, you are twice as likely to be a 
criminal. That is the fact. So I think it is totally 
appropriate to check whether or not the people you are sending 
these, you know, you are responsible for these children and you 
should know to whom you are giving these children.
    Now, I'm going to associate myself with the remarks from 
the gentleman from Georgia. Mr. Secretary, Congress actually 
set the budget cap levels. I looked back a bill, and I didn't 
vote for it. I know a lot of people did. I didn't vote for 
those caps because I knew it was going to happen. But, in fact, 
let me get it straight. The Administration set a budget 
according to the law, the current law. Is that right? I mean, 
it is current law.
    Secretary Azar. That is correct. We endeavored to comply.
    Mr. Harris. The BCA of 2011 is still the law of the land, 
so it is, in fact, Congress' failure that resulted in the 
Administration having to put forth a budget that actually lives 
within the law. Amazing.
    Let's talk about living within the law. This gag whatever 
you want to refer to, is actually a congressional statute, 
right? I mean, actually the statute, Title 10 says that that it 
is for birth control, not abortion or not abortion as the 
method of birth control. That hat is a congressional policy. It 
is not the Administration's policy. And look, I understand 
other Administrations didn't care what the law was, you know. 
The Department of Justice couldn't care less, you know, when 
they obtained FISA warrants, whether or not they were following 
the letter of the law. I get it. They couldn't care less. It is 
good to have an Administration that actually cares what the law 
is. So, I mean, so I understand that. And look, great. We have 
gages in the crowd. Look, I will tell you, I don't want a FISA 
warrant issued on me by a rogue Department of Justice and a 
rogue FBI that is going after partisan politics.
    Now, let's talk about policy because I do want you to 
answer. I know that, you know, the people who want the yes or 
no answer, we are talking health policy, you know. And the old 
adage is, you know, for every complex problem there is a right 
answer, you know, there is a simple answer and it is wrong. The 
PBMs under Medicare Part D, because they negotiate not only for 
Medicare Part D, but for non-Medicare Part D, and, again, again 
about half the population is not Medicare. They actually 
negotiate for a pretty large number of patients. Is that right?
    Secretary Azar. Absolutely.
    Mr. Harris. So that, in fact, if you just say, well, let's 
let Medicare negotiate, the fact is the government rarely 
negotiates. I mean, I know because I'm a physician. I don't 
negotiate what I get paid for by Medicare. Medicare, I hate to 
tell you, but CMS tells me what I am going to be paid. There is 
no negotiation that occurs. It is price fixing, and the result 
of price fixing with physicians is that you can't find 
specialists, especially the sub-specialist who will take care 
of Medicare patients, without limiting the number of Medicare 
patients they take care of. And this is what I fear will happen 
if we actually go to price fixing for drugs. However, I am 
going to tend to support what you are trying to do with the 
Medicare Part B drug setting because we do have to level the 
playing field there.
    I want to thank the Administration for making affordable 
healthcare policies available once again because they weren't. 
They are not available under Obamacare. Unless you get a 
subsidy it is not affordable. So the short-term policies and 
association plans the Administration has advocated I think are 
good.
    Let me just add, and in terms of prior authorization, the 
Step Therapy 2, things that make the work of the physician and 
healthcare practitioner much more difficult. I would hope the 
Department could simplify in some way by making insurers have 
pretty standard guidelines, and make sure those providers know 
those guidelines and the providers operate within those 
guidelines. They don't have to go through the rigamarole of 
step therapy and prior authorization.
    I hope the Strategic National Stockpile gets attention 
because it is appropriate. But I did want to just ask you, 
look, Medicare Part D is a popular program. It is actually one 
where the cost is actually less than was predicted when it is 
passed 15 years ago. Are there other reforms that we should do 
to make it even a better program for seniors?
    Secretary Azar. Absolutely. It is a great program. We are 
securing discounts and most of it comparable to what Europeans 
get by way of discounts through the PBMs. We have parts of the 
programs there where we disabled the PBMs from negotiating, and 
we have proposed ways to free up the plans to negotiate to get 
commercial-level kind of discounts there. In addition, we would 
like to have an out-of-pocket cap, the first-ever out-of-pocket 
cap for seniors so that when they hit catastrophic coverage, 
they would pay nothing out-of-pocket for their drugs. We would 
also like our low-income beneficiaries to have free biosimilar 
and generic drug coverage in the benefit package, and to 
require that the drug company payments not be used to progress 
people rapidly to catastrophic care. And finally, have the PBMs 
bear more of the share of the reinsurance and catastrophic.
    Right now we bear 80 percent of the cost of catastrophic 
coverage. We would like that to be the PBM being the ones to 
actually bear that cost. We could bear 20 percent, and we could 
save our seniors, have them pay zero percent in the 
catastrophic. So very important structural reforms to Part D, 
whose time we think is due now.
    Mr. Harris. Thank you very much. I yield back.
    Ms. DeLauro. Just as a comment, Mr. Secretary, you claim to 
be living within the budget caps. I would note that the 
President's budget, and my colleagues should note, an increase 
of $96,000,000,000 for defense through the overseas contingency 
operations. That is OCO, which we all know is a budget gimmick. 
So I disagree that the Administration is living within the 
caps. Congresswoman Clark.
    Ms. Clark. Thank you, Madam Chairwoman. Thank you, Ranking 
Member Cole. Good to be with you, Secretary Azar. We are 
heading home tomorrow, and whenever I go home, whether it is 
for a weekend or for a district work period like we are heading 
into, I will invariably run into families who are devastated by 
the opioid crisis. And I appreciate that you have mentioned 
this crisis and it continues to be something that you put in 
your testimony. And I appreciate that you have mentioned this 
crisis and it continues to be something that you put in your 
testimony. And I think we can agree on some basic facts, that 
we still have 100 Americans a day dying from substance use 
disorder. And I take your nod as agreement.
    Secretary Azar. Yes. I don't know if that is the exact 
number, but it is too many too many.
    Ms. Clark. Too many. Seventy thousand people died in 2017 
alone from opioid overdoses, and the estimates are by 2025, 
half a million Americans will die from opioid overdoses.
    Secretary Azar. I believe it may be 70,000 drug overdose 
deaths, and within that, of course, the opioid deaths, but we 
will get you that. I just want to make sure we are----
    Ms. Clark. I think it is opioid, but we can check each 
other's work on that.
    Secretary Azar. Not to cry. I just wanted to make sure you 
have got the best data possible.
    Ms. Clark. The estimates are also that 10 percent of those 
suffering from SUD receive treatment. Ten percent. But those 
with Medicaid are 2 time as likely as those with private 
insurance or no insurance to receive treatment. And the rates 
are much better for inpatient treatment under Medicaid than 
under private or having no insurance. Are you familiar with the 
Urban Institute study that came out in February, just last 
month?
    Secretary Azar. I don't believe so.
    Ms. Clark. It is one that I recommend to you. It 
demonstrates that States with Medicaid expansion tripled access 
between 2014 and 2016 to opioid treatment compared to States 
that did not have expanded Medicaid. But we know that despite 
that success, we are still not meeting the demand for 
treatment.
    So my question comes from your testimony. You say Medicare 
and Medicaid policies and funding will also play a critical 
role in combating the opioid crisis. And you also say that 
HRSA, the Health Resources and Services Administration will 
continue to make investments. And I think we can agree that 
Candidate Trump said at least 11 times under my count that 
there would be no cuts to Medicare, Medicaid, and Social 
Security under his Administration, but here we are: 
$1,500,000,000,000 cut proposed in Medicaid, and that is done 
through block grants, which, in essence, puts a cap on eligible 
patients and care, which we don't have if it is not up to the 
State block grants.
    How can you assure me and the folks that I will be meeting 
at home, the folks at home that I already know who have been so 
devastated by this, that if these plans for cuts in Medicaid--
you say you are proposing minimum standards that will allow for 
postpartum women diagnosed with substance use disorder to 
access benefits for 1 year. We applaud that. But if the money 
is not there in Medicaid, how can I assure anyone they will be 
able to have this treatment, which is how nearly half of all 
Americans suffering from addiction access treatment, through 
Medicaid.
    Secretary Azar. So Medicaid does play an important role 
obviously. That is why we have the IMD exclusion that we have 
been doing waivers on. That is the institutions for mental 
disorders to allow, as you said, increased inpatient capacity. 
So we have been granting waivers to States that are willing, 
and we are still open for business to have more than 15-bed 
capacity. And have actually seen that can actually inspire 
construction or opening of new facilities as a result because 
it makes it more economically viable to have these IMDs for 
inpatient.
    Ms. Clark. Are you willing to guarantee that with the 
proposed cuts, $1,500,000,000,000 with a ``T,'' half trillion, 
in Medicaid and the cuts that you have in HRSA, which you say 
in your testimony, you know, they will continue to provide 
services. Maybe they will, but you have $37,000,000 from 
behavioral health workforce programs, $15,000,000 from National 
Health Service Corps, $129,000,000 from rural health programs.
    So can you guarantee that we are not going to cut treatment 
if we block grant Medicaid so that you can save 
$1,500,000,000,000? Will you guarantee they will be able to 
have the treatment?
    Secretary Azar. So you have to look at this in combination. 
So we have got the $1,400,000,000,000 of changes to Medicaid 
which involves repealing the Medicaid expansion, and also then 
the option of either block or----
    Ms. Clark. Which has been----
    Secretary Azar [continuing]. Block or per capita change.
    Ms. Clark. Allowed a tripling in access to treatment.
    Secretary Azar. But so we also have in there the block or 
per capita capping for States, and then other eligibility 
verification integrity provisions in there. But then we add a 
$1,200,000,000,000 program with flexibility for States. I just 
don't believe that we are spending too little money on 
healthcare or we are spending too much, but we are spending it 
in the wrong way.
    Ms. Clark. I am out of time. A quick yes or no. Will you 
today guarantee that people will not lose treatment for opioid 
addiction under Medicaid?
    Secretary Azar. Our plan would defer to States to make 
those choices. States would make those choices.
    Ms. Clark. That is a no. Thank you.
    Ms. DeLauro. Congressman Moolenaar.
    Mr. Moolenaar. Thank you, Madam Chair, and thank you, Mr. 
Secretary. I appreciate you being here with us today, and I 
also appreciate your efforts to promote State flexibility and 
encourage States to step up in this way and give them the tools 
they need to be effective.
    I wanted to talk with you about a couple things related to 
opioids, one in rural America with the opioid epidemic. These 
communities struggle with access to healthcare in many ways, 
and I wonder if you could talk a little bit about rural opioid 
situation, also access to overdose reversal drugs because I 
noticed that was one of the points that you made in terms of 
the policy, and to me I think that is a very important step 
forward.
    Secretary Azar. Great. Thank you very much. So with regard 
to rural care and opioids, it is obviously a core issue. We 
propose $120,000,000, which is flat with Fiscal Year 2019, 
which in the budget environment is a significant prioritization 
and commitment, of course, for the Rural Communities Opioids 
Response Program, RCORP. This supports treatment and prevention 
of substance use disorder, including opioid abuse, in the 
highest-risk rural communities. We are going to target some of 
this funding to specific initiatives, such as maternal and 
child health and telehealth activities focused on reducing 
opioid abuse.
    In terms of naloxone access, so overdose reversing drugs, 
this has really been incredible. Since January of 2017 the 
number of naloxone prescriptions has increased by 323 percent. 
And that, of course, is in addition to literally millions of 
doses that were bought directly from manufacturers by State and 
local health and law enforcement agencies. So we are getting 
this product out there, and I think that is really contributing 
to the flattening and potentially declining of overdose deaths 
here.
    Mr. Moolenaar. Great. Thank you. I wanted to shift gears a 
little bit. As you know, over the last years, BARDA and Project 
Bioshield have created a market for medical countermeasures 
against the most serious threats we face, such as Anthrax, 
smallpox, nuclear radiation. When it comes to some of these 
countermeasures, it is more important than ever that we have 
the Strategic National Stockpile having sustained funding. And 
I wondered if you could comment. I noticed that you have 
increased funding in this area significantly, and just if you 
could talk a little bit about why that is important for the 
Administration, and also how this relates to our national 
security.
    Secretary Azar. Absolutely. Thank you. So the Strategic 
National Stockpile is important, I think not, for the 
Administration, but for the American people, and we propose a 
$10,000,000 increase for the SNS. That is going to allow us to 
stockpile this new, first time ever, a smallpox antiviral drug, 
so actual treatment for smallpox which we approved at the FDA, 
the first-ever ever treatment for smallpox in addition, of 
course, to having a vaccine. In addition, it will allow us to 
purchase a newly-developed thermal burn bandage.
    You mentioned BARDA. BARDA has been a real success story of 
our national security enterprise at HHS. BARDA does research 
and development of projects that would otherwise be neglected 
by the commercial sector, the drug and device space. That has 
successfully led to 43 FDA approvals since 2006 and nine FDA 
approvals since 2018 alone. I think it is a real success story 
of how we can work in a public/private partnership for national 
security purposes.
    Mr. Moolenaar. And then also, you mentioned, talked a 
little bit about the CDC earlier, the surveillance data 
platform. Do you have a timeline for the completion of the 
surveillance data platform, and kind of how is the effort going 
on in that area?
    Secretary Azar. I don't have a timeline for you on that, 
but I would be happy to have Dr. Redfield get you information 
on that if that would be helpful.
    Mr. Moolenaar. Thank you very much. I would appreciate it.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Mr. Moolenaar. And then, you know, we are running out of 
time here soon, but a couple other things I wanted to ask you 
about is some of the threats we face today is the rise of 
antimicrobial resistance, and wondered if, you know, how the 
Federal investments in this might encourage more industry 
investment and stabilize a long-term development in this area.
    Secretary Azar. What I'm working on right now is thinking 
about this actually in that kind of BARDA context we just spoke 
about. You might think that there would be all the natural 
incentives for the private sector to develop anti-bacterials to 
solve the AMR crisis, that there is clearly a market 
opportunity. The challenge is actually what we need to have 
happen is antibiotics to be developed that sit on the shelf 
because we have to hold them in reserve, we need them not to 
become anti-microbial resistant out there.
    So we are asking the private sector to develop something 
that you don't want to get used and create a marketplace for. 
So we have to solve this essentially market failure question. 
BARDA, Project Bioshield are exactly the types of vehicles. So 
I am working with our team looking at how we might be able to 
use tools like that to incent the production of the antibiotics 
that we need for the future and for our defense.
    Mr. Moolenaar. Thank you very much. Thank you, Madam Chair.
    Ms. DeLauro. Congresswoman Frankel.
    Ms. Frankel. Thank you for being here. Lois Frankel from 
Florida. Secretary Azar, should the government be allowed to 
force a woman to have a child?
    Secretary Azar. Should the government be allowed to force a 
woman to have a child? We are a pro-life Administration, and we 
certainly don't believe government money should be used to fund 
abortions.
    Ms. Frankel. Should the government be allowed to force a 
woman to have a child?
    Secretary Azar. We are here at our Department following the 
laws and constitutional restraints implemented by the courts of 
the United States. I don't have a policy position for you on 
that.
    Ms. Frankel. I would hope your position would no government 
should be able to force a woman to have a child, but I will 
move on. Okay. Would you agree that a frequent consequence of 
unintended pregnancy could be abortion?
    Secretary Azar. I think it would depend on the culture and 
the legal environment in which one----
    Ms. Frankel. Are you aware of any research? There is a lot 
of research that shows that consequences of unintended 
pregnancies often lead to abortion.
    Secretary Azar. I think we all share the goal of decreasing 
unwanted pregnancies and decreasing teen pregnancies. I think 
we all actually share that goal. The question becomes whether 
programs that claim to be evidence-based are in fact evidence-
based, and where does the evidence point us in terms of 
reducing teen pregnancy.
    Ms. Frankel. So, well, since you brought up the question of 
teen pregnancy, you would be aware that teen pregnancy is the 
number one reason that teenage girls drop out of school.
    Secretary Azar. And the teen pregnancy program we don't 
believe is evidence-based and actually leading to a reduction 
in teen pregnancy.
    Ms. Frankel. Well, you don't have any teen pregnancy 
program, do you?
    Secretary Azar. Well, we would be happy to work with you if 
there is one that would actually provide good results.
    Ms. Frankel. Okay.
    Secretary Azar. The one that we have right now that we have 
proposed eliminating, the Obama Administration's own data 
showed that in 37 funded and evaluated products, 73 either had 
a neutral or negative effect on teen pregnancy, including 
encouraging unprotected sex, becoming pregnant, or encouraging 
teenagers to become more likely to have sex.
    Ms. Frankel. Well, if a teen is active sexually, don't you 
think that if they don't have access to safe birth control, it 
will likely lead to an unintended pregnancy?
    Secretary Azar. Well, that is what this Administration is 
fully supportive of the Title 10 Program for comprehensive 
family planning services and a fully-funded Title 10 at a flat 
level even in an environment where we are making significant 
cuts across the other programs.
    Ms. Frankel. Thank you. I am glad we are talking about 
Title 10 now. Title 10, if I understand, offers cancer 
screening, STD testing, birth control, other services that 
cover and support women's health. Abortion is not covered by 
Title 10. Is that correct?
    Secretary Azar. It should not be.
    Ms. Frankel. Well, it is not, and I want to ask you a 
question. You have a new rule. The current law requires 
financial separation, correct, between a service provider 
providing an abortion and these other health services that I 
just mentioned.
    Secretary Azar. The regulation that we are now implementing 
requires financial separation.
    Ms. Frankel. Well, let me ask you this. Can you give me any 
example where money has been misused under Title 10, for any of 
the Title 10 providers using Federal money for abortion? Do you 
have one example for me?
    Secretary Azar. So 10 of Title 10's 96 grantees are Planned 
Parenthood organizations, and one of the common complaints 
raised by folks who are opposed to our Title 10 rule is they 
claim that with if you require the fiscal and physical 
separation of abortion services from Title 10, that you will 
cause those other services to go away. Almost by definition in 
making that argument, one concedes that we have been 
subsidizing the abortion enterprise by the lack of appropriate 
fiscal and physical separation.
    Ms. Frankel. I am going to reclaim my time to have you 
please just answer my question. Do you have any evidence, any 
facts, to show that any current Title 10 provider is using 
Title 10 money to perform an abortion?
    Secretary Azar. I would have to get back to you in writing 
on that.
    Ms. Frankel. Well, I will tell you your answer. Your answer 
is no. So you would agree then that with a physical separation, 
that that is going to actually require providers, if a provider 
of Title 10 provides general health services and also either 
does counseling, a referral to abortion, or performs abortion, 
that if you also now require physical separation, that is going 
to require new building, rent, and some extra expenses for that 
provider. Is that correct?
    Secretary Azar. Exactly.
    Ms. Frankel. And exactly your intention is to drive Planned 
Parenthood out of business. Is that your----
    Secretary Azar. Not at all. Not at all. Planned Parenthood 
may comply with these rules, but exactly the point you just 
made. We are currently inappropriately subsidizing 
infrastructure, physical plant, and staffing of abortion 
services which we believe is in violation of what you and 
Congress have put in the Title 10 provision to not provide 
funding to support abortion as a method of family planning.
    Ms. Frankel. Well, just with all due respect--I think my 
time is running out--I would respectfully request that you 
bring to us any evidence, any fact, showing that a Title 10 
provider has misused funds and used it for abortion. And I 
await your evidence. And I yield back.
    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Secretary, for being 
here. First of all, I want to say that the budget for the 
Department of Health and Human Services is continuing to cut 
critical programs addressing minority health disparities, and I 
find that very disconcerting. The Office of Minority Health, 
nearly $5,000,000 is cut. The National Institute of Minority 
Health and Health Disparities has a $44,000,000 cut, and the 
REACH Program has a $55,900,000 cut. These are all very 
important programs that address the unique needs of communities 
of color, particularly African-American communities. And so it 
is very disconcerting to see what this budget does to it.
    In 2010 because of the Affordable Care Act, we have seen 
the uninsured rate for African-Americans to be cut in half, 
from 20 percent to 11, and for black mothers in particular 
provide lower health quality maternal care even when they are 
able to access healthcare has been being critical that the ACA 
requires plans that include these essential benefits, like 
pregnancy, maternity, in addition to newborn. Sometimes 
pregnancies aren't planned, so I have a bill called the Healthy 
Moms Act that allows women to access insurance when they find 
out that they are pregnant.
    But I just found out that the short-term plans, also known 
as junk plans, that the President Fiscal Year 2020 budget touts 
does not include maternal care as a benefit. No junk plans will 
cover this. Given that the average cost for a hospital day for 
a delivery is about $3,500, can you speak to the impact that 
this change in the Administration policy would have on families 
across the country? Question number one. I am going to ask my 
questions.
    I just met with my State health commissioner today who was 
extremely concerned about the $70,000,000 cut to the National 
Center for Immunization and Respiratory Diseases, its cut of 
$68,000,000. He is particularly concerned how it impacts adults 
and their immunizations. As the uninsured rate has increased 
for the first time since implementation of the ACA, we see 
outbreaks of hepatitis A and B across the country. How can you 
say the budget addresses the opioid epidemic when it fails to 
support preventive health measures that will counteract 
consequences of using opioids? I am going to with those two 
questions first.
    Secretary Azar. So on short-term limited duration plans and 
maternal care, we are very transparent as was the Obama 
Administration that in offering short-term limited duration 
plans, they do not cover all of the essential health benefits. 
They don't have to. They can. They can. We are seeing some 
plans that do have, for instance, preexisting coverage within 
them, but if I were a woman of childbearing age, for instance, 
and concerned about maternal coverage and getting pregnant, 
that would be precisely why one would want to get a regular 
comprehensive insurance plan through the exchanges.
    We are making these options available for others for whom 
the basic coverage may be unaffordable in the Affordable Care 
Act exchanges. These can be 50 to 70 percent cheaper. It is a 
lifeline to people who may be shut out of the insurance market 
and for whom the ACA plans don't work. But they have to go in 
with their eyes open, and we have tried to enhance actually 
consumer warnings there to be sure they know what they are 
getting.
    Mrs. Watson Coleman. Well, with regard to that comment 
about enhancing consumer warnings, the Administration has 
reduced money that is available to be used to make known what 
is covered when coverage is available and how you can get 
covered. So, I mean, that is also disconcerting that you would 
say that they need this education so that they can go into 
these situations with eyes wide open, but at the same time we 
cut some of the money that is available to them to educate 
them. With regard to the immunizations, adult immunizations in 
particular.
    Secretary Azar. Right. So if I understand the program you 
are referring to, which is the CDC's 317 Immunization Program, 
that mostly is for infrastructure and operations to States 
which has a $78,000,000 reduction in it. We have actually 
Increased Vaccines for Children Program, which is for mostly 
low-income vaccine purchase and delivery, and that is increased 
by $586,000,000 in the budget.
    Mrs. Watson Coleman. My commissioner was particularly 
concerned about the impact on adults, and particularly since 
the changes that are taking place in the ACA, there seems to 
have been an outbreak of hepatitis A and B in the country 
actually.
    Secretary Azar. So I don't know. Hepatitis A and B 
outbreak, I would want to get back to you on that. I don't 
speak off the cuff there. Happy to get you information. I have 
not received reporting about an A and B outbreak. Of course, we 
are very concerned about hep C issues involved connected to the 
opioid epidemic of course. Happy to get back to you on that, 
though, if that would be helpful.
    Mrs. Watson Coleman. Yes, it would. Thank you.
    Secretary Azar. Okay.
    Mrs. Watson Coleman. My time is up.
    Ms. DeLauro. What I want to do is to move rapidly for a 
second round and make the questions just 3 minutes and hold to 
it, and then allow for wrap up because I know the Secretary has 
a commitment as well.
    You made reference to a Global Pricing Index for drugs on 
Medicare Part B. The President says Americans pay more so than 
other countries. Secretary, the International Drug Pricing 
System has put America in last place. Your testimony is silent 
about the Administration's plan to link Medicare Part B 
payments to prices paid in other wealthy countries, such as 
France or Germany. The status of that program, when will it go 
into effect? Are you backing away from it?
    I don't understand why the U.S. doesn't use its own cost-
effectiveness determination to set Medicare drug prices. Will 
the Administration apply the same International Price Index to 
Part D? Why not? What makes Part B drugs special?
    Secretary Azar. Yeah. So I don't believe it is referred to, 
at least in the budget, in brief. It may be in the longer 
congressional justification that comes next week. But, no, we 
did the advance notice of proposed rulemaking, got a, I think, 
a lot of useful feedback on that, and that we will be working 
towards preparing a notice of proposed rulemaking to implement 
that program with appropriate modifications if need be. But we 
are very committed to that in Part B. Why not Part D?
    Ms. DeLauro. Why not Part D? Yeah.
    Secretary Azar. Again, and these are points that we are, I 
don't mean to be closed-minded. We are happy to discuss these 
with you.
    Ms. DeLauro. Okay. That is fine.
    Secretary Azar. We want a bipartisan solution on drug 
pricing.
    Ms. DeLauro. Right. Right.
    Secretary Azar. We want to work together, so please don't 
take anything that I am saying here as, you know, attempting to 
be in any way closed-minded about.
    Ms. DeLauro. Right.
    Secretary Azar. But it is just I am trying to find 
solutions where we are not getting the prices that would be 
competitively reflected in D. Part D, we are getting European-
level discounts where we let them negotiate. The problem is we 
actually have areas like the six protected areas. We have 
disabled them from being able to negotiate.
    Ms. DeLauro. Let me just add to this. I was going to say 
something about antimicrobial resistance, which my colleague 
mentioned. But I hope you will take a very, very hard look at 
the renegotiated NAFTA treaty. And there, whatever you are 
going to do, there is an enormous giveaway to the 
pharmaceutical industries. They are going to lock in a 10-year 
patent exclusivity for biologics. By your own words, two-thirds 
of Part B drugs are biologics. Secondly, they are going to 
expand the definition of ``biologics,'' thereby making more 
drugs that may be at a 5-year patent exclusivity 10 years, and, 
therefore, we are going to see prices increase here.
    So we lock in the prices at the current rate, and they are 
thousands and thousands of dollars, and that is in this 
agreement. We expand the definition of ``biologics,'' and then 
we cannot come around because of an international treaty. We 
then cannot take exclusivity, move it from 12, 10, or whatever 
it is because then we are in violation. No matter what you do, 
no matter what you say, no matter what we say or do, if we move 
in the direction of what is currently now in the NAFTA 
agreement, you are not going to be able to get where you want 
to go, nor will we be able to lower the cost of prices for the 
American people. And we will lock in those high costs today.
    So I ask you to please take a look at that agreement and 
make your voice heard. And that this shouldn't be a part of a 
trade agreement, nor should we be giving away a gold mine to 
the pharmaceutical industry. Yield back. Mr. Cole.
    Mr. Cole. Thank you very much, Madam Chair. I just have a 
couple of quick things I wanted to do that is almost 
housekeeping. But last year we put in something in the Disease 
Rapid Response Fund, put about $50,000,000. You have not had to 
tap that. Is that correct?
    Secretary Azar. I am sorry. I am informed that is correct.
    Mr. Cole. Okay.
    Secretary Azar. I apologize.
    Mr. Cole. And the reason why I asked, I was very pleased to 
see you put it in again. And just for the record to 
reemphasize, the idea was if we didn't have to use it, we would 
carry it over. So, you know, hopefully, God willing and the 
creek don't rise, if you won't have to use that money this 
Fiscal Year, that would be available. Hopefully then that would 
grow. And the idea was just to have a little bit of a savings 
account and to give you flexibility in a real crisis situation.
    The second thing was, I wasn't so fortunate to get one of 
my ideas readopted, but I want to ask you about it, and it is 
graduate medical education. We set aside $25,000,000 last year 
with the idea of encouraging this competitive grant situation. 
States that have a shortage of physicians, particularly in 
rural, underserved areas, to try and encourage them. So far I 
don't think you have issued any guidelines on how the States 
could actually compete for that. Do you happen to know the 
status of that right now?
    Secretary Azar. I don't, but we will get you right away.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Cole. I would appreciate that because I----
    Secretary Azar. I apologize. I had not heard about that 
particular program.
    Mr. Cole. That is what I am afraid of, that this will slip 
through. And, frankly, we will have a budget deal at some time 
and then we will see what is available and where we are really 
at in this. But that is one that particularly underserved rural 
areas can really benefit from.
    Finally, I want to--well, not finally. I am going to 
squeeze in as much as I can. I wanted to really thank you on 
Head Start. Again, I know you had to make really, really tough 
budget choices. There are some of the other early childhood 
education things that I would have liked to have seen. But I 
think my colleagues, Mr. Graves and Mr. Harris, make a good 
point. You are dealing from the budget that Congress has given 
you. Our real problem is, of course, when set said that budget 
out, the idea was it would be serious entitlement reform. We 
set up a committee to do that, and this alternative was to be 
so egregious that it would actually force Congress to deal with 
where the real drivers of the debt is.
    For the record, it is worth noting that non-defense 
discretionary spending in Fiscal Year 2019 is less than it was 
in Fiscal Year 2010. And defense and OCO spending in 2019 are 
less than they were if you combine the two in 2010. So on the 
discretionary side of the budget, we have actually done pretty 
well.
    The failure, and there are plenty of people to answer for 
this on both sides of the aisle and on both ends of 
Pennsylvania Avenue, is the failure to deal with entitlement 
spending, you know. And I know you have been trying to wrestle 
with that as best you can, and I appreciate that. But we won't 
get to reasonable budget levels until we do that, until we 
really get serious. And I know I have talked with the 
Administration and the last Administration about that, and I 
would urge you to do what you can to move us in that direction.
    With that, Madam Chair, I will stay within 3 minutes and 
yield back.
    Ms. DeLauro. Congresswoman Clark.
    Ms. Clark. Thank you, Madam Chair. I want to go back to our 
discussion about treatment. One of the statistics you have 
cited repeatedly today is the good news that naloxone has gone 
up 123 percent. And certainly every single life saved is one 
worth saving, and we are glad that Narcan or naloxone was 
there. But you have to agree, I would think, Mr. Secretary, 
that that is like saying we have gone up 123 percent in using 
defibrillators to stop heart attacks, to revive patients having 
a heart attacks. And without a treatment, without investing in 
prevention, that Narcan alone does nothing to stem this crisis.
    And I hope you will reconsider what you are doing here with 
these cuts to Medicaid, that you are taking the most effective 
way we have that millions of Americans rely on to get 
treatment, and sort of cavalierly saying it is going to be up 
to the States. The reason that decision is going to the States 
is because you know caps will be imposed that your own budget 
estimates will be at one-and-a-half or a little under 
$1,000,000,000,000. That is not the way we treat a public 
health crisis with urgency, and it belies the very national 
emergency label that this Administration put on the opioid 
crisis in March of 2017.
    I hope you will think about these families at home, and I 
hope you that you will reconsider this. And I hope that the 
President or whoever talked the President into reversing his 
promises to the American people, one, that he would address 
this crisis, and, two, that he would not cut Medicaid, will 
realize that he is turning his back on people who need help. We 
are not meeting the treatment needs now. Medicaid is one of the 
very best ways that people can access treatment, and I find 
this an extremely disturbing part of this budget. And I know 
the hallmark of this Administration is not consistency, but 
this particular opioid crisis is too important to turn our 
backs on people who are looking for treatment. Thank you.
    Ms. DeLauro. Congressman Graves.
    Mr. Graves. Thank you. Mr. Secretary, thank you again. A 
lot of talk today about your policy as it relates to Title 10 
and abortion. In your opinion, this new policy, will it result 
in more life or less?
    Secretary Azar. I believe that it will result in more life 
and better life. It will result in more high-quality, 
comprehensive family planning services to those who are 
currently underserved or underserved, and it will ensure the 
integrity of what Congress put in place, which is that the 
taxpayer money should not be used to support programs in which 
abortion is used as a method of family planning, even 
indirectly through cross-subsidization, which, I think, as we 
have heard from the types of examples and concerns that get 
raised, almost prove the point that there is an acceptance that 
we are cross-subsidizing the abortion enterprise. That doesn't 
have to be the case. We can provide comprehensive Title 10 
family planning services without subsidizing abortion.
    Mr. Graves. So the policy promotes life, new life.
    Secretary Azar. It promotes life.
    Mr. Graves. Today versus what might have been in the past. 
We should all be for that, and I applaud you and the 
Administration for being one the most pro-life Administrations 
that we have seen in many, many years. Quick question from a 
science perspective. I am no doctor, as you and Dr. Harris and 
others are. Does science currently recognize an unborn fetus as 
life?
    Secretary Azar. I like you am not a doctor, so I would 
hesitate to ask a science question.
    Mr. Graves. Okay.
    Secretary Azar. This Administration takes the position that 
the mission of HHS is to protect all life from the moment of 
conception up until natural death.
    Mr. Graves. Yeah, and I take the same position. And the 
reason I am bringing that up is because I think there is a 
large agreement here amongst this panel. It is just a matter of 
in large agreement in life. I heard the chairwoman express her 
concerns about suicide and the epidemic that it is, and that is 
horrific, and it is the ending of a life. For me and Mr. Harris 
and others, life is at conception for us, and anything that 
ceases that is the taking of a life.
    And so sometimes it is really about where do we place value 
on life on that spectrum, and for me, I place that value very 
early in a very safe spot, you know, a place in which I think 
is very important. But I recognize the chair and others place 
it at a different spot. And at some point, I hope we could be a 
country that just values life in general from beginning to end, 
its natural end, and that we could find some common ground on 
that.
    But let me thank you and the Administration for your 
position and in taking a hard fast position on the promotion of 
new life. Thank you, Mr. Secretary.
    Ms. DeLauro. Congresswoman Frankel.
    Ms. Frankel. Oh my goodness. I mean, I hate to be 
argumentative, but I would just say this. If you are for more 
life and better life, then you should do something about these 
family separations because you are ruining the lives of 
thousands of children. Now, with that said, let me go on, get 
back to this subject that we talked about before. Let me ask 
you this. What does your research show to be consequences of 
unintended pregnancies?
    Secretary Azar. We would be happy to provide you with 
research on the consequences of unintended pregnancies. But 
like I said before, none of us want unintended pregnancies or 
teen pregnancies. I think we all share that goal. We will 
differ about methodology and programs and efficiency of them or 
effectiveness of them. But I think there is no air between us 
on that.
    Ms. Frankel. Well, actually, I am actually happy to hear 
that. So I just want to point out what I think is an unintended 
consequence if you are of this position, which is there is a 
new rule, I don't know it is going into effect or it is in 
effect now, which is going to give a lot more leeway to 
employers, to schools, to insurance companies, to opt out of 
the ACA mandate of no co-pay for coverage. This is the rule 
that allows some kind of moral or religious exception. So 
wouldn't agree that that that rule will have the effect, 
especially for poor women, of less access to birth control?
    Secretary Azar. So this is the contraceptive mandate rules 
which actually have gone final, just so you know.
    Ms. Frankel. Okay. Thank you.
    Secretary Azar. We believe that we can advance 
simultaneously the goal of access for women to contraception 
and still respect the right of conscience in healthcare and 
employment. We believe this will have no impact on 99.9 percent 
of women. The very few employers we expect will take us up on 
this, I believe at most could affect 126,400 women. In 
contrast, under the Affordable Care Act itself, 2,400,000 are 
covered by grandfathered plans that don't have any 
contraceptive mandate, but I don't hear anyone complaining 
about the grandfathered plans there.
    We don't prohibit employers from covering drugs. We simply 
grant some of them who wanted an exception, and we have 
actually taken any women who are at employers that take 
advantage of that contraceptive mandate exception for 
conscience and moral objection, they would be then in our Title 
10 rule. We have actually made them eligible participants in 
the Title 10 Program for free access to contraceptive care 
there.
    Ms. Frankel. Okay. Well, if that is true, let me just say 
this. You are about to, and I really see this as a deliberate 
effort on your part, Administration's part, to put Planned 
Parenthood out of business, now covering $2,500,000 women. Oh, 
I am done?
    Ms. DeLauro. Yes.
    Ms. Frankel. I am done. [Laughter.]
    Ms. Frankel. I think the women of this country are going to 
be done under your Administration, but thank you for being 
here.
    Ms. DeLauro. Congressman Harris.
    Mr. Harris. Thank you very much, and I want to associate 
again with the remarks of the gentleman from Georgia. I will 
tell you as a doctor, one human being dies in every abortion. 
One human being dies in every abortion. Look, I want to thank 
you for the conscience protection rule. I mean, the Little 
Sisters of the Poor should not have had to go to the Supreme 
Court of the United States in order to get justice in this 
country.
    I mean, conceptualize this. The Little Sisters of the Poor, 
you forced them to actually provide a medical service, 
healthcare service--you can call contraception a healthcare 
service--in contradiction, clear contradiction, to their 
religious beliefs. I applaud the Administration for protecting 
conscience. I would hope that everyone would.
    With regards again, and I will just end. I want to applaud 
the President for standing against the post-birth infanticide 
that has been suggested by the New York law and by a Virginia 
law that fortunately didn't pass. I would hope that Congress 
gets a chance to vote on the Child Born Alive Act, and I would 
hope every member of Congress would agree that a baby born 
alive should actually be given a right to live. I would hope.
    Let me just ask you, and I do want to mention just one 
thing going through CMS, that we are dealing with CMS on is, 
you know, approval for the use of oxygen for cluster headaches. 
This is very interesting because I have had cluster headaches. 
Oxygens work for me. In the setting where, you know, a small 
group of patients has severe pain and we are in the middle of 
an opioid crisis, why CMS drags its feet to provide coverage 
for an alternate therapy because the therapy for cluster 
headaches normally proceeds to opioids, it is such severe pain. 
And yet oxygen exists, it works, and CMS won't cover it for 
Medicare patients. If you could, you know, just scratch the 
surface and look into that, I would appreciate it.
    Finally, you have got the rebate rule, you know, for the 
seniors, the recently-released rebate rule. Could you go 
through how that is going to help our seniors?
    Secretary Azar. It is going to help our seniors 
immediately. What is happening now is these discounts and 
rebates are going to middlemen, to the pharmacy benefit 
managers, and when the patient shows up at the pharmacy, they 
are paying off of the full freight price of the drug. If we can 
get this through, and if you can help me get this rebate rule 
through, we can bring $29,000,000,000 of rebates that are right 
now going to PBMs, to our seniors when they walk in the 
pharmacy starting January 1. And it will finally reverse this 
incentive towards higher list prices.
    We could see decreases, massive decreases, of list price on 
some of the highly-discounted drug classes that we have in this 
country at the point of sale. I think it is all good, and I 
would love us to work together on a bipartisan basis to get 
this done.
    Mr. Harris. Could this help with the cost of insulin for--
--
    Secretary Azar. This could help with classes like insulin 
and others that are extremely highly-discounted products that 
are 50, 60, 70 percent discounted to middlemen, but the patient 
is not getting the benefit of it at the pharmacy.
    Mr. Harris. Thank you very much. I yield back.
    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. Thank you. Secretary Azar, regarding 
the immunization issue, my concern is that the hepatitis A, B, 
and C often gets spread through needles, sharing of needles, 
often are related to the opioid issue. And so that is why the 
commissioner raised that issue. Secondly, one of the reasons 
that we have access to legal abortions and safe abortions is 
because so many women were dying when you didn't have access to 
safe abortions. And so the decision was made that we wanted to 
preserve life, not lose life unnecessarily.
    Thirdly, I wanted to just bring your attention to something 
that I kind of picked up: $55,900,000 to the REACH Program 
because the REACH Program has been eliminated, but you never 
answered Barbara Lee's question as to why. $44,000,000 has been 
cut from the National Institute on Minority Health and 
Disparities; $5,000,000 from the Office of Minority Health, and 
an additional $1,000,000,000 plus to TANAF, which is relief to 
families in welfare situations.
    I guess the question here is that, from my perspective, it 
doesn't seem that this budget here addresses the unique needs 
of those in the poorest communities and in communities of 
color. I distinctly remember the President saying to the black 
community ``What have you got to lose?'' Well, according to 
your budget, we have a lot to lose. I yield back.
    Ms. DeLauro. Thank you. What we will do is to move to wrap 
up, and let me ask the ranking member if he has any closing 
remarks.
    Mr. Cole. Thank you, Madam Chair. Mr. Secretary, I want to 
thank you again for being here, being so generous with your 
time. We ran a little bit late, but thank you for indulging us. 
I want to thank you quite sincerely for the terrific job I 
think you are doing for the country and the manner in which you 
represent the Administration. We put a lot of knotty problems 
at your feet or in your inbox. Dr. Harris and I were talking 
about how pleased we are with some of the innovative policy 
suggestions and provisions: this effort on drug pricing, the 
effort to end HIV as an epidemic in this country, lots of other 
things.
    And I know, you know, you have done it within constrained 
resources in the budget that the President has chosen to give 
you, and I think those are all good things. There are a lot of 
good things in here that I agree with. My hope is we arrive at 
a budget so we don't end up giving you a CR. And so that is 
above everybody's pay grade at this table unfortunately, but I 
know we all work with you when that happy day arrives.
    And, again, if we can ever be of assistance to you as you 
go forward, please don't hesitate to call on this committee. We 
may have differences in a number of areas, and there may be 
differences in some individual members' points of view and your 
own or the Administration's. But I think everybody recognizes 
the talent and the integrity that you bring to the job and the 
enormous service that, in my view, you are rendering to the 
American people as you do it, I know at probably considerable 
sacrifice. So thanks for taking on the burden. I look forward 
to working with you going forward. Yield back, Madam Chair.
    Ms. DeLauro. Thank you very much, and thank you, Mr. 
Secretary, for being here. We are trying to meet your need to 
be out of here, so I will try to be succinct in my final 
remarks. But I do appreciate your being here and work that you 
are doing.
    I think that the notion that where we have to go is 
entitlement reform, misses the big picture. It would appear 
that we are looking at a $2,000,000,000,000 cut in Medicare and 
Medicaid, and at the same time we have done $2,000,000,000,000 
in tax cuts for the richest people in this Nation. It is 
amazing how they equate with one another.
    And in this budget, we are taking a look at a 
$12,700,000,000,000 cut to HHS, 14 percent. NIH, 
$5,200,000,000. HRSA, $1,000,000,000. CDC, $750,000,000; LIHEAP 
eliminated. We didn't get to talk about the anti-microbials, 
and my colleague, Mr. Moolenaar is gone. But we are looking 
there at $120,000,000 cut at HHS for anti-microbial resistance. 
Incredible. Community Services Block Grant is eliminated. 
Medicare, $845,000,000,000 cut. SNAP, a $20,000,000,000 cut.
    And, you know, I would also say this, and I read down that 
list, you know, here what we have to do is that you can't talk 
about voting for life and pick and choose those issues that you 
believe are going to promote life. I would submit to you that 
the NIH, HRSA, CDC, LIHEAP, anti-microbial resistance, 
Community Services Block Grant, Medicare, SNAP, these are life 
issues. And some of my colleagues just like to pick and choose 
those that suit their own ideologies.
    We don't have that luxury in this body. We have to consider 
life issues across the board, and that extends to what we did 
at the border. And my hope is that in that regard, Mr. 
Secretary, that you will rescind that MOU agreement with ICE 
and look at trying to assist people in getting a placement, a 
child in a safe environment. We all want this.
    And I am going to close with where I started. This is an 
Administration that is not shy about spending, a 
$1,500,000,000,000 tax law, rigged for corporations and the 
richest Americans. This Administration opposes spending when it 
aids the vulnerable, when it promotes the common good, or when 
it makes opportunity real for people. That cannot be the 
construct. I don't believe you believe that, but my hope is 
that you would make the same kind of fights that we are to 
protect the American people, their health and their welfare.
    And let me draw this committee hearing to a close. Thank 
you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                           Tuesday, March 26, 2019.

      DEPARTMENT OF EDUCATION BUDGET REQUEST FOR FISCAL YEAR 2020

                                WITNESS

HON. BETSY DEVOS, SECRETARY, U.S. DEPARTMENT OF EDUCATION

                     Chairwoman's Opening Statement

    Ms. DeLauro. Good morning. The Subcommittee will come to 
order.
    Good morning, Madam Secretary, and let me just welcome you 
to the Subcommittee for what is our second budget hearing of 
the year. And today we are examining the President's proposed 
Budget for 2020 for the Department of Education.
    You have heard me say this before so it is not new. I 
believe that this Budget is cruel, and I believe that it is 
reckless. I believe that it will hurt the middle class, 
working, low-income families that most need our help. In fact, 
the proposed Budget cuts nearly $9 billion from the Department 
of Education, including the proposed $2 billion Pell Grant 
rescission.
    And meanwhile, it proposes a new $5 billion annual tax 
scheme which is unregulated, unaccountable, in an effort to 
fund private school voucher programs. That would undermine our 
public schools. It would allow an unaccountability in that use 
of taxpayers' funds. With provisions like that, I really am 
left with a very serious question for you. How can you support 
this Budget? I mean that genuinely. You are the Secretary of 
the Department of Education. How can you support, and maybe 
even take pride or boast about taking 10 percent, or more than 
12 percent if you do count the Pell rescission, away from 
teachers and away from students?

          PRIOR HEARINGS ON SERVICING AND PROPRIETARY SCHOOLS

    For me it is beyond the pale. You should know that 
education is a top priority for everyone on this Subcommittee, 
and today is our third hearing on programs related to the 
Department of Education. First we scrutinized the $1.7 billion 
the Subcommittee provides for loan servicing. We heard examples 
of servicers putting students on the path to default by 
misinforming them about their repayment options and the 
Department's failures to hold servicers accountable.
    We heard from the Office of the Inspector General, who 
cited, in their recent audit report, about how the Federal 
Student Aid, FSA, was asleep at the wheel in its oversight of 
servicers and even relied on the memories of its own employees 
for tracking recurring noncompliance with Federal law.
    Sixty-one percent of all monitoring reports showed evidence 
of servicer failures. FSA has said that it has, or will 
implement, all of the IG's recommendations, and yet FSA has yet 
to fully implement past recommendations from the Government 
Accountability Office.
    And while the Next Gen initiative has promise, the 
Department needs to be taking into consideration the compliance 
of contractors upholding the law, which is not currently the 
case. In that regard, I find it alarming that within 3 months 
of your confirmation you withdrew the Mitchell and King memos, 
which would have addressed many of the system's current 
failures.
    Second, we held an oversight hearing on predatory for-
profit colleges. They enroll 9 percent of all students in 
postsecondary education and yet for-profit colleges account for 
34 percent of all student loan defaults. Their business model 
relies on exploiting Federal financial aid, like Pell Grants. 
These schools target the most vulnerable and our veterans. We 
heard from a student veteran who was left with a worthless 
degree and $100,000 in debt after being lured into thinking 
that Pell and GI Bill would cover his costs.
    Meanwhile, the Department is working to roll back critical 
protection for students and taxpayers, specifically, the 
Gainful Employment and Borrower Defense rules, and the 
Department is currently working on efforts that could roll back 
even more.
    Before we get into the specifics of the Department of 
Education Budget, let me say that the President's Budget 
guiding principle, one that bolsters military spending while 
sharply cutting funding in education and training, while 
claiming that we simply cannot afford it, is an argument that I 
wholeheartedly reject, and I am not alone.

                   NON-DEFENSE DISCRETIONARY SPENDING

    Earlier this year, more than 300 military leaders wrote to 
Congress asking for balanced investments in both defense and 
non-defense spending. They say, and I quote, ``Non-defense 
discretionary programs play a variety of roles in supporting 
and enhancing our national security by contributing directly to 
health, education, and development of our youngest 
generation.'' They reached this conclusion because 71 percent 
of young Americans cannot qualify for military service because 
they are, and I quote again, ``too poorly educated, medically 
or physically unfit, or have a disqualifying record of crime or 
drug abuse,'' end quote.
    I do appreciate that the President's Budget requests new 
funding for science, technology, engineering, mathematics, STEM 
programs. The carve-out initiated by this Subcommittee in the 
Education Innovation and Research program, that is a commitment 
that I share.
    And while I am pleased that the President's budget request 
abandons a previous proposal to shift $500 million from 
neighborhood public schools, where 90 percent of our children 
attend, to private school, I am disappointed that the 
Administration is proposing a new $5 billion-a-year tax scheme.

                          PROPOSED BUDGET CUTS

    Data we have strongly suggests that vouchers do not work, 
and Institute of Education Sciences' gold-standard evaluation 
of Washington, D.C., the only federally funded voucher program, 
found that vouchers negatively impacted student achievement. 
And I might add that you are also cutting funding for IES by 15 
percent. This is the entity that your own budget documents say, 
quote, ``provides valuable insight into how public dollars 
could be better used to improve student outcomes.''
    The three education budgets from this Administration have 
proposed the largest cuts to education funding in four decades. 
That is since the department was created in 1979. Madam 
Secretary, I just say--I have to say, I mean, it is--shame on 
you. This is your watch. You are Secretary of the Department of 
Education. In your testimony you talk about freedom, but what 
is happening here is that you and the President are proposing 
to abandon middle-class families and those families who are in 
need. This is not freedom.
    Yet I will note the Administration is not shy about 
spending and using government when it comes to benefitting 
corporations and the richest, such as the $1.5 trillion tax 
scam and crop insurance subsidies, which can go to the richest 
of the rich since there are no eligibility caps. No, the 
Administration only opposes spending when it aids the 
vulnerable, when it promotes the common good, or when it makes 
opportunity real for people.
    Many of these cuts were rejected under a Republican 
Congress for 2 years, yet here they are again. You have 
eliminated 30 programs, totaling $7 billion, and you have cut 
another $1 billion, eliminating the Impact Aid payments for 
Federal properties, Special Olympics, after-school grants that 
help people with disabilities find jobs, eliminating literacy 
programs that build the foundation for a lifetime of learning, 
and the main program, Title II, that helps to attract and 
retain high-quality and diverse leaders while directing scarce 
education resources to unproven, unaccountable private entities 
through a new, quote, ``teacher voucher proposal,'' eliminating 
a temporary fix for rejected borrowers who thought they 
qualified for Public Service Loan Forgiveness, and slashing 
adult education, Federal Work-Study, TRIO, and GEAR UP.
    On the mandatory side that is outside of this Committee's 
jurisdiction, the Budget again proposes to eliminate subsidized 
student loans and the Public Service Loan Forgiveness program, 
worsening the student debt crisis. In a rare move, the Trump 
administration's own Department of Defense opposed the House 
Republicans' Higher Education Act reauthorization bill last 
Congress because it, too, eliminated PSLF, stating, and I 
quote, ``DOD opposes this legislation because the Public 
Service Loan Forgiveness program has been an important 
recruitment and retention tool for the military to compete with 
the civilian sector.''

    SCHOOL SAFETY AND STUDENT SUPPORT AND ACADEMIC ENRICHMENT GRANTS

    And even a boost to School Safety National Activities is 
not what it seems. It seeks to make up for the proposed 
elimination of $1.2 billion Student Support and Academic 
Enrichment grants, which includes a set-aside for school 
safety. The SSAE grants support mental health counselors and 
services in addition to providing a well-rounded education by 
providing exposure to music and to the arts. The new proposal 
is still a poorly designed cut that does nothing to look at the 
role of guns in school shootings, just like the Federal 
Commission on School Safety failed to do as well.
    At this point, let me just say that I also continue to 
support--I continue to oppose your indefensible silence which 
leaves the door open to states using Federal dollars to arm 
teachers versus current law. Congress never contemplated that 
the SSAE grants would be used for the purchase of firearms. In 
fact, Congress denounced the presence of firearms in schools in 
the Elementary and Secondary Education Act, Section 4102(5)(B), 
which promotes programs that foster, quote, ``the creation and 
the maintenance of a school environment free of weapons.'' And 
the Congress reiterated our opposition to taxpayer-funded guns 
in schools in the Stop Violence--Stop School Violence Act in 
2018, in the omnibus. It explicitly prohibits program funds 
from being used for the purchase of firearms or firearms 
training.
    I fought hard on this issue in last year's funding bill, 
advocating that we make clear that Congress never contemplated 
that such flexibility would allow for the purchase of firearms. 
My proposal was simple--follow current law. But we could not 
reach consensus, but I will keep up the fight.

                        CHARTER SCHOOL OVERSIGHT

    This year, we are going to have an opportunity to review 
charter schools with respect to accountability and 
effectiveness. The OIG has raised some issues that we must 
examine, including findings that states mismanaged charter 
school closures and that the Department failed to provide 
adequate guidance or oversight on the issue. We are an 
appropriations committee, and we have appropriated serious 
money, more than $400 million last year alone. We need to 
conduct oversight.

             ADMINISTRATION'S APPROACH TO EDUCATION FUNDING

    The Trump administration would do well to take a page out 
of the oath that doctors take, their first principle, which is 
``do no harm.'' And yet this budget inflicts harm. That is why 
I raise, again, I do not understand how you can support this 
budget and be the Secretary of Education. This budget 
underfunds education at every turn, from early childhood 
education, K-12 education, postsecondary education, through 
workforce training. Even programs you claim to support are 
simply programs that you spare. Title I, IDEA--these are core 
programs. They are level funded. That is not sufficient.
    We have promised, and we owe our students and teachers 
more, and I am not alone in the criticism here. Others--
National Center for Learning Disabilities, National Association 
of Federally Impacted Schools, the School Superintendents 
Association, Council for the Opportunity in Education, Council 
for Education Funding, and others--I would hope that this would 
be a real concern to you as well.
    I look forward to further discussion of your budget request 
and the other policy areas that are under your jurisdiction.
    First let me turn the gavel--not the gavel. No, I am not 
going to do that.
    Mr. Cole. That is okay.
    Ms. DeLauro. No. Not on my watch. But first let me turn to 
my colleague and my friend, the ranking member from Oklahoma, 
Congressman Cole.

                   Ranking Member's Opening Statement

    Mr. Cole. I want to thank my friend, the chair, and, you 
know, if you ever want to rethink that offer that is okay by 
me. I just want you to know. We would step up and cooperate.
    But, good morning, Madam Secretary. I look forward to 
hearing your testimony today.
    As a former educator myself I understand how important it 
is for our children to have access to quality education, and as 
the parent of a teacher who works with kids with special 
challenges, I understand how important the charge that we have 
given you is.
    Without question, education is one of the most important 
building blocks for success, and access to quality learning 
directly impacts lifelong development and unlocks each 
individual's potential. And I commend you for your efforts in 
this arena, not only as Secretary but as a selfless advocate 
for reform in the years before you assumed your current 
position.

                  POSITIVE ELEMENTS OF PROPOSED BUDGET

    I was pleased to see that your budget request continues to 
prioritize resources to certain populations of children who 
need additional support. I appreciate the continued investment 
in these programs, such as for children with special needs and 
disabilities, for Indian education and rural education, and to 
support English learners.
    I was also pleased to see your emphasis on charter schools, 
school safety, and other initiatives that support innovation, 
best practices, and school choice, and I continue to be a 
strong supporter of career and technical education. I am proud 
that my home state of Oklahoma is leading the way in innovative 
models for delivering cutting-edge skills that can lead to 
good-paying, rewarding careers for students who do not wish to 
pursue a 4-year liberal arts degree. I thank you for your 
support of those programs as well.

                     PROPOSED CUTS AND ELIMINATIONS

    Madam Secretary, your Budget again proposes to eliminate, 
consolidate, or change over two dozen programs. Many of those 
proposals make sense in the context of a reauthorization or 
consolidation, but I do believe others are somewhat short-
sighted. I am particularly concerned about the proposal to move 
the successful TRIO program from a competitive grant model to a 
formula grant to states.
    I am also concerned about the proposal to consolidate 
several Minority-Serving Institutions' funding into a single 
stream. As you know, these institutions serve distinct 
populations with different needs and I am not certain that such 
a change makes sense, but I look forward to hearing your 
discussion of it and, of course, your testimony.
    Finally, I think that it may be time, in our country 
especially we need more understanding of civics and our shared 
history, so I was disappointed that, as a historian, to see the 
American History and Civics Education line proposed for 
termination. I know that you were faced with a difficult 
challenge of making all the pieces fit into a tight budget, so 
I do understand the need for some program terminations and 
consolidations. However, I caution my fellow subcommittee 
members that we need to take a hard look at the impact that 
some of these cuts will have on our own local school districts 
and students, and I am sure we will have a robust conversation 
to that point.

           ROLE OF MANDATORY SPENDING IN CONSTRAINING BUDGET

    Since both my friend, the chairman--the chair, and, Madam 
Secretary, you talked about the budget deficit and the wider 
budget, I want to take--I am going to go off-script here for a 
minute and talk just a little bit about that, because I think 
this is one where we probably come from different perspectives, 
but I think the numbers will drive us to similar conclusions.
    Not widely known or appreciated, even in Congress, but, you 
know, because we know the budget has two big components. It has 
got a discretionary component and it has got an entitlement or 
mandatory spending component. The discretionary component is 
about 30 percent of the whole budget. The mandatory part is 
about 70 percent.
    This Congress is actually--if you look and broke down that 
30 percent into two components, more than half of it is 
actually the defense budget and oversees contingency 
operations. Congress is actually spending less money on defense 
and less money on overseas military operations than it was in 
fiscal year 2010, in this year of fiscal year 2019. So that 
suggests--frankly, I actually agree with the President's effort 
to strengthen defense, and we live in a very dangerous world, 
but we are not overspending in this area by any stretch of the 
imagination.
    I would also remind my colleagues the same thing is true 
with non-defense. We are actually spending less in all these 
programs, everything from Meals on Wheels to Head Start to the 
education programs that you are in charge of than we were in 
fiscal year 2010. And when you take into account inflation that 
means we are spending less. So actually, on the discretionary 
side of the budget, Congress has done a pretty good job of 
holding spending flat and actually effectively reducing it as a 
result of inflation.
    So where is the deficit coming from? Well, it is pretty 
easy. It is coming from the other side of the budget. In fiscal 
year 2010, we were spending roughly $1.9 trillion in mandatory 
programs. This year it will be close to $2.6 trillion. Then 
throw in interest on the national debt and you move from about 
$190 billion to a little bit over 300, I think about $320 
billion.
    So until we get serious about the non-discretionary side of 
the budget, you know, that is--we are not going to ever have a 
balanced budget and we are going to continue to see, as the 
baby boomer generation retires and lives longer than any 
previous generation, you know, a massive increase in spending 
on that side of the budget.
    Now it gives me no pleasure to say this, but neither the 
current President or the last President addressed this. The 
last person that tried to do anything about it was actually 
President Bush, who proposed Social Security reform back in 
2005, and it was summarily shut down by a less-than-courageous 
Congress, on both sides of the aisle, I might say.
    But we are going to have revisit those kinds of questions 
if we are going to actually get there, and I think that is 
important in the context of the programs that we are discussing 
today, because much of the pressure that you face, and that 
your fellow Cabinet secretaries face, is because neither 
Congress nor the executive branch under both parties has been 
willing to look at the other side of the budget and do the 
things that are necessary over there to bring us toward 
balance.

                REACHING COMPROMISE ON EDUCATION FUNDING

    I know that today we will have a very robust discussion, 
and we will come at it from different points of view and that 
is okay. I always like to point out to my good friend, the 
Chair, that in the previous 4 years we started at different 
points, but 4 years in a row we ended up voting for the final 
bill, and in the last 2 years President Trump signed that bill.
    So I think we will probably, you know, come at this from 
different points of view again. That is okay. That is what the 
legislative process is supposed to be about. But my goal will 
be, at the end of the day, to produce a product that my friends 
and I, on both sides of the aisle, can vote for, and that the 
President can sign with a great deal of pride. And I suspect 
that will call for a certain amount of compromise along the 
way. That is the way the appropriations process has always 
worked, and I suspect that is the way it will work again.
    And with that, Madam Chairman, I will yield back my time 
but again, I just want to thank the Secretary for being here 
and thank you for holding the hearing.
    Ms. DeLauro. Thank you very much.
    And now it gives me pleasure to turn to our distinguished 
Chair of the full Committee, Chairwoman Nita Lowey, for any 
comments that she may have.
    Mrs. Lowey.

             Full Committee Chairwoman's Opening Statement

    The Chairwoman. And I, too, want to thank Chairman DeLauro, 
Ranking Member Cole for holding this hearing, and I want to 
join them in welcoming you, Secretary DeVos, before the 
Subcommittee.
    We are not far into appropriations hearings season, but 
frankly, I am tired of hearing about the Administration's so-
called tough choices. Secretary DeVos, your Budget request does 
not reflect the reality in classrooms across the country, and 
if enacted would cause structural damage to communities across 
the nation.
    Since you have taken over as Education Secretary, children 
continue to be at risk of gun violence in their classrooms, 
sexual assault continues to climb on college campuses, student 
debt dictates almost every college graduate's professional 
choices. Yet in your testimony you criticize a Republican-
controlled Congress for increasing your agency's resources. You 
are criticizing your agency's resources.
    This Budget relies on anecdotal evidence and false concepts 
that you call choice and freedom. You propose complete 
elimination of 21st Century Community Learning Centers, which 
would leave more than 87,000 New York students without safe, 
high-quality, after-school enrichment and significant cuts to 
K-12 funding, and even the Helen Keller National Center for 
Deaf-Blind Youths and Adults.
    I will go on but I can't help but wonder--we are both 
parents and I wonder if you have visited these centers and you 
know what they are doing. I visit, by the way, the after-school 
programs all the time, and to see those children getting the 
extra support frankly makes me feel great. I would increase 
them even more than they are now. So I am really puzzled about 
that, among others.
    While gutting these investments, the Administration's 
budget calls for a new tax credit to support private school 
vouchers, even though many of these schools are unequipped to 
accommodate students with disabilities and English language 
learners. Not only do you ignore racial and socioeconomic 
disparities in our education system, you propose policies 
proven to increase the divide. By cutting the Minority Science 
and Engineering Improvement Program by $1,500,000 and the Child 
Care Access Means Parents in School Program by 70 percent, your 
budget would actually decrease the diversity of the STEM field 
and exclude parents with financial need from access to a higher 
education.
    A couple of words about that. Maybe you noticed recently--I 
am a graduate of the Bronx High School of Science, and you 
notice there have been many articles about the lack of 
diversity at Bronx Science or Stuyvesant High School in New 
York City. I would be interested in knowing if you have any 
solution to that. I think people deserve to have the 
opportunity and I would look at after-school programs or other 
concentrations so you can help these students, so you can 
really say--and when I visit all these schools I say, ``You 
have the opportunity to reach for the stars.'' But we are not 
providing them with this kind of support, it seems to me we are 
really, frankly, going off on tangents here, there, increasing 
dollars, but not looking at the investments that are going to 
help so many of these kids.
    You propose an increase of $105 million for school safety 
national activities with the hopes of implementing safety 
practices that are proven to make schools less safe. The 
Department of Education's budget request is just another 
example of this Administration's disregard for facts and 
disconnect from reality. With this budget request I am 
receiving President Trump's message loud and clear--fund the 
wall with money from our children's schools. I do hope your 
testimony and response to our questions will address these deep 
concerns.
    And thank you. Thank you, Madam Chair.

                    Introduction of Secretary DeVos

    Ms. DeLauro. Thank you very much. After the Secretary has 
completed her testimony, which we will get to in a moment, we 
will proceed to 5-minute rounds for questions. I will recognize 
Members in order of seniority at the time of gaveling in the 
hearing. Then I will call on Members in order of their 
appearance.
    Madam Secretary, we will be happy to place your full 
testimony into the record.
    If you would be kind enough to summarize your statement, I 
want to make sure that we leave enough time for everyone's 
questions.
    So please begin when you are ready.

                           Opening Statement

    Secretary DeVos. Chairwoman DeLauro, Ranking Member Cole, 
Chairwoman Lowey, and members of the Subcommittee, thank you 
for the opportunity to testify on the President's fiscal year 
2020 Budget.
    I thought it would be useful to begin by recalling 
Congress' commitment when it created the U.S. Department of 
Education 40 years ago. Then, Congress vowed that the move 
would, quote, ``not increase the authority of the Federal 
Government over education or diminish the responsibility for 
education which is reserved to the states,'' and, I will add, 
communities and parents.
    This Budget reflects a commitment to that sentiment. It 
also recognizes who actually funds the government's budget--
American taxpayers. And so we propose Congress spend their 
money wisely, efficiently, and with restraint.
    The President's fiscal year 2020 Budget would reduce 
overall funding for department programs by $7.1 billion, which 
is a 10 percent decrease from 2019's appropriated level. This 
reduction is similar to last year's request and the year before 
that as well.
    I acknowledge that you rejected those recommendations. I 
also acknowledge that it is easier to keep spending, to keep 
saying yes, and to keep saddling tomorrow's generations with 
today's growing debt. But as it has been said, the government 
will run out of other people's money.
    Over the past 40 years, Federal taxpayer spending on 
education has increased about 180 percent, amounting to over 
$1.2 trillion, cumulatively. And yet we are still 24th in 
reading, 25th in science, and 40th in math, when compared to 
the rest of the world. Doing the same thing, and more of it, 
will not bring about new results.

                     EDUCATION FREEDOM SCHOLARSHIPS

    I propose a different approach--freedom. This budget 
focuses on freedom for teachers, freedom for parents, freedom 
for all students. A great education should not be determined by 
where you live or by who you know, and it should not be 
determined by family income. And education should not be an 
old-school, industrialized, one-size-fits-all approach. Every 
student is unique, and everyone learns differently. Every child 
should be free to learn where and how it works for them, where 
and how it unlocks their potential.
    That is why the President's 2020 Budget proposes a historic 
investment in America's students, Education Freedom 
Scholarships. Our bold proposal will offer a dollar-for-dollar 
federal income tax credit for voluntary contributions to 
501(c)(3) nonprofit organizations that provide scholarships to 
school students, not school buildings. These students, their 
families, teachers, schools, and states can choose to 
participate in the program, or they can elect not to 
participate. It is a choice.
    And since the proposal relies entirely on voluntary 
contributions to nonprofit organizations, it will not take a 
single dollar from local public school teachers or public 
school students. Indeed, our budget maintains current levels of 
funding for Title I and IDEA.
    Something else. Education Freedom Scholarships are not only 
for students who want to attend private schools. In fact, some 
states may choose to design scholarships for public school 
options, such as apprenticeships or transportation to a 
different public school. States have the opportunity to be 
really imaginative and to serve the unique needs of their 
students.
    We don't have to look far to see that education freedom 
works. Thanks to a menu of options and the D.C. Opportunity 
Scholarship Program, embraced by teachers, parents, and 
students alike, more than half of students in the district 
attend schools other than their assigned one, and there is 
still significant unmet demand. We propose Congress double the 
D.C. Program's funding to $30 million to meet those students' 
needs.
    This Administration believes students of all ages should be 
free to pursue multiple pathways to higher education and 
successful careers. That is why this Budget proposes to expand 
use of Pell Grants for quality short-term programs. It also 
invests in career and technical education and streamlines 
student loan repayment. The latter is urgently necessary, 
because today Federal Student Aid holds $1.5 trillion in 
outstanding loans, more than total auto debt and credit card 
debt, and 43 percent of those loans are either in default, more 
than 30 days delinquent, or are negatively amortized, and 
taxpayers are on the hook for it all.
    This Budget consolidates numerous repayment plans and 
raises the cap on a borrower's monthly payment to 12.5 percent 
of discretionary income. This is one way the Federal Government 
can become a more responsible lender. Policies should not 
entice students into greater debt, nor should they put taxpayer 
dollars at greater risk.

                    TEACHER PROFESSIONAL DEVELOPMENT

    Education freedom is not just for parents and students. 
Teachers need greater freedom as well. We seek to empower 
America's teachers and elevate their profession via this budget 
with a new total investment of $370 million.
    I regularly meet with a number of excellent teachers who 
tell me they would like to choose their own professional 
development and customize it for their needs. To that end, the 
Budget requests an increase of $170 million to focus on 
development that is controlled by teachers, not dictated by the 
district office. These are teacher vouchers and they treat 
teachers as the professionals they are.
    Teachers also tell me about the value of mentors or 
residency opportunities, so we are requesting $200 million to 
enable new teachers more opportunities to learn from the best.

                             SCHOOL SAFETY

    It is also essential that teachers and students be safe at 
school. In the wake of tragic acts of school violence in our 
country, President Trump asked me to lead a Federal Commission 
on School Safety. To support the commission's recommendations, 
we request $200 million to help communities develop their own 
school emergency plans and to focus on counseling and healthy 
behaviors for their students.
    In the end, budgets are about priorities. Ours are 
students, parents, teachers, and taxpayers. If our country is 
to remain secure, strong, prosperous, and free, we need 
students of all ages who are prepared to pursue successful 
careers and lead meaningful lives.
    Thank you for this opportunity to testify. I look forward 
to your questions.
    [The prepared statement and biography of Secretary DeVos 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
follows:]

                  OVERSIGHT OF CHARTER SCHOOLS PROGRAM

    Ms. DeLauro. Thank you very much, Madam Secretary.
    In a budget that, again, has been, in my view, full of 
cruel cuts to education programs, it baffles me that you found 
room for a $60 million increase to the Charter School Program, 
or CSP, especially when you consider recent reports of waste 
and abuse in that program. Just this morning, the Washington 
Post published reports that up to $1 billion in CSP funding has 
been wasted on charter schools that never opened or 
precipitously closed due to mismanagement.
    In September, the OIG found that the Department did not 
provide effective oversight of processes performed by the 
states that receive CSP funding when their charter schools 
close. In response to the OIG's findings, the Department 
stated, and I quote, ``The fundamental principle for guiding 
states' implementation of charter schools is to provide charter 
schools increased levels of autonomy so they may innovate in 
exchange for in increased flexibility in implementing 
applicable requirements,'' end quote. In other words, it sounds 
like you are saying, quote, ``This is not our job.''
    Can you explain how you think stopping known waste, fraud, 
and abuse in the Charter School Program is not the Department's 
job? Why cannot states both follow Federal laws and promote 
innovation when it comes to charter schools?
    Secretary DeVos. Chairwoman, we are very aware of the 
issues that this report raised, and it actually covers 
practices that long predate this Administration. The fact is, 
Congress took action to address these concerns, and it was 
prior to the reauthorization of ESEA, we are very keen to 
ensure that the concerns raised are addressed, and we are also 
looking to this body for more flexibility for charters to be 
able to authorize the schools that are working for--that----
    Ms. DeLauro. Madam Secretary, it would appear to me that 
based on this report and other reports that the charter schools 
have enormous flexibility. And there seems to be no one who is 
overseeing how that flexibility translates into the use of 
Federal dollars. You are also now proposing this increase of 
$60 million--we are looking at $500 million--for entities that 
they are just going their way. Let's be flexible. Let's let 
them do what they want. They don't open. They close. No one has 
concerns about any of the students.
    That is irresponsible in terms of your job with regard to 
oversight, and as it has to do with Federal taxpayers' dollars, 
that is the charge of this Subcommittee, to make sure that 
those monies are being monitored and that you are accountable, 
and not asleep at the wheel for what is happening with charter 
schools in this country. We have spent a lot of time and money 
in this effort.

               MANAGEMENT OF THE DEPARTMENT OF EDUCATION

    Let me also talk to you about a K-12 education office. 
Children and families count on your support to deal with the 
ESSA. I am disappointed to hear reports about your 
mismanagement of the Office of Elementary and Secondary 
Education. In 2016, it would appear you merged OESE and the 
Office of Innovation Improvement that had 328 employees. We are 
down to OESE, has just 260 employees, nearly 21 percent staff 
reduction.
    There are a lot of press reports out there, and I quote, 
``describe long waits for answers to technical questions, 
hiring staffers, lack of overall support, technical know-how, 
including when it comes to improving schools.''
    Do you see it as your responsibility to help states 
implement ESSA? What is your message to states complaining that 
the lights are off at your Department of Education? I might 
also add, I believe there was a contract awarded to look at 
morale in the department.

                            CHARTER SCHOOLS

    Secretary DeVos. Well, Chairman, let me just comment on 
your previous question, and I would just say, with regard to 
charter schools what we need is more charter schools and more 
options for children, not less. And states are proving, time 
and again, that there are wonderful options that are being 
developed for children of every learning type and interest, and 
we need more of them, not less.
    And when you have experimentation you are always going to 
have schools that don't make it, and that is exactly as what 
should happen. They should close, and let's also look at how 
many traditional public schools have closed because they are 
not doing well for their students.
    Charter schools are a great option for thousands and 
thousands of students, and the demand for more of them remains 
very high. So we need more of them, not fewer.
    Ms. DeLauro. But----

                        MANAGEMENT OF DEPARTMENT

    Secretary DeVos. With regard to the Department and our 
organization there, we have undertaken an effort to organize 
around ability to be cohesive and effective in the work that we 
do for all of K-12 schools, and bringing in innovation and 
ingenuity into elementary and secondary education needs to 
happen, no matter when the education is taking place.
    I am very proud of the work of the Department and the 
Office of Elementary and Secondary Education in the 
implementation of the Every Student Succeeds Act.
    Ms. DeLauro. Madam Secretary----
    Secretary DeVos. They have been doing a great job. We have 
approved all of the----

                            CHARTER SCHOOLS

    Ms. DeLauro. Madam Secretary, let me just say that you are 
taking public dollars to open charter schools and you are 
taking money away from the public schools, which is where 90 
percent of our children are.
    Secretary DeVos. Madam Chairwoman----
    Ms. DeLauro. And what are you doing is short-changing----
    Secretary DeVos [continuing]. Charter schools are public 
schools.
    Ms. DeLauro [continuing]. And I would just say, no, some of 
them, if you take a look at the data and the information, we 
are looking at the transference to private entities, private 
corporate boards. They open, they close, they don't--some of 
them don't even open, and we are spending good money after bad. 
And in addition to that, you don't seem to think that there is 
a necessity to oversee it, to claim any accountability for it, 
that God's in his heaven, all is right with the world. It is 
not true. We are wasting----
    Secretary DeVos. That is a mischaracterization----
    Ms. DeLauro [continuing]. Money there.
    Secretary DeVos [continuing]. And charter schools are 
public schools.
    Ms. DeLauro. My time is up.
    Mr. Cole.

                     SUCCESSES WITH CHARTER SCHOOLS

    Mr. Cole. Thank you, Madam Chair.
    If we may, I actually want to pick up on that, because I 
want to ask you a little bit more about it. I am a big 
supporter of charter schools, and we have had, working with 
your office, frankly, substantial increases. So if you would, 
why don't you report on some of the success that you have had 
in this area?
    Secretary DeVos. Well, thank you Chairman, or Ranking 
Member Cole. Thank you for the question to elaborate a little 
bit more on the value of charter schools to students today.
    We are seeing, across the country, I think with the 
exception of four states, charter schools have been able to 
grow up in 46 out of the 50 states, and for students it has 
been a wonderful alternative. We know that there are tens of 
thousands, if not hundreds of thousands of students who want to 
have an alternative to their assigned public school, and 
charter schools often provide that opportunity.
    I have visited all types of schools, and it doesn't really 
matter how a school is organized, to me. What matters is 
whether the students going to that school find the right fit 
for themselves and are able to pursue their learning and 
education in a way that really draws the best out of them. We 
need to continue to build on that and that is why this budget 
proposes an expansion in the commitment of funding to charter 
schools, to continue to support high-quality options for 
students.
    Every state has high accountability provisions, varying 
accountability provisions for their charter schools, and do a 
good job, I think, of overseeing them at that level. We also 
do, at the Department of Education. But the most important 
point of accountability are the parents who have chosen to send 
their child to whatever that charter school is. And we are 
going to continue to see great results from students who are 
able to pursue their education in those settings.
    Mr. Cole. Well, I appreciate your work in this regard. I, 
too, visit schools pretty frequently, public and charter. I 
have got great public schools. I have got some great charter 
schools. And I think you are right about allowing parents to 
choose the best path and children participate in that decision.

                CAREER AND TECHNICAL EDUCATION AND STEM

    Let me ask you, one of the things that I was very pleased 
with in the budget was your proposals in career and technical 
education both. I hear more from employers in my district about 
the need for folks with skills, and frankly I meet so many 
children, and the young people, that this is the way they want 
to go, as opposed to traditional 4-year college education.
    So two areas I would ask you to elaborate on that you 
proposed. The first is your $20,000,000 \1\ STEM competition 
proposal and how you see that incentivizing and building into 
career and technical, and second, this idea of using Pell 
Grants for shorter-term credential programs. How would that 
work? That is actually something I have always been supportive 
of but never found a way to finance, because I think the demand 
would be just tremendous. But I am interested in your proposals 
in both those areas.
---------------------------------------------------------------------------
    \1\ The Department later corrected to $13 million.
---------------------------------------------------------------------------
    Secretary DeVos. Well thanks for those questions. Yes, this 
Administration is a huge proponent of supporting alternative 
pathways to higher education, and career and technical 
education is a very important piece of that equation, and, in 
fact, is an expanding area, I think.
    I think one of the major hurdles is for us to 
perceptually--and I say ``us'' speaking as a parent. Parents 
often don't view career and technical opportunities as valid 
as, because for decades we have been told only 4-year college 
and university is the path to success. Well, we have got to get 
beyond that, because today we have over 7 million jobs going 
unfilled that require education beyond high school but not 
necessarily a 4-year degree.
    So to your question specifically about the $20,000,000 
investment in STEM occupations and STEM pathways, we know that 
there are huge opportunities, from a career perspective, in the 
areas of math and science, and particularly in computer 
science. So that also couples with the proposal for short-term 
Pell. Short-term Pell would allow for high-quality certificate 
and certification programs to be accessed, where today students 
receiving Pell Grants cannot access them.
    And the question around funding for them, I think there is 
a little bit of presumption going on with the math that this 
would be an additive program. I suspect there are a great many 
Pell Grant-eligible students who would opt to take one of these 
short-term Pell opportunities in lieu of perhaps a longer-term, 
more traditional route. And so I think we would see a tradeoff 
for many of those options, and I think we need to take that 
step, I would argue, because there are so many great 
opportunities for short-term.
    Mr. Cole. Again, I want to work with you, and I am out of 
time so we will pursue this another time. But I would be very 
interested, as you go forward, in any information you have back 
on the specifics, or are you going to limit it to, you know, 
certain skill sets or whatever. But again, I think it is a 
great idea, a great place to start.
    Thank you, Madam Chair. I yield back.
    Ms. DeLauro [continuing]. On this report. U.S. Government 
wasted up to $1 billion on charter schools and still fails to 
adequately monitor grants.
    And I yield to the gentlelady from New York, Mrs. Lowey.

                21ST CENTURY COMMUNITY LEARNING CENTERS

    The Chairwoman. Madam Secretary, your agency recently 
conducted a report on 21st Century Community Learning Centers 
that concluded half of the students who participated in these 
after-school activities improved their math and reading grades. 
More than 68 percent improved their homework and class 
participation, and three out of five improved their classroom 
behavior.
    Last year, much to my surprise, you proposed the 
elimination of these after-school programs. Congress, under a 
Republican majority, not only rejected the Administration's 
cuts last year but increased after-school investments by $10 
million. This year--I am puzzled--you are trying to cut it 
again, completely ignoring the strong evidence that parents 
support this program and, in fact, want more of it.
    Could you tell me why does your budget yet again prioritize 
cutting this very important program, and very popular program, 
while your own study proves it is successful and Congress has 
demonstrated its strong bipartisan support for it?
    Secretary DeVos. Well, thank you, Chairwoman, for that 
question.
    Actually, the data that we have shows very differently and 
the funds coming from the Federal level do not really show 
significant impact on the students that the program is meant to 
serve.
    The dollars flowing out of the Federal program are not 
getting to programs that are working really well on behalf of 
the students and there are not great participation rates. In 
fact, data from 2017 suggest that only 25 percent of elementary 
school program participants improved in their reading, and only 
19 percent of middle and high school students improved and made 
gains in math.
    The proposal in the budget is to--we had to make difficult 
decisions in the budget, in our proposals, and remember they 
are just proposals to you. But in doing so we have really 
focused in on the things that we know are really yielding 
results and are getting to the students that are most 
vulnerable and need it most.
    So our proposal to eliminate 21st Century Learning funding 
doesn't speak to the program itself as much as it does to 
priorities and also to the fact that the funding that we have 
been required to make through this 21st Century Federal level 
programming does not show the results for the students.
    Perhaps some of the State and local community level support 
does, and there is lots of philanthropic support around after-
school programs, but the funding from the Department of 
Education has not shown to be as effective.
    The Chairwoman.. Well, I am not going to get into a debate 
with you now. I am glad that you said this is just a proposal, 
because you could be sure that many of us who serve on this 
committee and visit these local programs understand how 
effective and how important they are. So, I wish you would give 
some more thought to them and I wonder if you have visited many 
of them. I have been a supporter of these for a long time and 
they are really life-saving for many of these kids in the 
communities.

                CHILDCARE ACCESS MEANS PARENTS IN SCHOOL

    Another important--in fact, for me it has been essential in 
many of our schools. Your budget proposes to roll back 
significant progress we have made in this Subcommittee, on a 
bipartisan basis, to increase investments in Child Care Access 
Means Parents in Schools, called CCAMPIS initiative, the only 
Federal program that supports child care access on campus for 
low-income parents working towards a higher education.
    A year ago today the President's advisor, Ivanka Trump, 
tweeted out her support for the CCAMPIS program. Now I am not 
saying that Ivanka Trump is an expert in this, but her father 
seems to respond favorably to her opinions.
    Would you say that her tweet on this program signaled the 
Administration's support for CCAMPIS?
    Secretary DeVos. Well, we, again, had to make many 
difficult decisions in presenting this budget and we have 
suggested the elimination or reduction of a number of programs. 
We have continued to stay focused on the ones that are really 
serving the most vulnerable students. Title I funding has been 
held even, IDEA funding held even, English language learner 
funding held even. And those are funds that can be used also 
for children that we are talking about, not in the same way, 
granted, but there is definitely flexibility in how these funds 
are used. And again, we have made choices in this budget and 
are presenting our proposals to you for consideration.
    The Chairwoman. Well, I have two other questions about 
this, if I might ask them just quickly.
    Maybe that is why you shouldn't be proposing a cut in your 
overall Budget, because I wonder if you have seen these 
programs and see how critical they are to many of our 
communities. And I wonder, has the Department of Education 
studied the impact these cuts would have on the 5,000 parents 
who would lose access to on-campus child care? And I would like 
to see the data to predict how this elimination would impact 
degree completion.
    My time is up but I would hope you can respond to me. I 
have been to these schools. I have worked with these schools. I 
see the impact. I see the impact on the parents and on their 
kids, and this is such an invaluable program. I know we are 
going to reconsider it and I would hope you would educate 
yourself about this program as well.
    Thank you. Thank you, Madam Chair.
    Ms. DeLauro. Congressman Moolenaar.

                            CHARTER SCHOOLS

    Mr. Moolenaar. Thank you, Madam Chair. Secretary DeVos, 
thank you for being here with us, and I appreciated your 
overview and the work you are doing.
    A few things I wanted to just comment on. One is you have 
done a great service today by clarifying that charter schools 
are public schools. In Michigan law we call them public school 
academies. I was a former charter school administrator, and I 
think one of the biggest misconceptions is that somehow charter 
schools are not public schools, and I thank you for doing that 
today.
    It is something that I have seen tremendous things in 
Michigan. It is part of Detroit's comeback, some of the charter 
schools there that are giving parents and their families 
opportunities in an area where they are not being served. So I 
appreciate your advocacy.
    I wondered if you would speak a bit more about some of the 
proposals you have on expanding options for school choice for 
families, and also, if you would, explain to us who benefits 
from that. What is the type of student? Who really benefits 
from that?

                     EDUCATION FREEDOM SCHOLARSHIPS

    Secretary DeVos. Well, thank you, Congressman. I appreciate 
that question very much.
    The main proposal that this Administration is advancing is 
called Education Freedom Scholarships, and it would create a 
Federal tax credit that--capped at $5 billion annually--that 
states could elect to participate in or not. If they did elect 
to participate, they would create programs, or augment programs 
that they already have existing in their state, and would give 
access to families as they decide.
    So most programs today, in states, are means tested, and 
most students that today are benefitting from school choice 
Education Freedom programs are students that are vulnerable, 
that have been stuck in schools that are not working for them, 
but their families can't move somewhere else, like so many 
others can. They cannot buy a home in the suburbs where a good 
school is. And so it gives these children opportunities that 
they have not had before.
    And the beauty with the Education Freedom Scholarships 
proposal and initiative is contributions to it are voluntary--
nobody is coercing anyone to give, nobody is coercing any state 
to participate, and nobody is coercing any family to 
participate in the programs that the states create. What it 
will do is give a lot of children, hundreds of thousands of 
children across the country the opportunity to find an 
education fit that is going to be right for them.

                    SCHOOL CHOICE AND SCHOOL SAFETY

    Mr. Moolenaar. And, you know, one of the concerns that was 
raised earlier is, you know, school violence, you know, threats 
to student safety, student achievement. I mean, if you are a 
parent in an area where you don't have a school district that 
you feel your children are safe, or they are not meeting the 
needs academically, I would think that this would be a big 
positive for them.
    Secretary DeVos. It would, indeed. In fact, I would cite a 
program that Florida recently enacted called--I think it is 
called the HOPE Scholarships Program, for students who are 
bullied in their assigned school and/or are--have acts of 
violence committed against them. They are able to find a school 
that will work for them through this HOPE Scholarships Program. 
So states could elect to adopt something like this, and Florida 
could elect to augment the program that they have.
    But, again, giving parents and students options to find the 
right educational fit for each child I think is an imperative.

                            SHORT-TERM PELL

    Mr. Moolenaar. And then I wanted to also follow up, and Mr. 
Cole was mentioning some of the, you know, ideas around the 
Pell Grants and some of the short-term Pell. One of the things 
I am experiencing in my district, as I meet with owners of 
businesses, manufacturers, consistently they are saying, ``We 
could hire more people. We just need to have people with the 
right skills. We would, you know, love to have some kind of a 
certificate training program.''
    In my home area there is a company that--it is a chemical 
company. They have a fast-start program with a community 
college where it is an intensive, short-term program, and then 
these are very good-paying jobs once they get out. Is this kind 
of what you are looking out for the short-term Pell?
    Secretary DeVos. Yes, indeed, and I think it is a great 
opportunity in communities and regions for employers to work 
with educators and really come up with proposals that are going 
to work for the employer's needs, and that will--and that 
educators will be able to come in alongside of them and help 
create the kind of curriculum that is going to be absolutely 
perfect for the situation that that particular community or 
that region needs. And, yes, this is exactly what a short-term 
Pell proposal could help to address.
    Mr. Moolenaar. Thank you very much. Thank you, Madam Chair.
    Ms. DeLauro. Thank you. Congresswoman Lee.

                         PRIVATIZING EDUCATION

    Ms. Lee. Thank you very much. Thank you, Madam Chair and 
ranking member for this hearing. Welcome, Madam Secretary.
    Madam Secretary, you remember Steve Bannon, right? Steve 
Bannon indicated that the Trump administration's goal was to 
deconstruct the administrative state, and each Cabinet official 
who comes to this committee presents a budget that really 
reflects that agenda. And your budget reflects what exactly 
Steve Bannon said--privatizing public education, getting rid of 
the public sector, turning it over to the corporations and the 
private sector to ensure the quality public education that our 
young people deserve, and it is outrageous.
    Your cuts here specifically target students of color. It is 
unbelievable, low-income students. And I just have to say, 
Madam Secretary, you have zeroed out Special Olympics once 
again. I still can't understand why you would go after disabled 
children in your budget. You zero that out. It is appalling.

                          SCHOOL DESEGREGATION

    I want to ask you a couple of things which, again, reflects 
exactly what I just said. Two years ago I wrote language into 
the bill about school desegregation. The language asks for a 
report from your department, in coordination with the Office 
for Civil Rights, to submit to this Committee, detailing 
recommendations on how to address the adverse impacts of 
segregation, including Title VI school monitors, to ensure that 
every student has the opportunity for an equal education.
    Madam Secretary, this letter came--we wrote it June 7th. We 
have called. We have asked for this report. We tried to reach 
you over and over again. We have never received a response. I 
wonder where this report is. Could you let us know when this 
report will be coming to the committee? It is about students of 
color. It is about school desegregation efforts.
    Secretary DeVos. Congresswoman, yes. I am aware of that 
request and that report and I know it is near completion, and I 
commit to you that we will get that to you as soon as feasible.
    Ms. Lee. Madam Secretary, this is almost 2 years we have 
been waiting. These kids deserve, and the school districts 
deserve an answer from our Secretary of Education. We can't 
wait 2 years to get a report on school desegregation from you. 
It should not be that hard to do. And the response has been 
awful in terms of trying to get some sense of timing and why 
this has been delayed.

                           SCHOOL DISCIPLINE

    Next, let me ask you about the school disciplinary 
practices that impact black and Latino students. According to 
data released by the Department of Ed's Office for Civil 
Rights, black K-12 students and Latino students are three times 
as likely to be suspended or expelled as their white peers.
    But now the Federal Commission on School Safety, which you 
chaired, eliminated the 2014 school discipline guidance which 
ensured that students of color are not subject to harsher 
disciplinary practices than their white peers. The guidance 
provided valuable resources for districts. It provided 
continuous, vigorous Federal oversight and enforcement of our 
civil rights laws to make sure that students' civil rights are 
upheld. Seventy-five civil rights groups wrote you in January, 
expressing opposition to the rescission of this guidance.
    Why in the world would you blame--and I understand what the 
rationale was, blaming school shootings, the tragic gun 
violence that has taken place throughout the country, on the 
civil rights protections for students of color? It doesn't make 
any sense why that was part of this rescission. Can you explain 
that?
    Secretary DeVos. Congresswoman, no child should be treated 
or disciplined differently based on his or her race or color or 
national origin, and if and when they are, our Office for Civil 
Rights will act swiftly, and has acted swiftly.
    Children need to be treated as individuals, not as----
    Ms. Lee. But they are not being treated as individuals. 
That is why we had this order put in place, and you rescinded 
that.
    Secretary DeVos. Again, any student that is treated or 
disciplined differently because of his or her color or race----
    Ms. Lee. Madam Secretary----
    Secretary DeVos [continuing]. Is going to be--that is not--
--
    Ms. Lee [continuing]. The Department of Civil Rights----
    Secretary DeVos [continuing]. Acceptable.

                 RACIAL DISPARITY IN SCHOOL DISCIPLINE

    Ms. Lee [continuing]. Your own Department of Education 
Office for Civil Rights indicated that students of color are 
suspended three times more than white students. We put in to 
place some requirements that would begin to turn this around. 
You rescinded those requirements. So what message----
    Secretary DeVos. No student----
    Ms. Lee [continuing]. Do the school districts----
    Secretary DeVos [continuing]. No student should be treated 
or disciplined differently. They----
    Ms. Lee. Madam Secretary, they are treated differently. 
They are treated discipline--differently.
    Secretary DeVos. If they are it is discrimination.
    Ms. Lee. Well then, why in the world----
    Secretary DeVos. The Office for Civil Rights----
    Ms. Lee [continuing]. Rescind----
    Secretary DeVos [continuing]. And the Office for Civil 
Rights----
    Ms. Lee [continuing]. The orders that would correct for 
this?
    Secretary DeVos. The letter amounted to quotas.
    Ms. Lee. Madam----
    Secretary DeVos. Children are individuals. They're not----
    Ms. Lee [continuing]. Madam Secretary, this does not 
involve quotas. This gave direction on how to correct this 
horrible problem that we have throughout the country. You go to 
any community of color where you have schools that are trying 
to, with minimal resources, provide the best education they 
can, and you will see what is taking place. So this did not 
amount to quotas. This amounted to providing those tools and 
guidance to make sure that students' civil rights are 
protected, and you rescinded that.
    Secretary DeVos. Every community needs to be able to handle 
their classrooms and discipline in the way that works for them, 
and if a child----
    Ms. Lee. Madam Secretary, thank God we had Brown v. Board 
of Education. The Federal Government----
    Secretary DeVos [continuing]. And if a child is treated 
differently----
    Ms. Lee [continuing]. Gave us a chance to go to public 
schools.
    Secretary DeVos [continuing]. Because of his or her race--
--
    Ms. Lee. We needed the Federal Government to provide that 
oversight----
    Secretary DeVos [continuing]. The Office for Civil Rights 
will address----
    Ms. Lee [continuing]. Of civil rights protection.
    Ms. DeLauro. Congresswoman Herrera Beutler.

              TONE OF DISCUSSION OVER POLICY DISAGREEMENTS

    Ms. Herrera Beutler. Thank you, Madam Chair, and thank you, 
Madam Secretary, for being here. You know, I have some 
questions and I am excited to hear your answers. I do 
appreciate your willingness to come and to share, when I feel 
like, you know, there is a difference between asking a question 
and being tough and being somewhat--oh, I mean, if I was 
sitting there and I was asked about what my boss' daughter 
thought about a proposal I was working on I would be a little 
bit annoyed. If I was being asked how could you possibly be the 
Secretary of Education by, and then there is a long list, I 
just feel like I appreciate your willingness to do the job, 
even though you are being undermined as you sit there, in many 
different instances.
    Again, vigorous disagreement. I think Chairman Cole shared 
that he had some disagreements, and I would share some of the 
disagreements, you know, with my friends on the other side of 
the aisle, but it is all how you do it, I think. So I 
appreciate your willingness very much.

                    MENTAL HEALTH AND SCHOOL CHOICE

    The first piece I wanted to ask about has to do with mental 
health. Teachers in my area, southwest Washington, have shared 
with me that they see mental health, the crisis of mental 
health, impacting individual students, classrooms, and 
communities as a whole, and this cuts across wealthy 
classrooms, you know, urban districts, rural districts, poor 
and impoverished districts. I mean, this is no respecter of 
person, so to speak. And we are seeing a critical need, really, 
to provide mental and behavioral health support. And I say we, 
the community. I mean all of us. This is the whole nation here.
    But in your role, how do you--does the Department have any 
emphasis on supporting schools and providing this support?
    Secretary DeVos. Thanks for that question, Congresswoman. 
Yes. So the School Safety Commission made a number of 
recommendations and among them, that were specific to the 
Department of Education, really had to do with improving the 
school climate, social and emotional learning, mental health 
issues, and one of the proposals in our Budget is a new $100 
million School Safety State Grant program that could be used by 
states and by communities to implement a mental health program 
that is appropriate for their school, for their community. And 
we know that this is an issue that is not unique to any one 
type of community, and we know that the climate of a school is 
so, so important.
    And having visited many schools in the past couple of 
years, you know when you enter the school if they are being 
intentional about creating a positive school climate. And we 
think that this is one important way that we can help states 
really help their local communities meet specific needs, 
specific to their communities.
    Ms. Herrera Beutler. Thank you. Because I imagine it is 
going to look differently, a solution. I think about some of my 
different schools--small, rural, more urban, increasingly 
suburban. The solutions might look a little different.

                        SECLUSION AND RESTRAINT

    Seclusion and restraint. I was just reading an article in 
my area where there are parents talking about having their 6-
year-old held down by the neck while the classroom is cleared, 
and that was the school's solution to dealing with some of the 
behavioral issues. And I know the department announced an 
initiative on this, particularly when it comes to providing 
care, education, safety for children with disabilities. Can you 
tell me a little bit about the initiative?
    Secretary DeVos. Well, let me just begin by saying that, 
you know, every student needs to be able to go to school safe 
themselves, and other students to be safe in their setting as 
well. And we have initiated an effort to really help school 
communities know and understand the law with regard to 
seclusion and restraint, and then to help ensure that they have 
the tools necessary to be able to carry out the law in a 
fashion that is in line with what the intent of it is.
    And we have also launched an investigation--and this is a 
joint effort between our Office for Civil Rights and our Office 
of Special Education Programs--and it is to go and look at some 
areas where the numbers that have been reported just seem a 
little bit out of line for some reason, and to really go and 
understand whether these are accurate reports and if not, to 
help them know and understand, again, what their obligations 
are. We think that this is a really important initiative that 
we have undertaken without having some kind of a mandate being 
told to do so.
    Ms. Herrera Beutler. I appreciate that and I yield back. 
Thank you.
    Ms. DeLauro. Congressman Pocan.

                 SEXUAL ORIENTATION AND GENDER IDENTITY

    Mr. Pocan. Great. Thank you, Madam Chairman and our 
committee chairman, thank you for being here.
    Thank you so much, Secretary, for being here today. I would 
like to try to get to three or four areas, so if we can be 
concise, I would really appreciate it.
    I do want to follow up on something Ms. Lee asked. When she 
asked about suspensions you repeated a few times race, 
religion, national origins. I noticed you never mentioned 
sexual orientation or gender identity. Do you think it is all 
right for a school to discriminate based on someone's sexual 
orientation or gender identity?
    Secretary DeVos. We have laws that cover discriminatory 
efforts and our Office for Civil Rights has continued to be 
very diligent in investigating any allegation of discrimination 
and will continue to do so.
    Mr. Pocan. So is that a yes or is that a no? I am trying to 
get a yes or no, I guess, on that.
    Secretary DeVos. We follow the law as this----
    Mr. Pocan. So personally you don't have an opinion on it.
    Secretary DeVos [continuing]. Body has defined, and----

                            CHARTER SCHOOLS

    Mr. Pocan. Okay. Because you are giving money. Which leads 
to my next question. You are giving money to some charter 
schools that do discriminate, and that report, I would like to 
follow up, from our chairwoman's question, where $1 billion has 
been wasted with 1,000 schools, going to charter schools. One 
out of every four have failed. And I know in your testimony you 
thought we should have more charter schools, but when you have 
a 25 percent failure rate, that would be like saying if one of 
your car tires keeps going flat, rather than replacing it, you 
are going to add more tires to a car. I don't know if that 
makes a lot of sense.
    But my question would be, what are you doing specifically 
to get that $1 billion back for taxpayers? And you have, in 
this Budget a $60 million increase, a 14 percent increase for 
this program, when we have one out of every four failing. How 
can you address those two aspects of that?
    Secretary DeVos. Well, let me just refer again to the fact 
that the report covered information from a longer period----
    Mr. Pocan. Sure but my question, if I can, just because I 
want to get a couple more subject areas in----
    Secretary DeVos [continuing]. And----
    Mr. Pocan [continuing]. Madam Secretary.
    Secretary DeVos [continuing]. And I will go to the fact 
again that we need more charter schools, not fewer of them, and 
we need----
    Mr. Pocan. Okay. So what are we doing to get money back----
    Secretary DeVos [continuing]. And we need----
    Mr. Pocan [continuing]. For taxpayers. Let's try that one 
first.
    Secretary DeVos [continuing]. We need traditional public 
schools----
    Mr. Pocan. Okay. Let's go--no, I am sorry.
    Secretary DeVos [continuing]. Held to the same 
accountability----
    Mr. Pocan. Excuse me, Madam Secretary----
    Secretary DeVos [continuing]. As the others.
    Mr. Pocan [continuing]. Just because I am trying to save 
time. So what are we doing to get the money back for taxpayers, 
the $1 billion that got wasted?
    Secretary DeVos. I am not sure that that is the ultimate 
conclusion, but we will certainly look into----
    Mr. Pocan. Are we going anything to get the money back?
    Secretary DeVos [continuing]. We will certainly look into 
that, and----
    Mr. Pocan. So we are not doing anything to get the money 
back.
    Secretary DeVos [continuing]. In the context of that 
report.
    Mr. Pocan. This is interesting how we ask questions. I feel 
like I am speaking a different language. I am sorry.
    Okay. So then the second part of that is you have an 
increase, yet we have the failure rate.

                            SPECIAL OLYMPICS

    All right. So let me go to another area and I want to 
follow up on the thing Ms. Lee mentioned about the cuts to 
Special Olympics. Do you know how many kids are going to be 
affected by that cut, Madam Secretary?
    Secretary DeVos. Mr. Pocan, let me just say again, we had 
to make some----
    Mr. Pocan. Okay.
    Secretary DeVos [continuing]. Difficult decisions with this 
budget.
    Mr. Pocan. Again, this is a question on how many kids, not 
about the budget.
    Secretary DeVos. I don't know the number of kids. I also 
know that----
    Mr. Pocan. Okay. It is 272,000 kids.
    Secretary DeVos [continuing]. I----
    Mr. Pocan. That is all. I will answer it for you. That is 
okay. No problem. It is 272,000 kids----
    Secretary DeVos. Let me just say that I think Special 
Olympics----
    Mr. Pocan [continuing]. That are affected----
    Secretary DeVos [continuing]. Is an awesome organization, 
one that is well supported by the philanthropic sector as well.
    Mr. Pocan. Sure.
    Secretary DeVos. And this is one----
    Mr. Pocan. I will start reclaiming my time if I could, 
Madam Secretary, because there are a couple more parts to this.

                           SPECIAL EDUCATION

    So also we have cuts that go in the special education 
grants to states from $3,000,000 to $2,200,000, a 26 percent 
cut, and then also in this budget you have a $7,500,000 cut to 
the National Technical Institute for the Deaf, a $13,000,000 
cut for Gallaudet University, a $5,000,000 cut for a Federal 
program for print books for blind students, and you recently 
had a Federal judge rule against us on some areas around 
special education.
    I have two nephews with autism. What is it that we have a 
problem with, with children who are in special education? Why 
are we cutting all of these programs over and over within this 
budget?
    Secretary DeVos. Well, sir, we have continued to retain the 
funding levels for IDEA and held that level. So in the context 
of----
    Mr. Pocan. I don't--I am sorry. I don't think I brought up 
IDEA.
    Secretary DeVos [continuing]. In the context----
    Mr. Pocan. I believe I brought up Special Olympics, special 
education grants to states, the National Technical Institute 
for the Deaf, Gallaudet University, Federal program for 
printing books. So if you could address those, that is the 
question. I would really appreciate it.
    Secretary DeVos. I will address the broader question 
around----
    Mr. Pocan. Or if you could actually address the question I 
asked. That is even a better way to answer a question.
    Secretary DeVos. Supporting students with special needs, we 
have continued to hold that funding level--that funding at a 
level amount, and in the context of a Budget proposal that is a 
10 percent reduction----
    [The information follows:]

                       Special Education Funding

    Special Education Grants to States, which are authorized under Part 
B, Section 611 of the Individuals with Disabilities Education Act 
(IDEA), are often referred to as IDEA Grants to States.
    The fiscal year 2020 budget requests a shift of $840,720,000 from 
the annual appropriation for the Grants to States program to the 
advance appropriation for that program. The request would shift the 
timing of when States receive the funds, but the overall funding would 
be level with the fiscal year 2019 appropriation.

    Mr. Pocan. All right. I will reclaim my time. I will 
reclaim my time. You are not going to answer the question.
    Let me try one last one. Maybe I will do better than 
charter schools if I get this one covered you.

             DEPARTMENT OF EDUCATION SALARIES AND EXPENSES

    You have got a cut to the Department that is a 12 percent 
agency cut, but you have a 15.6 percent increase in your 
executive salary appropriation. How can you justify that?
    Secretary DeVos. So the Department funding includes a 
building modernization piece.
    Mr. Pocan. Yeah. I did not ask about buildings. I am----
    Secretary DeVos. Well, it is all part of that--it is all 
part of that budget.
    Mr. Pocan. So you are okay with a 12 percent agency cut in 
light of a 15.6 percent increase in executive salary, and, by 
the way, I know it does not come out of this Budget, but $7 
million security expense in the last year.
    Secretary DeVos. So we are also funding the Next Gen 
initiative through Federal Student Aid, which requires a lot of 
investment now to save in the longer term. Same thing for the 
building modernization piece. We are in the process of 
shrinking down the footprint here from three buildings to two, 
and all of that--the expenditures, they come up front, so that 
the savings can be realized in the longer term.
    Mr. Pocan. Madam Chairwoman, I am sorry I was not more 
clear in my questions. Thank you.
    Ms. DeLauro. Thank you. Congressman Harris.

                              BUDGET CAPS

    Mr. Harris. Thank you very much, and good to see you again, 
Madam Secretary.
    Let me just--and again, I am trying to ask the secretaries 
when they come before here to explain the President's Budget. 
Now you have to work within the current statute, right, and the 
current statute, we have to revert to the old caps. Is that 
correct? Congress has not----
    Secretary DeVos. Congressman, yes, that is my 
understanding.
    Mr. Harris. Yeah. Congress has not raised the caps. So 
actually, why anyone up here, on this side of this--you know, 
this wall here, would think that the blame is not on us for not 
having given you the money, you know, to spend more, I mean, 
the bottom line is Congress is failing again. I mean, that is 
the bottom line.

                       FEDERAL ROLE IN EDUCATION

    Look, I trust states and localities on education. Look, 
there is a basic philosophy. Look, we are people, again, on 
this side of the wall, and some of us are going to agree to 
disagree that some people think the Federal Government knows 
best how to educate people in Somerset County. I have one of 
the two poorest counties in the state. And I like to think that 
my board of education and my local county and my state knows 
how to educate those students, and someone up here--I hate to 
say it, you are part of the Federal Government, and I hate to 
say it but I don't think the Federal Government knows best how 
to educate those students. So I agree with you. The turning 
over more things to the states, I think, is good.
    I also think that freedom is an American principle. I think 
freedom and choice are principles and I think that charter 
schools embody that principle, to a large extent. So, you know, 
I think that it was a great idea to highlight charter schools 
in your Budget, and especially the State Facilities Incentive 
Grants, because it always bothered me.
    I used to sit on the Education Committee in the State 
senate in Maryland. It used to bother me that we would talk 
about charter schools and then we would say we will give you 
money for the education, but we are not going to give you any 
money for a facility. Well, it is kind of hard to educate 
without a facility, but I guess that is the way the education 
establishment discourages charter schools. That is the way they 
do it. And good for you to point that out.

              GLOBAL RANKINGS IN READING, MATH AND SCIENCE

    Now you testified--and you are going to have to explain--
give me these numbers again--the reading, science, and math, 
where we stand in the nation--I am sorry, in the world. Was it 
24th in reading, 25th in science, 48th in math, or did I get 
one of those numbers wrong?
    Secretary DeVos. No--24th in reading, 25th in science, and 
40th in math.
    Mr. Harris. Fortieth in math. So this is after 40 years of 
Federal involvement. And where did we stand in 1979, before the 
Federal Government went in to help the states educate 
Americans?
    Secretary DeVos. Well----
    Mr. Harris. If you could get back to me, if you could look 
that up, I will bet you it wasn't----
    Secretary DeVos. Yes. I know we were much, much higher in 
the ranking and we have definitely continued to deteriorate.
    [The information follows:]

              International Standing of American Students

    The data that Mr. Harris cited--that we are 24th in reading, 25th 
in science, and 40th in math--are from the 2015 Program for 
International Student Assessment (PISA), a system of international 
assessments that allows countries to compare outcomes of learning as 
students near the end of compulsory schooling. PISA, which began in 
2000, measures the performance of 15-year-old students in mathematics, 
science, and reading every 3 years. In 2015, more than 70 education 
systems participated, and, as the rankings show, the United States is 
not at the top.
    Another source of our international standing is the Trends in 
International Mathematics and Science Study (TIMSS). TIMSS data have 
been collected on 4th and 8th grade students since 1995 and show that 
the United States continues to lag behind top-performing countries. In 
1995, American 4th graders ranked 12th out of 26 in math and 3rd out of 
26 in science; 8th graders were 28th out of 41 in math and 17th out of 
41 in science. Twenty years later, 4th graders were 15th out of 54 in 
math and 11th out of 53 in science; 8th graders were 12th out of 43 in 
math and 11th out of 43 in science.

                       FEDERAL ROLE IN EDUCATION

    Mr. Harris. Right. So let's just step back to the big 
picture. In 1979, we were better. The Federal Government says--
you know, it is the words of Ronald Reagan, you know, the nine 
most dangerous--however many words it is, you know, ``I am here 
from the Federal Government and I am here to help.'' So the 
Federal Government came in to help education and now we are 
much worse off.
    Well, Madam Secretary, I want to thank you for thinking 
outside of the box in how to--in how to reverse some of that, 
and I do think some of the principles you have elucidated in 
the Budget get to that.
    I do want to commend you, actually, because I have gone and 
spoken to teachers and parents in my district who worried a lot 
about the disparate impact policies of the previous 
Administration, worried a lot about that effect on school 
discipline, and were very grateful that this Administration 
took a new look at those disparate impact policies.

                 SCHOOL CHOICE AND ALTERNATIVE PATHWAYS

    But I would like you to expand a little bit, because I do 
think that one thing the Federal Government can do is expand 
the ability of states to be forward-thinking in how they 
provide alternative education for parents and students who 
choose not to be in a conventional public school, and explain 
the new approach you are going to take to encourage states to 
have these foundations that fund alternatives for parents.
    Secretary DeVos. Well, thanks, Congressman, for those 
comments and the question.
    This Administration continues to support alternative 
pathways and acknowledges that more and more students are not 
traditional students, and we are going to have regular 
interface with education and learning throughout our adult 
lives, particularly children born today, when you think about 
the fact that a kindergartner today can look forward to 
entering a workforce where 85 percent of the jobs don't yet 
exist.
    So we have to be supporting lifelong learning in a way that 
is meaningful. That goes to some of the recommendations that we 
made around the Pell--a short-term Pell program, around 
expanding career and technical education opportunities, pre-
apprenticeship opportunities. So there is a proposal in the 
Budget for $60 million to go to pre-apprenticeship programs 
that will help prepare students to explore these alternative 
pathways and give them a chance to earn while they are 
learning.
    We have a long way to go to really support all of these 
different alternatives in a meaningful way, when you compare it 
to how we have really weighted the--every equation around 
traditional higher education, and we are proposing some small 
steps in that direction.
    Mr. Harris. Well, thank you very much, Madam Secretary. I 
yield back.
    Ms. DeLauro. Congresswoman Frankel.

                   SEXUAL ASSAULT ON COLLEGE CAMPUSES

    Ms. Frankel. Thank you, Madam Chair, and thank you, Madam 
Secretary. You have a very nice disposition, even though I 
don't agree with some of these budget cuts but thank you so 
much for being here.
    I am going to try to find some things we can agree about, 
okay?
    So let me just start--I want to talk about sexual assault 
on college campuses. The Department of Justice and CDC has 
repeatedly documented that roughly 20 to 25 percent of women 
have been sexually assaulted, most commonly by men, and I think 
also men, maybe about a 16 percent rate, or something smaller 
than that. But that women of college age are at the highest 
risk.
    So, first of all, I want to ask you this. I am assuming 
that you agree that Title IX schools are required to respond to 
acts of sexual violence that impact students' access to 
education. Do you agree with that?
    Secretary DeVos. I would, Congresswoman, but let me just 
say that I have said before, and I wanted to emphasize again, 
that one act of sexual violence is one too many, and one 
student that does not have due process is one too many.
    Ms. Frankel. Okay, well, let----
    Secretary DeVos. We know that we are----
    Ms. Frankel [continuing]. Let me just--I just--if you could 
just let me reclaim my time, just to--and when we have time you 
could talk about the perpetrators and so forth. But I just--do 
you agree that, in practice, many schools are failing to 
protect victims or hold perpetrators accountable?
    Secretary DeVos. What I know is I have heard from students 
and I have heard from institutional representatives that the 
framework that they have had to operate under has not worked 
for too many students, which is precisely why we are in the 
process of rulemaking.
    Ms. Frankel. Okay. Well, let me just--excuse me. Let me 
just--I want to find some things we can agree on, and then we 
can disagree.
    I am assuming you would agree that people who are subjected 
to sexual assaults experience terror, helplessness, profound 
humiliation, and that sexual assaults are among the most 
harmful, traumatic experiences. Can we at least agree on that 
point?
    Secretary DeVos. Certainly.
    Ms. Frankel. Okay. That is great. And I think we can both--
we can all agree that the response of the survivors' community 
is very important for their recovery. We can agree with that. 
All right. That is good.
    Okay. So I thought--I know we--honest, we are on a good 
path here.
    And I think we would also agree that authority figures in 
schools are in a position of great social authority to help a 
recovery.
    All right. We are doing well.
    Now, so I want to assume, for a moment, that this is a 
classroom, and that we are meeting on a regular basis. All 
right. Just take a look around. Well, you saw the people who 
are here.
    So let's assume--I am not going to pick any person out--
that one of the people in here--it could be a man or a woman--
has been sexually assaulted by another one that is in the room. 
This is a classroom. Would you agree that a victim of sexual 
assault should not be required to sit in a classroom with a 
perpetrator, day after day?
    I think--can't we agree with that?
    Secretary DeVos. I would agree with that, but let me just 
say----
    Ms. Frankel. No. Let's keep going.
    Secretary DeVos [continuing]. I appreciate----
    Ms. Frankel. No. Wait a minute.
    Secretary DeVos [continuing]. And respect your desire to go 
down this pathway.

                       OFF-CAMPUS SEXUAL ASSAULT

    Ms. Frankel. I am reclaiming my time to ask the next 
question, because we are doing well. I mean, come on. We are 
agreeing. All right.
    Now, here is my next question. If a--let's say--this time I 
will say a woman or a man is sexually assaulted at a fraternity 
house, should that--by another classmate--should those--should 
the victim be required to sit in the classroom with the 
perpetrator of the sexual assault?
    Secretary DeVos. Congresswoman, I appreciate and respect 
your desire to continue down this path of questioning, but you 
know that we are in the middle of the rulemaking on this 
issue----
    Ms. Frankel. But wait. Could you just answer my question?
    Secretary DeVos [continuing]. And it would be 
inappropriate--no, it would be----
    Ms. Frankel. If a----
    Secretary DeVos [continuing]. Inappropriate for me to 
continue to comment and answer the questions----
    Ms. Frankel. Okay.
    Secretary DeVos [continuing]. In the way that you are 
posing them.
    Ms. Frankel. All right. But here is what I think.
    Secretary DeVos. It is inappropriate. I am sorry.
    Ms. Frankel. I think you agree with me that an assailant 
shouldn't be allowed to sit next to a victim. And so I am--
since I am running out of time, I guess I have to get to my 
final question, which maybe we don't agree on. But you have 
proposed changes that if a student is sexually assault by a 
classmate off--an off-campus frat--the school is not going to 
be liable to investigate.
    And I don't really understand that. If the frat is on the 
campus or the frat is across the street, it seems to me that 
the harm--the potential harm to the victim is the same, and 
what that means is, for that victim, all that trauma, all that 
humiliation, there is a likelihood that that victim may not go 
to class, may drop out of school, and it seems to me the 
university or the college would be subjecting themselves to a 
violation of Title IX. Think about it.
    Secretary DeVos. Thank you.
    Ms. Frankel. You are welcome. I yield back.
    Ms. DeLauro. Congresswoman Bustos.

                   STUDENT LOANS AND BORROWER DEFENSE

    Mrs. Bustos. Thank you, Madam Chair, and thank you, 
Secretary DeVos, for joining us today.
    What I would like to talk about is the Borrower Defense 
rule, if we could, please. After losing your latest court 
battle to implement the Borrower Defense rule, your Department 
issued guidance that no school could force a student into 
mandatory arbitration over a dispute involving Federal student 
loans. I think that is good. Yet your guidance stresses that 
schools could continue to use mandatory arbitration as long as 
the dispute did not involve a Federal student loan. Is that 
correct? I think that--correct?
    These enrollment contracts where schools hide these 
mandatory arbitration clauses in fine print, which is standard, 
students have to enter these contracts in order to attend 
school. They don't have a choice.
    So I am wondering, Madam Secretary, why this--you would 
continue to encourage schools to take away students' right as a 
condition of going to school.
    Secretary DeVos. Well, Congresswoman, let me just speak 
broadly on the question and the issue. We did not agree with 
the Obama administration's approach to this. I am certainly 
very aware of the court decision and we are in the process of 
implementing that, while at the same time we are continuing to 
work on revising the rules so that it is one that we think is 
more fair to both students and taxpayers, ultimately.
    Our partial relief formula is meant to be respectful of 
taxpayers. There is no student that should--you know, should be 
able to make a claim for Borrower Defense if they have not 
truly been defrauded or if they are gainfully employed. And so 
we are going to continue to work on this rule and implement, as 
per the judge's orders.

               MANDATORY ARBITRATION AND BORROWER DEFENSE

    Mrs. Bustos. So I am wondering if you can talk about what 
efforts your Department is taking to ensure that schools not 
including arbitration clauses related to the student loans, as 
part of their enrollment. Is your staff monitoring compliance?
    Secretary DeVos. We are following the judge's decision in 
implementing and at the same time continuing to work on 
revising the rule. So that process continues to be ongoing.
    Mrs. Bustos. Okay. And so I am going to drill down just a 
little bit further. Have you asked accreditors to ensure that 
schools are in compliance?
    Secretary DeVos. We are following the 2016 rule and at the 
same time continuing to work on revising the rule.
    Mrs. Bustos. Okay. So I--okay. So you are rewriting the 
rules. Is that correct?
    Secretary DeVos. We are.
    Mrs. Bustos. Okay. So will your rewrite include the 
existing ban of forced arbitration for Federal student loan 
disputes?
    Secretary DeVos. That is all part of the consideration, and 
it would be premature to actually comment on the rule before it 
is actually released for comment.
    Mrs. Bustos. What is your timeline on this?
    Secretary DeVos. It is very soon, within the next few 
months.
    Mrs. Bustos. All right. Would you--I probably can predict 
your answer on this, but would you be able to commit to act in 
the best interest of students and uphold the ban on forced 
arbitration?
    Secretary DeVos. Well, I commit to acting in the best 
interest of students--I do that every day in my job--and will 
continue to commit to working on this rule so that it is one we 
can be very supportive of and that is equally fair to students 
and to taxpayers.

                           TEACHER SHORTAGES

    Mrs. Bustos. Okay. Since I have got a minute left I am 
going to address teacher shortage. So I am from the State of 
Illinois and we have got a severe teacher shortage issue, about 
1,000 positions that can't be filled. Number one is in Chicago, 
which is outside my congressional district, but the other two 
are in the cities of Peoria and Rockford, which are in my 
congressional district. So this is an issue I have done 
roundtables on this and have learned from teachers that they 
feel undervalued, they feel underpaid, they feel overworked.
    Your budget cuts a critical Department of Education program 
that school districts can use to improve teacher recruitment 
and retention, and I know that you have stated that you 
consider teacher hiring a local issue. But you have also stated 
that you wanted to help facilitate the sharing of best 
practices to bring more teachers into schools. And I am 
wondering if you can elaborate on some of the best practices 
and share your next steps to help the states and districts with 
teacher shortages. I will just leave it at that since we just 
have a few seconds left here.

               TEACHER PROFESSIONAL DEVELOPMENT VOUCHERS

    Secretary DeVos. Thanks, Congresswoman. I too have met with 
and talked with many teachers and know that way too many of 
them do feel undervalued and underappreciated. That is why our 
Budget has proposed to really give teachers an opportunity to 
develop themselves in a way that works for them, through a 
teacher voucher that they can use for their own professional 
development.
    One of the things I have heard consistently is that they 
have been basically told what development to take, when and 
where, whether it is relevant to their particular subject area 
or their particular development need. And so we think that this 
is a really good way to begin to get at that and to show the 
kind of honor and respect that they should have, and to elevate 
their profession.
    We also think that through the investment in mentorship and 
residency opportunities that teachers will--really great 
teachers will find a way to continue to develop their own 
career path and not have to leave the classroom, as too many of 
them have to do today. In order to continue to develop their 
own career path they go into administration and then they are 
no longer in the classroom, and it doesn't need to be an 
either/or like that. It can be a both/and. They can continue to 
be in the classroom and develop a career path if they have the 
opportunity to teach as teachers, to teach the teachers, and 
the mentorship and residency program will allow that kind of 
opportunity to develop well.
    Mrs. Bustos. I will yield back. Thank you.
    Ms. DeLauro. Congresswoman Watson Coleman.

              CIVIL RIGHTS, DISPARATE IMPACT, AND GUIDANCE

    Mrs. Watson Coleman. Thank you, Madam Chairman. Thank you, 
Madam Secretary, for being here.
    Number one, I want to follow up on a question that 
Congresswoman Lee asked. Specifically what is your rationale 
for having rolled back the guidance on dealing with 
discrimination and civil rights issues in the schools? You 
mentioned something about quotas. I read the rule, and it has 
nothing to do with quotas. What is your rationale for having 
taken that guidance and repealed it?
    Secretary DeVos. Well, Congresswoman, thank you for that 
question again. I will repeat again that I think we share the 
same goal, that every student is treated as the individual that 
they are----
    Mrs. Watson Coleman. I just want to reclaim my time here--
--
    Secretary DeVos [continuing]. And need to be respected.
    Mrs. Watson Coleman [continuing]. Because I only want to 
understand one thing. What is the rationale for repealing a 
guidance with regard to how you address discrimination, 
disparate impact, and all of those things on a--in a school 
environment?
    Secretary DeVos. Well, discrimination is wrong and it will 
be pursued.
    Mrs. Watson Coleman. Well, we agree with that.
    Secretary DeVos. Indeed.
    Mrs. Watson Coleman. So just tell me, if you don't mind, 
why you felt it was okay to eliminate a guidance that was to 
help understand how to process these things? How is that 
helpful?
    Secretary DeVos. Well, actually, the guidance--we heard 
from many, many different quarters that the guidance was 
actually harming schools' and individuals' opportunities to 
discipline----
    Mrs. Watson Coleman. You know what? Thank you. Reclaiming 
my time. I almost want to ask you----
    Secretary DeVos. Can I finish--may I finish the question?

                         PELL GRANT FLEXIBILITY

    Mrs. Watson Coleman [continuing]. That every time you talk 
about--every time you talk about your findings, your research, 
your whatever, I would love to see that research. I honest to 
God would love to see what you rely upon as you are making--
answering some of these questions about what to do.
    Let me tell you something I really support very much in 
your budget, and that is to expand access to Pell Grants for 
apprenticeship programs, technical programs. I agree with you. 
The route is not always a 4-year college education.
    I want to know that in advance of doing that, since that is 
an innovation on your part, what are you going to have in place 
to ensure that something like a Trump University--that has 
absolutely no academic relevance--is not--not an organization 
that benefits from this new approach?
    Secretary DeVos. Well, Congresswoman, this proposal is one 
that we would like to work with Congress to ensure the 
appropriate boundaries or guardrails are put into place----
    Mrs. Watson Coleman. Okay. Thank you.
    Secretary DeVos [continuing]. But I think it is an 
important opportunity.
    Mrs. Watson Coleman. Yeah. I think that Congress very much 
would want to know what your parameters were and what your 
accountability system is going to look like.

       STATE AND FEDERAL ROLES IN OVERSIGHT OF PREDATORY SCHOOLS

    I want to ask you a question. I have got a lot of questions 
and I am going to probably get to them in a second round, 
because I have a question with regard to your Department's 
decision not to any longer work with State officials over the 
redress of victims of for-profit colleges.
    And this particular question was prompted by a letter that 
my attorney general in the State of New Jersey sent to your 
Department several months ago, asking why suddenly you are not 
collaborating with them and sharing information with them so 
that they could address the eligibility of students who went to 
schools like the Corinthian schools that failed them, in any 
way, shape, or form, and whose loans could be forgiven.
    A, I would like to know why you haven't answered that 
letter yet, and B, I would like to know what are you all doing 
about recapturing that money and protecting those students and 
informing them that they are eligible to have their loans set 
aside?
    Secretary DeVos. Well, Congresswoman, I certainly want to 
make sure that we answer your inquiries and requests thoroughly 
and promptly, and if you could just submit a specific question 
for the record on what this particular matter is, we will be 
happy to respond.
    Mrs. Watson Coleman. I would really have no problem sending 
it to you. I simply want you to know that the question that 
this is prompted by is a letter dated May 17, to you, by our 
attorney general, Gurbir Grewal. And so I would appreciate an 
answer. I will send you the letter again. I would appreciate an 
answer in a more timely fashion, and he hasn't gotten one.
    I guess I have to yield back now. I have a second round's 
worth of questions.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Ms. DeLauro. I thank the gentlelady. Congresswoman Roybal-
Allard.

                    OVERSIGHT OF EDUCATION SPENDING

    Ms. Roybal-Allard. Welcome, Madam Secretary.
    Before I ask my first question I want to go back to the 
issue that was raised by Congressman Pocan regarding the waste 
of $1,000,000,000 on charter schools that never opened or 
opened and then closed, and just suggest that if your 
Department were to do due diligence, not only in terms of 
oversight but in working to reclaim that $1,000,000,000, 
programs such as the Special Olympics, there would be no need 
or excuse for eliminating that and other important programs for 
our children.

         EXPANDING PELL ELIGIBILITY WITHOUT INCREASING FUNDING

    Madam Chair, I want to talk about the Pell Grants. I agree 
with your proposal to support career and technical education 
but disagree on how you are going about it.
    As you know, the Pell Grant is the cornerstone of our 
national commitment to make higher education accessible and 
affordable, but the purchasing of Pell Grants has significantly 
dropped over the years, covering only about 30 percent of the 
cost of college today.
    Your Budget flat-funds Pell Grants and does not take into 
account rising inflation cost to education, and, in addition, 
you propose to expand the pool of eligible applicants by 
opening Pell Grants to short-term programs.
    How do you hope to finance the additional demands on the 
program, given that you provide no additional funds for the 
likely increase in Pell Grants?
    Secretary DeVos. Well, Congresswoman, thanks for the 
question. The proposal for short-term Pell, Congress may well 
decide to expand the Pell funding. Our proposal is to continue 
to hold Pell level, but acknowledging that many students that 
might opt to take a short-term certification program may do so 
in lieu of a more traditional, longer-term program, which, in 
fact, could probably be less costly to both the students and 
ultimately the taxpayer. But we are looking forward and happy 
to work with you to set up those kinds of parameters and would 
welcome the opportunity.
    Ms. Roybal-Allard. Okay. Well, I would suggest that you are 
not going to get enough students to switch from whatever 
profession they are seeking that needs a 4-year degree to take 
these shorter terms. So I am hoping that--and I am sure that 
our chair, we will be, in fact, putting more money into the 
Pell Grant program.
    One second. I am just going to move on to my next question.

             STUDENT SUPPORT AND ACADEMIC ENRICHMENT GRANTS

    For the third year in a row your budget proposal has called 
for complete elimination of the Title IV-A program, stating 
that it is duplicative and ineffective. This is the same 
program that your Department repeatedly touts as offering local 
control and flexibility to districts, and even goes so far as 
to suggest using these program funds to improve social-
emotional learning, school climate, and student safety, as 
recommended in the report from the Federal Commission on School 
Safety that you co-chaired.
    So why are you ignoring your report's own recommendation 
and calling for the elimination of a program that for thousands 
of districts across the country is the only flexible funding 
available for things like music, PE, STEM, mental health 
services, school counseling, and violence prevention?
    Secretary DeVos. Thanks for that question, Congresswoman. 
We have proposed this particular program elimination because it 
has been very thinly spread and has not been shown to be 
particularly effective at any particular thing.

                             SCHOOL SAFETY

    But with regard to school safety initiatives, the 
Administration's budget proposal broadly, between the four 
departments that are touched by school safety issues, is 
proposing $700 million specifically around--to support 
recommendations from the School Safety Commission report. And 
the Department of Ed's budget includes $200 million, $100 
million of which would be for supporting mental health and 
social-emotional learning initiatives at the school level, at 
the local level, and the balance of it for helping schools to 
do emergency planning and assessments and take proactive steps 
to really prevent any acts of violence.
    Ms. Roybal-Allard. So you are actually disagreeing with 
your own Department's recommendation and the Commission that 
you co-chaired?
    Secretary DeVos. No, not at all. In fact, we think that the 
proposal of the Budget really helps get after some of the 
things that the commission's report recommended and helps 
support those initiatives.

                               CLASS SIZE

    Ms. Roybal-Allard. In your testimony you stated the 
following, and I quote, ``Students may be better served by 
being in larger classes if by hiring fewer teachers a district 
or state can better compensate those who have demonstrated 
high-quality and outstanding results,'' end of quote.
    This is contrary to decades of longstanding, credible 
research like the Student/Teacher Achievement Ratio that 
actually recommended, on average, student/teacher ratio to be 
15-to-1. So what evidence-based research do you have to back 
your statement?
    Secretary DeVos. Well, that must be in my written 
testimony, and I would just comment to the fact that given--you 
know, given Education Freedom initiatives, there are different 
kinds of environments in which students learn well. Some 
students can learn better with larger classes, with more 
students to collaborate with, to learn with, and others in----
    Ms. Roybal-Allard. Can you give me----
    Secretary DeVos [continuing]. In smaller----
    Ms. Roybal-Allard [continuing]. Can you just cite what 
research you are using to make that----
    Secretary DeVos. There is plenty of research that will 
undergird the fact that mandating a specific class size 
doesn't----
    Ms. Roybal-Allard. If you can just provide us with that 
information----
    Secretary DeVos [continuing]. Doesn't yield results. I 
would be happy to have, if you submit a question for the 
record, I will be happy to do so.
    [The information follows:]

                          Class-Size Research

    The Tennessee Student Teacher Achievement Ratio (STAR) study, which 
was conducted 30 years ago, is often cited as evidence that smaller 
classes lead to higher achievement. However, researchers have 
questioned whether the STAR results are applicable to different 
populations and settings and other studies of class-size reduction have 
produced less positive findings.
    For example, one review of the research on class-size reduction \1\ 
found that few studies were rigorous, none of the ones reviewed showed 
the same size gains as the STAR intervention, and some showed no 
effects at all. Furthermore, there can be unintended consequences: if 
there is not a pool of highly qualified teachers seeking jobs, 
districts may need to hire unqualified teachers, or they may lose their 
best teachers to other districts. An examination of the Federal Class-
Size Reduction Program \2\ (a program last funded in fiscal year 2001) 
found that recruiting a fully certified teacher was a problem in a 
third of large districts, finding space for additional classrooms was a 
problem for almost 60 percent of large districts, and many teachers in 
class-size reduction classrooms used the same teaching strategies--
desks in rows, with the teacher lecturing from the front of the room--
as teachers in non-class-size reduction classrooms.
---------------------------------------------------------------------------
    \1\ Class Size: What Research Says and What it Means for State 
Policy, Grover J. ``Russ'' Whitehurst and Matthew M. Chinos, Brookings, 
May 11, 2011.
    \2\ https://www2.ed gov/rschstat/eval/other/class-size/index.html.
---------------------------------------------------------------------------
    Finally, reductions of the magnitude in the STAR study--class sizes 
were reduced from 22 to 15 students, on average--are expensive, and one 
must weigh these costs against the costs of alternative strategies for 
improving achievement.

    Ms. DeLauro. Congresswoman Clark.

                 SCHOOL DISCIPLINE GUIDANCE RESCISSION

    Ms. Clark. Thank you, Madam Chair, and thank you, Madam 
Secretary, for being here today.
    I want to go back to the school safety report. Within one 
section of the school safety report your Commission did 
recommend--we have discussed it earlier--rescinding the 2014 
guidance entitled ``Rethink School Discipline Guidance.'' Is 
that correct?
    Secretary DeVos. Yes, that is correct.
    Ms. Clark. And you, as Secretary of Education, you went 
ahead and rescinded that in January of 2019. Is that correct?
    Secretary DeVos. That timing might be about right. It might 
be a little bit late.
    Ms. Clark. But you did rescind it in your official 
capacity. Is that right?
    Secretary DeVos. Yeah.
    Ms. Clark. In your words, the guidance was, quote, ``well 
meaning'' to address the fact that black boys are three times 
more likely to be suspended and black girls are six times as 
likely to be suspended.
    But the report goes on to say although well meaning, you 
believe, the Commission believes, headed by you, that the 
guidance resulted in teachers and schools not really carrying 
out discipline because they were afraid of Federal action. Is 
that correct?
    Secretary DeVos. That has been--yes, that has been actually 
spoken to me from a number of teachers.
    Ms. Clark. Okay. And then you went on to lay out, in the 
report, that although not specifically called for in the 
guidance that there was a concern that the Commission had that 
this guidance was creating quotas, or certainly pressure to 
have quotas, meaning that you would look and have to discipline 
white students at the same rates you were disciplining black 
students, however unfairly. Is that what you mean by quotas, 
that you would actually look and discipline white students to 
make sure it was equal with the discipline of black students?
    Secretary DeVos. Well, Congresswoman, if what you are 
asking is about whether students can or should be treated 
differently----
    Ms. Clark. I am asking that--that is--that is what you 
wrote in your report, that this was a concern that schools 
would feel pressured to have discipline quotas. That was in 
your report, right?
    Secretary DeVos. Yeah. Every student is an individual----
    Ms. Clark. Yeah----
    Secretary DeVos [continuing]. And needs to be treated as 
one.
    Ms. Clark [continuing]. I am just asking because quotas was 
a concern. Is that correct?
    Secretary DeVos. Well, that has been suggested----
    Ms. Clark. It is. It is.
    Secretary DeVos [continuing]. By the discipline guidance.
    Ms. Clark. Right, and you put it in your report, that was a 
concern.

                      RESEARCH ON DISPARATE IMPACT

    You also questioned the legal validity of the guidance on a 
theory of disparate impact, and here is where my questions for 
you come in. At the base of all of this, you wrote in your 
report, the racial gap in suspensions--you cite a study and 
say, quote, ``The racial gap in suspensions was completely 
accounted for by a measure of the prior problem behavior of the 
student, a finding never before reported in literature.''
    Quote from your report, ``This research undermines the core 
proposition in disparate impact theory that statistical 
disparities necessarily demonstrate that classroom teachers and 
administrators are motivated by race when disciplining 
students.'' That is a quote from your report.
    So I looked at the underlying research, and here is what it 
shows. It says--and I am quoting from the report, ``Prior 
Problem Behavior Accounts for the Racial Gap in School 
Suspensions,'' that you cite in your school safety commission 
report. This report says, ``Studies suggest that school 
disciplinary rates may reflect the problematic behaviors of 
black youth, problem behaviors that are imported into schools 
and into classrooms.''
    They go on to say, ``Difference in rates of suspensions 
between racial groups appear to be a function of differences in 
problem behaviors that emerge early in life, remain relatively 
stable over time, and then materialize in the classroom.'' And 
this report that you have cited, and based as your theory, 
concludes by saying, ``The association between school 
suspensions and blacks and whites reflects longstanding 
behavioral differences between youth.''
    That is the research that you have cited in your report in 
concluding that apparently that it is not racial discrimination 
in discipline but there are some characteristics of black 
children that, from this report, start very early in life, well 
before they get to the classroom. And, in fact, the author of 
this report has many other writings where he says it is a 
liberal fantasy that poverty and racism play into high rates of 
incarceration and criminal behavior.
    So my question for you is, when you talk about children 
shall be treated individually, what are you saying? Are you 
saying here, when you quote this research, that the problem 
really is that black children are just more of a discipline 
problem, because that is the research that you have quoted in 
your report.
    Secretary DeVos. Well, Congresswoman, I have said it before 
and I will say it again. No student, no child should be treated 
or disciplined differently based on their skin color, their 
race----
    Ms. Clark. And I think----
    Secretary DeVos [continuing]. Or their national origin.
    Ms. Clark [continuing]. Your report agrees with that. They 
just say that by the very basis of being a black child you are 
more likely to be a discipline problem. That is what the study 
says that you quoted in your report and said that is why we now 
think they may not be motivated by race. Black children are 
just plain old more disruptive in the classroom. How did you 
come to that conclusion?
    Secretary DeVos. Children should never, ever be 
discriminated against.
    Ms. Clark. Well, I hope you take those words to heart----
    Secretary DeVos. And if they are treated differently----
    Ms. Clark [continuing]. And repeal your citing of this 
research.
    Ms. DeLauro. Congressman Graves.

                     EDUCATION FREEDOM SCHOLARSHIPS

    Mr. Graves. Thank you, Madam Chair, Madam Secretary. Good 
to see you.
    Secretary DeVos. Good to see you.
    Mr. Graves. First, let me just thank you for your many 
years of commitment to children's education. Your personal 
heart and your spirit that you have shown is amazing, and I 
want to thank you for that. I know that has just been a driving 
commitment of yourself and your family for many years. And 
thank you for taking it to the public sector. It is not an easy 
place to go but you were willing to do that, and didn't have 
to, but you stepped up, and thank you.
    Just sort of changing direction a little bit, and I know 
you have plans for the agency in the days ahead, and we are 
talking budgets and such as that. But I know you briefly talked 
a little bit about the--I guess it was the Educational Freedom 
Scholarship Program. And maybe you could just go a little 
deeper on that, because I think that really gets to the heart 
of what you are trying to do in this Department, and that is to 
make sure that children have access to education that touches 
them where they are in life as best as it can, and take them to 
another place that better them and their family in the future.
    If you can tell us a little bit about that, because I have 
familiarity in some ways with--Georgia has an educational tax 
credit. Is it similar to that, and how does that work, and, you 
know, how would children benefit from this?
    Secretary DeVos. Well, thanks, Congressman, for that 
question, and to just elaborate a little bit more on what an 
Education Freedom Scholarship tax credit could mean. We are 
talking about a Federal tax credit that states could elect to 
participate in or not. So Georgia could decide to participate 
in that Federal pool of tax credit funds and implement a 
different program than what they already have. They could 
augment the one that they already have, the tax credit 
scholarship program there, and really think very creatively 
about how to address the unique needs of students in Georgia.

                   STUDENT BENEFIT FROM SCHOOL CHOICE

    And, you know, just thinking about some of the lines of 
questioning here today and some of the students that I have met 
that have benefitted from being able to take--to have school 
choice and take advantage of an opportunity like that, I think 
about Denisha Merriweather, a young woman who was--she failed 
the third grade twice. She grew up in the Jacksonville, Florida 
area. She failed third grade twice, constantly got into fights 
at school, had a mom who was not able to really be a full mom 
for her.
    Thankfully, she had a godmother who came and found this tax 
credit scholarship, Florida tax credit scholarship opportunity, 
and Denisha will tell you today she wasn't in that school, that 
faith-based school that her godmom found for her, not even 2 
weeks, and she was on a completely different trajectory. She 
became the first in her family to graduate high school. She has 
earned a college degree and a master's degree. And she is now 
working with us at the Department of Education to continue to 
talk about advancing these opportunities for kids.
    And I think about so many students today who are stuck in 
schools that just aren't working for them, and to give them the 
kind of freedom and opportunity that the Education Freedom 
Scholarships tax credit would allow is really inspiring to me. 
And I would hope that those whose--who are--whose minds are 
closed to that opportunity today would allow them to be open a 
little bit and just talk to a couple of these students who have 
been able to take--who have been able to make those choices and 
to find the right place for them. You know, every child should 
have those kinds of opportunities.
    Mr. Graves. Well, thank you for your willingness to propose 
that, because that is a bold proposal, and I know there is 
always criticism and objection, oftentimes, to new concepts, 
but it does work. And I don't know of an example where a 
student has gotten a worse education as a result of taking on 
opportunities such as this, and in fact, in some cases, you 
know--and my wife is a schoolteacher, you know, pre-K, so I 
come from that background too. But unfortunately it is not the 
fault of the student. In fact, sometimes they are just tethered 
to a mailbox. They go to school based on where their mailbox is 
and not based on what is best for them and their family and 
their spot, or their needs, in essence. So thank you for your 
willingness to do that.

                          TRUE COST OF COLLEGE

    And as we go through, I know we may have more questions, I 
would like to take it all the way to the full spectrum of 
college and how we can better prepare students with 
understanding the true cost of college. You know, what is the 
cost benefit of going to a school versus what the degree might 
deliver on an income base, and how can we better assist 
students in making college decisions based on facts and 
finances and true costs? So when we come back around I would 
like to touch on that a little bit, but thank you again.
    Secretary DeVos. Thanks, Congressman, and please thank your 
wife for the great work she does.
    Mr. Graves. Thank you.
    Ms. DeLauro. Thank you. We are going to embark on a second 
round, but the time limit will be 3 minutes for each of us. 
Okay. Thank you.

                    CLOSURES OF FOR-PROFIT COLLEGES

    The Department of Education requires a letter of credit 
from an institution if it determines a serious risk to 
taxpayers. This includes things like the risk of a precipitous 
school closure.
    A couple of questions. Did the Department of Education give 
back part of the Art Institute of Pittsburgh's, a for-profit 
college, a letter of credit so that it could continue to 
operate? This is $2 million. It is a yes or no.
    Secretary DeVos. Well, Congresswoman, I am not familiar 
with that specific issue with that specific school. More 
broadly, yes, we do hold letters of credit----
    Ms. DeLauro. Well, apparently there was a $2 million give-
back to the school, which you should check on.
    Given that the Art Institute of Pittsburgh recently 
announced it is going to close anyway, at the end of this 
month, March 31st, it is going to close, I need an answer to 
the question, why did the Department do this and what happened 
to the money? You appear not to know anything about this, but I 
would ask you to please check on it and get us an answer 
quickly as to why it was done and where is the money. Where is 
the money?
    Secretary DeVos. Thank you, Congresswoman. I would be happy 
to----
    Ms. DeLauro. We have testimony----
    Secretary DeVos [continuing]. Your question and I will 
get----

                         STUDENT LOAN SERVICING

    Ms. DeLauro [continuing]. From the Department's Assistant 
Inspector General for Audit. This is about Federal Student 
Aid's mismanagement of student loan servicers.
    I also find it interesting that all the--all of your 
commentary, even some of the folks on the other side of the 
aisle, it is about state and localities that ought to have the 
jurisdiction to go after--to take on education. That is where 
it belongs--except when it comes to protecting our kids and our 
borrowers. Then we don't want to look at the State, what they 
are doing, and the loan servicers. We want Federal law to pre-
empt it.

                 RESCISSION OF MITCHELL AND KING MEMOS

    That being said, and particularly we heard evidence of how 
the department fails to consider a servicer's noncompliance 
with Federal law and past performance. Were not these ideas 
included in the Mitchell and King memos which you rescinded 
following your first 3 months as Secretary of Education?
    Secretary DeVos. Well, Congresswoman, we are--we have, as 
you know, embarked on Next Gen.
    Ms. DeLauro. I understand that. I know about Next Gen.
    Secretary DeVos. Next Gen----
    Ms. DeLauro. And I do know a lot about it.
    Secretary DeVos [continuing]. If you would allow me to just 
talk about that a moment, because it has----
    Ms. DeLauro. What I want to know is why--no, my question 
is, why were the Mitchell and King memos, which were 
specifically laid out to address a servicer's noncompliance 
with Federal law and past performance--I asked the question, 
you rescinded the requirement that stated servicing contractors 
should comply with Federal and State law, taking any necessary 
steps to support oversight by Federal or State agencies, 
regulators, or law enforcement officials.
    Did you rescind that?
    Secretary DeVos. Congresswoman, first let me just say that 
we take loan servicing and the requirements thereof very 
seriously.
    Ms. DeLauro. I----
    Secretary DeVos. We are continuing to enforce----
    Ms. DeLauro. You do not. Loan servicers are getting away 
with--putting at grave risk our students.
    Mr. Cole.

                     EDUCATION FREEDOM SCHOLARSHIPS

    Mr. Cole. Thank you, Madam Chair. I only have a short time 
so I want to get two things on the record and then ask you a 
question.
    One, I agree with you on one. I really want to thank you 
for this Freedom Scholarship initiative. I think that is a 
really important thing and I agree very much with the idea of 
injecting choice and freedom into the system and giving both 
students and, frankly, donors the kind of flexibility that I 
think would help the system and allow us to meet individual 
needs.

                 TRIO, GEAR UP, AND PRE-APPRENTICESHIPS

    I do want to go on record--and you and I have had this 
discussion before--I disagree on TRIO. I certainly disagree 
with the elimination of GEAR UP. TRIO has produced like 5 
million college graduates for the United States, and these are 
young people that usually come--not so young sometimes--come 
from backgrounds that they may not have been able to make it.
    I know in my state these are two really important programs. 
I have this discussion frequently with our chancellor of higher 
education, with the college presidents, and they think, like, 
this has really helped the student population that we have a 
lot of, which is a lot of first-generation.
    One thing I do want to ask you about, though, that I was 
pretty excited about. You have got--you know, and this sort of 
works with--you know, the President proposed an apprenticeship 
program. You have a pre-apprenticeship program and $60 million 
new dollars for that. Can you tell me what the difference is, 
how you would define a pre-apprenticeship program versus an 
apprenticeship, how that would work out?
    Secretary DeVos. So a pre-apprenticeship--first, thanks, 
Mr. Cole. Let me just comment on the TRIO thing----
    Mr. Cole. Sure.
    Secretary DeVos [continuing]. One moment, because I know 
while we have proposed combining GEAR UP and TRIO into one 
program, and then a lesser amount for the TRIO program, what we 
have also proposed is consolidating that into a state formula 
grant so that states have the opportunity to get some of these 
funds to institutions and to individuals that are more needy 
around this.
    What we have found is that 83 percent of the competitive 
grants go to the same places and the same programs time after 
time, and they don't necessarily help the students that are 
most in need. So I would love to talk with you more about that.
    Mr. Cole. We can have that dialogue another time.
    Secretary DeVos. Yes. But with regard to the pre-
apprenticeship program, so this proposal is to really start 
establishing apprenticeship programs that are outside of the 
registered, more traditional sorts of apprenticeships that--the 
building and trades apprenticeship programs--that this will 
allow us to allow employers and educators to work together on 
apprenticeship tracks and opportunities that are going to have 
a more expansive appeal and more relevance to the market today.
    Mr. Cole. Well, again, this has a lot of appeal to me. I 
just want to get a little clarity as we go forward over what 
the definition would be so we don't end up basically funding 
the same thing twice.
    Secretary DeVos. Well, and we would love to work with you 
on that to make sure that is very well----
    Mr. Cole. My career tech people are very excited about all 
these kinds of proposals.
    Thank you, Madam Chair. I yield back.
    Ms. DeLauro. Congresswoman Lowey.

                       BUDGET DEVELOPMENT PROCESS

    The Chairwoman.. Thank you again, Madam Secretary.
    A quick question before I turn to my question with 3 
minutes. Looking at these numbers again, the total cut to the 
Department of Education compared to fiscal year 2019 is $8.8 
billion, 12.5 percent. I am just curious. You could say yes, 
no, whatever. Did you have any input--did Mr. Mulvaney or 
President Trump ask you if you thought those cuts should be 
made or should be rescinded? Did you have any input?
    Secretary DeVos. Congresswoman, yes. This was an ongoing 
discussion. But let me just correct you in your numbers. The 
proposed cuts are $7.1 billion. I think you are also rolling in 
the rescission around Pell, and that is not a cut.
    The Chairwoman. It is pretty important, don't you think?
    Secretary DeVos. That is not a cut to any existing program.
    The Chairwoman. Yes. It is $2 billion----
    Secretary DeVos. It is actually--no, it is the Pell 
surplus. So it is the amount that continues to accrue because 
not enough students are taking advantage of the Pell program so 
the account accrues, and it is just essentially an accounting 
adjustment to rescind part of that.
    The Chairwoman. Madam Secretary, I am not going to be hours 
late. I am not going to get into that. I just wondered if you 
had any input, knowing your commitment to education. You 
accepted this position as Secretary of Education. Does Mulvaney 
say ``this is yours'' and ``this is yours''? But let's go on.
    Secretary DeVos. This is a process, but let me just also 
say that it is only at the Federal Government in Washington 
that we judge the quality and effectiveness of something by the 
amount of money we spend on it. And I think we have to get past 
that notion.
    The Chairwoman. Well----
    Secretary DeVos. Quality and effectiveness does not equate 
directly to dollars spent.
    The Chairwoman. We can have a long discussion, but in many 
of my schools, whether they are getting a Pell Grant or not, 
does depend not just on the specific criteria but whether there 
is enough money in the bank to pay for their Pell Grant or pay 
for their scholarship or help them get through a job and 
education at the same time. But I am not going to get into that 
again. I hope we can continue that discussion.

                             SCHOOL SAFETY

    What I wanted to ask you, in the past two--well, it is the 
past week alone--two Parkland school shooting survivors and the 
father of a Sandy Hook victim died by suicide. This came from 
the gun violence at schools and highlights the critical 
importance of mental health support in schools.
    And while your Budget requests an increase for School 
Safety National Activities it proposes the elimination, for the 
third year in a row, of the $1.7 billion Student Support and 
Academic Enrichment grant program. And in my judgment, 
interacting with educators you need programs like this and 
other important interventions that help keep communities safe.
    Can you just tell us how is the Education Department 
responding to this? Has there been any outreach? Has there been 
any support services? And I have 6 seconds left, so maybe you 
can just answer very quickly.
    Secretary DeVos. Well, let me just say I was heartbroken to 
hear about the students at Parkland, and we certainly have been 
in continual contact with them around the immediate grants that 
we can make in the wake of a tragedy, and will certainly be 
again this time.
    But, you know, the proposed--the Budget proposal does 
include funds and initiatives specifically to help schools 
elect to onboard social and emotional learning and mental 
health programs to really work at ensuring prevention of these 
sorts of tragedies.
    The Chairwoman. Well, my time is up, so $100 million spread 
out across the 50 states doesn't seem to be adequate.
    Thank you.
    Ms. DeLauro. Mr. Moolenaar.

                  REFORMING FEDERAL WORK-STUDY PROGRAM

    Mr. Moolenaar. Thank you, Madam Chair, and again, Secretary 
DeVos, thank you for your answering questions and just for your 
patience with, you know, sometimes not even getting a chance to 
answer the question you were asked. And I appreciate all you 
have done.
    And I wanted to ask you, on your Federal Work-Study 
proposal, last year's Budget you had proposed reforms to the 
Federal Work-Study program. You have done that again this year, 
to better target the funding to low-income recipients. And I 
wonder if you could comment on why do we need to--why does this 
Federal Work-Study program need these reforms? How does it 
assist low-income students better? And any other reforms in 
your Budget to ensure that funds are best targeted to the 
students who need the funds most?
    Secretary DeVos. Well, thanks, Congressman. Yes. We believe 
the Federal Work-Study program needs reforms because the way 
the formula works today very often those funds go to the most 
elite institutions, not the ones that are really serving the 
students with the most need. And so that is issue one.
    Secondly, work-study, as it is carried out today, often 
involves students working in the college bookstore or in the 
cafeteria, on-campus programs. We have proposed to expand those 
options to allow students to potentially work with, in an 
internship-type, apprenticeship-type opportunity, with 
employers for whom they might ultimately move into a career 
with. And we think that having relevant work opportunities for 
students will be very meaningful in their learning career, and 
so that is part of our proposal as well.
    Mr. Moolenaar. I think that is a great idea. I think it 
meets a short-term need as well as really helping someone 
evaluate their future and what they might want to pursue long-
term.
    What needs to happen to accomplish that? Is it legislative? 
Is it something that you can do? You know, how do we accomplish 
that?
    Secretary DeVos. Well, it is part of our Budget proposal so 
Congress can--you all can discuss and take that up in your 
budget deliberations to allow the funds designated for that to 
be able to be used for those sorts of purposes.
    Mr. Moolenaar. Okay. Thank you.

              PROFESSIONAL DEVELOPMENT AND TEACHER MENTORS

    And then just one last question on the teacher mentors. Can 
you talk a little bit more about that, because one of the 
things you hear periodically is that teachers come into the 
profession and many leave in the first 3 years. Is that 
something that this will help with that?
    Secretary DeVos. Good question. Thanks for asking that. We 
believe that this is really a two-track opportunity. For new, 
young teachers just coming into the profession to have a highly 
qualified, seasoned professional to come alongside them and 
help them, you know, to walk through their first few years in 
the profession is a great opportunity for new teachers.
    For those who are established and want to continue to 
really expand their reach and their ability to reach students, 
this gives them a really important career track and opportunity 
to, you know, to do so and to continue to develop themselves 
and a career track for themselves. The best of the best, 
teaching young, new teachers is a great combination and we 
should, I think, really embrace this wholeheartedly, because it 
is ultimately going to be best for students.
    Mr. Moolenaar. Okay. Thank you, and I yield back.
    Ms. DeLauro. Congresswoman Lee.

                     RISK-SHARING AND STUDENT LOANS

    Ms. Lee. Thank you.
    Madam Secretary, your budget proposes to require 
postsecondary institutions that accept taxpayer funds in any 
way to have this, quote, ``skin in the game'' through a student 
loan risk-sharing program. But this program is not quite 
defined in the budget.
    Now, Historically Black Colleges and Universities and 
Minority-Serving Institutions enroll a large number of low-
income students. The point of the Higher Education Act was to 
increase access to postsecondary education, and I want to 
ensure that as we move forward we move toward increased access. 
But from the proposal that we have seen there is a strong 
argument that risk-sharing can incentivize institutions to only 
enroll those students of a certain means in an effort to not 
have to share in the risk if a student is unable to pay back 
their loans. So again, it could negatively harm Minority-
Serving Institutions and minority students.
    So how do you describe your proposal in the sense that it 
would not create a perverse incentive to not enroll low-income 
students?

                  SPENDING ON MEDIA AND COMMUNICATIONS

    And then the second question I have, and you may need to 
get back to me on this, is the Congressional Black Caucus, we 
are deeply concerned about communications and advertising 
dollars from each agency. And so I would like to know--and you 
have $1 million for communications programs in your budget--how 
this money is contracted out in terms of the vendors, the media 
that you use to provide communications through Department of 
Ed, in terms of minority, women-owned businesses in media. So 
if you could just get back to us with that written response.
    Secretary DeVos. Congresswoman, yes. If you could submit 
that for the record we will be happy to respond on that one. I 
can't respond on that right now.
    [The information follows:]

                  Allocation of Communications Funding

    Of the $1,088,000 in communication-related funds requested for 
fiscal year 2020 under Program Administration, $1,042,000 is for the 
Office of Special Education and Rehabilitation Services (OSERS). Of 
this amount, $850,000 would support the Office of Special Education 
Programs (OSEP) GRADS 360 and Customer Service Database, and $192,000 
would support the Individuals with Disabilities Education Act (IDEA) 
website.
    The Department has partnered with small, minority-owned businesses 
on both projects. 2M Research Services, LLC, a small business with 
African American ownership, holds the contract for the GRADS 360 and 
Customer Service Database. Collabralink Technologies, Inc., a small 
business with Subcontinent-Asian American/Asian Indian American 
ownership, holds the contract for the IDEA website.

    Ms. Lee. Yeah.

                       INSTITUTIONAL RISK SHARING

    Secretary DeVos. But as far as your first question and the 
proposal around risk-sharing, it is a very broad proposal and 
not defined at all yet. We would look forward to working with 
you to develop a more concrete approach to ensuring that 
institutions have some kind of commitment to the students they 
are serving.
    I share your concerns. We share your concerns about 
ultimately impacting low-income students and, you know, more 
high-risk students disproportionately. So I think that we, 
again, would look forward to working with you and talking to 
you about ensuring we don't have a--we don't ultimately come 
forward with a proposal that would negatively impact the 
students that most need to have the kind of access you are 
talking about.
    And with regard to HBCUs, I just want to say that this 
Administration has a very strong commitment to continuing to 
support HBCUs and their important work, and our Budget proposal 
continues to fund all of the HEA Title III HBCU grant programs 
at levels as appropriated in 2019. And so, again, in the 
context of a reduced budget overall, I think it demonstrates 
our commitment to these institutions.
    Ms. Lee. Thank you, Madam Secretary. We will get to you in 
writing some suggestions on how you can approach the risk-
sharing program.
    Secretary DeVos. Thank you.
    Ms. DeLauro. Congresswoman Watson Coleman. Oh, no. I am 
sorry.
    Mrs. Watson Coleman. Madam Secretary, how we spend our 
money and propose to spend it is an absolute reflection of our 
values, and as I look at this--did you say Watson Coleman?
    Ms. DeLauro. Lack of confusion here, or more confusion. 
Congressman Harris.
    Mr. Harris. Thank you.
    Ms. DeLauro. Okay. Then Congressman Graves.

       EDUCATION INNOVATION AND RESEARCH AND TEACHER DEVELOPMENT

    Mr. Harris. Thank you very much, Madam Chair.
    And, Madam Secretary, you know, one of the things that I 
have noticed in the President's Budget and of the things that 
was mentioned is the professional development, and kind of a 
different turn the Administration wants to take in professional 
development.
    And, you know, I liken it to a position--you know, we do 
continuing medical education but obviously it is going to be 
different for every person. I mean, every person is at a 
different stage in their training, a different stage in their 
experience. And, you know, a one-size-fits-a-few approach 
doesn't work for that and I suspect it doesn't work for 
professional development for teachers as well.
    So could you just review, you know, the EIR program and 
kind of the--you know, what your proposal is for it, and how it 
would change the way we deal with professional development?
    Secretary DeVos. Yeah. Thanks, Congressman. This is a 
really important initiative. I think that in our goal to really 
honor and respect the teaching profession and teachers we want 
to give a couple of different tools to teachers specifically, 
and give them more freedom to be the best they can be.
    And the proposal that we have put forward is a teacher 
voucher, where teachers could pursue their professional 
development, customize it for their needs, and continue to 
develop themselves, and, you know, perhaps share with their 
peers what they have learned, but give them a lot more freedom 
in that development.
    I have talked with dozens--hundreds of teachers across the 
country, and I hear repeatedly about, you know, with very few 
exceptions, the area of personally developing, professionally 
developing is one that they deeply want to do and yet they have 
very few opportunities and very little latitude in how to do 
that. And so this--we believe this is a really important 
proposal that we hope that you will consider very seriously.
    Mr. Harris. Why is it--because, you know, I have got one of 
the studies that the National Center for Education Evaluation 
and Regional Assistance produced, actually which was from the 
Department of Education, that looked at middle school 
mathematics professional development, you know, where they--and 
I am sure you are aware of these studies--that show that, you 
know, we do these things for teachers, these things called 
professional development, but objectively they just don't 
achieve the outcome.
    Why is it, you think, that what we are currently doing--and 
this is obviously important, mathematics is an important thing, 
that, you know, we want to make sure our teachers teach 
better--why don't these programs currently work?
    Secretary DeVos. Well, I think very often they are a one-
size-fits-all approach, or one dictated by the district or the 
school building, and there is very little latitude given to the 
teacher themselves as to whether or not this particular program 
to which they are assigned to go and learn from is going to 
actually help them in their profession and in their particular 
teaching style.
    So I think being able to choose and customize themselves is 
going to really allow them to really grow professionally in a 
way that they have not been able to before.
    Mr. Harris. Thank you very much, and, Madam Chair, I would 
like to move, without objection, that, you know, this study be 
entered into the record of the hearing.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Harris. Thank you. I yield back.
    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. Are you sure?
    Ms. DeLauro. Yes.

           SCHOOL DISCIPLINE AND DISPARATE IMPACT RESCISSION

    Mrs. Watson Coleman. Thank you, Madam Secretary.
    First of all, I want to say something about this rule that 
was rescinded. This was not supported by any of the civil 
rights community and it would seem to me that that was a very 
valuable entity to consider before you rolled that rule back.

           EFFECT OF PROPOSED CUTS ON DISADVANTAGED STUDENTS

    Number two is you have--you as the major advocate for 
education in this country, admonished us in your statement for 
giving you too much money. So I just find that absolutely 
incredible.
    Number three is that I look at where your priorities are at 
the same time I look at where your decreases and program 
eliminations are, and it is very plain to me that those 
programs that are particularly hurt address the minority 
populations, the poorer populations, the teachers in the 
schools that are struggling more, the TRIO programs and 
programs of that ilk that help young people get prepared for 
college. All of those programs address the children and the 
situations most in need, and there is more than a $7 billion 
cut in your Budget from each one of those programs.
    And finally, I am going to give you the copy that I have of 
my attorney general's letter so that you will have it in your 
possession now and be able to have your staff, who already has 
it, respond in a more expeditious matter.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
                    TEACHER PROFESSIONAL DEVELOPMENT

    Mrs. Watson Coleman. And I guess really, really finally, is 
that you have eliminated a $200,000,000,000 teacher development 
program and replaced it with a $2,000,000, or a $2,000,000,000 
program--or $2,000,000--a $2,000,000,000 program you have 
eliminated, replacing it with a $200,000,000 program to do the 
things that you say will give teachers an opportunity for 
development, personal development, innovative development, et 
cetera. That just doesn't fly. That just doesn't fly.
    It seems to me that a word that you use a lot in your 
discussion here today was about freedom, and from my 
perspective, from what I heard, freedom is not equal in your 
mind.
    I yield back.
    Ms. DeLauro. Congressman Clark. No. Congressman Graves.

                   CONSTRAINTS IN BUDGET DEVELOPMENT

    Mr. Graves. Yes, ma'am.
    Madam Secretary, thanks again. Just sort of wrapping up 
here, you know, I have been here a little while, this 
afternoon, this morning and this afternoon, and I hear a little 
bit of criticism about some spending decisions you have made. 
And might I just point out to the Committee, on your behalf, 
that you are complying with the law. I mean, the law says you 
can only spend so much money, and until Congress changes that 
number you have to make tough decisions and tough choices.
    So I might refer to it as a little bit hypocritical 
criticism, because I have yet to see a comparison budget by the 
other side presented that would counter and show their spending 
priorities as it complies with current law as well. And until 
then I would suggest they restrain from some of their criticism 
until they can compare it appropriately.

                     COSTS AND BENEFITS OF COLLEGE

    Back to talking about college students. I am a father of 
two college students, and we have been going through that 
process of making decisions over the last year and two, and it 
is difficult. It is really difficult to compel a student who 
has a desire, an aspiration to go to a certain university with 
a certain degree in mind and program, and to try to convey to 
them that your potential income when you come out might not 
match the expense of what you are going to incur, because there 
is an expense.
    What can we do, or what is your Department doing to help 
educate very educated students who are going into very 
demanding career potential--potential careers in the future, 
that the expense of a $250,000 loan to get a degree that might 
be very difficult to pay that off in the future--how do we get 
that message to them and help them make informed decisions? 
Maybe it is a disclosure. Maybe it is a--like might be done in 
real estate. You understand you are signing an agreement and 
you understand that this might be the salary, but this is the 
cost, and here is your return on investment.
    Secretary DeVos. Well, thanks for that question, 
Congressman, and this is an area that we have been very focused 
on making progress on behalf of both students that are the 
customers and taxpayers.
    The Next Gen initiative in Federal Student Aid is taking a 
very antiquated, complicated framework that has been patched 
together over the last couple of decades and bringing it into 
the 21st century with a structure that is going to be a world-
class experience for the student, the customer.
    Today you can complete your Federal Student Aid form on 
your smartphone, through the MyStudentAid app. Very soon, we 
are going to be adding really important information to that 
through the College Scorecard. We are going to have program-
level data, by institution, so students can look, if they are 
prospectively deciding between a number of institutions and a 
number of programs that they are thinking about pursuing, they 
are going to be able to find earnings data at the program level 
from that institution.
    And so it is going to give them a really important tool 
that they can use when they decide to take on that student debt 
to determine if that program is ultimately going to pay and 
ultimately going to be worth the investment they are talking 
about making.

                       COLLEGE COSTING RESOURCES

    Mr. Graves. Do you anticipate this tool will indicate the 
interest expense, the payment structure if a loan were to be 
taken out, and income potential and growth over time, and how 
long it would take? Because I feel like parents are having to 
do a lot of that work on their own. And students get to the end 
of their career--their college career to enter into their next 
career and they realize, ``Wow, I have a lot of work to do but 
I had other dreams. I wanted to start a family or buy a home 
but now I can't. I wish I would have known 4 years ago.''
    Secretary DeVos. Well, I think, in general, students need 
to have a lot more tools at their fingertips to--and they need 
to become much more financially literate as they make these 
decisions about their higher education pursuits. And so we can 
and will be providing a lot of data and a lot of tools for them 
to be able to know and understand what those implications are.
    You know, we have proposed, in this budget, simplification 
of loan repayment, income-driven repayment program that would 
be capped at 12.5 percent.
    I think another area that is ripe for exploration in which 
Mitch Daniels has instituted in a really important way at 
Purdue University----
    Ms. DeLauro. I am sorry, Madam Secretary.
    Secretary DeVos [continuing]. Income sharing----
    Ms. DeLauro. You are about a minute and a half over here. 
Mr. Graves, I apologize but we are trying to----
    Ms. Clark.

                    SCHOOL SAFETY AND MENTAL HEALTH

    Ms. Clark. Thank you, Madam Chair.
    Madam Secretary, last year you came before us in answer to 
my question about a proposed budget cut to the Student Support 
and Academic Enrichment grants, under ESSA. Since you had made 
that budget proposal in 2018, we had had the shooting in 
Parkland. And I know that you were just putting together this 
Commission that has now made recommendations that mental health 
treatment be provided and that we hire more school counselors 
and social workers, recognizing that the services are most 
effective when they are school based.
    You said, when I asked you about it, that in light of what 
had transpired, quote, ``I support Congress'' readdressing this 
and looking at this budget item,'' because you said you 
supported, quote, ``ensuring schools have the resources that 
they need to keep kids safe.''
    I understand your testimony today that the $3.8 billion in 
cuts that you have proposed is somehow squared with the $100 
million that you have put in your budget to go to mental 
health. Could you explain your thinking, and has what you said 
to me last year changed?
    Secretary DeVos. Well, thanks, Congresswoman, for the 
question about the Title IV-A proposed elimination from the 
budget.
    Ms. Clark. Yes.
    Secretary DeVos. I mentioned earlier the fact that this 
program has been very broad, very thinly spread, has not been 
designed specifically for school safety activities. We think 
that----
    Ms. Clark. There was $234 million, though--correct--to Safe 
and Healthy School Activities?
    Secretary DeVos. Which were, again, very broad. We believe 
the Budget proposal as we have submitted it today is one that 
really helps target specific needs of states and local 
districts to----
    Ms. Clark. Can you really help make--this week we have 
already mentioned the suicide of the Parkland student, which I 
share your heartbreak over that. But it just puts such a 
glaring light on the need for mental health services. And what 
I hear you saying is that with less than half of what the Title 
IV funds, somehow you think that is going to do a better job 
because those funds are too broad. Is that what you are saying?
    Secretary DeVos. Well, there--let's also take into account 
the fact that there are other specific activities, including 
mental health services, in the budgets of HHS and in DOJ and 
DHS, and together $700 million specifically for school safety 
activities. And there is actually more in those departments----
    Ms. Clark. Can you----
    Secretary DeVos [continuing]. That could be used for----
    Ms. Clark [continuing]. So I am hearing your testimony 
that, yes, reducing it by half is going to do it.
    Can you just answer for me something that was raised? Are 
any of that funding of the $200 million going to be allowed to 
purchase guns?
    Secretary DeVos. That is not the intention of the proposal.
    Ms. Clark. Is that a no? Is that a no?
    Secretary DeVos. That is not the intention of the proposal. 
It is for mental health and----
    Ms. Clark. Is that----
    Secretary DeVos [continuing]. Social and emotional 
learning.
    Ms. Clark. Is that a no then?
    Secretary DeVos. That would be totally up to this body to 
decide conclusively one way or the other. It is not the 
intention of our proposal.
    Ms. DeLauro. Let me just now ask Ranking Member Cole, do 
you have any further questions or any closing comments?

                    Ranking Member's Closing Remarks

    Mr. Cole. I will close. I am prepared to close, Madam 
Chair.
    Madam Secretary, first I just want to thank you. You know, 
I hope it is well known how many years of service you have 
spent, and frankly, to try and make sure folks without access 
got access to good quality education long before you took this 
current job. And you certainly did not need this job and you 
serve without pay. You travel at your own expense. And I 
suspect you had better alternatives in front of you in terms of 
being more enjoyable, but you chose this, and you chose it 
because you care about young people and you care about 
educational opportunities.
    So we may have occasional differences. I don't think 
anybody can doubt your commitment to the job and the 
willingness to sacrifice time and forego, you know, again, if 
you want to call them the perks of the job, I think there are 
very few perks for the job that you have. And I want to thank 
you for that.
    And I think the mere fact you have stayed here again longer 
than we normally go, because you wanted to be--answer 
everybody's questions and concerns and present, you know, a 
case, I think that is very important.
    I think, on a note, too, while we have had differences 
there are some places we can clearly work on together. It 
seemed to me there was universal support for this idea of 
short-term Pell Grants that you mentioned. There is certainly 
strong support here for investments in career and vocational 
education. And obviously you share a lot of the priorities.
    I think as my friend, Mr. Graves, pointed out, you do have 
to live within a constrained budget. You are writing your 
Budget to the law. You know, we think there will probably be an 
agreement at some later point. We don't know that. You don't 
know that, and it would be pretty unwise for you to present a 
budget. But even within that constrained budget, as you point 
out, you made sure English learners, no cuts; IDEA, no cuts; 
Title I, no cuts. Those are our most vulnerable students. And I 
think with the dollars that you have I think you have put those 
dollars where they reach people that are at the greatest risk 
of falling through the cracks in our educational system, and I 
want to thank you for that.
    So again, just thank you for your service, thank you for 
giving us extra time here today to ask tough questions, and I 
look forward to continuing to work with you as we go forward.
    Thank you, Madam Chair.

                      Chairwoman's Closing Remarks

    Ms. DeLauro. Thank you very much and thank you as well, 
Madam Secretary, for being here and for staying on and 
continuing to answer questions.
    I think--I just might say for a second that you get a sense 
of frustration and it is particularly on our side of the aisle, 
and that, quite frankly, frustration stems from oftentimes the 
inability to get answers to questions, as it was demonstrated 
here today.

                      CRITICISM OF PROPOSED BUDGET

    Now I will--I started out, and I will not pull any 
punches--this Budget, in my view, is cruel. I think it is 
reckless. It is a 12 percent cut. It hurts middle-class 
families. It hurts working families. It hurts low-income 
families. And it is of concern to me--and again, as I laid out, 
I would hope that it is of concern to you. You know, why, on 
your watch as the Secretary of Education, do you want to be 
complicit in shutting off public education opportunities, which 
is the way, you know, that I see this?
    And my colleague talked about criticisms that have to do 
with the budget or so forth. No. We are all used to working 
within a budget framework, but it is where you place your 
resources, what are your values, what are your priorities. That 
is what defines a budget and that is what is of concern to all 
of us.

                            CHARTER SCHOOLS

    I just want to just clarify a couple of things. With regard 
to charters being public, you know, it is hard to compare 
charters to public education as we know it, because far too 
often what we see are charters siphoning away dollars from 
public schools. They are operated privately, and they do lack 
transparency, and we should expect--we expect that transparency 
from our public institutions. We apparently don't with regard 
to charters.
    And I want to say to you this morning, or this afternoon, 
find the billion dollars. Find that billion dollars that was 
there.

                     INTERNATIONAL COMPETITIVENESS

    My colleague who is now gone--and you had an exchange with 
regard to international comparisons. You know, other countries 
blow us out of the water with investments in early childhood, 
wraparound services, which we know pay off in serious 
dividends. We have one of the lowest rates of--lowest 
enrollment rates in early childhood education. And just me just 
tell you, the HHS budget proposes to eliminate Preschool 
Development Grants. We have level-funded Head Start. You know, 
we take on most of 15-year-olds in our school systems. Other 
countries don't do that. They take the highest achievers.
    So when you look at--you have to take that into 
consideration. The National Assessment of Educational Progress 
has shown large gains, which we should be proud of, for 
children of color over the past three decades. We have made 
gains. We continue to denigrate our public education system, 
which leads me to the view that that is because of the decision 
is to privatize this.

                    HIGHER EDUCATION ACCOUNTABILITY

    I am sorry that you didn't answer the questions on the 
mismanagement of the agency. With regard to short-term Pell, 
which everyone is extolling, but there are some pieces around 
that. What you failed to do is to talk about defining high 
quality. We need to have guardrails so we don't wind up in a 
Pell Grant program that is open to fraud, waste, and abuse. We 
need to have programs that look at whether or not they are a 
good return on our investment for students and for the Federal 
Government.
    With regard to Next Gen, you did rescind the requirement 
that servicing contractors should comply with Federal and State 
law, taking any necessary steps to support oversight by Federal 
or State agencies, regulators, or law enforcement officials. 
You rescinded the requirement around strengthening transparency 
through expanded publication of aggregate data on student loan 
and servicer performances, that would have required the 
Department of Education to publish servicer-level data on 
default. None of these rescinded provisions are currently part 
of the Department's Next Gen effort.

                  COMMITTEE OUTLOOK ON BUDGET PROPOSAL

    You know, you said, and you discussed that these are just 
proposals. I am relieved. I am relieved that they are just 
proposals, because the damage that your Budget would inflict on 
children and on families, that I look forward to working with 
my colleagues across the aisle to reject the cuts and act a 
forward-looking agenda to improve the lives of American 
families. And we have strived to do that over the last several 
years on this committee.
    So we will be reviewing what has been proposed, and you can 
be assured--and I hope that we can--that we are going to reject 
much of what is here, as we have in the past, because the 
center of the Department of Education is the 90 percent of our 
kids who are in public education. We ought to be focused like a 
laser on their opportunities and their future, and yes, look at 
innovation, test whether or not it is good, and be prepared to 
say no when it is not working.
    Thank you, and let me draw this hearing to a close.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

                                            Tuesday, April 2, 2019.

   NATIONAL INSTITUTES OF HEALTH BUDGET REQUEST FOR FISCAL YEAR 2020

                               WITNESSES

FRANCIS S. COLLINS, M.D., PH.D., DIRECTOR, NATIONAL INSTITUTES OF 
    HEALTH
DIANA W. BIANCHI, M.D., DIRECTOR, EUNICE KENNEDY SHRIVER NATIONAL 
    INSTITUTE OF CHILD HEALTH AND HUMAN DEVELOPMENT
ANTHONY S. FAUCI, M.D., DIRECTOR, NATIONAL INSTITUTE OF ALLERGY AND 
    INFECTIOUS DISEASES
GARY H. GIBBONS, M.D., DIRECTOR, NATIONAL HEART, LUNG, AND BLOOD 
    INSTITUTE
DOUG LOWY, M.D., DEPUTY DIRECTOR, NATIONAL CANCER INSTITUTE
NORA VOLKOW, M.D., DIRECTOR, NATIONAL INSTITUTE ON DRUG ABUSE
    Ms. DeLauro. The subcommittee will come to order. I 
understand--is our technical problem taken care of? Thank you. 
Okay. About as much as I know about technical problems and what 
one needs to do.
    I always--and I use the comment again because I am a 
diehard New York Yankee fan, and when you take a look at the, 
you know, the array here this morning it really is Murderer's 
Row, in the best sense of the word, is that you knock it out of 
the park all of the time, and I thank you. We all thank you 
here.
    And good morning to you, Dr. Collins. Welcome back to the 
Labor HHS Education Appropriations Subcommittee. Let me also 
welcome the five institute and center directors joining Dr. 
Collins today, Dr. Diana Bianchi, Director of the Eunice 
Kennedy Shriver National Institute of Child Health and Human 
Development; Dr. Anthony Fauci, Director of the National 
Institute of Allergy and Infectious Diseases; Dr. Gary Gibbons, 
Director of the National Heart, Lung, and Blood Institute; Dr. 
Doug Lowy, Deputy Director of the National Cancer Institute; 
and Dr. Nora Volkow, Director of the National Institute on Drug 
Abuse.
    Let me also, if I might, acknowledge Frank Stephens, a--
fierce advocate for Special Olympics, athlete. Powerful 
testimony, Frank, about the importance of research on Down 
syndrome at the subcommittee's hearing on the topic that we 
held in 2017. Thank you for being here today.
    Today we will be discussing the 2020 budget request for the 
National Institutes of Health. I also want to note that I 
intend to hold hearings with additional institutes and center 
directors later this year. There are many of the institutes 
that have not testified here in many years. They have not come 
before this subcommittee, and I think it is important for all 
of us to hear from them, and it is important, I think, to the 
NIH, because then it lays out the full spectrum of all of the 
areas in which you are making discoveries.
    The NIH is the leading biomedical research entity in the 
world, and with each scientific discovery, each medical 
breakthrough, its research advances human knowledge, improves 
our quality of life, and saves lives. That breakthrough can 
improve the life of not just a sick individual but it is the 
lives of their loved ones, caretakers, and friends.
    But it is not just the macro benefits. Local impacts are 
substantial. Hundreds of millions of dollars are coming into 
our community through NIH grants and contracts. That is why I 
believe that funding this research has the power to do more 
good for people than almost anything else within the purview of 
this subcommittee or, for that matter, in the Federal 
Government.
    I am very proud--I want to welcome the chair of the 
Appropriations Committee. Don't be silly.
    The Chairwoman. There are about 10 hearings at the same 
time.
    Ms. DeLauro. Exactly. I am very proud that the Congress 
increased NIH funding by $9,000,000,000, over 30 percent, over 
the past four years. The committee has done this on a 
bipartisan basis. The successes are laudable, and we all take 
great, great pride in what we have been able to do in this 
effort.
    And now, the President's budget would take the NIH in the 
opposite direction. The President's budget proposes to reduce 
funding for NIH by $5,200,000,000, 13 percent below the 2019 
level. At this funding level, NIH would be forced to make 
nearly 3,800 fewer new research grants compared to 2019. That 
is a reduction of 32 percent. That is the lowest level since 
1998. At that level, NIH would be forced to drastically cut 
back its critical research. It would mean less funding for 
Alzheimer's research, less funding for cancer research, less 
funding for infectious disease research. It would mean no new 
funding for new areas of discovery. We would never even know 
the important breakthroughs that we missed, and as I have said 
before, you cannot do more with less. You can only do less with 
less.
    Let me just say right now--and I believe my colleagues on 
both sides of the aisle will agree--we will not be doing that. 
This committee will continue to invest in NIH research, despite 
the Administration's short-sighted and, in my view, misguided 
budget.
    The Administration is also being short-sighted with regards 
to HIV and AIDS. I appreciate their focus on combating domestic 
HIV and AIDS. However, words alone are not enough. For example, 
the Administration is not elevating the NIH to a prominent role 
in that initiative nor providing the overall resources to make 
real progress. Decades of research supported by NIH led to the 
development of the very treatment and the prevention approaches 
that have put achieving this goal within reach, specifically 
the antiretroviral therapy and PrEP.
    The NIH must be involved if we are to continue to make 
progress in reducing HIV and AIDS domestically and abroad. That 
just has to happen. Yet the President's budget proposes to cut 
HIV and AIDS funding for the NIH by $424,000,000, 14 percent 
below fiscal year 2019 level, and that cut of $424,000,000 is 
nearly double the Administration's request for $291,000,000 to 
reduce HIV transmission.
    I said this to Secretary of the Department of Health and 
Human Services, Alex Azar. The totality of this budget is 
contrary to the needs of the American people and the very 
promises of this administration, as it is evident with HIV and 
AIDS.
    In addition to cuts to NIH research, the Administration is 
also proposing a $1,000,000,000,000 cut to Medicaid, which, as 
we know, is the primary source of treatment for HIV/AIDS, 
meaning that HIV drugs will be unavailable, and they are 
proposing to cut the CDC's Global AIDS Program as well as 
PEPFAR, which I will note was a priority of President George W. 
Bush. What happens internationally impacts us here, 
domestically, as well.
    Further, they are proposing to repeal the Affordable Care 
Act, which would take away health coverage for millions of 
Americans.
    So the sum of this budget is highly counterproductive for 
the goal we all share of reducing HIV infections. HIV and AIDS 
is not the only area where the President's budget does not 
support the President's ambitious claims. He boasted about a 
new $50,000,000 pediatric cancer initiative in his State of the 
Union address, yet this budget proposes to cut nearly 
$900,000,000 from cancer research.
    For all of our greatest health crises we need our great 
agencies to be fully involved in finding the solutions. In 
recent years we have provided significant resources to address 
the opioid crisis. I believe this approach is also necessary to 
address the public health emergency of gun violence. Last month 
I chaired the first appropriation hearing on gun violence in 20 
years, in which experts confirmed that the epidemic of gun 
violence is a public health emergency that demands public 
research dollars through both the CDC and the NIH. NIH needs to 
resume its Firearm Violence Prevention Research Initiative, 
which funded grants from 2014 to 2016.
    Americans are struggling with the skyrocketing cost of 
prescription drugs. We need to be promoting research in order 
to bring more drugs to the market, to provide better care for 
patients as well as more competition, and thus better prices.
    A study published in the Proceedings of the National 
Academy of Sciences in February found that NIH-funded research 
contributed directly or indirectly to every single one of the 
210 drugs approved by FDA between 2010 and 2016. The 
development of these drugs was associated with $100,000,000,000 
of mostly basic NIH research over the six-year period. This 
illustrates how damaging these proposed cuts would be to the 
biomedical research on which America's health and their wallets 
rely.
    I believe my friend, the ranking member, Tom Cole, will 
concur that biomedical research is one of the most important 
investments a country can make because it gives the gift of 
life. We must be supporting it and we will.
    Thank you again for all that you do, and I look forward to 
our conversation today.
    And now let me turn to my good friend from Oklahoma, the 
ranking member of the subcommittee, Mr. Cole, for any opening 
remarks that he may have.
    Mr. Cole. Thank you very much, Madam Chair. It is a 
pleasure to have all of you back here again, and today we are 
joined by one of the longest-serving directors of the National 
Institutes of Health, Dr. Francis Collins. I always call Dr. 
Collins the best politician in Washington. Anybody that can be 
appointed by President Obama and then reappointed by President 
Trump has exceptional political skills, to say the least, and, 
frankly, as clearly, as all your colleagues are, a national 
resource that I think the country quite genuinely treasures and 
values.
    I want to commend you for your long and distinguished 
career. I have made no secret of the fact that increasing 
funding for NIH is one of the proudest bipartisan 
accomplishments of this subcommittee. A sustained, steady 
commitment to increasing funding for NIH is critical to 
ensuring our nation's future as a leader in biomedical research 
and unlocking cures to so many diseases burdening our strained 
health care system.
    Leaders in the House and the Senate, Democrats and 
Republicans, have been unified behind these increases over the 
past four years. I ardently hope this trend continues for years 
to come. While I appreciate and sympathize with the fiscal 
restraint expressed in the President's budget, I do not think a 
reduction of the magnitude this budget recommends for NIH is in 
the best interest of the American people. To reduce NIH funding 
at this juncture would erode the progress we have made in the 
last four years, signal to the research community instability, 
and quite possibly delay, by years or perhaps even decades, 
advances in modern medicine including curing diseases, finding 
better treatments for cancer, and unlocking the power of 
precision medicine.
    I also want to caution against the budget request's 
proposed changes to the negotiation for indirect costs, or 
funds included as part of a grant to cover facilities in 
administration. This critical funding serves as a foundational 
element for research, and I support the enacted bill language 
which preserves how these costs are determined as part of the 
grant's award. I certainly support administrative efficiencies, 
but I think we need to look at other options here, and I hope 
we can continue, on a bipartisan basis, to maintain this 
important protection for the grants.
    I look forward to hearing about several key initiatives, 
but for a few minutes I want to focus on a particular 
initiative that is especially important to this body and this 
subcommittee, and that is Project Include. This work was 
launched with funds provided by Congress in fiscal year 2018.
    Those funds were given to the NIH as part of a response to 
a hearing held by the subcommittee in October of 2017, which my 
good friend, the chair, alluded to a moment ago.
    Under the leadership of Dr. Tabak and Drs. Bianchi and 
Gibbons, the project seeks to increase funding into Down 
syndrome research across NIH. I am encouraged by the strong 
leadership from the Office of the Director and the 
participation by several institutes. I look forward to 
increased involvement from the National Institute of Allergy 
and Infectious Diseases, the National Cancer Institute, the 
National Institute of Diabetes and Digestive and Kidney 
Diseases, and others.
    This project is not only going to result in a better 
understanding of the impact of Down syndrome, better therapies 
for those with Down syndrome, but also promises to help us 
understand more about the connection between genes and disease. 
The goal of this project is to increase basic biomedical 
research with a focus on Down syndrome for many years to come. 
The work within the Office of the Director should serve as a 
launchpad to support an increased funding pipeline throughout 
NIH.
    I also believe research spanning all institutes, with each 
one bringing their particular expertise, is the research model 
of the future. NIH has shown us how complex the human system 
is. Funding silos will not result in breakthroughs. 
Partnerships and collaboration across specialties to tackle 
multifaceted diseases is the type of difficult yet vital work 
that the NIH is best suited to address.
    I do not want to take a lot of time--additional time by 
recognizing all the institute directors today, because, quite 
frankly, I would rather hear from each of you about the 
exciting research prospects in front of us. But I do want to 
thank each of you and your colleagues and those institute and 
center leaders who are not with us for their passion, their 
dedication, and their hard work. I believe the work of the NIH 
has and will change the course of disease detection and 
treatment for generations to come, and I hope Congress 
continues to be a supportive partner in those efforts.
    Thank you, Madam Chair, for holding this hearing, and I 
yield back the balance of my time.
    Ms. DeLauro. I thank the gentleman and it gives me great 
pleasure to yield to the gentlelady from New York, the chair of 
the full Appropriations Committee, Nita Lowey.
    The Chairwoman. Thank you, Madam Chair, and it gives me 
great pleasure to be here. Dr. Fauci, Dr. Bianchi, Dr. Lowy, 
Dr. Gibbons, Dr. Volkow, and, of course, my friend Dr. Collins, 
I just want to tell you what an honor and privilege it has been 
for me to serve on this committee, and now as chair of the full 
committee.
    We all know many people--relatives, friends, neighbors--who 
suffer from cancer, who suffer from Alzheimer's, and I just 
want to assure you, I was here, as was my friend, Ms. DeLauro, 
as was our leader, Nancy Pelosi, and I served with John Porter 
when we doubled the money of the NIH. So if you think that this 
13 percent cut is even relevant to this discussion, I will tear 
up my whole sheet. And I want to assure you, if it is up to me 
and my friend--I do not want to say the left--well, my friend--
--
    [Laughter.]
    The Chairwoman [continuing]. My left, my friend, Mr. Cole, 
my friend, Rosa DeLauro, and all the wonderful people on both 
sides of the aisle, I would like to increase this budget as 
much as we possibly can, because I feel we are not really 
working on numbers here on this committee. There is a passion, 
there is a commitment to all those people who are suffering, 
who come to you, who come to local doctors, who travel across 
the country trying to live. And I am going to work as hard as I 
can, and share the full committee, to give you as much money as 
we can, because you have the brilliance, you have the 
commitment, and you have the determination. All you need is 
more money.
    So we are going to work together. I know there is a 
bipartisan commitment and I look forward to hearing from you 
all today.
    Thank you so much for your service, your commitment to the 
health of our country. Thank you.
    Ms. DeLauro. Thank you, Mrs. Lowey.
    Dr. Collins, again, welcome to the subcommittee. Your full 
written statement will be entered into the record. You are now 
recognized for five minutes for opening remarks.
    Dr. Collins. Madam Chairwoman DeLauro, Ranking Member Cole, 
members of the subcommittee, on behalf of my colleagues, the A-
Team from NIH, I want to thank you very sincerely for your 
strong, consistent, and bipartisan support of NIH. In fiscal 
year 2019, we received a most welcomed increase of 
$2,000,000,000 from this Congress, enabling us to continue our 
mission of turning scientific discovery into healing and hope.
    There are several new members of this subcommittee and I 
invite all of you who are new to come and visit us, and all of 
you who are not new to come along as well. We are more 
enthusiastic than ever today about the progress of biomedical 
research.
    And so today I thought, in my five minutes, I would 
introduce you to just a few of the millions of people who, over 
the years, have made that progress possible by volunteering to 
take part in NIH-funded research. Without them we would be 
nowhere.
    Let me turn your attention to the screen and let's begin 
with Richard Hochfelder. Six years ago, this retired aerospace 
engineer had a blood test, called Hemoglobin A1c, that showed 
he was at high risk of developing diabetes. So Richard took 
some preventive steps, cutting down on carbs and exercising 
more to get his health back on track.
    That might have been the end of it but Richard decided to 
help others and join NIH's All of Us Research Program, which is 
building an unprecedented resource to explore what health 
approaches work best for each individual and why. We are making 
great progress towards our goal, supported by all of you, to 
enroll 1 million or more people in All of Us. In less than a 
year as you can see from the graph, more than 200,000 people 
have begun enrollment, and half of them from underrepresented 
racial and ethnic groups. This will be a wonderful resource for 
health disparities.
    All of the information they contribute will go into a 
secure database that researchers can use to make new 
discoveries. Success will depend on involvement of people from 
all walks of life, so we invite you and your constituents to 
join us as well.
    Now let's turn to another story, and let me say thank you 
to Frank Stephens, who is sitting behind me. Frank, maybe you 
could stand up so everybody could see you.
    [Applause.]
    Dr. Collins. Frank belongs to a community with unique 
biological characteristics that has been offering to volunteer 
for research for years, but too often has not been given that 
opportunity. I am talking, of course, about individuals with 
Down syndrome. We need to do better for them, and many of you 
heard about this directly from Frank when he testified right 
here in 2017.
    Down syndrome usually results from having an extra 
chromosome 21. Each year, about 6,000 babies are born with this 
condition in the U.S. The average lifespan for such 
individuals, as you can see, has doubled in recent years, but 
they still face significant health challenges. Those include 
risks of heart defects, leukemia, immune problems, autism, and 
Alzheimer's disease. But on the other hand, people with Down 
syndrome actually have a lower risk of coronary artery disease 
and many solid tumors, and because of this studying Down 
syndrome may hold the key not only to helping folks like Frank 
with that condition but to understanding common diseases in all 
people.
    Thanks to your support, NIH is stepping up our efforts to 
do just that. And this should come as good news to Frank--you 
see another picture of him here, on vacation with his mom, 
Cornelia. As a person with Down syndrome, Frank knows that he 
faces an increased risk of early onset Alzheimer's disease, but 
that is not the only reason Frank is worked about that 
condition. His mom already has it, and he wants to help 
everyone in her situation. As Frank once put it, ``My extra 
chromosome provides a blueprint for medical research that could 
reveal answers to this heartbreaking disease.''
    Now speaking of answers to heartbreaking diseases, last 
year I told this subcommittee that we might be on the verge of 
a cure for sickle cell disease, a life-threatening genetic 
disorder that bends red blood cells into a sickled shape, 
causing them to block small blood vessels. Today I am thrilled 
to say that I think we have made good on that promise.
    Allow me to introduce Jennelle Stephenson, one of the brave 
research participants who helped make this happen and whose 
story was recently featured on 60 Minutes. Throughout her young 
life, Jennelle was often hospitalized, even at Christmas, as 
you can see on the left, with wrenching sickle cell crises, 
just about the worst pain a human can experience.
    But a little more than a year ago, Jennelle took a bold 
step for herself and for others with sickle cell, and enrolled 
in a gene therapy trial at the NIH Clinical Center. In this 
trial, Jennelle's own bone marrow stem cells were removed, 
modified to compensate for the sickle cell mutation, and then 
infused back into her body where they began producing healthy 
red blood cells.
    The transformation has been incredible. Here is Jennelle, 
sitting alongside her father, Ray, in her white jiu-jitsu 
uniform, somebody who was barely able to get through daily 
experiences. And now here she is in action after her gene 
therapy treatment.
    [Video shown.]
    Dr. Collins. I must caution, it is still early. The 
treatment she went through was challenging to endure. But this 
promise is now real for the nearly 100,000 Americans who suffer 
from this devastating disease.
    Our nation needs a lot more stories like these. Through the 
generosity and courage of people like Richard, Frank, and 
Jennelle, along with your strong and sustained support, NIH 
research is making it possible for inspiring new stories to 
emerge every day, and the world can look forward to a healthier 
and happier future.
    So thank you, Madam Chairwoman. We all welcome your 
questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. DeLauro. What a place to pause, Dr. Collins, and for 
those of us who have not been given a second chance at life, 
God bless you and thank you, and thank you, Lord, as Jannelle's 
dad said.
    Dr. Collins, the United States has been the world's leader 
in biomedical research for decades, largely as a result of the 
robust funding for basic research through NIH. However, we risk 
losing our edge as Federal funding for biomedical research 
lagged behind inflation for years and other countries sharply 
ramped up their investments in this research. We have made a 
lot of progress in the last four years. I am worried that we 
still risk losing the best and the brightest potential 
researchers.
    In your opinion, what do we need to maintain U.S. dominance 
in biomedical research, keep the best and the brightest minds 
in research? I know that overall funding for research is 
important, but what other incentives do you think are 
necessary?
    Dr. Collins. Well, what a great question. I think the area 
that all of us are most concerned about and feeling now, most 
encouraged, thanks to the way in which the resources for NIH 
have gone upward over the last four years, is for that next 
generation of researchers, those early-stage investigators, 
people who come to us for the first time with a grant 
application as an independent researcher, and are seeking to 
get their careers started. And we were quite worried about them 
a few years ago when purchasing power had dropped and the 
numbers of the early-stage investigators that we could fund 
went down.
    I just want to quickly show you a graph of what has been 
possible over the last four years, thanks to what this 
subcommittee and this Congress has done. You can see in 2013, 
we funded a little less than 600 of those early-stage 
investigators. Look where we are by 2018. We challenged all of 
the Institutes to make this a high priority and said, ``If you 
push really hard we should be able to get to 1,100.'' We got to 
1,287, so we have more than doubled the number of new 
investigators coming into the medical research workforce. Every 
one of those is an investigator with an idea and a plan and an 
encouragement about the future.
    When I go out and visit universities and talk to these 
people I sense this excitement, this increase in their sense of 
promise, their willingness to take risks, the fact that the 
morale of the whole enterprise has gone up substantially, and 
we really want to thank you all for making that happen. Here is 
the concrete example of what it can do.
    Ms. DeLauro. Thank you, and that is why what we wanted to 
do is to make sure that there will not be fewer research 
grants, as we were able to accomplish over the last several 
years.
    I want to ask both Dr. Lowy and Dr. Collins a question. 
Ninety-five percent of the 400 known forms of cancer meet the 
American Cancer Society criteria of affecting fewer than 6 out 
of 100,000 Americans a year. In 2018, nearly 80 percent of 
cancer patients with no approved targeted therapeutic for their 
cancer have a rare cancer. Many of these patients are faced 
with decades-old treatment protocols that include harsh 
chemotherapies, which are frequently ineffective to their 
cancers.
    Dr. Lowy, what is the NCI doing to develop more 
therapeutics for these neglected, rare cancers, and then Dr. 
Collins, or Dr. Lowy, what is the role of the National Center 
for Advancing Translational Sciences in supporting this type of 
research? We are talking about glioblastoma, spinal cord tumor, 
leukemia, some of these bone cancers, et cetera.
    Dr. Lowy.
    Dr. Lowy. Thank you, Chairwoman DeLauro.
    Rare cancers are really a critically important area, first 
because of the people whom they affect and because there are so 
many--there are so many different rare cancers that occur, 
their aggregate number is high. In addition, there is not the 
same kind of financial incentive to develop drugs in the 
private sector for treating those diseases, and therefore the 
NCI has a special responsibility for going in this direction.
    Two years ago, we began, actually, a Rare Tumor Initiative 
which is a collaboration that involves the intramural program 
at Bethesda as well as many extramural individuals and also 
extending to the United Kingdom, to study the rare tumors in a 
variety of ways with the goal of developing more treatments.
    In addition, the NCI Experimental Therapeutics Program 
gives priority to childhood cancers, virtually all of which are 
a rare tumor, as well as other rare tumors. And the President's 
proposal for the $50,000,000 will go specifically to childhood 
cancer.
    Dr. Collins. With regard to the National Center for 
Advancing Translational Sciences, NCATS, this is a place where 
there is a strong focus on rare diseases of all sorts, 
including cancers, and especially I want to mention, therefore, 
the Rare Diseases Clinical Research Network which brings 
together a lot of those researchers, as well as some very 
exciting technology that is pioneered through NCATS, involving 
both such things as medicinal chemistry but also using tissue 
chips to try to understand, is a drug going to work? Is it 
going to be toxic without exposing an individual to that same 
drug?
    So NCATS really is a partner to all of the institutes at 
NIH.
    Ms. DeLauro. So that we have to make up for what the 
external community will not do because of financial 
considerations, to make sure that we have that capacity at the 
NIH.
    Dr. Collins. That is our role.
    Ms. DeLauro. Let me yield to my colleague from Oklahoma, 
the ranking member, Mr. Cole.
    Mr. Cole. Thank you very much, Madam Chair.
    Dr. Collins, you mentioned in your opening remarks the 
potential of this All of Us research, and I would like you to 
elaborate on that a little bit, if you would. I would also like 
to talk about any constraints that we have going forward. You 
and I had a chance to visit but I think it is important for the 
committee to know what some of the challenges are to actually 
bring this program to where we want it to be.
    Dr. Collins. Well, I really appreciate the question because 
this is a flagship initiative for NIH, unlike anything we have 
really quite tried to do at this scale, enrolling 1 million 
Americans in a way that they are full participants in the 
research and that they make available all kinds of information 
about themselves, and find out medical information as a result, 
and they take part in this national adventure over the course 
of many years to come.
    The goal here is really precision medicine--to understand 
how the differences between us may have significant impact on 
what works, both for prevention and for treatment, and if we 
are really going to know that we need a very large and very 
diverse group of participants.
    The momentum behind this is substantial. I showed the graph 
showing we have already enrolled more than 200,000 people in 
just a little less than a year since the launch, but we really 
want to sustain that momentum going forward. It will open to 
researchers later this year. There is lots of additional data 
coming on board, but we really want to push the accelerator 
down on this.
    I appreciate your question because there is a bit of an 
issue here in terms of the dollar figures, because part of this 
is funded by this appropriations committee and part by the 21st 
Century Cures Act, and for some various reasons about the way 
the budget for 21st Century Cures was put together there is 
actually a decrease in funding for all of us going from 2019 to 
2020. That would be an unfortunate sort of consequence, just as 
the momentum is really building.
    So I would love the chance to talk with any of you about 
this, in terms of how we could be sure that this project, which 
all of the institutes are going to tap into--it will be a 
platform, a foundation for lots of clinical research we want to 
do in the coming years--let's be sure that it gets put together 
as quickly and effectively as possible.
    Mr. Cole. I love 21st Century Cures but this is the problem 
when appropriators are not involved in the appropriation 
process and non-appropriators are.
    Dr. Collins. Well, I am sorry I brought that up, and I 
didn't mean to open the door to that.
    Mr. Cole. No, no. This is a jurisdictional thing. We will. 
We sort of collectively warned him this would happen at this 
point in the process, so hopefully we will have the resources 
to make good on that.
    Let me ask you about another initiative. You have focused, 
I think rightly, obviously, on younger researchers. But one of 
the programs we have here, the so-called IDeA, is really about 
expanding the number of institutions that can actually engage 
in this, which I think is important for both bringing new 
people. Could you tell us where we are at on that and how that 
fits into your longer-term vision?
    Dr. Collins. I would be happy to. I will tell you, back in 
the day when I first arrived at NIH, which is quite a while 
ago, I was a little bit of a skeptic about this program, in 
terms of whether this was, in fact, the best way for NIH to 
make investments. You can see, in the graph there, the IDeA 
states that are part of this. These are all states that receive 
relatively less in the way of NIH funding, oftentimes because 
they don't have a very high-pressure kind of first-tier 
research university located within their state. But they have 
incredible talent.
    And the IDeA program basically makes it possible for us to 
fund really superb research that is going on in those states, 
including such things as Centers of Excellence, the so-called 
COBRE program, including networks and so on, and that has, in 
my experience visiting many of those states, been a wonderful 
investment of talent and energy. And you can see how trainees 
or faculty in those situations, because of this additional sort 
of support system, become, after a while, really very strong 
investigators in our overall network.
    The current funding for this is about in the neighborhood 
of $361,000,000, about 1 percent of the NIH budget, but I think 
it is a 1 percent that is extremely effective in terms of what 
we get out of it.
    Mr. Cole. Last question, and I don't have a lot of time 
here, but I happened to see Dr. Hodes last night at the 
Alzheimer's dinner. And I know we have had some setbacks in the 
private sector, which, to me, actually make our investments 
more critical here. Could you sort of give us a quick summary 
of where we are at?
    Dr. Collins. I think all of us were unhappy to read, a week 
or so ago, that Biogen had decided to announce that the latest 
trial of an amyloid monoclonal antibody in patients with early-
onset--early symptoms of Alzheimer's disease--did not seem to 
be showing benefit.
    But I want to assure this committee that while the amyloid 
hypothesis continues to have a lot going for it, it is not the 
only thing on the table. We have lots of other projects focused 
on tau, which is another protein that deposits in the brain, 
maybe even correlates more precisely with symptoms, and then 
lots of other ideas coming out of genomics, out of cell 
biology, that suggest inflammation is a big part of what is 
going on in here, and approaching that therapeutically might 
make a lot of sense.
    One hundred sixty programs right now that the Aging 
Institute is supporting, everything from preclinical all the 
way to early Phase I and Phase II trials. We have a diversity 
of approaches. It is a really good thing that the NIH is here 
to pursue all of those because, frankly, a lot of the private 
sector effort has been focused on the amyloid hypothesis 
because that seemed to be so compelling. If that is not the 
answer, or if that is only one of the answers, we have a broad 
landscape of other activities going on.
    Mr. Cole. That is great. Thank you, Madam Chair.
    Ms. DeLauro. Congresswoman Lowey.
    The Chairwoman. Thank you. I was going to ask that 
question. In fact, recently--I will go on to others--recently I 
was asked to speak at a group of 35 people at a local 
institution that is doing a lot with Alzheimer's, and one of 
the researchers stood up--it seems I was the only one asking 
all the questions--and he said, ``Madam Chair, exercise and 
nutrition, that is all we know.'' And I have heard that over 
and over again, so I thank you for that question and I hope 
there is a breakthrough, because the numbers of people that are 
living with Alzheimer's and deteriorating with Alzheimer's 
throughout the country is just astonishing. So nutrition and 
exercise is good, but I wish you well and I hope you come up 
with something else.
    E-cigarettes. I have been an early, early person talking 
about e-cigarettes, and finally the FDA is waking up a little 
bit. But it is all over the place, and we see the major 
cigarette companies just buying Juul, et cetera. When you look 
at the numbers, I see that a study found that e-cigarette users 
were 29 percent more likely to have a stroke, 25 percent more 
likely to have a heart attack, 18 percent more likely to have 
coronary heart disease.
    So I am sick and tired and actually furious when people are 
saying nothing is wrong with the e-cigarettes. It is a public 
health risk and I think we are just trapping a whole new 
generation in nicotine addiction.
    So, Dr. Gibbons, can you tell us what we are learning about 
the correlation of e-cigarettes and heart health, and Dr. 
Volkow, what more should the public know about the harms of e-
cigarettes, in particular for those Americans who are currently 
not smoking combustible tobacco products, what should they know 
about the risk of e-cigarettes?
    Dr. Gibbons. Thank you for that question. Certainly a 
leading cause and risk factor for cardiovascular disease is 
tobacco smoke, and one of the elements of promise for e-
cigarettes was the degree to which it could help in smoking 
cessation from tobacco and enable individuals to stop and 
reduce their risk of cardiovascular disease.
    As you pointed out, one of the troubling elements is that 
exposure, particularly to our young people, is a gateway to 
nicotine addiction for those who are not in the process of 
smoking cessation, that is where the risk is. And we still have 
a lot to learn about what that exposure does to young people in 
terms of their lung development, where we have some concerns, 
as well as their whole cardiovascular system. We know that 
nicotine has some problematic effects on the entire system, 
particularly in developing young people. So we concerned about 
this emerging epidemic.
    I will defer to my colleague, Dr. Volkow.
    Dr. Volkow. Dr. Gibbons, thanks for much, and indeed, it is 
an area of great concern because have, actually, as of 2011, we 
had not detected much vaping by teenagers, and then in 2018, we 
have actually recorded 38 percent of 12th-graders had reported 
vaping. So you can see how fast it has gone up.
    And the other issue of great concern is that many of them 
are endorsing that they are using it for nicotine. We already 
know that nicotine is very addictive. And the rate at which the 
increase is actually going up, from 2017 to 2018 it almost 
doubled, in terms of vaping for nicotine.
    So of course we are concerned, because as the research has 
already shown, if you start with vaping then you are much more 
likely to go to combustible tobacco, and we all know what the 
consequences of combustible tobacco are.
    So I think that we need to clearly make the message that 
nicotine is addictive, that we already know that it actually 
opens up the vulnerability for tobacco smoking but also for 
other addictions, and to the other aspect that is very 
relevant, just as the cardiovascular system, is how that 
nicotine ultimately influences that development of the human 
brain, which is something that we will be studying with the 
ABCD Study.
    Ms. DeLauro. Now I just wonder, because Altria bought Juul, 
you see full-page ads, this could be dangerous for kids. What 
are we doing here? Is there any way we can be more effective in 
getting the information out that this is damaging to your 
brain? You have said that before us for 10 years. Have you been 
here 10 years?
    Dr. Volkow. Sixteen.
    The Chairwoman. Sixteen. But I know I go back and tell my 
teenage grandkids, I bring them a copy of your testimony. We 
are not getting this information out. So think if they are not 
puffing on cigarettes the e-cigarettes are just easier for 
them.
    What can we do? Can we do more?
    Dr. Volkow. Absolutely, and I think that the FDA has taken 
a very strong stance----
    The Chairwoman. Finally.
    Dr. Volkow [continuing]. In terms of regulating it. But we 
have also had--we have been able to dramatically reduce tobacco 
smoking in teenagers and adults. Prevention efforts work and we 
need to actually provide effective prevention evidence and 
interventions to prevent the use of nicotine vaping as well as 
vaping cannabinoids, because now one of the main ways teenagers 
are smoking marijuana is through these vaping devices.
    The Chairwoman. Well, let me just say this. I thank you for 
your information--my time is up--but it is not working. The 
numbers are increasing. I see it at the high school level. I 
see at elementary school level. So it is not working. And the 
FDA--and I have worked with the gentleman who, unfortunately, 
is leaving now--they were a little late. And I don't know 
exactly what we can do now, but the numbers are increasing and 
increasing.
    If it were up to me I would ban advertising. They have this 
big ad for Juul and then, in little print, this is not for 
kids, or whatever the heck it says.
    So I think we have an absolute obligation to get tough on 
it, and not say we should do this, what can we do together? And 
I appreciate your comments.
    Thank you, Madam Chair.
    Ms. DeLauro. Congressman Harris.
    Mr. Harris. Thank you very much. Dr. Volkow, good to see 
you again.
    One topic that I think is a timely topic, that I am not 
sure, and maybe you can expand on what research has been done, 
is actually the kind of global availability of CBD. I mean, I 
walked into, you know, a small country store the other day and 
it has got a rack of, you know, CBD-infused and whatever. You 
know exactly what I am talking about. I mean, it is--we have, I 
guess, CVS now saying, I guess, they are going to sell CBD.
    And this is confusing to me because--and, you know, we will 
deal with it in an FDA hearing tomorrow--but clearly it is a 
drug, and now it is an FDA-licensed drug, but it is being sold 
and widely available. You know, one of these, you know, it will 
cure everything you have. But, you know, it is something that 
works with the cannabinoid receptors. Yeah, I get it. It 
doesn't bind like THC. It only, you know, it only stimulates 
the receptors. But it would make sense to me that we need to do 
some research before this neuroactive drug becomes widely 
available.
    What is the current state of research on what the long-term 
effect of CBD is, because, you know, this rack didn't say, oh, 
by the way, you have to be 21 to buy this stuff. I mean, 
literally a child can go up and obtain this. So what is the 
state of the research on that?
    Dr. Volkow. And you are absolutely right. We should be 
concerned that people are actually buying CBD with expectation 
that it will have therapeutic effects, and in the process they 
may forego medications that can be life-saving. So that is an 
issue of major concern, when there is very little evidence 
about potential therapeutic indication of CBD. There is some, 
and clearly, for example, Dravet Syndrome is an example of 
where CBD could have therapeutic benefits.
    But many of the claims regarding the usefulness of CBD do 
not have the data behind them. And one of them, for example, is 
the use of CBD for the treatment of opioid addiction. We know 
that opioid addiction has a very high mortality rate and there 
are medications that protect you against dying. And so the 
concept that people are moving towards CBD instead of 
medication assisted treatment is one of tremendous concern.
    As it relates to potential health, effects of CBD, we know, 
for example, already, that excessive consumption can result in 
hepatic toxicity, and yet people don't recognize this, and they 
may be harming themselves by not knowing this.
    We are interested, and the study that I just mentioned, the 
ABCD study, and a newer study that we are hoping to initiate 
soon, will look at the brain development in infancy and 
forward, and will allow us to understand to what extent 
exposures to CBD may influence the development of the human 
brain.
    Mr. Harris. Thank you, and I think that is very important 
research to be done. You know, we are going to, once again, try 
to advance legislation that just makes it easier to do, you 
know, the research on, you know, cannabis.
    Dr. Collins, let me ask you--and I am sorry, I had to step 
out. I had another hearing at the same time, and you may have 
talked about it--what is being done to deal with the 
reproducibility issues of research?
    Dr. Collins. We have not talked about it and I am glad you 
raised it. We are intensely interested in making sure that the 
money that the taxpayer provides through you all to NIH is put 
into research that is well designed, rigorously conducted, 
published quickly and accurately in a way that others can 
understand the experiment well enough to reproduce it. This 
whole focus on rigor and reproducibility has been a major part 
of the emphasis that Dr. Tabak and I have particularly grabbed 
onto over the course of the last five years.
    I think we have come a long way there in terms of raising 
consciousness of everybody to just how critical this is. We 
have introduced new kinds of training programs for graduate 
students and postdocs, which maybe had not really have had the 
emphasis in this space that you would want to see in their 
standard training programs, and now they are getting that.
    An area that we are currently looking at, which I think 
could be the next place to pay even closer attention, is animal 
models. When you defend an animal model experiment, is that 
animal model, first of all, a good model for the human 
disorder, and then second of all, if it is an animal model 
experiment where you are testing an intervention, have you 
designed that trial so it has sufficient power, which may mean 
you need to think carefully about how many animals--males, 
females? Have you decided exactly what your endpoint is going 
to be, not after the experiment but at the beginning? All of 
that needs, I think, still another bit of attention, which we 
are focused on right now. There may be more to say about that 
in the coming months.
    Mr. Harris. Okay. Well, thank you very much and I yield 
back.
    Ms. DeLauro. Thank you.
    Congressman Pocan.
    Mr. Pocan. Thank you, Madam Chair, and thank you, 
everybody, for being here today. I appreciate it. My district 
has a lot of NIH support coming in, University of Wisconsin-
Madison, a great, world-class research facility, so thank you.
    Dr. Collins, as a quick follow-up on the question on early 
researchers, I know when we had the Next Generation Researchers 
Act we had a lot of efforts in there. One of the stats I 
remember was the median age had raised from like 36 to 41 for a 
first-time grant, and while you have doubled the grants, which 
is amazing, anything on that first age of researchers right now 
getting grants?
    Dr. Collins. That is a slow process, I am sorry to say, to 
try to change, and a lot of that is, well, based upon the 
training pathway that many scientists go through. First of all, 
many of our current students are not as likely to go straight 
through from college to Ph.D. to postdoc to individual 
independent positions. They have other things they are 
interested in. They take a break and do a tour of the world or 
something of that sort, which is great. They bring additional 
expertise as a result.
    But we still have a problem where Ph.D. programs often are 
too long. Postdocs are too long. We are using the levers that 
we have to try to affect that. And then we have some programs 
that are specifically intended to shorten this, like the Early 
Independence Award, where a particular class of graduate 
students doesn't really need a postdoc. They are ready, they 
are independent, and we give them a chance to apply, and if 
they are successful, go directly into an independent program. 
And those end up being folks maybe more like 30 instead of 42.
    We are going to keep pushing on this, but it is a vexing 
problem that is hard to turn around quickly.
    Mr. Pocan. Gotcha. Also, there is a study, and it is a 
little bit older, but it was between 2010 and 2016, and it said 
every single drug during that period had gotten support from 
NIH. Every single drug approved, 200-and, I think it was 10 
drugs, or something like that, which is staggering to me. And a 
lot of those were first time, a lot of those for drugs that 
were going to be competitors, to try to lower the cost of 
drugs.
    Is there anything recent on that, since the 2016 
statistics, because I love repeating the statistic.
    Dr. Collins. We do too, believe me. That is a paper my 
friend, Fred D. Ledley, in the Proceedings of National Academy 
of Sciences, which was mentioned by the Chairwoman in her 
opening remarks.
    I don't know if there has been a systematic effort in the 
last three years to redocument that paper's findings, but I 
would be very surprised if the conclusion is substantially 
different. When you look to see how new drug targets are 
identified, a lot of that is basic science research, and in 
this country it is mostly supported by NIH. And then, 
ultimately, that finds its way into a real campaign to develop 
a therapy, and ultimately FDA approves it. We are right in 
there, more than ever.
    And especially now, with the opportunities we have with the 
molecular understanding of disease, more and more of those 
targets are emerging, more and more companies are tapping into 
that in order to develop the next generation of successes.
    Mr. Pocan. Thank you.
    Dr. Volkow, I have a question for you. So I know, over at 
NIDA, you have had public hearings back in April of 2018, with 
the FDA on new medications for opioid use disorder. I know that 
with the public comments you have had a consider amount talking 
about kratom, and, you know, the potential for a Schedule 1 
ban. I have talked to many, many people who have been in my 
office, and talked to otherwise, who kratom has helped to get 
them off of opioids as opposed to the pharmaceutical company 
producing the opioid and then they produce the pill to get you 
off the opioid, which sounds like a very profitable enterprise.
    Kratom has helped many people to do that, and I know 
recently you awarded a $3,000,000 grant to University of 
Florida researchers. Other people are applying for grants to 
study kratom. My concern is there has been a lot of 
conversation about making kratom a Schedule 1 drug. I was 
wondering, if that were to happen what impact would that have 
on the research and the grants you are making to try to see if 
kratom actually can be a pathway for many people to get off of 
opioids?
    Dr. Volkow. Indeed, the moment that a drug gets a Schedule 
1 designation, which is done in order to protect the public so 
that they don't get exposed to it, it makes research much 
harder, and this is because you actually have to go through a 
registration process that is lengthy and cumbersome. It 
restricts the source where you can get the particular drug that 
you are interested in investigating. This is something that we 
work with with cannabis. It is a perfect example, marijuana.
    With kratom, if it were to become a Schedule 1 substance it 
would make it very difficult for a researcher to be able to get 
hold of the pharmacological compound itself. So what we have 
been doing is working with the DEA and the FDA to try to create 
a path that will allow researchers to work with Schedule 1 
drugs in a safe way. So it doesn't delay areas of knowledge 
where there is an urgency to understand the extent to which it 
could be beneficial or detrimental.
    Mr. Pocan. And if I could, just if we could also express 
those agencies not going to Schedule 1 would also solve that. I 
mean, there seems to be--you know, all the problems we are 
trying to untangle right now around cannabis, marijuana 
specifically, because of Schedule 1, I would hate to see us put 
another drug there and then have to try to work backwards. If 
we are not there already, it allows you to continue to do the 
research.
    I yield back. Thank you.
    Ms. DeLauro. Congresswoman Herrera Beutler.
    Ms. Herrera Beutler. Thank you. Madam Speaker----
    Ms. DeLauro. Not yet. [Laughter.]
    Ms. Herrera Beutler. It is a pleasure to have you all here.
    I have a couple of questions and then I wanted to ask 
something that is not on my planned questions.
    The first one has to do with and this is really for the 
panel, although I think it probably speaks to some of you more 
than others--but I think the point is it is for the panel. Now 
I know you all are aware of the unique needs that kiddos face, 
and when it comes to NIH-wide initiatives that span multi-
institutes and centers, as well as high-priority initiatives--
the Brain Initiative, the Cancer Moonshot, I mean, we are 
talking about the ABCD--there are all these different ones that 
I think are--I mean, you were talking about ones that are 
flagship.
    Could you describe the inclusion of pediatric subjects in 
these different initiatives, not just Dr. Bianchi's portfolio 
but across the institutes, as well as how can NIH be more 
proportionally targeted with regard to funds in pediatric--
pediatric research?
    I have a lot of people come in and talk with me about 
different types of cancers, and I agree with regard to rare 
cancers, but if you distill down, you know, where everybody 
gets into who gets how much money, and what institutes, and so 
on and so forth, you know, it has behooved us to allow the 
researchers and the doctors to make those decisions, and I 
support that approach. But when I just look at numbers of 
children, and the research done for pediatric breakthroughs in 
each of those areas, it does cause me to say perhaps we need to 
highlight that more, or you all.
    So I just wanted, you know, whoever to take a whack at 
that.
    Dr. Collins. Let me start, but I will ask Dr. Bianchi to 
summarize what is happening across all of NIH, because she is 
leading a trans-NIH effort that is highly relevant here.
    We do hear you and we do think, based on this whole effort 
on inclusion, which includes children as well as pregnant 
women, as well as the elderly----
    Ms. Herrera Beutler. I have that on here as well.
    Dr. Collins. Okay. We need to pay more attention to this, 
and I think that has led, across NIH, to concerns about this, 
and a willingness for us to report, not across all of our 
portfolios, but study by study, how are we doing as far as that 
kind of inclusion.
    So you could look at this and see whether you think we are 
actually living up to those expectations.
    But let me ask Dr. Bianchi to say what she is doing across 
all of NIH.
    Dr. Bianchi. Thank you, Dr. Collins.
    So when people hear about the National Institute of Child 
Health and Human Development they think that our Institute only 
funds research related to kids, and it is actually 50 percent 
related to kids. We also have portfolios in obstetrics and in 
rehabilitation.
    So to address the issue of what is happening across NIH, in 
terms of child health research, we have collected data and 
formed this Trans-NIH Pediatric Research Consortium, and 
virtually every Institute and Center has some portfolio in 
child health research, and the total is about $4,400,000,000. 
So that is a substantial investment.
    And by working together we have already identified several 
topics where we can make progress. For example, the transition 
to adulthood is a difficult one for children with chronic 
diseases. We all have interest in that and how can we ease that 
transition.
    We need to increase the number of pediatric scientists in 
the workforce. We had a discussion just this week about that, 
and there is about $280,000,000 right now that is invested from 
NIH across all of the institutes.
    We are also working to increase the number of pediatric 
scientists on review panels, which is important, so that if you 
are at a kidney review panel, if you do not have a pediatric 
nephrologist or someone with expertise in that area--that just 
came to mind, but--it is important because they need to 
understand the specific developmental aspects of those 
conditions.
    Ms. Herrera Beutler. The one thing I have learned is that 
it is just so different for kids, the way everything is applied 
to them and in their world, and it changes over time, like you 
said, up until they are going to age out and go into the adult 
care population. It is different at every stage.
    And I think the same holds true for women, in particular. I 
know, in the last number of years, that we have made some 
strides there with regard to studying--you know, our clinical 
group isn't just a certain age of guys. It is also women, but 
now including pregnant women and nursing moms. It is remarkable 
to me just how much we have to go to make sure they are part of 
everything that you all are doing.
    Now I only have 10 seconds left.
    Quickly, do you think we can still hit the 2019--and you 
are talking about the 2020 funding, with regard to the pipeline 
for our Down syndrome research? I just wanted for everybody's 
understanding, where we are at with 2019.
    Dr. Collins. We have worked really hard to try. Given this 
commitment, which is strongly felt by myself, by Dr. Tabak, by 
Dr. Bianchi, Dr. Gibbons, and 12 other institute directors--
there are 14 institutes and centers now engaged in this--to see 
what we could do to try to up the funding level.
    I just want to show you the curve here on the screen, of 
what has been possible, and this is a direct response to the 
way in which this subcommittee has really brought to attention 
both the opportunity and the responsibility here.
    So you will see, for this year--this is 2019--this is still 
a midyear projection. We are at $77,000,000. We are waiting to 
see what additional projects may come through peer review that 
could also be added to this, so this is not the final answer. 
But I do hope you can see we are more than tripling the support 
for Down syndrome in 2019, compared to where we were a few 
years ago, and we are all deeply excited about this. It is 
going to teach us an amazing set of things, both about those 
who have Down syndrome but also about other critical issues 
that affect all of us, like Alzheimer's disease.
    Ms. Herrera Beutler. Thank you.
    Ms. DeLauro. Congresswoman Frankel.
    Ms. Frankel. Thank you. Let me just say I agree with our 
chairs and our ranking member in terms of increasing, not 
decreasing your budget, and thank you all for your great work.
    I want to--a couple of questions. On the--all of your 
research, the participant engagement, what percentage are your 
volunteers women now?
    Dr. Collins. So currently, at about 206,000 participants, I 
believe we are slightly over 50 percent that are women. We have 
focused also on racial and ethnic minorities. About 50 percent 
of the participants are from those groups. If you include rural 
participation, which has also tended to be underrepresented in 
NIH research, where we have made a big push, we are up to about 
75 percent of the people taking part in the All of Us research 
program are from all of those, usually not so well-represented 
groups.
    Ms. Frankel. And then on the clinical trials, where it is 
appropriate, what percentage of the participants are women now?
    Dr. Collins. If you look at the aggregate across all of NIH 
it is about 53 percent of clinical trial participants are 
women. Obviously, it varies from study to study. If you look at 
breast cancer it will be very close to 100, but not quite. If 
you look at prostate cancer it will be zero. But when you 
average across----
    Ms. Frankel. That makes sense.
    Dr. Collins. That makes sense, right?
    Ms. Frankel. What is that in terms of pregnant and 
breastfeeding women, in terms of their inclusion?
    Dr. Collins. That is a great question, and, in fact, I am 
going to ask Dr. Bianchi, because of this very important effort 
that has just gotten renewed for another phase, to answer about 
this.
    Dr. Bianchi. So we know that over 2,400 pregnant women are 
already in enrolled in the All of Us research program, so I 
don't believe that they are specifically participating yet in 
any trials that are associated with medications, for example. 
But they represent a cohort who are actively involved and 
engaged in the research.
    Dr. Collins. And you might say something about PRGLAC, 
which is an overall effort across NIH to try to be sure we are 
including pregnant women.
    Ms. DeLauro. Would the gentlelady just, for one second----
    Ms. Frankel. Yes.
    Ms. DeLauro [continuing]. About maternal, you know, 
mortality, you know.
    Ms. Frankel. Yes. I was going to ask about that.
    Ms. DeLauro. Okay. Go. You go.
    Ms. Frankel. All right, but if I don't get to it, since she 
used up some of my time----
    [Laughter.]
    Ms. Frankel. I reclaim it from the chair.
    A couple of things to follow up there. I know there is 
some--there have been issues in terms of nursing mothers, in 
terms of what can they do, what can they eat, what kind of 
medication? Is there research going on there? And then let me 
just--I will ask a question on the maternal. I know there has 
been an increase on the mortality of women having babies, and 
maybe you could tell us where you are on that.
    Dr. Bianchi. Yeah. So those are two big, different 
questions, so maybe I will start with the medications.
    Ms. Frankel. I have more too.
    Dr. Bianchi. Okay. I can only take one at a time.
    Medications taken by pregnant and lactating women. So NIH 
chaired a task force that, over the past year and a half, 
examined, what is the status of knowledge known on the subject. 
And the bottom line is very little is known. Pregnant women 
take, on average, between three and five medications during 
their pregnancies. The assumption is that it is safer not to 
take those medications, but in fact we might be harming 
pregnant women. For example, if they have asthma and they are 
not taking their asthmatic medications their breathing is 
affected and it will harm the baby.
    So there is a great need to know more and to leverage 
existing resources to find out what we know about pregnant 
women during pregnancy. We need to change the culture, where 
women are excluded from research to specifically including 
them.
    Ms. Frankel. Let me just ask you, do you need more funding 
in that area?
    Dr. Bianchi. Should I be honest and say we never got 
funding? I mean, we never got funding for the task force.
    Ms. Frankel. So I am just saying, so you would like to have 
some funding in that area?
    Dr. Bianchi. Of course. This is an important area.
    Ms. Frankel. If I could, I am going to yield back in a 
moment to our chair to ask about the mortality. But I want to--
but I do--okay, you want to ask it? I have one more question.
    Ms. DeLauro. Ask your question.
    Ms. Frankel. Okay, so--okay. That is fine.
    I wanted to ask about heart disease. One in three--it is 
the number one killer of women, claiming one in three deaths, 
289,000, I believe, women died of heart disease last year. I 
wanted to ask you a couple of things on that. Will proposed 
budget cuts affect efforts in that, and what more could we be 
doing--I am going to ask you also a positive--what more could 
we be doing in funding in terms to start to reduce the 
mortality?
    Dr. Collins. Dr. Gibbons is on point for that.
    Ms. Frankel. Thank you.
    Dr. Gibbons. As you mentioned, heart disease is the leading 
killer of women in this country, and for those women over 65, 
make up a burgeoning population that is at high risk. Certainly 
age is a factor, but the risk of cardiovascular disease among 
women is also affected by race ethnicity. African American 
women are at a twofold higher risk of developing disease and 
mortality.
    So this is a major problem that needs to be addressed. We 
have learned a lot in the last few years from the Women's 
Health Initiative, which has given us new insights into the 
drivers of cardiovascular disease in this important patient 
population. And we are seeing how we can prevent it, 
recognizing that the type and form of cardiovascular disease is 
different in women relative to men.
    So we really need sex-specific strategies to prevent and 
treat heart disease more effectively, and we are doing trials 
to do that. One example I will mention quickly relates to the 
WHISH study, where we have found that even modest activity in 
women over 65--walking, gardening--reduces their risk of 
developing heart failure. And so now we are doing a trial to 
actually encourage women to undergo those lifestyle changes to 
improve their health outcomes.
    Ms. Frankel. Doctor, if you could--just may be when you 
leave here or whatever, I would be interested in knowing if you 
were offered more funding in this area, what kind of research 
you would do.
    Dr. Gibbons. Absolutely. There is more that could be done.
    Ms. Frankel. Yes. Thank you. And I yield back, Madam Chair.
    Ms. DeLauro. Congressman Graves.
    Mr. Graves. Thank you, Madam Chair. Dr. Collins, thanks for 
being here. Thanks for your many years of good work across 
multiple administrations.
    Just, I guess, to help us out a little bit, I know earlier 
there was a little bit of outrage about your budget 
presentation. I know it is a reflection of the Administration's 
priorities. You have done a great job with that. But there are 
constraints that have been placed upon you, and I don't think 
they were self-imposed at all. They were imposed by this body. 
So--and oftentimes this body gets mad at you for doing--for 
something they have done to you.
    So if you could, just maybe give us a glimpse into what 
your vision would be if you did not have some of these 
constraints. What would--how would you invest in priorities so 
that you can, you know, just help us understand what the 
Administration's true priorities would be had there not been 
the budget constraints that you are presenting under.
    Dr. Collins. I appreciate the question and the opportunity 
to think about that. It would be worthwhile for us to 
redistribute something we put together about three years ago, 
which was a strategic plan for NIH, explaining how it is in 
this very complicated agency, with this wide landscape, from 
basic science to clinical trials, from every imaginable kind of 
disorder to condition, how do we make those priority decisions? 
And it is something that all of my colleagues and I sit around 
the table every Thursday and try to figure out, are we doing 
this is the best possible way?
    Again, we try to depend on the incredible bright brains 
that are out there in this country who bring us their grant 
proposals and their best ideas, and we put them through the 
most rigorous peer review system in the world, and then we try 
to fund the ones that look most promising.
    Traditionally, over the course of NIH's history, we have 
found that funding about a third of those turns out to be 
really about the right cut point. That still means it is pretty 
tough. Two-thirds of the people get sent away without an award.
    Unfortunately, as the amount of science has gotten even 
more interesting, the cost of doing science has gone up, we are 
now not able to fund a third. We are closer to one out of five 
at the present time, although I say it is better than it was 
four years ago, and again, the Congress has helped us a lot 
with the last four years of an increase of $9,000,000,000.
    If I could be king of the world and snap my fingers to do 
what would be most important for the health of the biomedical 
research operation in the U.S. and all that that does for human 
health and for the economy, I would hope we could get back up 
in that zone of about 30 percent success rates, but I recognize 
that is a very heavy lift. But you did ask the question so I 
guess I should answer it.
    Mr. Graves. No. Well, thank you for answering that. I think 
oftentimes it is unfair that you have to come before the 
committee, living under certain constraints, and then you get 
criticized for living under those constraints that have been 
imposed upon you. My hope is that maybe this new majority will 
present a budget, here in the next day or two or three, because 
every day that goes by the more challenges that you are faced 
with. But thank you for making difficult decisions and I wish 
more of us could do that here.
    Maybe something that has been affected by the constraints 
you are under is sickle cell. I know you talked about that in 
your opening statement a little bit, or it was addressed 
earlier. You know, it has, I guess, been shared with me that 
there are some investments in other, you know, diseases that 
have more investment but lower, I guess, lower impact. You 
know, sickle cell in Georgia, I think we have about 7,000 or so 
impacted individuals.
    How can we bring--there is that disparity, let's say, in 
investment. How is that--how can we bring that back together a 
little bit, or is that just truly an effect of the budget 
constraints that you are living under at this time?
    Dr. Collins. As I mentioned, we struggle every day with how 
to set the priorities, and it is always a mix. What is the 
burden, the actual public health impact of a particular 
condition? We have to notice how many people are affected, how 
serious is the disease. But it is also the scientific 
opportunity. Just throwing money at a problem, if nobody has an 
idea about what to do, is not likely to make rapid progress.
    With sickle cell I will say, over the course of many 
decades, there have been a lot of people motivated to try to 
see what we could do for the first molecular disease, described 
more than a century ago. And progress has been made, steadily, 
over that time, with the development of a drug like 
hydroxyurea.
    But to get to where we are right now took bringing together 
of a lot of research from areas that were not focused on sickle 
cell per se. They were figuring out how you could do gene 
therapy. And then ultimately, with the refinements in both the 
efficacy and safety, we get to where we are right now. This new 
development of gene editing with something called CRISPR-Cas 
comes along, just five years ago, and it is clear that that, 
which came out of the most basic science you can think of, 
studying yogurt, for heaven's sake, ends up producing an 
apparatus that is capable of making a change that could be 
absolutely magical for people, not just with sickle cell but 
maybe those other 6,500 genetic diseases that are still waiting 
for answers.
    So all of that kind of comes together, and then we say, 
okay, we have got to really push this. It will happen 
eventually, but we make it faster now that we see the pieces 
being assembled. Dr. Gibbons has been leading this sickle cell 
initiative at NIH that is working with the private sector 
trying to figure out what are all the things NIH can do to be a 
catalyst, to be an encourager, and to figuring out where the 
resources can go to get those 100,000 people with sickle cell 
disease, including 7,000 in your state, in a position where we 
can offer them something absolutely magical.
    Mr. Graves. Thank you. Thank you to you and your team for 
your great work. Thank you all.
    Ms. DeLauro. Congresswoman Lee.
    Ms. Lee. Thank you very much. Thank you, Madam Chair, and 
our ranking member for this hearing, and I want to associate 
myself with the remarks that have been made with regard to the 
budget, because I certainly am one who believes that your 
budget needs to be increased. For many, many reasons, for many 
people, your work is life-affirming. We have a long way to go 
to catch up with closing health disparities, based on race and 
ethnic backgrounds, and this committee really gives us a chance 
to try to do the Lord's work.
    Personally, as it relates to health disparities based on 
race, and many of us have family members--my mother, COPD, my 
sister, multiple sclerosis, my aunt, diabetes--so we know 
personally about these diseases that you all are trying to 
figure out how to help address. And so just personally I just 
want to thank you for what you are doing on those fronts, and 
others.
    Dr. Fauci, 1.2 million people living with HIV in the United 
States. We have made tremendous progress, because of you, in 
many ways, in our fight against the virus, but we still have a 
long way to go. Nearly 40,000 cases each year. Of course, 
communities of color, LGBTQ community, urban areas in the South 
of the United States continue to be disproportionately impacted 
by the epidemic.
    And so the budget proposed by the President includes 
increased funding for the Centers for AIDS Research at the NIH 
as part of the new end-the-HIV effort. But it still cuts 
funding for HIV/AIDS research supported and conducted by NIH, I 
believe it is by $424,000,000. And so I know you have spent 
your entire career working on addressing the HIV/AIDS epidemic 
in the United States and you have overseen some incredible 
achievements as it relates to treatment and prevention, 
including PrEP and antiretroviral drugs.
    And so let me ask you, with regard to these cuts in 
research, I think it is about 17 percent, what role will the 
Centers for AIDS Research play in the end-the-HIV epidemic with 
a percentage cut like that? And then what is the long-term 
funding needs to begin to really reduce HIV infections by 75 
percent over the next five years, and I think it is 90 percent 
in 10 years?
    Dr. Fauci. Well, let me take the second question first, and 
that is the overall effort.--As you know, and said correctly, 
we are at a point right now that is absolutely critical because 
we have the capability to end the HIV epidemic as we described 
in the recent plan that I had discussed with you previously.
    The Centers for AIDS Research, which are components 
supported by the NIH, are 19 centers throughout the country 
playing an important part in connecting with the community and 
facilitating implementation research to understand the best 
strategies for getting out into the community, getting people 
who are infected on therapy, and getting those who are at risk 
and not on therapy, because they are uninfected, to get them on 
PrEP. The CFARs, or the Centers for AIDS Research, are playing 
a major role in allowing the CDC and HRSA to implement these 
strategies.
    I am as concerned as you are, Congresswoman Lee, about the 
cuts in the NIH budget with regard to HIV/AIDS, because as you 
know right now, if you look at the advances that we have made, 
if you treat a person who is infected with HIV and you get 
their viral load to below a detectable level, you make it 
impossible, essentially, for that person to transmit the virus 
to another person, and if you put someone at risk on PrEP you 
decrease their risk of acquiring HIV by up to 97 percent.
    So, the research that we are doing now outside of the CFARs 
is to get better therapies. One area that we are focusing on is 
long-acting prep, so you don't have to take a pill every single 
day, but you can take an injection every few weeks to a few 
months. If we do that, we will then get those individuals who 
don't adhere to their therapy and get them under the umbrella 
of protection.
    So, we are doing the best we can with what we have. I am 
concerned that if the cuts come, we will have to slow down, 
which I think would be a shame, given everything we have been 
able to do over the last couple of decades.
    Ms. Lee. Thank you very much. And let me ask Dr. Gibbons a 
question with regard to the action plan--the National Action 
Plan for COPD. How that is going? How do the budget cuts, or 
would they affect the plan? Of course, I mentioned earlier my 
mother suffered from COPD, directly related, as many people of 
color, related to living in a neighborhood in El Paso, Texas, 
where there was a smelter that polluted the whole area where we 
lived. And so COPD had not been something that I had looked at 
until she became very ill. Now I am trying to see where we are, 
and thank you for the action plan.
    Dr. Gibbons. Well, I appreciate you sharing your mother's 
story, and as you know we appreciated your support on the COPD 
Action Plan, and we are encouraged by the advances that we have 
been able to make in terms of understanding more about what 
causes COPD. As you mentioned your mother, there might have 
been exposures that injured her lung, and now we are 
recognizing how to diagnose this disorder earlier, so we can 
intervene earlier, such that we can do more than just offer 
oxygen at the end of life, when the lung has failed.
    And indeed, in this area we have actually been encouraged 
by imaging modalities, new technologies using data science, 
machine learning, artificial intelligence. They are now able to 
analyze lung scans in ways that enable the earliest detection 
of damage and changes in the lung. It is by intervening at the 
earliest, preclinical onset, before even symptoms have evolved, 
that we can really change the natural history of the disease. 
That is the kind of promising research that we see on the 
forefront.
    Ms. Lee. Thank you very much, and I will follow up with 
you.
    Ms. DeLauro. Congresswoman Roybal-Allard.
    Ms. Roybal-Allard. Dr. Bianchi, one of the legislative 
priorities in Congress that I have had has been newborn 
screening, and since its passage in 2008, this bipartisan bill 
has supported critical Federal programs that assist states to 
improve and expand their newborn screening programs, which 
support parents through newborn screening education, and it 
ensure laboratory quality and surveillance.
    I will be introducing legislation in the next month to 
reauthorize the Newborn Screening Saves Lives Act, and one of 
the programs authorized by the bill was the Hunter Kelly 
Newborn Screening Research Program.
    What has the Hunter Kelly program accomplished since it was 
authorized 10 years ago and what research most urgently needs 
to be done going forward?
    Dr. Bianchi. Thank you. We really appreciate your 
reintroduction of this bill. Newborn screening is a success 
story. More than 150 million infants in the United States have 
been screened, and by becoming aware of these early-onset 
conditions this allows us to treat them.
    We are also gratified that there has been a change in the 
common rule so that we can use the dried blood spots that are 
taken as part of newborn screening for additional clinical 
research which allows us to test out potential protocols for 
screening for new disorders.
    Currently the Health and Human Services Secretary Advisory 
Committee recommends that every state perform newborn 
screening. There are 35 conditions on the uniform panel and an 
additional 26 conditions on the secondary panel. That does not 
mean that every state screens the same way. It is up to the 
state to decide.
    But what we think needs to be done is to be more nimble in 
adding conditions to the uniform screening panel, particularly 
when there is a treatment available. So just this past year, 
the recommendation was made to add screening for spinal 
muscular atrophy to the panel, because there is now treatment 
available. And as you heard last year from Dr. Collins, that 
treatment really makes a huge difference in the lives of 
children with this condition.
    Ms. Roybal-Allard. Thank you.
    Dr. Collins, according to the NIH, 95 percent of all new 
drugs that test safe and effective in animals fails or cause 
harm in human clinical trials. Studies also show that 90 
percent of basic research, much of which involves animals, 
fails to lead to therapies for humans within 20 years, and 89 
percent of all studies can't even be reproduced.
    You have stated that you agree NIH should move away from 
animal-based models whenever scientifically sound, and yet 47 
percent of NIH's funding supports animal experiments. What has 
the NIH done to identify areas of research where animal models 
have a poor history of helping develop treatments for that 
human condition, and can you give us some examples of where 
animal models have not been successful when applied to humans, 
such as in Alzheimer's research?
    Dr. Collins. That is a very important area and we are 
looking intensely at it. It came up a little earlier in the 
conversation in the area of rigor and reproducibility. Let's be 
sure that if we are using animal models to try to understand, 
particularly a therapeutic intervention, that the trials are 
designed in a fashion that have maximum power and you can be 
quite sure of the result having a reproducible outcome.
    It is certainly true that there are some areas where animal 
models have been disappointing. You mentioned Alzheimer's 
disease as one. There has certainly been a lot of concern about 
the immune system of mice, for instance, being rather different 
than that for humans, and so conclusions drawn from one may not 
apply as well as you would like to others.
    On the other hand, I could certainly point to some animal 
models that are quite faithful reproductions of a human 
circumstance and give you an opportunity to do things in terms 
of developing treatments that otherwise would take much longer. 
So as in most things it is a balance.
    I would say the National Center for Advancing Translational 
Sciences, NCATS, and their tissue chip program, aims to try, in 
as many places as possible, to come up with a way to test human 
cells for safety and efficacy of some new intervention. Those 
are not human cells that you are walking around with but 
actually cells in a chip that could be utilized to assess 
exactly what happens when you expose them to a particular drug. 
That is a pretty exciting program. It has been in place now in 
collaboration with DARPA and FDA for 10 years, and I think that 
is beginning to make some inroads.
    But we have to, since we are in a rush to find treatments 
for many disorders, make sure that in every instance we are 
picking the best possible model and then investing sufficiently 
in it so that we know we can trust the results.
    Ms. Roybal-Allard. Okay. Are there any measures right now 
that NIH is currently using to encourage scientists to move 
from costly and often inaccurate animal testing, again, when it 
makes scientific sense to do so?
    Dr. Collins. Certainly the NCATS program is constantly 
looking for opportunities to try out tissue chips as an 
alternative to animal models. I should also mention here, in 
one particular animal model, namely chimpanzees, we made a 
decision some years ago not to support any invasive research on 
chimpanzees. So investigators who used to depend on that model 
have been required to go elsewhere.
    Ms. Roybal-Allard. Okay. And I appreciate that. And just 
quickly, I will be introducing the HEARTS Act to incentivize 
NIH with regards to applicants to use--not to use animals in 
their research, again, when it makes sense. I would like to 
talk to you more about that.
    Dr. Collins. I would be delighted to spend time with you on 
that.
    Ms. Roybal-Allard. Okay. Thank you.
    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. Thank you, Madam Chairman. Thank you 
for this amazing information that you are sharing. I really 
appreciate it and sorry I missed out on your--initial 
testimony.
    I have got a number of questions. I am very concerned about 
health disparities. I am very concerned about sickle cell 
anemia. I am very happy to hear that there has been this major 
breakthrough, yet there are issues with regard to living with 
it and the pain associated with it and the deterioration of 
organs. I need to know whether or not there is sufficient 
research being done into those areas.
    And I am going to throw it all out to you. I am interested 
in autism. I have a grandson who is autistic, and I am not sure 
what is happening, what kind of breakthroughs, whether or not 
we have the kind of funding and research that is taking place. 
I am also concerned about sarcoidosis and what is happening 
with regard to research in that area. And then, in general, the 
disparities in health care. I am very interested in maternal 
mortality and what kind of research you all are doing to 
identify the causes, why, between individuals similarly 
situated in all ways black females have a mortality rate, a 
maternal mortality rate much higher than their white 
counterparts.
    And I guess I want to say, finally--I think I have got all 
my questions out--the issue with children and this uptick in 
suicides and access to mental health, and the disparities in 
the uptick in suicides with African American children. What are 
we finding? What are we looking for?
    And then my last, but most important question is, do you 
not need more money to do all of these good things and other 
things as well? I certainly think you do.
    Thank you, Madam Chair.
    Dr. Collins. My goodness. I am trying to figure out, in the 
remaining three minutes, what we might do to try to answer one 
or two of these, and obviously we can answer others for the 
record if that would be helpful.
    Mrs. Watson Coleman. It would be. Thank you.
    Dr. Collins. Maybe I will try to pick a couple that have 
not been brought up by other members in the course of this 
conversation.
    So, for instance, autism spectrum disorder has not been 
talked about. We are deeply concerned about the fact that the 
frequency of autism spectrum disorder, or ASD, has gone up over 
the course of the past few decades. That clearly is an 
indication of something that is going on. Some of it is 
probably a sensitivity to condition and an increased likelihood 
of making that diagnosis, compared to many decades ago where it 
was less familiar to both parents and providers. But it 
certainly requires deep investigation, and it is being looked 
at from multiple perspectives.
    We do think autism, in its most severe form, probably 
begins prenatally. It is not something that starts at the time 
that you make the diagnosis, maybe when the child is a year old 
or so. We can certainly show in children younger than one year 
that if you look at something as subtle as how they do eye 
tracking that there is a distinct difference, and we can see, 
actually, by scans, that the brain anatomy is different in a 
child with autism than one that does not have it.
    And from genetic perspectives we know there is an awful lot 
of the autism risk that comes about through genetics, but not 
in a very straightforward, simple way. There are a lot of 
different genes involved.
    One thing we know that is not a major cause of autism, not 
a cause at all of autism, is vaccines. If you want to say what 
we know, it is that MMR vaccines do not cause autism. A recent 
study just a month ago, actually, showing this. It was a very 
long-term study in Denmark.
    But we are deeply interested in trying to take what we have 
learned about the molecular and neuroscience of autism and now 
begin to transform that into interventions. I will tell you we 
do know that early diagnosis and early intervention, in terms 
of both home and school activities, improves outcomes, so it is 
really important that we have the ability to catch this kind of 
circumstance early.
    That is what I would say about autism. In terms of the 
other things you brought up, we did talk about maternal 
mortality briefly before, but health disparities, in general, 
everybody at this table in their institute, has a concern about 
health disparities and how we can, with the resources we have, 
focus on that.
    Maybe I will ask Dr. Gibbons if he would say another word 
about where we are in terms of health disparities with heart, 
lung, and blood disease, since that is his area of particular 
focus.
    Dr. Gibbons. Sure. So one of the elements of addressing 
health disparities in communities close to where you are 
representing, involves appreciating the social context in which 
patients find themselves, and that raises the issue of 
implementation science. How can we be sure that things we know 
work are penetrating all the communities that are at highest 
risk? We are, investigating that with sickle cell disease. 
There is a recent paper out that acknowledges that blood 
transfusions and hydroxyurea, are very effective, but in a 
study of pediatric patients on Medicaid, only 20 percent 
received hydroxyurea for more than a few moments.
    And so we--have formed a network of implementation science 
around sickle cell disease. It is all over the country, in 
South Carolina, New York, California, and in Illinois, all of 
which are looking at new models, new innovative strategies to 
ensure that evidence-based care gets to all the patients who 
are affected. That is a theme, I think, in all sorts of health 
disparities research. That is relevant, as well, to the issues 
of maternal mortality, where indeed, as you pointed out, 
African American women are at a two-fold higher risk of death 
related to childbirth.
    Mrs. Watson Coleman. Even in the same socioeconomic and 
education and everything else background.
    Dr. Gibbons. That is correct. That is correct. And some of 
that relates to other conditions that they have actually 
preconception, more hypertension, more diabetes. All that 
increases their risk. And so part of a trial that we are doing, 
in conjunction with our colleagues at Child Health----
    Ms. DeLauro. Dr. Gibbons, I have to ask you to----
    Dr. Gibbons. Oh, sorry.
    Ms. DeLauro. We are well over a minute and a half here, so 
we have got--and I would love to have you and Congresswoman 
Watson Coleman continue that conversation.
    Congresswoman Clark.
    Ms. Clark. Thank you so much. Thank you, Madam Chairwoman. 
It is such a pleasure. I looked forward to this hearing. I have 
learned so much in this brief period of time that we have, and 
I appreciate the situation you are in and I am sorry that each 
time you come before us you are facing significant budget cuts. 
And I think that when we look at them in total, with also cuts 
to Medicare, Medicaid, we are not only cutting off--we are 
cutting off both ends of the pipeline, innovation and delivery 
of health care. So I appreciate you being here and the 
incredible spectrum of work that you do.
    In my State of Massachusetts, in 2016, a third of all 
deaths of people between the ages of 15 and 24, our young 
people, were from opioid overdoses. And we are now finding a 
new and disturbing trend within a very disturbing public health 
crisis in this country. A survey--the National Survey on Drug 
Use and Health found that there is a significant and growing 
gap between treatment that white youth are receiving and those 
versus color. Sixteen percent of white youths who abuse pain 
relievers received treatment in 2016, and 9.5 percent of youths 
of color received that same treatment in 2016.
    Dr. Volkow, can you tell us, is NIDA currently doing any 
work to better understand and find solutions for this growing 
gap in disparities and treatment?
    Dr. Volkow. Yes, and indeed as for any other medical 
conditions we have found that the outcomes are much worse for 
minority groups, and these reflect multiple factors, many of 
them related to access to proper treatment and identification. 
And it is not just that individuals that are African American 
are less likely to be given access to medications that are 
life-saving for opioid addiction, they are also, for example, 
less likely to be given Naloxone, particularly if they are 
women, if they overdose. So there is a disparity in the way 
that we are actually approaching the treatment invention.
    So what is that we are doing? We are actually funding 
researchers to develop models that will enable laws to provide 
evidence of care for the screening and treatment of individuals 
with an opioid use disorder. That also includes areas that may 
not normally be part of what we have been researching in the 
past, like rural communities. So it also pertains to the 
difficulties of actually bringing models of care.
    So this is one of our key priorities for the use of the 
$500,000,000 that Congress gave us to address the opioid crisis 
that we are currently experiencing. The initiative has a pain 
component and a component that relates to preventing and 
treating opioid addiction, and we are emphasizing the 
importance of research that will lead us to solutions to 
actually decrease the gap in the outcomes between--I improve 
the outcomes for everyone, but certainly no longer permit that 
those disparities persist.
    We have also always been very concerned about the 
criminalization of individuals with an addiction, which is much 
more likely to happen if you are African American than if you 
are Caucasian. And so we are also developing models of care and 
research that are targeting the justice setting to prevent this 
from happening.
    Ms. Clark. Great. That is a staggering fact that I had not 
heard, and I just want to make sure I understand you correctly, 
that Narcan is administered to African American women at 
noticeably lower rates?
    Dr. Volkow. A lower rate than it is for men.
    Ms. Clark. Wow.
    Another trend that we are seeing is a rise in mental health 
issues for young adults. And do you believe that that--you 
know, that we have comorbidities happening here? Are they tied, 
and what sort of work are you doing on increasing substance use 
disorders and increasing mental health issues for young adults?
    Dr. Volkow. Yes, indeed, we are finding that there is more 
frequency than the exceptions to have comorbidity with mental 
illness. For example, a particular area of concern is that a 
significant portion of people that are dying from overdoses 
are, in fact, dying also from suicide, and it is estimated 
between 20 and 30 percent, and that highlights, again, the 
importance of one of the areas that we are incentivizing in the 
HEAL Initiative, which is how do we address the treatment of 
opioid use disorders that have a comorbid mental illness?
    Ms. Clark. Thank you. Thank you, Madam Chairwoman.
    Ms. DeLauro. Thank you. We are going to move to a second 
round of questions, and I will ask members to do that in three 
minutes. And I am just going to say this, and I am a guilty 
party in this. Let us not ask a three-minute answer in the last 
remaining 10 seconds of our time. So I will try to adhere to 
that myself. Okay. Thank you very, very much.
    With that I am going to say, very quickly, Dr. Collins, Dr. 
Gibbons, I would like another conversation, a further 
conversation about lymphatic disease research. We can't get to 
it today. Ten million people, almost no treatment, a very 
serious issue which I would like to try to pursue.
    I would just say to Dr. Fauci, at a point I would love to 
know more about PrEP in women and what is the nature of the 
studies there so that we can see if there is a difference in 
how effective it is. I just would throw in, at that juncture, 
we seem to have a very big problem with PrEP in the South, in 
which case we may deal with a whole variety of issues, some 
having to do with Medicaid, et cetera, but clearly there.
    Dr. Volkow, I would pursue with treatment disparities for 
opioids between men and women, and what kind of research we are 
doing in that area.
    Let me just ask you, Dr. Fauci, about a universal flu 
vaccine and where we are. We have done 140 million. That was an 
increase. Where are you? What kind of progress are we making? 
How close? Crazy question. How close are we, or how far are we 
from universal flu vaccine?
    Dr. Fauci. Well, first of all, thank you very much, Madam 
Chairwoman, for the support of this committee, because it 
really has resulted in some important advances that I am very 
pleased to tell you about, from the last hearing we had last 
year until today. And that is in the area of universal flu 
vaccine research, where last year we had preclinical animal 
modal and Phase I studies, we have now advanced to Phase II 
clinical trials, namely looking at not only whether the vaccine 
candidates are safe and immunogenic but whether they actually 
do have a broader protection against more than just one strain 
of influenza.
    Both in our extramural program and in the Vaccine Research 
Center at the NIH, we have more than one candidate. I think I 
mentioned it to you when we discussed this topic. This is 
something that we are very excited about because we are seeing, 
for the first time, that you can vaccinate with a particular 
component of the flu vaccine that is common among multiple 
strains, as opposed to now where we have one strain, one 
vaccine, another strain, another vaccine. I can't tell you 
exactly how long it will be until we get a universal influenza 
vaccine but I can promise you that we are going into Phase III 
trials, and when we come back to a hearing next year, I will be 
able to tell you a little bit about some of the data on that.
    Ms. DeLauro. Thank you very, very much. It is very, very 
encouraging as to when we go.
    Another area that I would just mention, because I have got 
12 seconds, is measles. You know, I am very, very concerned. I 
understand medical exemptions. I understand religious 
exemptions. There is also apparently a philosophical exemption. 
I don't know what the dimension of that is, but I think we need 
to do something about looking at vaccinating our children, and 
I would love to pursue that conversation and how we do that.
    Dr. Fauci. Definitely.
    Ms. DeLauro. I have overstepped by about 10 seconds here.
    Mr. Cole. There is such a thing as the chair's prerogative, 
Madam Chair, so we certainly respect that.
    And I want to associate myself with your remarks on 
lymphatic disease. I would really like to have a longer look, 
and I know we both met with folks this last week. It was a very 
compelling presentation. So we would--I know that there would 
be a bipartisan interest in that.
    Dr. Collins, we have talked a lot, and appropriately so, 
about health disparities, but the biggest disparities have 
always been between the Native and the non-Native population in 
the country. That is still the case. In 2015, NIH established a 
Tribal Health Research Office to ensure meaningful input and 
collaboration with tribal nations on NIH programs and policies.
    Can you give us kind of an update on how that is going and 
what kind of progress, if any, we are making on this front?
    Dr. Collins. I am glad to. We are happy now to have this as 
a focus at NIH. We did not have such an office until 2015, Dr. 
David Wilson now leads this effort. I believe you have met him, 
and he is really quite a thoughtful leader in this space. It 
has given us an opportunity to do a much more thorough survey 
across multiple different health disparities that affect Native 
Americans and try to see, do we have our research portfolio 
arranged to understand both what the causes are, but even more 
importantly, what the interventions could be that would improve 
those circumstances?
    We formed a tribal advisory committee, which is populated 
by each of the leaders from the 12 geographic areas that are 
served by the Indian Health Service, and those folks meet quite 
regularly, and they have very clear opinions about what we 
should be doing to prioritize research that would affect them, 
but also in respect of their tribal circumstances. They have 
been particularly interested in the All of Us research program, 
both in terms of what it is doing and also how it could be 
brought forward in a fashion that would be consistent with 
their tribal council rules, and we are paying attention to 
that.
    So I think, in this space, compared to where we were just 
four years ago, there is a lot more focus across NIH, a lot 
more opportunities to identify research that needs to be done, 
and personally for me I think it is overdue and it is great to 
have that chance, and I appreciate your leadership.
    Mr. Cole. Well, thank you very much.
    Dr. Lowy, I have not got a lot of time left, but, you know, 
Dr. Collins talked earlier about some of the funding issues we 
had with the All of Us program in terms of cliffs that sort of 
get built in. I think we have got something similar to that in 
the Cancer Moonshot. Could you give us sort of an overview of 
things we ought to be thinking about so we can give you a 
consistent stream of funding going forward?
    Dr. Lowy. Yes. Thank you, Congressman Cole, for this really 
important question. Thanks to the funding with the Moonshot for 
the last three years, including this year, we have been able to 
fund a lot of new initiatives, including in pediatric cancer 
research for looking for new treatments, immunotherapy for 
children as well as for adults, and cancer health disparities, 
et cetera. But as you are pointing out, we are at the peak this 
year for the funding and next year it will go down by 
$200,000,000, and in 2024 it ends. And needless to say, thanks 
to the strong support of this group we have been able to start 
a lot of new things, and it would be easier to continue them if 
we didn't have to worry about cliffs, et cetera.
    Mr. Cole. Thank you, Madam Chair.
    Ms. DeLauro. Thank you.
    Congresswoman Lowey.
    The Chairwoman. Thank you, Madam Chair. Dr. Lowy, you know, 
and others probably know about my focus on early detection for 
kidney cancer, and we also know with kidney cancer, and I have 
another friend with advanced pancreatic cancer, that there is 
very little--the end story is not good.
    Someone I was talking to, as I was visiting, the doctor 
came over to me, there are several people who believe, but it 
is very expensive, that if you continue to get body scans you 
can detect those cancers early.
    Now some of us may remember Jack Murtha. He was on a real 
tear. He wanted everyone to go get body scans every year. So, 
on the one hand, there is no way to detect it unless you get a 
body scan. On the other hand, body scans are very expensive. On 
the other hand, is the expense something that we should 
consider or is there a danger in excessive body scans?
    Dr. Lowy. The question of screening for cancer is 
critically important for all cancers. We have some approved 
areas for cancer but not in kidney cancer.
    We need to be sure that the benefits of what we do, 
whatever the procedure is, will vastly outweigh the harms. And 
there is always a concern, if you are looking for something 
that is uncommon, that there will be serious side effects 
because of finding incidental problems that need to be followed 
up on.
    Certainly imaging is one important area, but in addition, 
for kidney cancer, the question of using urine tests, looking 
for molecular abnormalities, or using blood tests, also looking 
for abnormalities, there is a fair amount of research going on, 
both in academia as well as in the private sector. I am 
optimistic that some of this will lead to FDA approval in the 
not-too-distant future.
    The Chairwoman. So right now this is not a procedure--these 
are not procedures, plurally.
    Dr. Lowy. At the moment there is no FDA-approved 
intervention for screening for kidney cancer.
    The Chairwoman. So, in other words, if someone wakes up one 
day and sees this, the size of an orange, there is nothing they 
could have done to detect it earlier. Is that correct?
    Dr. Lowy. Certainly imaging would be able to detect things 
earlier, but you don't know who is going to have the positive 
result. If you could identify a very high-risk population, for 
example, people with familial kidney cancer at risk for that, 
that is a different situation. But if you are just looking for 
people at normal risk, it has not yet been demonstrated that 
the benefits of the early detection substantially outweigh the 
disadvantages.
    The Chairwoman. I am out of time. Thank you all for your 
service.
    Ms. DeLauro. Congressman Harris.
    Mr. Harris. Thank you very much.
    One issue that came up last fall was the use, in HHS, of 
fetal tissue for research, and I think that in December there 
were articles that said that--I guess it was the UCSF grant, 
you know, had another 90 days to fund and the decision was 
going to be made on that. What was the decision?
    Dr. Collins. That deadline was extended and at the present 
time the intramural programs, three of them that require human 
fetal tissue research--fetal tissue to do their research, are 
linked up with that UCSF source, and we have not required any 
slowdown in that effort.
    As you know, the Department of Health and Human Services is 
going through a detailed review of human fetal tissue research 
to see whether it is, in fact, living up to all of those very 
high standards.
    Mr. Harris. Right. I am not sure I understand what--well, 
first of all, how long has the deadline been extended to make 
the decision on that?
    Dr. Collins. I believe it is extended until June.
    Mr. Harris. And why the extension? Why was the extension 
necessary?
    Dr. Collins. The review that the Department is doing is not 
complete, and the Department, and this certainly reflects the 
view of the secretary, want the research in the meantime to be 
able to go forward, hence the extension until a decision gets 
made for the longer term.
    Mr. Harris. And the--what you said, the three studies going 
on at NIH were linked up to that source. I am not sure what 
that means.
    Dr. Collins. I meant that UCSF agreed that they could, in 
fact, meet the needs in terms of the fetal tissue that those 
three studies needed to go forward, for instance, a study on 
eye disease.
    Mr. Harris. Where are they deriving the tissue from? Where 
are they obtaining it?
    Dr. Collins. I believe locally at UC San Francisco Medical 
Center.
    Mr. Harris. And is it true it is from their study, that 
uses tissue from 17- to 24-week fetuses?
    Dr. Collins. I don't know those details. I could get them, 
for the record.
    Mr. Harris. Well, you can get that. That is what has been 
reported, so I would appreciate you get back to me that.
    And what centers--where--exactly where? I mean, now--
because what you are saying is that the studies here, and I 
take it when you mean NIH studies you mean intramural studies.
    Dr. Collins. Yes.
    Mr. Harris. So where--so exactly where is the tissue 
obtained?
    Dr. Collins. As I understand it, it is obtained in San 
Francisco and then shipped to the intramural program at NIH.
    Mr. Harris. Where in San Francisco? I mean, we are buying 
tissue. We are cutting a check, I assume. Do we just say we are 
sending money to UCSF and we let them figure out where it is 
from?
    Dr. Collins. There is a contract from the National 
Institute of Allergy and Infectious Diseases.
    Mr. Harris. This is a new contract; is that right?
    Dr. Collins. It has been there for some time.
    Mr. Harris. But you say we linked up to that source. You 
imply that is recently, since the ban on spending intramural 
monies.
    Dr. Collins. We are still working through the logistics, 
but basically this was an existing contract that was supplying 
tissue, if I am correct, to the Rocky Mountain Laboratory, and 
was asked, therefore, to take on a couple of other 
circumstances during the time of this HHS review.
    Mr. Harris. I hope you can get back to me in more depth on 
that.
    Thank you very much. I yield back.
    Ms. DeLauro. Congresswoman Roybal-Allard.
    Ms. Roybal-Allard. Dr. Fauci, I want to follow up on the 
issue that the chairwoman raised about measles. According to 
the CDC, as of March 21st, 314 cases of measles have been 
confirmed in 15 states. Thanks to a robust vaccination effort, 
starting in 1963, measles virtually disappeared from our 
country and we forgot what a serious disease it is.
    I have three questions, and in the interest of time I hope 
you can cover them all. Are the cases of measles we are seeing 
today more virulent or dangerous than a half century ago? Can 
choosing not to vaccinate children for non-medical reasons 
create a public health crisis? And does NIH have a role in 
addressing this growing vaccine hesitancy and in helping 
convince families not to put their children at risk for measles 
and other vaccine-preventable diseases?
    Dr. Fauci. There is no indication that the measles virus 
right now is any more virulent than before the widespread use 
of vaccines. However, I must point out that I think much to our 
concern, there is this misperception that measles is not a 
serious disease. When you get measles, 1 out of 10 children get 
an ear infection that can lead to deafness, 1 in 20 get 
pneumonia, 1 in 1,000 get encephalitis, and 2 to 3 out of 1,000 
die. So the decision is no different than it was decades and 
decades ago, but it is not a benign disease.
    Number two, yes, the situation of not vaccinating children 
is leading to the outbreaks that we are seeing. Right now, the 
number is even higher, Congresswoman. There are now 387 cases, 
and--the first three months of 2019 there are more measles 
cases than the entire year of 2018. So it is a public health 
issue and it is all related to under-vaccinating children and 
lifting the umbrella of herd immunity.
    Your question is what we are doing right now. We talk about 
vaccination a lot. We use the scientific basis to get people 
who are anti-vaccination, or who do not want to vaccinate their 
children, to provide them with what sound evidence-based data 
to indicate that the rationale for not getting vaccinated is 
not based on scientific fact. It is misperception and 
misinformation. So what we do is provide the scientific 
information so that they can make the right choices and 
vaccinate their children.
    Ms. Roybal-Allard. Thank you. I yield back.
    Ms. DeLauro. Is that vaccine acceptance research, what you 
just made reference to, Dr. Fauci?
    Dr. Fauci. Excuse me?
    Ms. DeLauro. Is that vaccine acceptance research? Is that--
--
    Dr. Fauci. No. We don't primarily do research on that. We 
are doing research right now to understand, for example, if 
there is waning of immunity with measles vaccination, so 
sometimes if you have 100 people who get exposed, some who get 
infected may have been vaccinated, because the vaccine is 97 
percent effective. We are doing research to try and figure out 
why that immunity wanes in a very small percentage of people.
    Ms. DeLauro. By the way, the measles is at its second-
highest level since 2000, so lest we don't think it is a 
crisis.
    Congresswoman Clark.
    Ms. Clark. Thank you, Madam Chairwoman.
    Dr. Bianchi, I have a couple of questions for you. I am 
going to lay them out and then you can answer them to make best 
use of my time.
    I am very interested in postpartum depression, as looking 
at mental health as part of maternal health. I understand you 
are hosting a community engagement forum on April 8th, coming 
right up, and I wondered if you intend to have a focus on 
mental health in that forum, and if it would be helpful, as we 
look at coordinating with other agencies like SAMHSA and the 
Office of Women's Health, if there are interagency discussions 
that we can help support in Congress?
    And my last question is specifically coming from a 
constituent, a heartbreaking story about losing their nephew, 
18 months old, to SIDS. And the constituent's question was 
about the National Institute of Child Health and Human 
Development released its five-year strategic plan and failed to 
include Sudden Infant Death Syndrome and SUDC as a priority. I 
wonder if you could explain how that got dropped out.
    Dr. Bianchi. Okay. I will go in reverse order. We have not 
released our strategic plan. What we released was six 
overarching scientific themes that could be the focus of our 
strategic plan, which we anticipate will be released in 
September of 2019.
    What we were trying to do was to get a reaction from the 
community. What did they think about the themes that we had 
selected? There were hundreds of conditions that were not 
specifically mentioned in those themes, and I think some people 
read it and thought that was the be-all and the end-all. We did 
receive almost 1,000 comments in response to our request for 
information, which we see as a great success because it means 
that the community was engaged.
    We are fully intending to continue our robust support of 
sudden unexplained infant deaths, and so the community should 
be reassured that that will continue, and I think that was a 
misperception.
    Ms. Clark. Oh, great. Thank you.
    Dr. Bianchi. With regard to including postpartum depression 
in our community engagement forum. Because of the disparities 
in maternal mortality, NIH is having a community engagement 
forum where members of the community, specifically the African 
American community, are invited to share their stories, so that 
we can hear directly from people who have been affected by 
this.
    So I can't say that specifically postpartum depression is a 
topic because we don't know exactly what people are going to 
bring up, but postpartum depression is an area that generally 
is led by NIMH, but it is an important cause of maternal 
morbidity and mortality, so we are certainly including it in 
our research going forward.
    Ms. Clark. Thank you.
    Ms. DeLauro. Congresswoman Frankel.
    Ms. Frankel. Thank you. Just so you know I have been 
listening to the hearing from the comfort of my office. Thank 
you again.
    A couple of questions. First, I would like to ask you about 
biologics. And I know we talk a lot about reducing the cost of 
health care by getting the cost of prescription drugs down and 
so forth.
    I just read an article that said that what we should be 
looking at, what might change that dynamic is the use of the 
specialized drugs aimed at a particular person's genetics, and 
so forth. Can you comment on that, or can someone comment on 
that?
    Dr. Collins. Maybe I will start, but maybe Dr. Lowy would 
like to comment because a lot of the biologics are relevant to 
cancer.
    Biologic is basically a therapeutic which is a complicated 
molecule, generally a protein, to be distinguished from typical 
drugs, which we call small molecules, which are basically 
organic compounds. Biologics are more complicated to make, so 
there is always an issue there in terms of the production, but 
they can be very targeted, particularly, say, for instance, if 
it is a monoclonal antibody.
    And there is certainly this effort, and you can call it 
precision medicine and you would be right, to try to identify 
therapeutics that are right for that individual, as opposed to 
a more one-size-fits-all approach, and cancer is right in the 
very leading edge of that kind of transition.
    Dr. Lowy, what would you want to say about this issue?
    Dr. Lowy. Biologics really are one-half of our 
armamentarium when it comes to cancer treatment, the other half 
really being a combination of standard chemotherapy and 
precision medicine, which are small molecule inhibitors and are 
easier to manufacture.
    As Dr. Collins says, the manufacturing of the antibodies 
and verifying that they work, et cetera, is an extensive 
process. And I think that in terms of--we were talking earlier 
about pediatric cancer, for example, there was an indication 
that a monoclonal antibody might be useful for certain children 
with neuroblastoma. And because of the lack of the economic 
incentive for doing this in the private sector the NCI actually 
manufactured and had this monoclonal antibody tested. It turned 
out that it did improve the outcome for children with high-risk 
neuroblastoma. And then ultimately we transferred the 
manufacturing to a production company.
    If there are other questions I would be happy to answer 
them, either offline.
    Ms. Frankel. Okay. Thank you. And I guess I will just end 
with a question that you probably will not be able to answer 
because I am running out of time, but I was curious whether you 
have heard of, and are you doing any research on what is called 
gender bias in the medical profession.
    Dr. Collins. Yes, we are very aware of that concern and 
would be glad to talk with you about that.
    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. Thank you, ma'am.
    So it is clear to me that there is a disparity in health 
outcomes as it relates to race, in just about everything. So I 
understand that there was a $44,000,000 cut to the National 
Institute for Minority Health Disparities, 13 percent. I am 
sorry--yeah, a 13 percent, $44,000,000 cut.
    I want to know how does that affect your research and the 
work you are doing in the areas that I was asking about--sickle 
cell, how to live with it, medications to deal with it, and to 
deal with the pain, mental health disparities in minority 
children, and the uptick of suicide?
    And I wanted to ask you if you have information on whether 
or not there is any racial disparity in the incidence of the 
reporting of autism?
    Dr. Collins. Those are all great questions and I am glad 
that Madam Chairwoman suggested there might be a future hearing 
where other institute directors could appear, because if we had 
the director of the National Institute on Minority Health and 
Health Disparities, Dr. Perez-Stable, here, he would have a lot 
to say about the question you just asked. If we had the 
director of the National Institute of Mental Health here, Dr. 
Joshua Gordon, he would also have a lot to say, about mental 
health and about suicide. And if we had Dr. Walter Koroshetz, 
who is head of the National Institute of Neurological Disorders 
and Stroke, he could probably tell you quite a bit about autism 
and differences in reporting.
    All of those are serious issues, and all of those, of 
course, will be affected by a decreased budget. We basically 
would look at the things that we feel we have to do, and we 
would have to more slowly with a 13 percent cut. Obviously, a 
lot of things would have to wait.
    Mrs. Watson Coleman. Thanks, Dr. Collins.
    With regard to sickle cell anemia, I mean, how--is it 100 
years we have known about sickle cell anemia?
    Dr. Collins. More than that.
    Mrs. Watson Coleman. So this--I would like to ask, through 
the chairman, if it is possible. Those are the areas that I am 
really concerned about--the organ damage, the treatment of pain 
in sickle cell, the disparities in mental health, and youth in 
particular, the uptick in suicide. I think there was another 
one I asked, but, you know, it is that----
    If I could get that information, the answer to that 
question, what does the impact of a 13 percent cut to that 
particular part of your budget mean in terms of your research 
and your work in that area. And I thank you for the information 
you have shared with me and I yield back.
    Dr. Collins. I am glad to provide those for the record.
    Mrs. Watson Coleman. Thank you.
    Ms. DeLauro. Thank you very much and that would be very, 
very helpful because it is cross-cutting, you know, in terms of 
understanding what will suffer, and it is important to know 
that.
    Let me yield to the ranking member for any final questions 
or comments.
    Mr. Cole. Well, it has been a long hearing so thank all of 
you for being here because it is incredibly helpful to, 
frankly, our entire committee, and honestly, I think to the 
public at large.
    I want to go out on a limb and say that if this 
subcommittee has much to do about it I suspect that you are 
going to do pretty well this year for yet another year, because 
certainly our chair is determined, and the big chair, as we 
like to call her, is here and she is pretty determined, and we 
know from experience our counterparts on the other side of the 
Rotunda are pretty determined too.
    So I think it really will get down to whether or not we can 
have a larger deal, if you will, that really, you know, settles 
the budgetary issues across the board. But there is not much 
doubt that this committee believes very strongly on what it has 
done on a bipartisan basis over the last four years and wants 
to continue down that path, and that is because you and your 
colleagues are producing for the American people, and frankly 
for all of humanity, the kind of results that we want to see 
for the investment. We really do think this makes an enormous 
difference in the lives of tens of millions of Americans, and, 
quite frankly, hundreds of millions of people all around the 
world who benefit from the work that you do.
    I want to thank the chair not only for this hearing but for 
her wise decision, I think, to have some others up here so we 
can delve a little more deeply into some of these issues as we 
go forward. I know that that will benefit this committee and 
hopefully benefit your bottom line going forward.
    Last point, you know, I think that we actually had a 
members day hearing just a few days ago, and one of our very 
new colleagues came in to testify, and he happens to represent 
the Mayo Clinic. And he was here to advocate on their behalf 
and continued investments. And he had with him three young 
researchers that just by happenstance happened to be in his 
office to advocate for additional funding for the NIH. And he 
brought them all down here.
    And I remember, Dr. Collins, our very early discussions on 
this a number of years ago. That was, I thought, the most 
critical point you made, the signal we would send if we could 
stay on a sustained course for younger researchers, what that 
would do down the line, and a significant investment would make 
a difference. And there, in front of it, there it was, and they 
were all pretty excited to be here and they all believe very 
much in their mission, and I think they were excited to see 
this committee in a bipartisan way say this is a national 
priority.
    This is something I think Congress, frankly, in general, 
can be proud of, because whether it was in the '90s, in the 
early 2000s, or whether it has been more recently, frankly, the 
Congress has been ahead of the Administrations, whether they 
were Republican and Democrat, and I always say I think it is 
because maybe we are a little bit closer to constituents that 
are dealing with these real, live human problems.
    So we look forward to working together. We thank you, 
frankly, for providing us a national, and really an 
international endeavor that really crosses partisan lines and 
brings us together at a time that we have a lot of partisanship 
and a lot of polarization.
    This is not an area where that has occurred and I think 
that is due to your leadership and your success, and frankly, 
we all hear from constituents and it doesn't matter where they 
are on the political spectrum. I always tell my colleagues, I 
represent a pretty conservative district and I get lots of 
ideas about where I could cut spending. Nobody has ever come to 
me and said, ``Cut biomedical research. I think we can put off 
that cancer cure a little longer. I don't think we really need 
to deal with Alzheimer's.'' This is actually something that the 
American people want us to do. They want us to do this on a 
regular and continual basis, and sort of build it into the 
system so that we have the appropriations muscle memory, if you 
will, to stay at this for a good, long time to come.
    So with that, Madam Chair, again, thank you for the hearing 
and I look forward to working with you on this common endeavor.
    Ms. DeLauro. Thank you very much, and we will work together 
on this effort.
    This is a hearing I think you can hear underlying the 
sentiments of all of us on the subcommittee, on both sides of 
the aisle. It is always an extraordinary hearing. It is about 
the wonder of discovery, and, you know, I don't just say to 
you, you know, I wish, on a day-to-day basis we were engaged 
always on the wonder of discovery. But that is what you do with 
your lives. Where it leads you, how it saves lives, and that 
has to be.
    Yes, sometimes the length of time may be frustrating but 
the outcomes--you know, and I listen to where we might be on 
HIV, and, you know, on a flu vaccine, or where we are in cancer 
research or the kinds of things we can, you know, do to deal 
with what are the health care crises in our country.
    And what that reflects for me is the--which is astonishing, 
what opportunity we all have here, and because we do get to 
make decisions. And that is something that we do. I believe 
this in my heart, that everyone on this committee and those 
where we have served before together, when it comes to the 
biomedical research, that we have a real understanding of the 
broad dimension of its value.
    And when you think about what we can do at the Federal 
level there are some things we do not have control over, where 
we can't, you know, really make the difference. This is the 
area where we can, and I will just say to you that we will. We 
can and we will.
    So the testimony--thank you--is always so overwhelming. So 
many exciting areas and what it is a reflection of. I mean, we 
do know, and you say it very clearly, that we have a long way 
to go in what we are trying to look at. You know, we both 
talked about--we both heard from a community, Congressman Cole 
and myself, about lymphatics and that, you know, you have no 
place to go when you are dealing with this effort.
    So the issues that are around, the issues that it regards, 
you know, we have gone a long way in terms of women's health, 
but what is the difference of pain in opioids and gender? What 
was that about? The PrEP issue and what are the effects of all 
of these efforts? So many explorations.
    You know, the issue is maternal mortality. It is just 
unbelievable, you know. You know, I was at a program in New 
Haven--today is Tuesday. I was there Monday, you know, before I 
got on the train to come down--which was what we did at the 
Federal level of providing $5,300,000 to something called 
Healthy Start, and that, in and of itself, is all about, you 
know, childbirth and counseling and well-being, and addressing 
that issue. You do that from, you know, another vantage point, 
so that we have got to get these things to really connect and 
to meld.
    And I think it is clear, in some of the things that you 
have said, you know, some would say that this is in the realm 
of the private sector. Well, the private sector is not going to 
be able to--nor, in some instances, does it want to. I am not 
going to fault that. But they don't want to go that--but that 
is where you go, and that is what we have to do, and that is 
where we have to go along with you.
    I think you have heard a consensus today. I mean, the 
subcommittee in this area will reject the President's budget. I 
expect that we will work on a bipartisan basis to continue to 
support NIH research this year and going forward. And I know I 
think we all look forward to hearing from the remainder of the 
institutes that have not been able to come and to let us know 
about all of the wonderment of their discoveries, as well.
    So thank you very, very much. We appreciate your time. We 
have gone on for a while, and let me bring this hearing to a 
close.
    Thank you very, very much.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

                                          Wednesday, April 3, 2019.

        DEPARTMENT OF LABOR BUDGET REQUEST FOR FISCAL YEAR 2020

                                WITNESS

HON. ALEXANDER ACOSTA, SECRETARY, U.S. DEPARTMENT OF LABOR

                 Opening Remarks By Chairwoman Delauro

    Ms. DeLauro. The hearing will come to order. Thank you.
    Welcome, Mr. Secretary. Thank you very, very much. Good to 
see you back at this subcommittee.
    This is our fourth budget hearing this year, and today what 
we are looking at is the President's 2020 budget request for 
the Department of Labor.
    I have to acknowledge, for a moment, that you do come 
before the committee under a cloud of controversy regarding the 
Epstein case and questions around the adequacy of your position 
as a Cabinet official. But you are still the Labor Secretary, 
who must answer for the proposed budget, and as such that is 
where I intend to keep my attention today.
    I want to highlight some facts about your budget and the 
agency, where the country looks for worker protection and for 
opportunity. My words may seem harsh, Mr. Secretary, but really 
they are a response to 17 pages of testimony, which I read--I 
read very carefully--that, in my view, were divorced from 
reality and really read like propaganda.
    Past administrations filled nearly 80 percent of senior 
positions, but in the Trump administration it is 54 percent, 
but at the bottom of that list is the Department of Labor, 
along with, I might add, Interior and Justice, which filled 
only 43 percent.
    You have limited corporate liability when franchisees, 
contractors, subcontractors, staffing agencies and the like 
commit wage theft, hurting working people. You have allowed 
child labor in health professions, putting teenagers at risk of 
injury. And overall, since the beginning of the Administration, 
enforcement activities in the workforce have been on a steady 
decline.
    You have blocked electronic reporting, preventing the 
public from knowing detailed workplace injury information. You 
have shortchanged 3 million Americans and workers from getting 
their overtime. You have shuttered the Department of Labor. You 
have weakened protections for construction and shipyard workers 
from beryllium exposure. You have allowed contractors who cheat 
their workers to continue with, quote, ``business as usual.''
    In mine safety, a recent study in the American Journal of 
Public Health found that black lung cases are at a 25-year high 
in Appalachian coal-mining states. That is why the department's 
Office of the Inspector General cited mine operator compliance 
with the respirable coal dust rule in its 2018 top management 
and performance challenges facing the Department of Labor. And 
it alarms me that you would put the coal dust rule up for 
public comment, given the IG's report.
    So my question is, have you shuttered the Department of 
Labor, is the Department of Labor no longer functioning, and 
are you there just for industry to do whatever it wants? And 
that is before we get to this budget.

                        FISCAL YEAR 2020 BUDGET

    The President's fiscal year 2020 budget proposes to cut 
$703,000,000 from Job Corps, that would shutter centers across 
the country; $15,000,000 from re-entry employment opportunities 
that provide employment and training services to youth and 
adults with criminal records; $68,000,000 from the 
International Labor Affairs Bureau, ILAB, the agency that 
investigates labor violations and trade agreements with our 
trading partners and reports on products that are made with 
child or forced labor; $11,000,000 from the Office of 
Disability Employment Policy, which would hurt Americans with 
disabilities.
    The following are eliminated entirely: $400,000,000, the 
Senior Community Service Employment Program, which hurts our 
seniors; $89,000,000 from the migrant and seasonal farmworkers 
job training, which hurts vulnerable working people and their 
families and often people of color; $11,000,000 from the Susan 
Harwood Training Grant that provides training and education on 
safety and health hazards in the workplace, hurting working 
people.
    I provide this information so we all understand the context 
of what is occurring in the Department of Labor. And now let me 
remind you and everyone else of the mission of the Department 
of Labor. Its mission is to, quote, ``foster, promote, and 
develop the welfare of wage-earners, job-seekers, and retirees 
of the United States, improve working conditions, advance 
opportunities for profitable employment, and assure work-
related benefits and rights.''
    And since its inception, this department offered so much 
promise for working people, yet I believe you are seeking to 
shutter it for the working people who rely on the agency to 
protect them and to provide them with opportunity. You are 
taking the agency from enforcement. You are taking away from 
weeding out bad actors to offering bad actors technical 
assistance, taking away from being a tough cop on the beat to 
being an ally of industry.
    That is true of the President's proposed budget cuts to the 
Department of Labor, a 10 percent cut amounting to 
$1,200,000,000. I cited a number of those cuts earlier. Many 
are recycled proposals which we handily rejected last year. I 
expect we will again.
    But--and my colleagues have heard me say this--I believe 
this budget is cruel and reckless. This is an agency that has 
been historically underfunded, and now we are looking at a 10 
percent cut. And you say we can do more with less, but it would 
appear that we are doing less with less, and a lot less with 
less.
    The result is that I believe that the Department of Labor 
has become a shell of an agency. It is a pattern, though, for 
this Administration. This is our last budget hearing, and as I 
look across the different purviews of this subcommittee we have 
seen this play out with for-profit colleges and loan services, 
unregulated, unaccountable, corporate giveaways that hurt the 
young and the old.

                        APPRENTICESHIP PROGRAMS

    Let me take a look at registered apprenticeships, where we 
would expect much more from the Department of Labor and this 
budget. First, you propose to level fund registered 
apprenticeships. It is not in the league with what is happening 
in Europe, in Switzerland, Germany, where as many as half of 
students go through strong, accountable apprenticeship 
programs. It is not in line with that in size or scope or 
accountability. And this Administration would prefer 
unregulated and unaccountable programs and priorities.
    A former staffer at the Department of Labor and the 
Department of Education, who is now with New America, wrote an 
excellent piece in Inside Higher Ed, on the risks of the Trump 
administration's plans to deregulate apprenticeships. She said, 
and I quote, ``Rather than focus its efforts on growing our 
small but high-performing system of registered apprenticeships 
the Administration has opted for building an entirely new 
system of industry-recognized apprenticeship programs, or 
IRAPs. These IRAPs have little to no accountability, much like 
the predatory for-profit colleges.''
    Ms. McCarthy makes that point in her piece, quote, ``The 
Administration is copying the system used to ensure quality in 
the lowest-performing and the most fraud-ridden sector of 
higher education, a system that has repeatedly failed to 
protect student and taxpayers for its new approach to 
apprenticeship, and once Federal dollars are on the line the 
risks and the scale of potential harm increase exponentially.''
    It is not just favoring IRAPs. The Administration is 
undermining the Women in Apprenticeship Program, the Workforce 
Data Quality Initiative, which is supporting, 
quote,``evaluation and research on the effectiveness of 
workforce and education programs.'' Instead, the Administration 
is pushing unregulated, unaccountable programs and policy. In 
every area you are shuttering the Department of Labor.

                        ASSOCIATION HEALTH PLANS

    So, too, with the department's push to expand association 
health plans. These junk health insurance plans can circumvent 
accountability and patient protection like the essential health 
benefits to the detriment of patients. On a macro level, they 
will lead to higher premiums in the individual and small group 
markets. On the micro level, they will mean higher costs for 
Americans who expect their plan to cover basic services, like 
maternity, but may not. It is bad for patients and it is bad 
for families, and it is just another salvo in the 
Administration's political campaign to undermine the Affordable 
Care Act.
    I am not alone in being critical of these plans. The 
Federal courts have stopped key provisions of your rule to 
expand junk plans. On March 28th, a Federal judge, appointed by 
President Bush, said that the Department's interpretation of 
the law, the Employee Retirements Income Security Act of 1974, 
is, quote, ``absurd'' and that the rule authorizing these 
association junk plans, quote, ``does violence to the law.'' 
Does violence. And I believe you are doing violence to the 
agency and its mission writ large.

                      DEPARTMENT OF LABOR MISSION

    I want to quote one of my heroes and the longest-serving 
labor secretary in our nation's history, Frances Perkins. And 
she said, and I quote, ``The people are what matter to 
government and a government should aim to give all the people 
under its jurisdiction the best possible life.'' That is how I 
view the mission of this department, and unfortunately I think 
that this budget request and the litany of rollbacks you have 
undertaken fail miserably in fulfilling that mission. Instead, 
you are hollowing out the Department of Labor. It is a 
fundamental failure to govern.
    We will continue to oppose the cuts you have made, which 
would hurt the young and the old. We will continue to oppose 
the rollbacks you are pushing, which would take the cop off the 
beat and abandon working people to bad-acting corporations. And 
we will continue to oppose your attacks on this storied agency.
    I would normally now turn this over to my colleague and 
ranking member but Congressman Cole is testifying in another 
committee, so, Mr. Secretary, we will go directly to your 
testimony, and as you know, the entire testimony will be made--
will be put into the record, and I yield you five minutes of 
time. Thank you.

                     Testimony of Secretary Acosta

    Secretary Acosta. Madam Chair, thank you very much and 
thank you to all the members of the subcommittee. I appreciate 
the opportunity to appear before you to discuss the budget.
    Let me just make a few preliminary points and then perhaps 
respond to some of the comments that you made in your opening. 
First, I think it is important to acknowledge our economy is 
doing phenomenally well. In the past two years, our economy has 
generated nearly 5 million new jobs, wage growth is finally on 
the rise, increasing about 3.4 percent. Something that is 
talked about less, but I think incredibly important, is wage 
growth among the bottom decile of wage earners is up 6.5 
percent, and unemployment measured in different ways, whether 
it is by race or by other subgroups, for African Americans, for 
Hispanic Americans, for women, have hit historic lows over the 
past year.
    But let me move rather quickly in my opening five minutes 
to respond to some of your comments, Madam Chair.

             DEPARTMENT OF LABOR APPOINTMENT CONFIRMATIONS

    First, you cited that the Department of Labor was at the 
bottom or near the bottom of the list in terms of the number of 
Senate appointees confirmed. Those appointees were selected. 
They were nominated. They have been pending in the Senate 
because of what I think is a historic backlog in the Senate to 
confirm individuals. And so, with respect, I would push back on 
that, and I certainly would encourage you to speak to your 
Senate colleagues who have holds on all of those nominees.

                    DEPARTMENT OF LABOR ENFORCEMENT

    Second, you referenced enforcement being on the decline, 
and in my testimony I presented some information that I would 
like to highlight. The Employee Benefits Security 
Administration recovered more than $1,160,000,000 in 
enforcement dollars. That is a 70 percent increase over the 
prior year. MSHA, Mine Safety and Health Administration, they 
are doing a great job with inspections, and here is where we 
see it. We see it in the results. The number of fatalities in 
mining, despite the growth in mining, the number of fatalities 
in mining in the last fiscal year was the lowest ever, and in 
the calendar year was the second-lowest.
    OSHA, for two years in a row, exceeded 32,000 inspections. 
That is more than they did in 2016. Now, yes, they focused on 
compliance assistance, but compliance assistance and 
enforcement are not mutually exclusive. We should not assume 
that everyone is necessarily a bad actor. We can help those 
that have questions and we can enforce aggressively against the 
bad actors.
    And here is where you see the results in the OSHA space. 
Reversing a multi-year trend, you saw 43 fewer workplace 
fatalities in the past year, and we saw about 40,000 fewer 
workplace injuries. The Office of Federal Contract Compliance 
obtained more than $16,000,000 in monetary recoveries. The 
Office of Labor Management Standards investigated 128 union 
elections, conducted 223 criminal investigations resulting in 
73 convictions.
    The Wage and Hour Division, speaking of whether enforcement 
is on decline or not, collected the most it ever has in its 
history, exceeding $300,000,000 in back wages for 265,000 
workers.
    And so, with respect, I do take issue with that 
perspective.

                            COAL DUST STUDY

    Now, Madam Chair, you referenced the coal dust request for 
information, and, yes, we did put that out and we put that out 
pursuant to a congressional mandate, where the law that was 
adopted by this Congress directed us to study, in the past 
year, the coal dust, to begin a longitudinal study. And so that 
request for information was pursued because of a congressional 
mandate in the law. And so that wasn't because we thought it 
would be a nice thing. It was, because you directed us to do 
that.

                        EXPANDING APPRENTICESHIP

    And finally, you mentioned expanding the registration--or 
the registered apprenticeship program. Let me just say this. 
The registered apprenticeship program is expanding rapidly. In 
the past two years, our economy has generated almost half a 
million registered apprenticeships. What we are looking to do 
is to expand that model to other industries, industries that 
have looked at that registered apprenticeship program and have 
said it is too complicated, it is not right for our industry.
    And so let me just say this. I noticed my time was up. I 
look forward to your questions. I presented a number of facts 
in what I would call a very detailed 17-page set of testimony, 
and I am happy to address them.
    Thank you very much.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. DeLauro. Thank you very, very much, Mr. Secretary. I 
would just say there are facts and there are facts, and it is 
reminiscent to me of reading, the 17-page testimony, of a 
Robert Browning poem that says ``God's in this heaven. All's 
right with the world,'' and that is not the case. All's right 
with the world is not what is happening at the Department of 
Labor today.
    Yes. Now we are going to move to questions here. Thank you.

                             OVERTIME RULE

    Let me start with the overtime rule, if I can. I am 
concerned about the undue influence of outside corporate 
entities on DOL. So let me start with a simple question. What 
are you going to do to demonstrate greater independence from 
the influences of corporate lobbyists and make sure that your 
first priority is to the wage-earners of this country, 
consistent with the mission of the Department of Labor?
    Secretary Acosta. Madam Chair, our priorities are to the 
wage-earners and to the various stakeholders at the Department 
of Labor, including individuals that are retirees. Our goal is 
to have good, safe jobs, and we have talked about that in so 
many contexts. I just talked about our enforcement efforts, our 
wage and hour efforts, record enforcement across the board, 
compliance assistance to help more businesses comply.
    And with respect to the overtime rule, the rule does 
exactly what was discussed, which is it needs to be updated. 
You know, times have changed. It is more expensive to live, 
salaries have gone up----
    Ms. DeLauro. If I might interrupt, because I have got two 
or three questions and we do have a time constraint.
    It is interesting to hear what you say, but Bloomberg 
recently reported that former Bush Wage and Hour Administrator, 
Tammy McCutchen, who often acts as outside counsel for the 
Chamber of Commerce, commented on the possibility of automatic 
salary threshold increases in the proposed overtime rule. And I 
quote, ``I can tell you here today that if the DOL somehow 
ignores us, they will be sued again by the business community 
to challenge their authority to do that. And guess what? We 
will bring it in Texas again.''
    And, my gosh, lo and behold, your proposed rule which would 
strip protections away from more than 3 million workers is 
almost exactly what the Chamber of Commerce told you to do in 
their comments submitted last year. It is a disturbing 
coincidence, and I think it lays out the influence of the 
Chamber of Commerce, which was a factor in your decision-making 
with regard to the overtime rule.
    Let me move to another question.
    Secretary Acosta. May I respond briefly to that?
    Ms. DeLauro. Very, very briefly, because I am limited in 
time.
    Secretary Acosta. The rule is actually almost entirely in 
line with my comments at my confirmation hearing, going back 
two years.
    Ms. DeLauro. Well, it is very--well, maybe you had those 
conversations earlier on with the U.S. Chamber.
    Secretary Acosta. Or maybe that was my perspective.
    Ms. DeLauro. Or maybe it was your perspective, but I think 
it is highly coincidental.

                         APPRENTICESHIP FUNDING

    Let me just--this is very, very quick. In terms of the 
funding of apprenticeships, Congress provided $145,000,000 in 
apprenticeship programs, that said you could use the money only 
for registered apprenticeships. You testified before the Senate 
last year. You confirmed that this money would be used to 
support and expand registered apprenticeship programs.
    Let me ask you this. Did you--and this is yes or no--did 
you use $20,000,000 of this money to award a cooperative 
agreement to support both registered and non-registered 
apprenticeships?
    Secretary Acosta. Registered apprenticeship dollars are not 
going to establish IRAPs.
    Ms. DeLauro. Did you use the $20,000,000 for both 
registered and unregistered apprenticeships?
    Secretary Acosta. All the money that was designated for 
registered apprenticeships is going to support registered 
apprenticeship programs and not to establish IRAPs.
    Ms. DeLauro. Well, listen. It just says here--in the notice 
you stated the Employment and Training Administration intends 
to award a cooperative agreement to the American Association of 
Community Colleges to create the AACC virtual apprenticeship 
network to provide resources to America's community colleges 
employers to create and conduct more high-quality, affordable, 
inclusive, flexible, and industry-relevant registered and/or 
industry-recognized apprenticeship programs in service to 
industries and companies across the nation.
    That is an unregistered, and it is in violation of what we 
said that the money should be used for, and what you, in an 
exchange with Congresswoman--with Senator Murray, said that the 
money was not going for that effort.

                          JOINT EMPLOYER RULE

    I am going to beg the indulgence of the committee because I 
will go to the Budget Committee shortly. I want to ask a 
question about joint employer, if I can. Help me understand how 
your proposed rule on joint employer might add the department--
which I might add, I think the department failed to calculate 
any regulatory savings from the joint employer rule, and how 
this would work.
    Say that you have workers who are on a loading dock. They 
are in a distribution center and are employees of a staffing 
agency. The staffing agency hired by the company--let's say the 
Acme Corporation--sets the timing, the work standards, hours, 
pay for the distribution center--but does not directly pay the 
workers or keep payroll records itself.
    If Acme compensates the staffing agency in a way that leads 
the staffing agency to violate wage theft rules, thus shorts 
its workers 10 hours of work each week, under your proposed 
joint employer rule who is liable for the stolen wages? Who is 
on the hook for the wage theft in this scenario?
    Secretary Acosta. Madam Chair, as you are aware, the rule 
is a proposed rule and it is not appropriate to address 
hypotheticals. But let me say this. The rule adopts the 
plurality position as a general matter of the courts of 
appeals, decisions that for decades have interpreted----
    Ms. DeLauro. It is my understanding that it would be only 
the staffing agency, under your proposed rule, who would be 
liable for the back wages. It doesn't make any sense. But your 
testimony makes it clear. This rule is about benefitting big 
corporations and not working people. We are in a workspace 
today where corporations increasingly outsource activities and 
services to contractors, subcontractors, franchisees or the 
like, and your proposed rule would move us in the wrong 
direction. As a matter of fact, it would exacerbate that race 
to the bottom, and that lets companies off the hook and 
transfers all of the liability to workers.
    And I have gone over my time and let me recognize 
Congressman Harris.

                                  H-2B

    Mr. Harris. Thank you very much, Madam Chair, and thank 
you, Mr. Secretary, for being here with us today. I want to 
thank the Administration, first of all, for making significant 
headway on the H2-B issue, doubling the number of additional 
visas to 30,000 from last year's 15,000. Still a little ways 
you all can go, because I know the DOL certified more, you 
know, more than those. So I am hoping it can go even further 
from that, and I hope that we turn these around pretty quickly.

                    ASSOCIATION HEALTH PLAN COVERAGE

    Anyway, let me talk a little bit about association health 
plans, because there is an interesting Gallup survey published 
April 1st, and this was not an April Fool's survey. It says 
that 55 percent of Americans worry a great deal about health 
care and the cost, and that number was 56 percent in 2010, the 
year Obamacare, which was supposed to solve all of our 
problems, was passed.
    So an identical number of Americans actually still worry 
about the cost of health care. So Obamacare did nothing to 
relieve America's fears about the cost of health care. But I 
think that those of us who believe that association health 
plans do offer a lower-cost method--as I walk through this--so 
the way the department structured it, they basically are 
subject to the same rules that other ERISA plans are. Is that 
right? Because you recategorized what an organization would be 
for the purpose of ERISA.
    Secretary Acosta. That is correct.
    Mr. Harris. And how many millions of people are covered 
under ERISA plans in this country now, these junk plans? 
Because that is what they were referred to, I think, just a few 
minutes ago, as junk plans.
    Secretary Acosta. Every employee of any corporation with 
more than 50 employees.
    Mr. Harris. Sure. So I imagine, when I was employed at 
Johns Hopkins, their plan was an ERISA plan, so I guess they 
just gave me junk insurance. I just didn't realize it was junk 
insurance at the time, but I guess it was junk insurance.
    And how do you justify that with--that figure with the fact 
that despite the fact that there are a lot of Democrats calling 
for Medicare for All and eliminating private insurance, that, 
in fact, Americans are pretty satisfied with private insurance. 
So I imagine association health plans would be categorized 
under private insurance. Is that right?
    Secretary Acosta. They would, and the Congressional Budget 
Office estimated that an additional 400,000 Americans would 
receive coverage under AHPs.
    Mr. Harris. Right. And I imagine most ERISA plans are 
actually more generous than some of the Obamacare plans that 
have, you know, $6,500 deductibles, high co-pays, things like 
this. Because, in fact, more than three out of four Americans 
worry that a significant--first of all, they think they pay too 
much for a plan, and I think anything that can be done to lower 
costs, like pooling risks in association health plans is a good 
idea--and 45 percent of Americans--again, the same Gallup 
survey--fear that bankruptcy with any major health event. So 
actually, having a policy that might actually have greater 
coverage than the average policy might actually relieve some of 
those fears.

                 ADVANTAGES OF ASSOCIATION HEALTH PLANS

    So what do you think the result is going to be of the 
availability of association health plans across the nation?
    Secretary Acosta. Well, first, Congressman, let me say, as 
we have said publicly, we disagree with the district court's 
ruling and are working with the Department of Justice to 
consider all available options, including potentially a stay 
and potentially appeal. Obviously, the ultimate decision will 
be up to the Department of Justice on that.
    More generally, I would like to note that the Washington 
Post, twice, after the association health plans started rolling 
out, after they were put in place, in fact, ran articles, and I 
am happy to provide the committee with these. The headlines 
were to the effect of experts hated these plans, dash-dash-
dash, they were wrong. And both Washington Post articles talked 
about how under association health plans what was being offered 
were quality plans, because ultimately what association health 
plans did and do is say small businesses can band together and 
play by the same rules as every large corporation. And so a 
small business can play by the same rules as IBM, but they 
simply have the economy of scale and the numbers to get the 
rates that IBM has access to.
    And so I think it is significant that once the plans were 
implemented the concerns that were theoretical and hypothetical 
were not, in fact, true.
    Mr. Harris. Sure. And correct me if I am wrong. Union plans 
are also--it is in the same category?
    Secretary Acosta. Yes, it is.
    Mr. Harris. So the union plans, in general, are not subject 
to ACA requirements for essential health benefits?
    Secretary Acosta. Association plans could be thought of as 
a union of small businesses.
    Mr. Harris. Sure. So are the union plans junk plans too? I 
don't know. But, I mean, the union members I have, they would 
go to the mat to preserve their plans, so I don't understand 
that.
    Anyway, I would move, Madam Chair, without objection, that 
those two articles be entered into the record.
    Ms. DeLauro. So ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Harris. Thank you, and I yield back.
    Ms. DeLauro. Congressman Pocan.
    Mr. Pocan. Thank you, Madam Chair, and thank you, Mr. 
Secretary, for being here.
    So from listening to the questions with Ms. DeLauro I know 
you don't like yes-or-no ones and you don't want hypotheticals 
so I will do my best to do neither.

                              MINIMUM WAGE

    But if I can, let me just take it kind of at a 30,000-foot 
level of being the Secretary of Labor. You know, you said that 
the economy is doing phenomenally well, and I think for far too 
many people it is not doing phenomenally well, especially those 
making minimum wage.
    In the biggest city in my district, Madison, Wisconsin, you 
have to work 92 hours a week in order to, at minimum wage, in 
order to be able to afford an average two-bedroom apartment, 
and that would seem crazy, I think, to pretty much everyone you 
offer that to. One in nine workers earn a wage too lot to keep 
their family out of poverty. The minimum wage has less 
purchasing power than it did in the '60s, and we know that it 
hasn't been raised for a decade.
    And I don't know if you know this or not but what the 
minimum wage would be today if it kept up with the rate of 
worker productivity, but it is about $19 an hour if we actually 
were at that.
    So I know you have said that you were opposing raising the 
minimum wage because it would hurt job creation, but at $7.25 
per hour, 10 years not increasing it, having to work 92 hours a 
week to afford a two-bedroom apartment in Madison, Wisconsin, 
can you talk to me a little bit about that statement please?
    Secretary Acosta. Sure, Congressman. First, let me say, in 
29 states the minimum wage is above the federal minimum wage, 
and we are seeing more states increase it above the federal 
minimum wage. And I think that is an acknowledgement that 
different states, and even different cities, in some cases, 
that have higher minimum wages have different wage structures.
    As a percentage of our working wage-earning population are 
hourly workers, depending which measure you use, between 0.5 
percent and 2.5 percent of Americans are at minimum wage. I 
understand your question because I pointed out that the bottom 
decile is seeing wage growth much more quickly. But, you know, 
it is interesting, because the Washington Post----
    Mr. Pocan. Actually, if I can, just because I do want to 
get to a couple of subjects----
    Secretary Acosta. Sure.
    Mr. Pocan [continuing]. And I guess what I am trying to 
get, very specifically, so are you saying--are you arguing 
there shouldn't be a federal minimum wage, period, that it 
should be just left up to states?
    Secretary Acosta. Not at all.
    Mr. Pocan. Okay.
    Secretary Acosta. The point that I am arguing is--and the 
Washington Post, the editorial board at the Washington Post----
    Mr. Pocan. I am more interested in your opinion than the 
Washington Post.
    Secretary Acosta [continuing]. Made the same point.
    Mr. Pocan. I can read the Washington Post outside of my 
five minutes.
    Secretary Acosta. Sure. Sure. But it is the same 
perspective, which is 29 states have a higher wage level. The 
question is, should those 29 states impose their wage structure 
on the 21 states that have chosen not to increase the minimum 
wage because they have a lower wage and cost structure? And at 
this point, for those 21 states that have chosen not to 
increase the minimum wage----
    Mr. Pocan. Sure.
    Secretary Acosta [continuing]. That very possibly could and 
would cost jobs, and that was the point the editorial board 
made just this week.

                    IMPACT OF MINIMUM WAGE INCREASES

    Mr. Pocan. Okay. I can just tell you, every time we have 
increased minimum wage in Wisconsin, and I was in the state 
legislature for 14 years, more people entered the workforce. It 
has had a positive impact. I have been a small business owner 
for 31 years. The reality is I think it is important that 
someone would have to work 92 hours a week on minimum wage, and 
that is one of the nine people living--working minimum wage in 
poverty. It is not working out.

                   IMPACT OF NEW JOINT EMPLOYER RULE

    Let me ask you a very specific question, following up on 
Ms. DeLauro's question on joint employer. What really got me 
was during the last administration, when we sat down with the 
Wage and Hourly Division head, we know there has always been 
about 30 million people who are independent contractors in like 
five industries, including logistics and the trades and some 
other areas. But we were told they think right now it is like 
70 million people who are probably independent contractors, 
which I think you and I both know is probably impossible to be 
true.
    To me, that is a huge problem because that means often they 
are not getting any retirement benefits, health benefits. In 
some cases, they do. In most cases, they don't. And we had a 
joint employer rule, I think, that was trying to go after that. 
It got taken down by this Administration. I would argue the 
rule that is put out there now is quite weak.
    But can you address that? I am really concerned by 70 
million people who are independent contractors when you and I 
both know that is probably largely due--or at least I would 
like to know if you think it is--to misclassification?
    Secretary Acosta. Gladly, Congressman. First, there were 
two guidance documents that went out under the prior 
administration, one having to do with joint employers and 
another one having to do with independent contractors. And so 
the joint employer guidance document and our joint employer 
rule addresses those situations where you have two businesses 
that are employing individuals, and where the business, 
Business A----
    Mr. Pocan. Thank you. I gotcha.
    Secretary Acosta [continuing]. Would be liable----
    Mr. Pocan. If could just--because we only have 18 seconds. 
I am really curious. I am very curious about your thoughts on 
this 70 million number, because to me that is alarming and we 
are going to have problems.

          ASSOCIATION HEALTH PLANS FOR INDEPENDENT CONTRACTORS

    Secretary Acosta. Congressman, I agree entirely, and if I 
could pivot to the association health plans, an important part 
of that rule was to provide the ability of individuals who are 
self-employed, who are independent contractors, to have access 
to group health care. Because there are a number of individuals 
that are independent contractors who don't have access, under 
ERISA, to many of the traditional benefits of employment, and 
part of the purpose of the association health plans was to say 
``you are an independent contractor.''

              MISCLASSIFICATION UNDER JOINT EMPLOYER RULE

    Mr. Pocan. If I can, just because--if I could have 10 
seconds to say, I wanted to get to not so much this, but I 
really, honestly am curious. Do you think there is a lot of 
misclassification going on when you have 70 million people, and 
can we do something to address that, because I think that is 
the problem I am worried about?
    Secretary Acosta. Misclassification is absolutely, and it 
is true, as well as benefits, which is why association 
retirement plans, where association health care plans can help 
individual contractors, because you are an employer and----
    Mr. Pocan. You just got a note that might actually address 
my question. If you want to take a quick look at that I would 
really appreciate it.
    Secretary Acosta. So if I am allowed to go over time----
    Ms. DeLauro. Go ahead.
    Secretary Acosta [continuing]. So the note that I had was a 
particular case that is worth mentioning----
    Mr. Pocan. I appreciate it.
    Secretary Acosta [continuing]. Where a company was 
employing individuals to clean a building, and, in essence, 
said that every floor is a separate franchise.
    Mr. Pocan. Gotcha.
    Secretary Acosta. And we went after that company because we 
said that is really not a franchise. That is an employee. And 
don't tell us that every floor is separate franchise.
    And so the point was it does exist. Where it exists in the 
guise of let's try to, you know, play with the rules, I am 
happy to enforce and enforce aggressively.
    Mr. Pocan. I appreciate it. Thank you very much.
    Ms. DeLauro. Thank you. I wanted to say to Congresswoman 
Herrera Beutler, if you give me a second you can have extra 
time here. There are just a couple of things here to clear the 
record, if I can.

                              WAGE GROWTH

    In your testimony, Mr. Secretary, you say, on page 2, that 
``wage growth at the lowest decile earners is currently at 
approximately 6.5 percent.'' I don't know where you got the 
number from but it appears that the figure excludes part-time 
workers and hourly earnings. When you look at real wage growth, 
between 2017 and 2018, it is only 0.5 percent for workers at 
the 10th percentile, according to analysis by the Economic 
Policy Institute. In addition to association health care plans, 
these are the services that are eliminated: emergency services, 
mental health, maternity, prescriptions, and pediatric 
services.
    Congresswoman Herrera Beutler.

                     FMLA COVERAGE FOR ORGAN DONORS

    Ms. Herrera Beutler. Thank you so much, Madam Chair, and 
thank you, Mr. Secretary, for being here. I wanted to start by 
saying a big thank you. Last year I led a bipartisan effort in 
this committee to urge your department to clarify coverage for 
living organ donors under the Family Medical Leave Act. And we 
had been working on this for a while as part of legislation. 
This impacts people all over the country, from all income 
levels, all races, all backgrounds.
    And I wanted to say thank you so much for heeding that call 
and your leadership. Your department released a legal opinion 
saying that individuals that choose to donate an organ are 
covered, in fact, by FMLA, and should not have to fear losing 
their jobs.
    So your commitment is helping to remove those barriers to 
people for living organ donation, and this is a significant 
step forward for helping people, thousands and thousands of 
people, get off of dialysis, or move into really a better 
quality of life, one that is both cost-saving and life-saving. 
So thank you so much for your diligence on that.
    Secretary Acosta. Congresswoman, thank you for bringing it 
to our attention. You know, this is an example of where 
compliance assistance works, where bringing back opinion 
letters work, because we were able to address that through an 
opinion letter. And I want to thank you also for bringing it to 
our attention because it really focused us on issues around 
FMLA.
    And so the American Association of Kidney Patients visited 
last week to say thank you, because one of the impediments--
they had individuals that were prepared to donate kidneys and 
were being told that the FMLA did not cover the donation 
operation because that wasn't--they weren't sick. They were 
donating an organ. And that is just the wrong----
    Ms. Herrera Beutler. They consider it elective.
    Secretary Acosta [continuing]. That is just the wrong 
interpretation of the FMLA. That is not what it was about.
    And as a result of this we have actually looked at a number 
of other issues around the FMLA. One of them was the question 
of whether an employer--if someone needs to take medical leave, 
whether the employer can say, ``Yes, but not this week. Why 
don't you take it next month or in three months when we have 
got less of a demand?'' And in our position, in another opinion 
letter, it was no. When you need to take medical leave you need 
to take medical leave and the employer cannot dictate the time 
at which you take that leave.
    So thank you for pointing us in that direction. Those were 
very important.
    Ms. Herrera Beutler. Well, we appreciate your movement on 
it because I think it is--it is how we read the law. But 
sometimes it just takes someone enforcing and getting into it, 
so we appreciate it.

                           CHANCE IN TECH ACT

    A little pivot to tech training. Southwest Washington, my 
home, is obviously--we are growing--I would like to say we are 
growing silicon forests, but in terms of technology growth it 
has been a regional priority. And there are a lot of technology 
companies who specialize in producing lasers and all sorts of 
things that I--I won't say that I am learning because I am more 
in awe of them. They are on a different level than I am. But it 
is really important to every area of our economy and our 
security.
    The rest of the country is seeing a similar boom and a 
demand for tech jobs, and a bill I am co-leading, the Chance in 
Tech Act, proposes to have DOL enter into contracts with 
intermediaries, like the Washington Technology Association, to 
help expand access to tech apprenticeships and training, and I 
wanted to see if you could elaborate on what DOL is doing to 
help expand those opportunities for people to obtain tech 
training and apprenticeships for, really, what the demand it.
    Secretary Acosta. Well, Congresswoman, thank you, and that 
is the exact example of why industry-recognized apprenticeships 
are so important, because it is important for businesses to 
come together through third-party intermediaries and 
associations to offer apprenticeships at a scale. It is 
expensive to put together the curriculum. It is expensive to 
offer these.
    And those associations, working in conjunction with 
community colleges and other groups, really are the right 
level. And if one was to look at Europe, that is how they are 
offered in Europe. They are offered through partnerships 
between educational associations and industry associations, and 
that is how it has worked well across the globe.
    Ms. Herrera Beutler. And I think they are able to really 
tailor to regions and communities more specifically than a one-
size-fits-all that is a big national stamp----
    Secretary Acosta. That is right.
    Ms. Herrera Beutler [continuing]. Which is exactly what we 
need.

                         H-2A VISA APPLICATIONS

    I have one more quickie, again switching--I was going to 
mention AHPs, but I wanted to ask a quick--it is a farm labor 
question. The Office--and this is, obviously, from my tree 
fruit growers--the Office of Labor Certification will process 
as many as 300,000 jobs this year under the H-2A temporary ag 
worker program. Given that the funding has languished for the 
program, and a one-time appropriation has lapsed as the 
program's utility has skyrocketed, how or what can DOL do to 
help ensure these farmers and ranchers--that their applications 
for these temporary workers and job certifications will 
actually get processed?
    Secretary Acosta. Well, Congresswoman, this is an area 
where we are working diligently to process these applications 
as quickly as possible, but where this committee can help as 
well. For at least one, maybe two years now, we have asked for 
a fee, and the fee would be dedicated to updating our 
processing system.
    I understand that Congress does not like to have a fee in 
perpetuity, and so even if there were a fee for a few years, so 
that we can update the computer systems--the computer systems, 
I can't remember off the top of my head, but I believe they are 
at least--they date back to '08 or '09. They are phenomenally--
I am sorry. They date back to 2009, and these really can and 
should be updated. No private sector business would have a 2009 
computer system processing the kind of load that we are today.
    And so a fee that would be dedicated entirely to updating 
the system and to integrating it with DHS and State, because 
right now folks will send it to us and we actually are putting 
things in the mail sometimes, that they have to fill that out 
and then mail it to DHS. This is not the way we should be 
operating.
    Ms. Herrera Beutler. Okay. Thank you. Thank you, Madam 
Chair.
    Ms. DeLauro. Thank you.

                 Opening Remarks by Ranking Member Cole

    Let me now recognize the ranking member of the committee, 
Congressman Cole, for any opening remarks and questions he 
wants to make.
    Mr. Cole. Well, first of all I want to thank the chair and 
please accept my apology, and I apologize to the Secretary and 
to everybody on the committee. I had a bill in another 
committee that I have been working on nine years, and it is 
finally getting heard, so I sort of needed to be there. But I 
appreciate that.

                     FISCAL YEAR 2020 BUDGET LEVELS

    Mr. Secretary, I was going to start out by saying I was 
looking forward to your testimony, but I know you have already 
given it. But I did have the opportunity to read it last night. 
And I know that your agency, like many others, is proposing a 
sizeable cut for next year, and frankly we all understand why. 
You are living under the Budget Control Act and some of these 
cuts are effectively mandated by that.
    Hopefully, in time, we will have an agreement between the 
Administration and the Senate and the House and we will come up 
with some way to do that, but I think you clearly are doing the 
right thing by operating within the monies that are available. 
But, again, we hope we can do a little bit better for you than 
your own budget would suggest that you need.
    I was particularly pleased, though, to see despite the 
tight budget you proposed level funding for the apprenticeship 
program. I will have some questions for you about that a little 
bit later today and how that program is operating.
    I was also pleased to see increases proposed for Veterans 
Employment and Training Services. Our veterans have so much to 
offer employers and to contribute to our economy. And I am also 
glad to see your proposal related to the course curriculum 
development for military spouses transitioning with their 
servicemember. Anything we can do to ease this transition, in 
terms of making certifications and licensure transfers across 
state lines more easily will reduce stress on families of 
service men and women. I understand that you are also 
continuing a pilot, a veterans apprenticeship program, and I 
hope that effort is going well.
    I am sure you will understand I was disappointed to see 
that the budget proposes to eliminate the Indian and Native 
American Training Program within the Employment and Training 
Administration. As you know, the unemployment rate and lack of 
job opportunities in Indian country is extraordinarily high, so 
I don't think it makes sense to eliminate a rather small 
funding stream dedicated--and I hope we come to agreement. 
Maybe that is an issue that we can revisit.

                          CHANGES TO JOB CORPS

    Finally, I will have some questions for you and your 
proposals to change Job Corps program. While I support making 
the program operate more effectively, again, operating within 
your budget you have proposed some pretty aggressive steps and 
I want to proceed very cautiously to ensure that the program 
can continue to be successful with such big changes. I frankly 
suspect I am the only person on this panel that has lived 
through the closure of a Job Corps Center in his district, and 
that was a sort of traumatic experience, so I would hope my 
colleagues and their constituents can be spared that.
    Again, Madam Chair, thank you very, very much for your 
indulgence, and I yield back.
    Ms. DeLauro. Does the gentleman want to ask a question at 
this juncture?
    Mr. Cole. If you don't mind. I can do whatever you want.
    Ms. DeLauro. No, please go ahead.
    Mr. Cole. I mean, I sort of got here----
    Ms. DeLauro. Please go ahead. You didn't get a chance to do 
that, and then we will move forward.
    Mr. Cole. Please. Go ahead and I will ask my questions in 
turn.
    Ms. DeLauro. Go ahead.
    Mr. Cole. All right. Very kind. I appreciate that. I will 
try to keep them short.

                        RULE ON JOINT EMPLOYMENT

    I wanted to talk to you about an area that you have made 
some, I think, very impressive changes in. I am pleased to see 
a proposed rule on joint employment this week. The joint 
employer policy of the previous Administration would have made 
businesses liable for the actions of their business partners, 
even when they do not have direct control over their operations 
or employment actions.
    Issues caused great uncertainty, created unnecessary costs 
for law-abiding small businesses in all industries, and 
particularly, I think, is counterproductive in that quite often 
these small business owners are entrepreneurs, they are leaders 
in their community. This really is a pathway where this 
country, through the franchising system in particular, has 
provided opportunities across the board to people who would not 
have otherwise had them. So it caused me, again, a great deal 
of pleasure to see your department moving in this area.
    Could you tell us how your rulemaking will simplify, 
hopefully, the task for job creators and their workers?
    Secretary Acosta. Congressman, thank you, and the matter is 
a proposed rule and so I can certainly describe it in general 
terms.
    We rescinded the prior guidance but when I rescinded it I 
said it is very important that any changes proceed through a 
rulemaking. So what the rule does is it looks at the various 
court decisions on this, and they varied by circuit. And, in 
essence, we are adopting the plurality perspective as a general 
matter, and this perspective has been the perspective of courts 
for a long, long time.
    And so this will provide stability, it will provide 
clarity. It is important for employers to know when they are 
liable and when they are not liable, and what actions are 
appropriate for them to take, and what would cross the line and 
make them liable for another employer's employees. And so that 
clarity and that certainty is something that is incredibly 
important.
    Mr. Cole. Well, thank you again very much, and I will be 
looking forward to seeing how this works going forward. But 
again, I think you are to be commended for your department's 
action.

                 OFFICE OF DISABILITY EMPLOYMENT POLICY

    Secretary, I appreciate, again, in your comments and your 
written testimony about the work that your agency and the 
Office of Disability Employment Policy is doing to help 
Americans with disabilities succeed in the workplaces. Despite 
many strides that have been made, barriers to entry into the 
job market for people with disabilities remain high. The lower 
employment rates for people with disability is due, in part, to 
discrimination, and in part to the way our entitlement programs 
create disincentives to work. For example, many young people 
with disabilities want to work but the reality of losing 
essential federal benefits and medical coverage should they 
lose their job creates an insurmountable barrier for many of 
them.
    Has DOL collaborated with the Social Security 
Administration and the Centers for Medicare and Medicaid 
Services to determine ways that we can encourage work by 
allowing people to retain a meaningful level of assets and 
health insurance coverage? And again, I realize three large 
bureaucracies talking to one another and coordinating waivers 
is no small task, but we certainly owe it to our citizens to 
encourage cross-agency collaboration and not simply work in 
agency silos. Would you be willing to do that kind of outreach?
    Secretary Acosta. We would certainly be willing. This is an 
incredibly important area, particularly in light of all the 
technological advances that we have seen. We are, today, better 
positioned than ever before to fully integrate individuals with 
disabilities into the workplace.

                  OCCUPATIONAL LICENSING REQUIREMENTS

    Mr. Cole. That is great. And let me just end with--I want 
to ask you again, we hear often about the arcane hurdles that 
exist in occupational licensing requirements, particularly when 
someone is licensed in one state and maybe not be able to use 
in another without being relicensed. State requirements, of 
course, differ.
    What is the Department of Labor doing to address 
occupational licensing requirements that create artificial 
barriers in the workforce, particularly those that affect 
military families?
    Secretary Acosta. Congressman, this is such an important 
issue. It used to be that about 1 in 20 individuals needed a 
license to work. Now nearly 1 in--actually, more than 1 in 4, 
nearly 1 in 3 individuals need a license to work.
    I was in one state where the license to install fire alarms 
cost more than the license to join the bar, and not only do you 
ask the why, but why are we putting such high fees on 
individuals that may not be able to afford them?
    Recently I had the opportunity to speak to governors, and I 
asked them to--you know, it is incredibly difficult to change 
this because it is such a state-by-state issue. But let's start 
on something where I hope everyone can agree, and that is 
military spouses. We ask military servicemembers to move from 
state to state, and they are moving on orders, not by choice 
but they are moving on orders. And their spouses are given a--
just a wrong decision to make, a decision they shouldn't have 
to do. Do we maintain the integrity of the family unit or do we 
keep a career?
    And if you talk to military spouses, spouse after spouse 
will tell you that they cannot maintain a career because if you 
are in a state for two years, by the time you meet the 
requirements and get your license you are moving to another 
state. And I will provide one example. A woman in California 
moved to Florida was told that even though diet advice was 
being given to California clients using a California license 
over the internet, she could not do that because she was not 
licensed in Florida. That is just one example under thousands.
    Mr. Cole. Thank you very much. My time is more than 
expired. Thank you very much, Madam Chair.
    Ms. DeLauro. Thank you.
    Congresswoman Clark.
    Ms. Clark. Thank you, Madam Chair. Thank you for joining 
us, Secretary Acosta.

                   INTERNATIONAL LABOR AFFAIRS BUREAU

    The Department of Labor is a member of the interagency task 
force to monitor and combat trafficking in persons. Is that 
correct?
    Secretary Acosta. Yes.
    Ms. Clark. In fact, the International Labor Affairs Bureau, 
ILAB, within the Department of Labor, is responsible for 
combating exploitive child labor, forced labor, and human 
trafficking. Is that correct?
    Secretary Acosta. That is correct.
    Ms. Clark. So it is fair to say the Department of Labor 
plays a very active role in combating human trafficking, and 
the problem is a large one.
    Secretary Acosta. The problem is a large one. When the 
Department of Labor recently issued a report, and it actually 
detailed 1,700 recommendations that could be looked at around 
the world to address this. It also----
    Ms. Clark. That is excellent, and I know that there are 
hundreds of thousands of adults and children who are victims of 
sex and labor trafficking in the U.S. Glad you are looking at, 
glad you have detailed a comprehensive strategy.
    But you have also proposed a budget cut of almost 80 
percent--79 percent to ILAB, where this work is done, bringing 
its budget from $68,000,000 to just $18,500,000.
    I am sure you have come prepared to justify this cut to us, 
but it does not go unnoticed. This is not the first time that 
you have ignored human trafficking.

                           HUMAN TRAFFICKING

    When you were the U.S. attorney for the Southern District 
of Florida, your office investigated Jeffrey Epstein, and 
found--your office found that there had been a sexual abuse 
pyramid scheme that involved at least 36 underage girls, 
ranging from age 14 to 17. This is horrifying and sick stuff.
    Mr. Epstein raped and assaulted these girls. He recruited 
them out of shopping malls. He had employees that helped with 
this. And then he invited his friends to do the same, and there 
is evidence that he transported these girls among his mansions 
throughout the United States and abroad.
    Epstein and his friends destroyed these girls' lives. 
Senator Ben Sasse called Mr. Epstein a monster. Would you say 
that is a fair characterization?
    Secretary Acosta. He engaged in vile crimes, yes.
    Ms. Clark. You are a law professor, besides many of your 
other jobs that you have had, and I am sure you know there is 
no such thing as child prostitution under Federal law, only 
child sex trafficking, and each offense, under 18 U.S.C. 1591 
carries a sentence ranging from 10 years to life in prison. So, 
logically, Mr. Epstein, with the investigation of the Federal 
U.S. Attorney's Office, should have been looking at a potential 
sentence of 360 years, at a minimum.
    But that is not what happened, because there was a power 
dynamic here, wasn't there? We had teenage girls with no power, 
who were rape and sexual assault victims, and we had Mr. 
Epstein and his friends, extremely powerful, wealthy, and 
connected people.
    And in a ruling on February 21st of 2019, Judge Marra found 
you illegally entered a non-prosecution agreement that allowed 
Mr. Epstein to serve just 13 months in county jail, where he 
received 12 hours a day on work release, six days out of the 
week. The judge found you broke the law, Secretary Acosta, when 
you chose not to tell the victims about this deal, and that you 
gave them the impression that this investigation was ongoing.
    And do you disagree with any of the facts that were found 
in the opinion that Judge Marra issued?
    Secretary Acosta. Congresswoman, first, let me say that the 
Southern District of Florida has prosecuted sex trafficking 
aggressively in the past and it is an incredibly important 
issue, and it is something that needs to be aggressively 
pursued.
    Turning to the----
    Ms. Clark. Do you disagree----
    Secretary Acosta [continuing]. Turning to the----
    Ms. Clark [continuing]. No, I get to ask the questions 
here. Do you disagree with any of the facts as presented in the 
opinion of Judge Marra?
    Secretary Acosta. The Department of Justice, I think 
rightly so, for the past 12 years, has defended the actions----
    Ms. Clark. That is a yes-or-no question. I ask unanimous 
consent to submit the opinion.
    Ms. DeLauro. So ordered.
    [The information follows:]

    This question is similar in form or substance to questions 
that are the subject of ongoing litigation. It is, thus, 
appropriate to defer responses at this time. I commit to 
revisit this decision at the conclusion of litigation upon 
receipt of a request from this subcommittee.

    Ms. Clark. The hideous truth has come out. You chose 
wealthy and well-connected people, child rapists, over the 
victims in this case. If you, as U.S. attorney, as a 
prosecutor, where your job is to pursue justice, could not 
fight for these girls, how, as Secretary of Labor, can you tell 
this panel and the American people that you can responsibly 
oversee this budget, the Department of Labor, including human 
trafficking?
    [Pause.]
    Ms. Clark. Is there no answer?
    Secretary Acosta. Is that a question?
    Ms. Clark. That was a question.
    Secretary Acosta. So as I was saying, the Department of 
Justice, for the past 12 years, has defended the actions of the 
office in this case. The facts in this case were presented to a 
grand jury that initially recommended--not initially--that 
actually recommended a charge that would have carried no jail 
time at all. And at the end of----
    Ms. Clark. Do you regret making this deal in secret?
    Secretary Acosta [continuing]. And at the end of the day--
--
    Ms. Clark. Do you regret making this deal in secret?
    Secretary Acosta. Congresswoman, if I could finish--at the 
end of the day, Mr. Epstein went to jail. Epstein was 
incarcerated. He registered as a sex offender. The world was 
put on notice that he was a sex offender, and the victims 
received restitution.
    Ms. Clark. Thirteen months in county jail, 12 hours a day 
work release. You consider that justice for the devastation----
    Secretary Acosta. Congresswoman----
    Ms. Clark [continuing]. Of these girls?
    Ms. DeLauro. Congressman Moolenaar.

                             H2-B VISA CAP

    Mr. Moolenaar. Thank you, Madam Chair. Mr. Secretary, thank 
you for being here. And I wonder if I could talk with you a 
little bit about the rule of the H2-B visa and the importance 
of that in my home state of Michigan. And, first of all, I want 
to say your comments earlier about the economy I think are spot 
on. I see that happening in Michigan, where the economy is 
growing and people are, you know, under 4 percent unemployment, 
and, you know, there are help wanted signs everywhere.
    One of the challenges we have, and you may be familiar with 
in this area, in Northern Michigan it is a great area for 
tourism, especially in the summertime. You have got places like 
Mackinac Island, which is kind of a unique place.
    And I have heard, over the last few years, from, you know, 
business owners and hotels, restaurants, bars on Mackinac 
Island about the importance of the H2-B visas. And just to give 
you some statistics, in the 2010 census, the island was noted 
to have a year-round population of 492 people, so it has a 
pretty small population. During the summertime, that population 
swells as businesses hire short-term employees to accommodate 
as many as 15,000 visitors per day. So it is a very intensive 
summertime tourism. And these businesses provide excellent 
service but they really struggle. You know, they try and find 
local employees, but they aren't available, and then 
seasonally, they are able to find employees, but it is through 
the H2-B visas.
    In the past few years there have been businesses that 
didn't even open or had to severely restrict their operation. I 
want to thank you and Secretary Nielsen for this additional 
30,000 that was recently announced. I think that goes a long 
ways.
    I guess my question is, as you look at and forecast the 
needs going forward, if that still is not enough to meet the 
need throughout the United States, is there a process, short 
of, you know, evaluating it months from now, where places like 
this that are really starting to be in full swing now, and if 
they don't have the employees they just can't make it, is there 
a way to do kind of a mid-course evaluation as to whether we 
have enough now or whether we need to go higher in the cap?
    Secretary Acosta. Congressman, the reality is because, 
initially, we would have to write a rule to further increase 
the cap, and because after that rule there would have to be a 
recruitment period, simply by operation of law, that is highly 
unrealistic. I think the solution here, and it is a solution we 
have encouraged Congress to look at, is to look at this visa 
system. For the last two years, rather than come to a decision 
as to what the right number is, Congress has simply chosen not 
to act, and it is something that really needs to be looked at. 
And I think it is not just the cap but it is what is truly a 
seasonal visa? What is a seasonal job? Is an 11-month job a 
seasonal job? You said on Mackinac Island, where the jobs are 
not for 11 months but they are highly, highly seasonal, and 
should those be treated differently because they are focused 
for a short period of time and have high skill?
    And so this is something that we have asked Congress to 
look at, that Congress needs to look at, because every year 
businesses can't plan. They don't know how many visas are going 
to be available, and we owe them greater certainty.
    Mr. Moolenaar. But do you feel, in your role, working with 
Secretary Nielsen, you have additional flexibility on this? 
Because I agree, that would be the ideal, that Congress would 
take action.
    Secretary Acosta. We do not have the flexibility to make 
those distinctions under the current law.
    Mr. Moolenaar. Can you raise the cap under existing law? 
You chose 30,000 at this juncture--and again, I am grateful for 
that, but let's say the need was, instead of 30,000 it should 
have been 40,000. Do we have a way of knowing?
    Secretary Acosta. So, Congressman, the logistical reality 
of this, and it happened two years ago, when because the budget 
was delayed--and thank you for not delaying the budget last 
year for us--but when the budget was delayed, I believe about 
two years ago the cap was not increased until June, and as a 
result the visas were not available until August, by which 
point there is really not much need for them.
    Mr. Moolenaar. Right.
    Secretary Acosta. And so, as a logistical matter, by the 
time that that question would present itself, the need for the 
visas would have become moot.
    Mr. Moolenaar. Okay. Thank you, and I do appreciate the 
30,000 very much.
    Thank you, Madam Chair.
    Ms. DeLauro. Congresswoman Frankel.
    Ms. Frankel. Thank you, Madam Chair, and thank you, Mr. 
Secretary, for being here.

                           HUMAN TRAFFICKING

    Just to make a comment on Ms. Clark's questions to you, I 
come from Palm Beach County where that Epstein matter arose, 
and I just--aside from the justice issue, I could tell you that 
many people in my community are upset that it seems like a 
sexual predator was allowed on the loose. And I am not going to 
pursue more of the questions today but I think a lot of us have 
a lot more questions, that we want to get to the bottom of 
this.
    I do have a request for you to help in the area of the 
sexual trafficking, and you probably know this. There was a 
study that said 71 percent of labor trafficking victims come 
from--who come from outside the United States had entered the 
country on temporary work visas. I have heard horrendous 
stories. There was just one in--in fact, where I live, in Palm 
Beach County, where women from China were being brought in. 
They thought they were coming in to legitimate jobs and they 
ended up in massage parlors, and they were exploited, put into 
prostitution. People said, well, why would they do it? Because 
they don't know the language, their families are threatened, 
and people--their exploiters say ``we are going to kill your 
family,'' they grab their papers. And this, unfortunately, is 
very, very common.

                 VISA TRANSPARENCY ANTI-TRAFFICKING ACT

    There will be a bipartisan bill--thank goodness it is 
bipartisan--called the Visa Transparency Anti-Trafficking Act, 
which would create a standardized reporting system across non-
immigrant visas that permit employment and make the information 
available to the public.
    There is a provision in it that is going to require some of 
the information that the Department of Labor collects, because 
we are trying to get--I think you even mentioned we have 
Homeland Security and the Department of Labor, it seems like 
things are not connecting. But I would just--I am asking you if 
you would--I am bringing this to your attention, if you could 
assign someone as to help us get this done.
    Secretary Acosta. Congresswoman, I can absolutely assign 
someone. And let me just say, on a variety of fronts, I was one 
of the individuals that set up one of the first human 
trafficking task forces, back when I was at Main Justice. This 
was incredibly important.
    The visas, the various agencies do not communicate with one 
another as well as they could, in part it is because their 
computer systems do not talk to one another. We are actually 
communicating by paper. So whatever I can do to help on this 
front, I will assign a senior-level individual to work with 
your office.

                        PAID PARENTAL LEAVE PLAN

    Ms. Frankel. Okay. Thank you very much for that.
    I want to ask you--I think in your testimony there was a 
mention of a paid parental leave plan, which I think a lot of 
us here think is very important. In fact, I reference you to 
take a look at Representative DeLauro's Family Act, which I 
think really is a very good way to go.
    The plan that you put forward, I am not really exactly sure 
because there are just a few mentions of it. And then you put 
$750,000,000 in mandatory funding for the paid parental leave 
proposal. Could you just tell me how that would be used and how 
you see your plan operating?
    Secretary Acosta. Congresswoman, first, let me say the--you 
know, if one looks at our labor force participation rate it has 
fallen behind other nations.
    Ms. Frankel. Yes.
    Secretary Acosta. And one of the important reasons that we 
need paid parental leave is so individuals can keep those 
attachments to the workforce. Studies show that when 
individuals leave the workforce they are less likely to return.
    And let me also say that we want to support families, and 
especially during that early time right after a baby is born, 
providing the support by providing paid leave is important. So 
the proposal looks to the UI trust funds, and as a first 
instance, of course, states would be free to go in different 
directions, but as a first instance would look at the UI trust 
funds for funding for that paid parental leave.
    Ms. Frankel. I don't have that much time, but I want to 
just make a few respectful suggestions to you.
    Secretary Acosta. Please.
    Ms. Frankel. Number one, you need to look at times when 
people leave the workplace for medical reasons, not just for 
birth, because there are probably 100 million workers that 
don't have access to any kind of leave here, and more don't 
leave--more leave for medical reasons than just for childbirth. 
So I urge you to look at that.
    The other thing that really concerns me is that the 
unemployment insurance system for the states are very 
underfunded, and you are proposing a patchwork solution. And it 
sounds to me like you understand why we need to do this. So I 
really urge you to take a look at Representative DeLauro's 
bill, the Family Act, because I think that is a much better way 
to go.
    And with that I guess I have run out of time and I am 
yielding back.
    Secretary Acosta. If I could--10 seconds--just say that 
ultimately the funding is something that is going to--Congress 
will need to act, and so the funding is something that will 
have to be negotiated with this committee, among others.
    Ms. DeLauro. Congresswoman Bustos.
    Mrs. Bustos. Thank you, Madam Chair. Secretary Acosta, 
thank you for being with us today.

                 DEPARTMENT OF LABOR BUDGET PRIORITIES

    In your written testimony you make it very clear how proud 
you are of your efforts to cut red tape at the Department of 
Labor. I agree with reworking rules to make sure that we are 
not having any regulations that are unnecessary anymore, and 
that is an important part of the process. But there is nothing 
that is, from a Department of Labor perspective, that is more 
important than making sure that workers, American workers, 
always come first.
    So what I find concerning in your budget is you effectively 
cut the budget for Occupational Safety and Health 
Administration, and this comes at a time when workplace 
fatality investigations are at a 10-year high, and the number 
of health and safety investigators at the Department of Labors 
is at an all-time low. Yet you provide a 19 percent increase to 
the Office of Labor Management Standards. This is the office 
that is charged with auditing and investigating labor unions.
    This indicates to me that going after labor unions is more 
important than keeping workers safe. Your philosophy of cutting 
the red tape seems to apply to everyone except for labor 
unions. I have real concerns about this.
    Your request for funding to investigate--you request more 
funding to investigate labor unions, but you cut funding for 
worker safety. Further, you flatline funding for workforce 
development programs. This should be a priority. Keeping 
workers safe should be a priority.
    So outside of deregulation, which, again, I think we 
acknowledged, and you acknowledge in your written testimony is 
very important, I am not clear exactly about your priorities, 
specifically where does workplace safety fit into all of this?
    Secretary Acosta. So, Congresswoman, first let me try to 
take these in order.

                              OSHA BUDGET

    With respect to OSHA, we are actually asking for an 
increase, I believe, of--folks behind me will correct me if I 
am wrong--but about $15,000,000 with respect to enforcement in 
OSHA. The total decrease there is because of a reduction in a 
category of grants called the Harwood Grants, that we have, in 
the past, suggested is a place where money can be saved, and 
where I understand that this committee, I believe for two years 
now, has put the money back in.
    But our enforcement budget is actually increasing. And I 
would point out that according to my figures in front of me, 
the enforcement budget for OSHA is actually increasing twice 
the enforcement budget for OLMS, which is the organization that 
focuses on unions, even though that organization's budget was 
cut over the last 10 years quite, quite substantially.
    And so I would take issue with the budget not reflecting an 
enforcement priority because, in fact, it does, and every 
enforcement agency shows some level of increase with respect to 
enforcement.

                            OSHA INSPECTORS

    Let me also, you mentioned that the inspectors are at a low 
level. When I arrived at the department we didn't have 
inspectors. They were called CSHOs, and we did not have enough 
of those inspectors, and so there was a personnel freeze. And 
the one area where I said I am lifting the personnel freeze, 
the hiring freeze, was in OSHA so that we could hire more OSHA 
inspectors. And, in fact, we hired 76 inspectors since then. 
They are in the process of being trained, being educated. 
Because OSHA is such a complex statute it takes months, and in 
some cases a year or more, before they can go out into the 
field individually.
    And so the fact that our inspections are up, and we are 
above 32,000 for two years in a row, despite that decrease in 
inspectors I think is a testament to folks that were working 
incredibly hard, and once these inspectors can go out in the 
field independently, I fully expect, and I have told OSHA that 
I expect the inspections to be up even more.

                     WORKFORCE DEVELOPMENT PROGRAMS

    Mrs. Bustos. Can you address at all where workforce 
development fits into your priorities?
    Secretary Acosta. I think if there is one thing that should 
be clear is this Administration is incredibly proud of the jobs 
that are being generated by this economy, and skills 
development and workforce development is an incredibly high 
priority, both in government-funded programs as well as in 
privately funded programs.
    So for example, in the apprenticeship area, something that 
I think is worth mentioning--and it has been the subject of 
testimony by the building trades unions, before Congress in the 
past, is they spent $1,000,000,000 of private-sector money as 
part of the registered apprenticeship program. And so whether 
it is through apprenticeships that we are advocating very 
heavily, funded, in part, by the $160,000,000 that this 
committee provides, or whether it is through private-sector 
money, such as what the building trades negotiate with 
management through their contracts, whether it is through 
support of community college and vocational programs such as 
the reauthorizations that we saw recently, that really 
highlighted the importance of vo-tech, workforce education is 
critical because we have, right now, 1 million more open jobs 
than individuals looking for jobs.
    And so I am happy to talk about this in more detail 
privately, if you would like, but it is at the top.
    Mrs. Bustos. Okay. I am out of time. I yield back, Madam 
Chair.
    Ms. DeLauro. Okay. I just--and I will compensate for the 
time for Ms. Roybal-Allard, but the number of OSHA National 
Employment Labor Project----
    Ms. Frankel. I don't think I can hear you.
    Ms. DeLauro [continuing]. National Employment Labor 
Project, the number of OSHA inspections is down 3,000 over two 
years. Enforcement unions are down 1,000 per year.
    Congresswoman Lucille Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Madam Chair, and thank you, 
Mr. Secretary.

                  ELIMINATION OF JOB TRAINING PROGRAMS

    Let me just say that in your testimony you highlighted the 
fact that unemployment was down among disadvantaged groups, and 
I would venture to say that one of the reasons that is true is 
because of the programs that you now have in place which you 
are now proposing to eliminate.
    For example, you are proposing to eliminate programs like 
the migrant and seasonal farmworkers job training and the 
Indian and Native American job training, that actually support 
some of the most vulnerable and neediest workers who continue 
to be exploited. So I would caution you about eliminating these 
programs that are helping you to come this committee to talk 
about the fact that you are able to keep unemployment low among 
these groups.

                   GAO STUDY ON WORKPLACE FATALITIES

    My question is about children--another group of children 
that are vulnerable in the workforce. The GAO released a report 
in November of 2018, on the working conditions of children in 
the United States, and GAO's findings regarding the number of 
fatalities due to a lack of enforcement really puts our country 
at shame. And I, along with Chairwoman DeLauro, contacted the 
Wage and Hour Division in your department and we requested a 
comprehensive study to address the gaps in enforcement that the 
GAO had found.
    WHD responded saying that they intended to address the 
GAO's recommendations. My question is, have you, in fact, 
addressed those recommendations?
    Secretary Acosta. Congresswoman, the GAO study came out, I 
believe, a little over a month ago. I am familiar with it. I 
have asked the Wage and--I am sorry.
    Ms. Roybal-Allard. It was actually 2018, is my 
understanding. Never mind. Just go ahead and answer the 
question.
    Secretary Acosta. I have asked the Wage and Hour Division--
may I ask what month in 2018, because I----
    Ms. Roybal-Allard. I said November.
    Secretary Acosta. Oh, November. So, yes. So my apologies. I 
think I may have read it right over the break or the holiday 
season. But I have asked the Wage and Hour Division to take a 
look at that.
    As I said earlier, the Wage and Hour Division, this past 
year, had very strong enforcement--304,000, the highest amount 
ever. And so I have asked them to go through the report to see 
where we can focus our enforcement, where we can refocus our 
enforcement. What is a statutory gap, if any? And so I am happy 
to, once that is done, sit down with your office and provide 
their recommendations, and if there is a need for legislation 
we can certainly talk about that.
    Ms. Roybal-Allard. Okay. Well, in the response it said that 
you were, in fact, were going to be looking into this.
    Secretary Acosta. I have asked them to do that. That is 
correct.
    Ms. Roybal-Allard. Okay.

                           CARE ACT PROPOSAL

    I just want to point out that one of your core 
responsibilities, as others have said, is the enforcement of 
the labor laws, and particularly children. And in the 
agriculture industry, that is where you have the highest 
fatalities. What GAO found was that of the 400- and, I believe, 
52 fatalities of children, that half were in the agriculture 
industry. And the reason for that is children working in 
agriculture are not equally protected under our child labor 
laws.
    So I am introducing a bill called the CARE Act to see what 
we can do to better protect those children, and I would like to 
work with you on that. There are a lot of exemptions. I 
understand the issue of family farms and so on and so forth. 
But we really need to do something to protect these children 
better than they are at this point.
    Secretary Acosta. Madam Vice Chair, I am happy to work with 
you on that.
    Ms. Roybal-Allard. Okay.
    One of the--I am sorry. I want to go to another question.

                          CUTS TO ILAB BUDGET

    In the 2018 Annual Child Labor Report that was released by 
your department, you acknowledged that meeting the ambitious 
goal of ending child labor, forced labor, human trafficking, 
and all forms of modern slavery that requires, and I quote, 
``accelerate very real progress that has been made over the 
past quarter century.'' And as was mentioned by my colleague, 
Congresswoman Clark, your budget proposes cutting the Bureau of 
International Labor Laws by 79 percent.
    It doesn't make sense to me how you can accelerate efforts 
to address child labor when you are proposing a 79 percent cut 
to the very agency that is responsible for that. These cuts 
would also hinder the bureau's ability to monitor and enforce 
the labor provisions outlined in the new and existing free 
trade agreements.
    How do you plan to ensure that American workers are 
protected from international competitors that exploit workers 
with this severe reduced budget?
    Secretary Acosta. That is at least a three-part question. 
Do I have time to answer?
    Ms. DeLauro. Not all three parts.
    Secretary Acosta. Okay.
    Ms. Roybal-Allard. But you can, for the record--do what you 
can and then the rest for the record.
    Secretary Acosta. Fair enough.
    [The information follows:]

    The mission of the Bureau of International Labor Affairs (ILAB) is 
to promote a fair global playing field for U.S. workers and businesses 
by enforcing trade commitments; strengthening labor standards; and 
combatting child labor, forced labor, and human trafficking. United 
States trading partners receive an unfair subsidy when they fail to 
comply with their trade-related labor commitments, including not doing 
enough to prevent and address cases of forced labor and child labor. 
This puts workers and businesses in the United States at a competitive 
disadvantage. ILAB will use its expertise to address these issues and 
ensure that U.S. workers and businesses are able to compete on a fair 
global playing field.
    ILAB will continue to monitor and enforce the labor provisions of 
free trade agreements and trade preference programs. The Department's 
approach will include prioritizing proactive monitoring of labor 
conditions in key countries; reviewing trade complaints; using ILAB 
experts to provide targeted, direct technical support to trading 
partners to improve laws and enforcement; and aggressively engaging 
with trade partners that are deemed to be out of compliance. We are 
asking our trading partners to invest more of their own resources to 
enforce their labor laws and fund initiatives to combat child labor and 
forced labor. ILAB will also increase its impact by strengthening 
partnerships with other U.S. government agencies, such as the Office of 
the U.S. Trade Representative, the Department of State, and the 
Department of Homeland Security, as well as with the private sector to 
prevent the importation of goods made with forced labor and child labor 
and make trade more fair for workers and businesses in the United 
States.

    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. Thank you, Chairman. Good afternoon, 
Mr. Secretary.
    Secretary Acosta. How are you?
    Mrs. Watson Coleman. I am well. Thank you.

                           ELIMINATING CSEOA

    I think we both agree that the opioid epidemic has had a 
severe impact on our families, and a lot of grandparents have 
ended up becoming the breadwinners in the families because 
their children, who have children, have become unable to take 
care of themselves.
    So I am disturbed that your proposal to eliminate the 
program, the Senior Community Service Employment Program, 
$400,000,000, I am concerned that you would eliminate that 
program at a time where I think our grandparents are re-
entering in the workforce again, not because we want to but 
because we have to.
    Secretary Acosta. Congresswoman, thank you for the 
question. The budget makes difficult calls with respect to 
workforce development issues. So, for example, Congressman Cole 
cited the program for Native Americans, and what we did there 
was we said that we would set aside a certain amount under WIOA 
to address that need in particular. And if there are particular 
needs, I think that within the WIOA budget, focusing the 
dollars on those needs is certainly appropriate.
    Mrs. Watson Coleman. Well, it would--that--you are talking 
about the Workforce Investment Act programs?
    Secretary Acosta. That is correct.
    Mrs. Watson Coleman. Okay, that are more geared to younger 
folks----
    Secretary Acosta. Well, that don't----
    Mrs. Watson Coleman [continuing]. Programs----
    Secretary Acosta [continuing]. That don't have to be. And 
part of----
    Mrs. Watson Coleman. Okay. Can I ask you this?
    Secretary Acosta. Yes.
    Mrs. Watson Coleman. What does your budget propose for the 
Workforce Investment Act? Are you proposing an increase or a 
decrease?
    Secretary Acosta. The Workforce Investment Act budget----
    Mrs. Watson Coleman. Because that would give me--tell me 
whether or not I should have confidence that the senior program 
has the light of day.
    I don't want you to take up my time finding this. There you 
go, a stickie.
    Secretary Acosta. There we go. The WIOA funds are formula 
funds that are determined outside of the budget.
    Mrs. Watson Coleman. So is this a level funding you are 
proposing?
    Secretary Acosta. It is.
    Mrs. Watson Coleman. So you are going to try to take care 
of this particular aspect of the workforce needs with level 
funding.
    Secretary Acosta. We----

                  EXPLOITATION OF UNDOCUMENTED WORKERS

    Mrs. Watson Coleman. I think that needs to be looked at and 
I hope that our colleagues will look at that.
    I want to go to another area. As the head of the Department 
of Labor, do you think that American employers who take 
advantage of undocumented workers should be held accountable? 
That is a yes or no.
    Secretary Acosta. Yes.
    Mrs. Watson Coleman. Good. Thank you.
    Does your Wage and Hour Division, in particular, do those 
investigations if individuals have been coerced in their 
working, have not been paid a decent wage, don't get sick time, 
et cetera?
    Secretary Acosta. Yes. Yes, we do.
    Mrs. Watson Coleman. Thank you. Have you launched any 
investigations into the Trump golf clubs that have been 
documented to have had undocumented workers working in those 
facilities, underpaid, no benefits, no overtime, no sick leave, 
no nothing, and, in some instances, have actually been treated 
very poorly?
    Secretary Acosta. The career staff determines what is 
investigated. I can certainly inquire and provide an answer for 
the record.
    Mrs. Watson Coleman. Okay. I specifically want to know how 
many investigations have been launched. And if you are able to 
tell me that none have thus been launched, will you commit to 
doing those investigations?
    [The information follows:]
    The Wage and Hour Division (WHD) uses an evidence-based approach to 
ensure that it prioritizes providing compliance assistance and using 
enforcement resources in areas where the agency is most likely to 
uncover violations in high violation industries. The process of 
determining where to conduct investigations is led by career staff, 
informed by data, research and evaluation, and allows the agency to 
make the most of its resources.
    A search of WHD's enforcement database shows no current or 
previously concluded investigations of any Trump golf clubs in the 
United States. Should there be a suspected WHD violation, workers and 
their advocates are encouraged to file a complaint with the agency by 
calling our toll-free number at 1-866-4US-WAGE or visiting our website 
at www.dol.gov/whd/howtofileacomplaint.htm.

    Secretary Acosta. Congresswoman, the career staff, and I 
think it is very important that the career staff determine when 
it is appropriate to launch these types of investigations. I 
have been very careful as Secretary to not pick and choose what 
organization should or should not be investigated. I don't 
think that is the role of the political leadership. I think 
that is the role of the career staff. I would defer to their 
decisions on that.
    Mrs. Watson Coleman. Well, then I would assume that these 
career staffers would have engaged in rigorous investigations 
of what have been very flagrant and numerous and consistent 
violations of workers' rights.
    Thank you. I yield back.
    Ms. DeLauro. Congresswoman Lee.
    Ms. Lee. Thank you very much. Hello, Mr. Secretary.
    Secretary Acosta. How are you?
    Ms. Lee. I apologize for being late. Hello, Mr. Secretary.
    Secretary Acosta. How are you?
    Ms. Lee. I apologize for being late. We are in a Budget 
Committee hearing also. Thank you, Madam Chair, very much.

                UNEMPLOYMENT RATES AMONG MINORITY GROUPS

    Let me, and I apologize if this question is redundant, but 
I wanted to just ask you about the unemployment rate as it 
relates to the African-American and Latino communities. The 
black unemployment rate is double that of whites at 6.6 
percent, which is the highest among all racial groups 
nationwide. The Latino unemployment rate is also high, around 5 
percent compared to 4 percent, and 3.7 percent for whites.

                      WORKFORCE TRAINING PROGRAMS

    Now, it is not just unemployment, Mr. Secretary. The median 
net worth of white households is 10 times higher than that of 
black households, and for every 100 black children who grow up 
in the bottom 5th of the income distribution, less than 3--mind 
you, 3--will make it to the top 5th as adults. So investments 
in workforce training, closing the wage gap, and increasing the 
minimum wage are all things that the Department of Labor could 
do to help close these gaps. But this budget doesn't reflect 
that you are doing that at all.
    For example, your budget slashes Job Corps by 41 percent, 
Dislocated Worker National Reserve by 39 percent. And I was 
shocked to see the Reintegration of Ex-Offenders at 16 percent. 
Youth Build is down 6 percent. Office of Disability Employment 
Policy, minus 29 percent. The Women's Bureau, 74 percent down, 
and the International Labor Affairs Department, 79 percent.
    So I want to ask you, with the cuts that you are 
presenting, how are we going to ever achieve parity and how are 
we ever going to reduce the unemployment and the wage gap in 
communities of color? And can you commit to increasing the 
minimum wage? I mean, this would help tremendously. Also, why 
would you make these cuts when you know these programs are what 
lead people out of poverty into the middle class, especially 
people of color?
    Secretary Acosta. So, Congresswoman, thank you for the 
question because workforce development, I think, is one area 
where the return on investment is incredibly high, where 
government investment in helping individuals develop a skill, 
especially when they are young, that will last them a lifetime 
is incredibly important.
    I have talked in the past, for example, about expanding 
Pell Grants to certificate programs, about the importance of 
work study. And I would add to that the importance of programs 
that are paid for by WIOA, programs within our Employment and 
Training Administration that provides a lot of funding for the 
States to focus on workforce. Now, we are operating within 
budget constraints, and we are operating within budget caps. 
And so I understand that this committee disagrees and last 
year, in essence, looked at the budget and provided the money 
right back in. But you have the authority to exceed those caps, 
not the Department, and the Administration is being very 
fiscally disciplined.

                REENTRY EMPLOYMENT OPPORTUNITIES PROGRAM

    And so let me just say I am happy to have discussions about 
any one of these. I was at a reentry program earlier this week. 
Reentry is incredibly powerful. Providing an individual who is 
leaving prison the opportunity to work is transformative for 
the individual. It is a way to keep the community safer. And 
from a fiscal perspective, employing an individual who is 
reentering makes so much sense because they become a member of 
our economic base. They contribute, and that makes so much more 
sense than the danger of them going right back to prison.
    There are so many areas where we can help individuals find 
jobs, and so I am happy to have a discussion as to whether we 
should move some of these funds around. But we are operating 
under budget constraints.
    Ms. Lee. Mr. Secretary, based on what you just said, I 
would have thought you would have put on a plus-up of 16 
percent. You have decreased the Reintegration of Ex-Offenders 
by 16 percent. But also this reflects, I think, a roadmap of 
your priorities, and when we talk about communities of color 
and people of color, if we are not a priority, we are just not 
a priority. And based on the cuts that you have indicated that 
you would recommend, that kind of shows me where you are going 
with this, and that is not right, and you know that.
    And if you care about reentering ex-offenders and their 
reintegration, a priority should be to make sure that we not 
only fully fund, but increase those funding levels. And so, you 
know, it is a reflection, I think, of your priorities, and it 
really is a shame and disgrace.
    Secretary Acosta. Congresswoman, I have to disagree with 
that characterization. Reentry is incredibly important and 
something I am very, very----
    Ms. Lee. Then you shouldn't recommend a cut, Mr. Secretary. 
If this is important, why are you cutting it?
    Secretary Acosta. There are budget realities, 
Congresswoman.
    Ms. Lee. Excuse me.

                        CHILD LABOR PROTECTIONS

    Ms. DeLauro. No, that is okay. Mr. Secretary, I would just 
like to follow up on two or three areas. This is a follow-up of 
Lucille Roybal-Allard on child labor protections. Last fall, 
the Department proposed to revise and repeal protections for 
16- and 17-year-old workers and healthcare protections that 
were based on the science-informed recommendation of the 
government's health and safety experts. With no additional 
scientific review, no public hearings or meetings, the Agency 
decided it needed to repeal this child labor protection.
    Let me just ask you a couple of questions about the scant 
evidence that you cite. It is a 2012 SurveyMonkey poll done in 
Massachusetts to support your claim that current child labor 
protections are burdensome. These are ``yes'' or ``no'' 
questions. Are you aware that your evidence, the SurveyMonkey 
poll, had just 20 respondents who answered the main questions, 
and that almost half of the 20 respondents said that they were 
unaware of what the current DOL policy was? Were you aware of 
that?
    Secretary Acosta. Congresswoman----
    Ms. DeLauro. Yes or no.
    Secretary Acosta. Madam Chair, that was not cited as 
evidence. If one were to look at the proposed rule, that was 
cited in a footnote as an example of the fact that this was an 
issue across the country, and it was not cited as evidence of 
the underlying rule.
    Ms. DeLauro. This is 20 respondents. I know something about 
polling. I lived with a pollster.
    Secretary Acosta. That was not cited as evidence.
    Ms. DeLauro. Twenty is not a sample size.
    Secretary Acosta. That was not cited as evidence.
    Ms. DeLauro. So maybe you were not aware of the number of 
people that were polled. Are you aware that the Massachusetts 
Department of Health that conducted the poll found that any 
burdens in the placement of young of teens in healthcare 
occupations were from misperceptions about the Agency's current 
policy? Yes or no?
    Secretary Acosta. That was not cited as evidence, Madam 
Chair.
    Ms. DeLauro. It appears, Mr. Secretary, that there is no 
empirical evidence that the existing policy hurt employment, 
and, therefore, no compelling justification for your regulatory 
action. So I am going to ask you, and, again, it is yes or no. 
Will you withdraw this proposal?
    Secretary Acosta. We are in the process of considering the 
comments received in the proposed rule.
    Ms. DeLauro. Will you withdraw the proposal?
    Secretary Acosta. We will consider the comments received.

                            OPINION LETTERS

    Ms. DeLauro. Let me just ask you a quick question here. 
This is based on something you said about opinion letters. Are 
workers entitled to opinion letters? Again, yes or no?
    Secretary Acosta. No stakeholder is entitled to an opinion 
letter whether worker or business, but we have answered 
requests from workers on opinion letters.
    Ms. DeLauro. Can you provide us with the number of opinion 
letters that have been issued or this effort for workers versus 
employers?
    Secretary Acosta. We can provide that to the committee.
    Ms. DeLauro. Okay. That is fine. Thank you.
    [The information follows:]

    Workers and employers ask for assistance from the Department of 
Labor's Wage and Hour Division (WHD) in different ways. While employers 
often seek clarity about their obligations under the law through 
compliance assistance efforts--including the use of opinion letters--
the vast majority of WHD's assistance to workers is through enforcement 
actions. WHD receives approximately 80 percent of its opinion letter 
requests from employer-side stakeholders and approximately 20 percent 
from workers. Since January 2017, WHD has issued 40 opinion letters in 
response to requests by an employer, an employer advocacy organization, 
or a law firm representing employers. Since January 2017, WHD has also 
issued one opinion letter in response to a request by a labor union, 
and one opinion letter in response to a request by an individual 
employee. Most of the requests WHD has received from employees actually 
involved complaints or could be responded to with technical assistance 
based on information that is readily available. In those cases, the 
requester is referred to the nearest WHD district office that can 
respond to the requester directly by registering a complaint, or 
providing compliance assistance, allowing the employee to address the 
information with their employer.

         PAYROLL AUDIT INDEPENDENT DETERMINATION (PAID) PROGRAM

    Ms. DeLauro. Let me just move to another area quickly here. 
You announced in October your plans to expand the Payroll Audit 
Independent Determination, the PAID Program at the Wage and 
Hour Division. I believe this is a program that offers 
violating employers amnesty. It is a pat on the back with no 
deterrence impacts on the employer or others who are violating 
the law. The Agency trumpets the $304,000,000 in wages DOL 
recovered for workers in 2018. Serious questions remain around 
whether the PAID Program is effective and worth the investment. 
How much of the $304,000,000 recovered in 2018 is through the 
PAID Program?
    Secretary Acosta. I can provide that information to the 
committee.
    Ms. DeLauro. Okay.
    [The information follows:]

    At the conclusion of the pilot of the new Payroll Audit Independent 
Determination (PAID) program in September 2018, the Wage and Hour 
Division (WHD) reviewed quantitative enforcement data such as back 
wages owed and hours spent by enforcement personnel, as well as 
qualitative feedback from employers, employees, and WHD field staff, 
including testimonials from employers and employees. At that time, most 
PAID cases remained open, but early indications were overwhelmingly 
positive. Cases with back wages due appeared to require fewer 
investigator hours than full investigations. Since then, WHD has worked 
to implement PAID consistent with existing protocols and procedures for 
compliance actions, which has enabled district offices to incorporate 
the program into existing enforcement and compliance assistance tools.
    WHD has continued collecting and assessing administrative 
enforcement data throughout the program's implementation. This data 
will be addressed in a report in response to S. Rept. 115-289--language 
which accompanied the Senate Appropriations Committee-passed version of 
Labor, Health and Human Services, Education, and Related Agencies, 
2019. The language directed WHD to submit a report to the Committee no 
later than 12 months after the date of the Act detailing the outcomes 
of the PAID pilot program.
    Many cases remain open. Although the report is not yet available, 
early testimonials from employees and employers continue to indicate 
that the results are overwhelmingly positive. The program has been 
achieving its goal of getting back wages into the hands of employees 
more quickly. Providing this platform for well-intentioned employers to 
resolve violations frees WHD to commit more resources to investigating 
the more egregious, willful violators affecting even more employees, 
and bringing those violators into compliance. Under this program, the 
Department expects more employers to proactively conduct audits than 
otherwise would occur. As a result, more employees will be paid the 
back wages they have rightfully earned.

                     EFFECTIVENESS OF PAID PROGRAM

    Ms. DeLauro. Now, again, you pledged when you announced the 
program in March of 2018 that the Department would do an 
evaluation of it after 6 months before expanding it. Why are 
you extending the program without any knowledge of its 
effectiveness?
    Secretary Acosta. We are extending the program because it 
took more time to get the word out and for businesses to 
approach the Department, in large part because attorneys 
general in particular States came out and said that if 
businesses were to work with the Department under this program, 
that they--I am sorry?
    Ms. DeLauro. No, go ahead.
    Secretary Acosta. That they would look and investigate 
those businesses. Let me also say, with respect, because you 
pointed out----
    Ms. DeLauro. You are extending the program without any 
knowledge of its effectiveness. You have concluded on what 
basis that scarce resources, key labor standards agencies, are 
better spent on a program that potentially has no impact rather 
than a robust enforcement program. And that is not really what 
you pledged in terms of the evaluation of this program.
    And just where I started, we have seen at the Labor 
Department, again, on the TIP rule that was proposed, child 
labor and healthcare, other regulations are failing to do the 
analysis that the Congress requires, or, in the case of PAID, 
that even you pledged to do. And yet for the employers, for the 
business community, we just say go for it. You know, it is 
okay, and, you know, do the best you can. Not on our watch, Mr. 
Secretary.
    Dr. Harris.

                           H-2B VISA PROGRAM

    Mr. Harris. Thank you very much. And let me just follow up 
a little bit about what my colleague from Michigan, you know, 
with the H-2B. Again, I want to thank you for the additional 
visas. And I just want to confirm, I think we have had 
conversations that indicate that if we were going to a 
proportionality system where if Congress didn't set the quota 
high enough, then everybody would get some, you know, you 
wouldn't have the lottery system. But my understanding is that 
you would need a slight change in statute to give you the 
authority to do that? Is that right? That you cannot do it 
internally without a change in statute?
    Secretary Acosta. If your question is if someone applied 
for, let's say, 100, could we determine we are only giving you 
50?
    Mr. Harris. Yes, because----
    Secretary Acosta. I would have to confirm whether or not 
that is something that required a statute.
    [The information follows:]

    The Department of Labor (Department) respectfully refers you to the 
Department of Homeland Security (DHS) on this question. Under current 
law, DHS has authority to administer the H-2B visa cap. The Department 
of Labor's role is to provide consultative advice to DHS regarding 
whether a qualified U.S. worker is available to fill the petitioning H-
2B employer's job opportunity and whether a foreign worker's employment 
in the job opportunity will adversely affect the wages or working 
conditions of similarly employed U.S. workers.

    Mr. Harris. Okay. And if it would, I would appreciate it if 
you would get back to me because I think that is one thing that 
my employers have said that, you know, the lottery, they love 
it when they win, they hate it when they lose. So maybe 
everybody could win just a little.

                   AFRICAN-AMERICAN UNEMPLOYMENT RATE

    The President talks about the African-American unemployment 
rate, Hispanic unemployment rate being historically low. Is 
that true when the President says?
    Secretary Acosta. It was a historically low amount, yes.
    Mr. Harris. So he is telling the truth.
    Secretary Acosta. Yes.
    Mr. Harris. I mean, the economy actually has improved----
    Secretary Acosta. The economy has improved for everyone. 
The African-American unemployment rate hit a record low. The 
Hispanic unemployment rate hit a record low.

                            BUDGET PROPOSAL

    Mr. Harris. That is what I thought. With regards to the 
budget levels that you have, and I would love to compare it to, 
you know, a congressional budget, issued budget, but I haven't 
seen one yet. We are almost 100 days into this Congress, and I 
haven't seen a budget proposal that would perhaps indicate 
Congress' priorities. So it is easy to pick on, I guess, on the 
priorities that you have set, but you are operating within the 
original 2011 BCA caps, is that right, because there is no 
updated cap this next Fiscal Year. Congress has not increased 
the cap.
    Secretary Acosta. To my knowledge, that is correct.
    Mr. Harris. Right. So actually, and, Gallup actually asked 
Americans what are the two top issues they worried about, and 
the two top issues were the healthcare, and I talked to you 
about that, about the cost of that. The second one with 
actually an equal number of Americans, 80 percent saying what 
they worry a great deal or a fair amount about is Federal 
spending and the budget deficit. So I am going to applaud the 
Administration for, first of all, staying within the caps that 
are actually congressionally imposed. I mean, look, you are 
living within the law. I know that is an unusual thing in this 
town, but you are living within the law, and I appreciate that. 
And, again, I anxiously await, you know, the results of a 
budget that comes out of our Budget Committee here.

                         CURRENT OVERTIME RULE

    Finally, the overtime rule. So let me get the overtime rule 
straight, is that the last Administration proposed a rule which 
a Texas court basically didn't allow to go into effect.
    Secretary Acosta. That is correct.
    Mr. Harris. So we are currently operating under the old 
overtime rule provision, right? The original one.
    Secretary Acosta. That is correct.
    Mr. Harris. So every day we go by without an update, 
actually there are a lot of workers, potentially 1,000,000 
workers, who actually who might come under an increased salary, 
you know, cap amount. So actually, your proposal is better than 
the current we have. How many million workers would come under 
your proposal?
    Secretary Acosta. Well over 1,000,000.
    Mr. Harris. So well over 1,000,000 workers.
    Secretary Acosta. A million additional workers.
    Mr. Harris. And those 1,000,000 workers, additional 
workers, I take it are in the lower quintiles of income.
    Secretary Acosta. That is correct.
    Mr. Harris. Are they in the lowest? Are they in the two 
lowest quintiles, you can imagine, most of them?
    Secretary Acosta. You know, I hesitate to provide that 
data, but I can certainly provide it to the committee.
    [The information follows:]

    As part of the rulemaking process, the Administrative Procedure Act 
generally requires that agencies publish a notice of proposed 
rulemaking (NPRM) in the Federal Register. The agency then provides a 
public comment period and, after considering the comments received, 
develops a final rule. The comment period for the overtime NPRM ended 
on May 21, 2019, and the Department received 59,348 comment submissions 
representing 116,298 comments, some of which may be duplicates. The 
Department is currently reviewing the comments received as part of 
developing the final rule.
    The proposed salary level is approximately the 20th percentile of 
earnings for full-time salaried employees in the South, which is the 
lowest-wage Census region. Accordingly, the approximately 1,000,000 
workers who would gain overtime protection if the rule is finalized as 
proposed would be in the lowest quintile nationally of earnings for 
full-time salaried employees. Please note that this differs from income 
(which includes non-wage earnings). For purposes of this question, 
earnings appear to be more appropriate in this context.
    The Department estimates that the proposed changes to the standard 
salary level would result in transfers (i.e., additional earnings) of 
$252,500,000 in Year 1.

    Secretary Acosta. But in the lower----
    Mr. Harris. Yeah. So here is a circumstance where the last 
Administration actually did nothing about it, right? And your 
shuttered Department actually is providing relief to over 
1,000,000 people. How much money would those 1,000,000 stand to 
gain? What is your estimate? What do those 1,000,000 get from 
this action from your shuttered Department?
    Secretary Acosta. Millions, and I will certainly provide 
that information.
    Mr. Harris. It could be hundreds of millions, couldn't it?
    Secretary Acosta. That is correct.
    Mr. Harris. And that goes to the lower quintiles of income. 
It sounds like the Department of Labor actually in this case 
might actually be helping the people who it was established to 
help. I yield back.
    Secretary Acosta. Thank you. If----
    Ms. DeLauro. Congresswoman Frankel.

                           HUMAN TRAFFICKING

    Ms. Frankel. Hello again. Thank you for being here. You 
know, I listened to your testimony. Listen, I sincerely believe 
you want to help to do something about trafficking. I am going 
to take you up on that. I want to give you an opportunity 
because I know you have been under this spotlight with this 
Epstein thing, and I don't want to come at you with facts, but 
I want to give you an opportunity, if you want, to just explain 
some things.
    I think sex trafficking is one of the scourges of humanity 
right now, and I think my colleague here laid out some of the 
basic facts. But it sounds liked this Jeffrey Epstein, 
according to, there was a Miami Herald article, and then I know 
there were some comments made by the Palm Beach police that 
anywhere from 50 to 80 young women that they actually knew 
about were victims of Jeffrey Epstein. Does that sound about 
right?
    Secretary Acosta. I can't comment as to the specific 
number, but he had multiple victims, yes.
    Ms. Frankel. And he ends up getting a deal, I guess, a 
couple of prostitution felony charges, State charges. Were 
there ever Federal charges, because the Miami Herald article 
said that he was facing 53 Federal indictments.
    Secretary Acosta. If I could just provide a brief overview, 
Congresswoman.
    Ms. Frankel. Yes, please, I would appreciate it.
    Secretary Acosta. This was a State matter, and it was 
presented by the then State attorney to a grand jury in Palm 
Beach County. The grand jury reviewed the evidence, looked at 
what was available, and the grand jury recommended a single 
charge that would have required no jail time.
    Ms. Frankel. Not to be rude to interrupt you, but before it 
went to the State, it was my understanding that he was facing 
53----
    Secretary Acosta. That is incorrect.
    Ms. Frankel. Was he facing any Federal charges?
    Secretary Acosta. That is incorrect, Congresswoman. This 
started as a State matter----
    Ms. Frankel. But what happened? I mean, there was an 
article that said, I mean, you could tell me. Maybe this didn't 
happen, but there was an article that said that Epstein's 
attorneys negotiated a deal with you at the Marriott Hotel in 
West Palm Beach.
    Secretary Acosta. If I could walk you through the facts.
    Ms. Frankel. Yeah.
    Secretary Acosta. And this is supported by the public 
record. So this was a State matter. It was investigated by 
local police, and it was taken to the State attorney's office. 
The State attorney took this matter to a grand jury, presented 
all the evidence----
    Ms. Frankel. How did you get involved?
    Secretary Acosta. I am leading up to that.
    Ms. Frankel. All right.
    Secretary Acosta. Presented all the evidence to the grand 
jury, and the grand jury considered it and recommended one 
charge that would have required no jail time, no registration 
at all, and no restitution to any of the victims. He would 
have, in essence, gotten away. And that is why the local police 
went to Federal authorities.
    And those that have been involved, you are an attorney, 
Congresswoman, those have been involved in the legal system 
know that once someone is arraigned, because he had been 
arraigned on that one State charge. Once someone is arraigned, 
it is exceedingly rare--it is rare--for a Federal prosecution 
to also take place. But our attorneys looked at that, and they 
said Epstein should not be able to walk away with no jail time, 
no registration, and no restitution.
    And so they informed his attorneys that if something else 
wasn't done, that a second Federal prosecution could take place 
because, and this is something that is important for the public 
to understand. You can be prosecuted, and if that is 
insufficient, you can also be prosecuted by the Federal 
government.
    Ms. Frankel. I have limited time, and I am sorry, I am not 
trying to be rude with you. But there was a report in the Miami 
Herald that you actually had a meeting with Epstein's attorney 
at the Marriott Hotel in West Palm Beach where he convinced you 
to either drop the charges or not look into the charges. And 
then there was some mention that perhaps Mr. Epstein gave you 
information about other people. Is any of that correct?
    Secretary Acosta. There is a lot of information in the 
public record that is not correct. I saw that report in the 
Herald, and it referenced October 2007, I believe. And I looked 
at the date on which the agreement was signed where Federal 
authorities said they would defer to the State attorney if he 
actually went to jail, if he actually registered as a sex 
offender and paid restitution. And the date for that meeting 
postdated the agreement.
    Ms. Frankel. Did that meeting take place?
    Secretary Acosta. Congresswoman, this was 12 years ago. I 
don't remember, but I do know because I looked it up--I am like 
what is going on here--that the agreement was actually signed 
in September and the meeting took place in October after the 
agreement was signed. And so the answer is that that could not 
have been part of that agreement.
    Ms. Frankel. Okay. So I am going to yield back. Just to say 
this. My community is still very upset about this, and I hope 
there will be another opportunity to really flush this out and 
give you an opportunity to answer all these allegations because 
I think we can all agree that a very vile, disgusting man who 
molested underage girls, lots and lots of them, really got off 
the hook. And with that, again, I am going to take you up on 
helping me on this bipartisan trafficking bill. And I yield 
back.
    Ms. DeLauro. Congressman Cole.
    Mr. Cole. I hadn't intended to ask you anything about the 
matter just discussed, but I do feel compelled just to, if you 
need to add something, to extend the time to you if you wanted 
to put something on the record or respond in any way. If we cut 
you off, it is certainly not anybody's intention. We are on 
limited time. But I want to give you the opportunity to respond 
to anything you would like, Mr. Secretary.
    Secretary Acosta. Congressman, I appreciate that. And let 
me just say, I understand the frustration. I think it is 
important to understand he was going to get off entirely. Other 
than something that would have required no jail time, no 
registration, and no restitution, he was going to get off, and 
it was the work of our office that resulted in him going to 
jail. It was the work of our office that resulted in his having 
to register and put the world on notice that he is a sex 
offender, and put all these other victims potentially in the 
future on notice that he is a sex offender.
    And, you know, there is a lot of reference made to how he 
was in prison by Palm Beach County after the fact. That was a 
State plea, and that was determined under Florida law. And I 
have been on record as condemning the terms of his 
incarceration because the work release, I understand why folks 
are upset. That was Florida law. That was not a Federal 
decision. So I think it is important to separate what is 
Florida and what is Federal.
    Mr. Cole. Thank you very much, and just for the record, 
have had the opportunity to work with you for a couple years, 
and I find you a person of great integrity, great ability, and 
great skill. And I think the President made a wise choice when 
he chose you for this position, and I think you have more than 
made him proud and more than done your job. And I just thought 
that ought to be in the record as well, so thank you for your 
service.

                             H-1B VISA FEES

    Now, I really do have some other questions in the limited 
time I have. Throughout your testimony and in the budget 
documents, you have spoken about ways you support American 
workers through the H-1B visa fees used for training and 
through several job programs. So how will you enforce the labor 
laws and trade agreements so that American workers are on a 
level field in competing for jobs on the international stage?
    Secretary Acosta. Well, you know, the references were made 
earlier to that same issue, and that is an issue of very high 
priority, particularly as we are looking at USMCA and the 
adoption of USMCA. That is something that is critical. And so I 
have spoken with Ambassador Lighthizer about that, and 
certainly if after this budget process proceeds, if additional 
resources are needed, that is something that can be part of the 
enabling legislation, because we want to ensure that the 
provisions of USMCA are fully complied with, that they are 
fully enforced. We need to put American workers on a level 
playing field.

                           JOB CORPS FUNDING

    Mr. Cole. Well, that is a good thing to be trying to do. 
One last question, and we all know, as Mr. Harris said, you 
live within the budget that Congress and the Census dealt you 
and the Budget Control Act. But I am concerned on the Job Corps 
front. I mean, those are drastic cuts. If you had to do 
something like that, if we did, what would be the criterion 
that you would go through and use to make a decision of that 
magnitude because clearly you would have to close down quite a 
few centers around the country.
    Secretary Acosta. If we were to close them down, we would 
go through and look at the metrics, and we would try to do this 
in a reasonably neutral way to see which Job Corps centers were 
performing less than others. Let me also say one of the things 
that we have been doing with Job Corps because some are not 
performing particularly well and some have issues, is we have 
tried to think a little bit outside the box. And I have briefed 
your colleagues both on the Republican and the Democratic side. 
There is a caucus that has been organized around this because 
we have been working with some governors that have ideas as to 
how to make these more effective.
    And so in one State, the governor is interested in 
partnering the Job Corps with the community college. In another 
State, the governor is interested in partnering the Job Corps 
with the National Guard Program. I was just going to 
Congresswoman Lee's point a little bit earlier talking to a 
governor that said wouldn't it be great to set up a Job Corps 
to focus on individual that are reentering society. So as they 
reenter society, they have the ability to get the skills that 
they need to get jobs.
    Mr. Cole. You know, I am essentially out of time, but I 
would really encourage you, no matter what the budget line is, 
to continue along those lines. There is no question there are 
reforms to be made. I think there is a lot of good things that 
can be done. You have just ticked of several of them that I 
think this committee would have, on a bipartisan basis, strong 
interest in being helpful in. So just as you develop that 
thinking, I would encourage you to keep us informed so that we 
can incorporate it into the work that we do here in this 
committee. Thank you very much.
    Secretary Acosta. Thank you.
    Mr. Cole. Yield back, Madam Chair.
    Ms. DeLauro. Congresswoman Roybal-Allard.

                 DETERMINING JOB CORPS CENTER CLOSURES

    Ms. Roybal-Allard. Secretary Acosta, my question has to do 
with the selection of Job Corps centers. And WIOA requires that 
centers are chosen based on past achievement and outcomes, and 
that is a significant part of that evaluation when making those 
decisions. And this aligns with your own priorities for Job 
Corps----
    Secretary Acosta. Yes, it does.
    Ms. Roybal-Allard [continuing]. In the form of increased 
performance standards. Yet one of the things that I have heard 
from operators and from constituents is that contract award 
decisions are no longer tied to performance and student 
outcomes. That, in fact, the vast majority of the contracts are 
being given to new operators regardless of the successful 
performance of the current contract holder. So are you 
purposely moving away from focusing on student outcomes when 
selecting Job Corps centers?
    Secretary Acosta. In fact, Congresswoman, we are focusing 
much more on student outcomes in judging Job Corps performance 
and in Job Corps centers. So to the extent that is what 
contractors are saying, that is inaccurate.
    Ms. Roybal-Allard. Well, I can give you an example in my 
own district with the Los Angeles Job Corps which has an 
outstanding record, has been there for years, is something that 
the community at large just raves about because of the outcomes 
with the young people that it deals with. Yet you chose a 
company that runs a private prison in addition to Job Corps 
centers that absolutely has no connection whatsoever with Los 
Angeles and doesn't understand it. So it is hard to believe 
that standards, performance, outcome, relationship in the 
community really is a priority when somebody like this could be 
chosen.
    Secretary Acosta. Congresswoman, I noticed that you had 
sent a letter regarding this, and I inquired about this just 
this morning. And I was told that the selection happened 
actually before I was confirmed as Labor Secretary.
    Ms. Roybal-Allard. That is true.
    Secretary Acosta. And that there had been a job--I am 
sorry--a selection protest, a contract protest, and it went to 
GAO, and GAO upheld the contract selection. And so I can't 
speak to what happened before I was Labor Secretary, but it is 
certainly not my view that Job Corps centers should be selected 
over anything other than outcomes.
    But let me also say, let me actually be a little bit more 
broad. One of the issues in Job Corps centers has also been a 
lack of safety. And so when I say the focus should be on 
outcomes, let me amend, if I could, and also say that safety is 
incredibly important. This has nothing to do with this 
particular Job Corps center, just for the record. Where there 
is a safety issue, I think the safety issue has to be 
considered right alongside performance outcomes.
    Ms. Roybal-Allard. Maybe we can talk a little bit more 
about that so I would understand that decision better.
    Secretary Acosta. Gladly.

                               HEALTHCARE

    Ms. Roybal-Allard. And I just want to make, I guess it is 
more of a statement than a question, with regard to what 
Congressman Harris was saying in the beginning. And you 
mentioned the fact that you were hoping that the Supreme Court 
would rule in the Administration's favor when it came to ACA. 
And I just want to point out that if they were to rule in favor 
of the Administration, that the decision would be immediate. 
The impact would be that over the first year people would be 
losing their health insurance. Medicaid expansion would go 
away. States could not afford to cover those individuals that 
were newly enrolled, and they would not be able to offer 
coverage in the following years. What is the President's 
proposal to replace ACA?
    Secretary Acosta. Congresswoman, thank you. I think 
Congressman Harris' question went to association health plans. 
But going to your question regarding the ACA, clearly if the 
Supreme Court was to strike it down, the President would have 
to work and should be working with Congress because we need----
    Ms. Roybal-Allard. Let me just interrupt you because what 
the President has said is that he will work on the replacement 
after the election, which would be in 2021, which means all 
these people, including those that have preexisting conditions 
and are being treated now, would lose their healthcare, and 
their lives would be in danger. I yield back.
    Ms. DeLauro. I now recognize Congressman Cole for any final 
comments.
    Mr. Cole. I want to thank you, Mr. Secretary. I, again, 
apologize to you and apologize to my friends on the committee 
for arriving late. And I would have preferred to be here early 
because I, frankly, always find your testimony enlightening and 
helpful to this committee. But, again, I want to thank my chair 
for allowing me to come in at a later time.

                          DOL ACCOMPLISHMENTS

    We have put some incredibly important responsibilities in 
your hand, an extraordinarily wide range of authority. And I am 
very satisfied, honestly, with the manner in which you have 
handled it ever since you have been at the Department of Labor. 
I think you have got a great staff. I think some of the work 
you have done, and I know it is sometimes controversial, but 
things like the associate health plans is just really cutting 
edge.
    And I feel like you and the President have put the 
appropriate emphasis on apprenticeship programs, trying to get 
us the kind of workforce that is employable so folks can go on 
and have successful lives and careers. And it worth noting, as 
my friend, Mr. Harris, pointed out, you must be doing something 
right when we have got an unemployment rate that is the lowest 
we have had in nearly a half century, and when we have 
historically disadvantaged groups that are doing better in 
terms of their employment rates and wage growth than we have 
seen in quite some time.
    So I think that doesn't mean there is not a lot to do. 
There is always a lot to do. It doesn't mean we can't do better 
and shouldn't try to do better. It does, and we will. But, you 
know, I think every now and then, while it is our appropriate 
job here to be rigorous in our oversight and to ask tough 
questions, you know, I think we do that pretty well on a 
bipartisan basis, and I have no problem.
    Every now and then we need to pull back and look at the 
results, and at least in terms of what is happening to American 
workers in terms of their employment rates, in terms of their 
compensation, and in terms of trying to close a really stubborn 
skills gap and provide, and, frankly, for the benefit of the 
country as well as the workers, that we use the people that we 
have in ways that are fulfilling to them and allow them to 
prosper. Your record is pretty good, and it is something that 
you and your colleagues at the Department can be exceptionally 
proud of.
    So thank you for the manner in which you lead, the manner 
in which you conduct yourself, and I look forward to working 
with you for the balance of the Administration. Thank you very 
much, Madam Chair. I yield back.

                    JOB CORPS SAFETY AND BUDGET CUTS

    Ms. DeLauro. Thank you very much. Let me just make a couple 
of comments and then closing remarks as well. I just want to 
set the record straight in some of these areas. We spoke about 
Job Corps and about safety. I think it is important to note 
that while the safety of students should always be the most 
important concern for these centers, a $700,000,000 cut to the 
program does not ensure their safety.

                               ILAB CUTS

    I quite honestly, Mr. Secretary, do not know what you were 
speaking about when you had the conversation with Ambassador 
Lighthizer with regard to ILAB and enabling legislation. I 
think that the severe cuts to ILAB really does put us in a 
place where we are not really taking the opportunity to oversee 
trade agreements. I might add that forced labor, child labor, 
the ILAB labor attaches and other expert ILAB staff, they 
completed an important 4-year project that tackled the fire and 
building safety for Bangladesh's garment workers. So I don't 
know what enabling legislation you are making reference to, and 
at the moment we are not even sure where the renegotiated 
treaty is going.

                         OVERTIME RULE CHANGES

    With regard to the overtime rule, I just might note for the 
record that under the Obama Administration's overtime rule, 
workers with new protections would be 4,550,000 workers. Under 
the Trump Administration's overtime rule, workers with new 
protections would be 1,400,000 workers.
    I, too, like my colleague, Tom Cole, and what I said at the 
outset, it was not my intention to make any reference to what I 
established at the outset of the kind of a cloud that exists 
with regard to the Epstein case. But I would also say to you 
that I think it is important that the district judge did find 
that the Secretary violated the Crime Victims' Rights Act by 
secretly arranging a plea deal. The issue here is for the sake 
of the victims, justice needs to be served, and I am sure there 
are lots of legalities around this. But I would just make that 
point because I think we have to understand all of the pieces 
of the case as well.

                      DOL MISSION AND BUDGET CUTS

    As I said in my opening remarks, the mission of the 
Department, and I will quote it again, is ``to foster, promote, 
develop the welfare of wage earners, job seekers, the retirees 
of the United States, improve working conditions, advance 
opportunities for profitable employment, assure work-related 
benefits and rights.'' And I think you can see from most of the 
questions here today from the subcommittee, there is really 
deep concern about the proposed cuts and eliminations. And, 
quite honestly, your answers do not bear out the fact of what 
you say right up front on the first page of your testimony that 
we can do more with less.
    On OSHA, I have to note that your own Department's data 
contradict your claims. You talked about work development and 
employment and training. That has been cut $1,200,000,000. 
Again, with OSHA, the Agency has the lowest number of 
inspectors in years. Your decision to not hire any inspectors 
from January 2017 to October 2017 did not help. And meanwhile, 
the number of work fatalities investigated by OSHA is at a 10-
year high.
    Finally, there have been comments made today that the 
Administration is simply living within the caps. That is simply 
false. The President actually proposed massive increases for 
defense spending through a budget gimmick. If the 
Administration was actually adhering to the caps, the defense 
budget would be cut by $71,000,000,000. What he is doing is 
promoting outside of the cap through OSHA, a self-described 
budget gimmick. The request is $105,000,000,000 more than was 
enacted in Fiscal Year 2019. So it is not true that the 
Administration is living within the caps.

                 Closing Remarks by Chairwoman DeLauro

    Your mission is the heart and soul of what this country is 
about is in terms of fostering work and giving people the 
opportunity for job training, for the opportunity to have a 
life with economic security. And we know that 70 percent of the 
people in this country do not have a 4-year college degree, 
and, quite frankly, they may not need one. But we do have the 
obligation to look at employment and training, and look at the 
best way to provide them with the potential for their success. 
And that is through a very substantially good-run program of 
registered apprenticeships. It is working.
    The Europeans have standards, strict standards. To open the 
door to what has happened to the for-profit colleges and what 
has happened with the loan servicers, and putting students at 
risk, that is not the road that we need to go down. That is not 
what this Agency is about. You are the Secretary of Labor, and 
I would think that what you would want on your watch is a way 
to build a workforce for the 21st century and not cut the 
corners and cut the programs, the heart out of the programs, 
that would help to make that difference.
    I am going to call this hearing to a close.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Acosta, Hon. Alexander...........................................   333
Azar, Hon. Alex..................................................     1
Bianchi, D. W....................................................   233
Collins, F. S....................................................   233
Devos, Hon. Betsy................................................   101
Fauci, A. S......................................................   233
Gibbons, G. H....................................................   233
Lowy, Doug.......................................................   233
Volkow, Nora.....................................................   233

                                  <all>
</pre></body></html>
